No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

WILLOWOOD, LLC, WILLOWOOD USA, LLC,
WILLOWOOD AZOXYSTROBIN, LLC,
WILLOWOOD LIMITED,
Petitioners,

v.

SYNGENTA CROP PROTECTION, LLC,
Respondent.

-------------------------- ♦ --------------------------

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
AND APPENDIX VOLUME I OF II
-------------------------- ♦ --------------------------

Steven E. Tiller
Counsel of Record
WHITEFORD TAYLOR PRESTON LLP
Seven Saint Paul Street, Suite 1300
Baltimore, Maryland 21202
(410) 347-9425
stiller@wtplaw.com
Barry S. Neuman
WHITEFORD TAYLOR PRESTON LLP
1800 M Street, NW, Suite 450N
Washington, DC 20036
(202) 659-6761
bneuman@wtplaw.com
Barry E. Bretschneider
WHITEFORD TAYLOR PRESTON LLP
3190 Fairview Park Drive, Suite 800
Falls Church, Virginia 22042
(703) 280-9086
bretschneider@wtplaw.com
Counsel for Petitioners
THE LEX

Dated: March 17, 2020

i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

GROUPDC

i
QUESTIONS PRESENTED
This Petition presents two questions for
review:
1.
Whether
liability
for
patent
infringement under 35 U.S.C. §271(g) requires that
all steps of a patented process must be practiced by,
or at least attributable to, a single entity, a
requirement that this Court previously recognized is
a prerequisite for infringement under 35 U.S.C.
§§271(a) and (b) in Limelight Networks, Inc. v.
Akamai Technologies, Inc., 572 U.S. 915 (2014).
2.
Whether, by requiring EPA to grant
expedited review and approval of labels for generic
pesticides that are “identical or substantially similar”
to the previously approved labels for the same
product, Congress intended to preclude claims of
copyright infringement with respect to generic
pesticide labels.

ii
PARTIES TO THE PROCEEDING
Petitioners, who were defendants in the
district court and respondents/cross-appellants in the
court of appeals, are Willowood USA, LLC (“WWUSA”), Willowood, LLC (“WW-LLC”), Willowood
Azoxystrobin, LLC (“WW-Azoxy”), and Willowood
Limited (“WW-China”)(collectively, “Willowood”).
Respondent, Syngenta Crop Protection, LLC
(“Syngenta”), was the plaintiff and appellant/crossappellee below.
CORPORATE DISCLOSURE STATEMENT
WW-USA is not a publicly-traded entity. WWUSA’s parent is Willowood USA Holdings, LLC,
which is owned by Dream Acquisition, LLC, which is
owned by Lariat Partners, LP. No publicly-held
entity owns any WW-USA stock.
Neither WW-LLC nor WW-Azoxy are publiclytraded entities. WW-LLC and WW-Azoxy are wholly
owned subsidiaries of WW-USA. No publicly-held
entity owns any WW-LLC or WW-Azoxy stock.
WW-China is not a publicly-traded entity and
has no parent entity. No publicly-held entity owns
any WW-China stock.

iii
RELATED CASES
Syngenta Crop Protection, LLC v. Willowood, LLC et
al, No. 1:15-cv-274, U.S. District Court for the Middle
District of North Carolina. Judgements on appeal
entered March 24 and April 10, 2017.
Syngenta Crop Protection, LLC v. Willowood, LLC et
al, Nos. 2018-1614 and 2018-2044, U.S. Court of
Appeals for Federal Circuit. Judgement entered
December 18, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDING ........................... ii
CORPORATE DISCLOSURE STATEMENT ............ ii
RELATED CASES .....................................................iii
TABLE OF CONTENTS............................................ iv
TABLE OF AUTHORITIES ...................................... xi
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY
AND
REGULATORY
PROVISIONS INVOLVED......................................... 1
STATEMENT OF CASE ............................................ 2
A. Factual and Procedural Background ......... 2
B. Pre-Trial Rulings ........................................ 3
1. Patent Infringement ............................. 3
2. Copyright Claims .................................. 4
C. Proceedings in the Federal Circuit ............ 6
1. Patent Infringement ............................. 7
2. Copyright Infringement ........................ 9
REASONS FOR GRANTING PETITION ................ 10
A. Patent Infringement ................................. 10
B. Copyright Infringement ........................... 11

v
ARGUMENT ............................................................. 12
I.

THIS COURT SHOULD REVERSE
THE
APPELLATE
COURT’S
HOLDING THAT THE SINGLE
ENTITY RULE DOES NOT APPLY TO
SECTION 271(g) OF THE PATENT
ACT ................................................................. 12
A. Failing to Apply the Single Entity
Rule to §271(g) Would Impermissibly
Expand the Scope of §271(g) Beyond
Congress’ Intent ........................................ 13
B. The Federal Circuit’s Holding
Impermissibly Extends the Patent
Owner’s Monopoly Beyond the
Expiration of the Patents Covering
the Product at Issue ................................. 19
C. The Federal Circuit’s Decision
Applies Different Interpretations of
the Same Statutory Provision Within
§271 ........................................................... 21
D. The Federal Circuit’s Reliance on
Other Provisions of the U.S. Patent
Act to Support its Holding is
Misplaced .................................................. 22
II. THIS COURT SHOULD REVERSE
THE FEDERAL CIRCUIT’S HOLDING
THAT FIFRA DOES NOT PRECLUDE
COPYRIGHT
CLAIMS
AS
TO
PESTICIDE LABELS .................................... 25
A. The FIFRA Statutory Scheme.................. 25

vi
B. The Federal Circuit’s Holding that
FIFRA
Does
Not
Necessarily
Preclude Copyright Protection for
Pesticide Labels Effectively Repeals
the Statute’s Explicit Authorization
of Labels that are “Identical or
Substantially Similar” to Registered
Labels ........................................................ 29
C. Allowing Copyright Infringement
Claims Against Pesticide Labels
Would be Contrary to FIFRA’s
Fundamental Goals of Promoting
Generic Competition and Would
Upend
Decades
of
EPA’s
Implementation of the Statute................. 31
D. This Court’s Review is Warranted
Because the Federal Circuit’s
Decision Cannot be Reconciled With
the Second Circuit’s Decision in
SmithKline ................................................ 35
APPENDIX, Volume I:
Opinion of
The United States Court of Appeals
For the Federal Circuit
entered December 18, 2019 ........................... 1a
Order of
The United States District Court
For the Middle District of North Carolina
Re: Granting in Part Defendants’ Motion for
Summary Judgment and Denying Plaintiff’s
Motion to Exclude Mr. Schatzow’s Report
entered April 10, 2017 ................................. 40a

vii
Memorandum Opinion and Order of
The United States District Court
For the Middle District of North Carolina
Re: Granting in Part and Denying in Part
Plaintiff’s Motion for Summary Judgment,
Denying in Part Defendants’ Motion for
Summary Judgment, and Granting in
Part and Denying in Part Plaintiff’s
Motion to Exclude Certain Expert Opinions
entered March 24, 2017 ............................... 42a
7 U.S.C. § 136 .................................................... 72a
7 U.S.C. § 136a .................................................. 92a
17 U.S.C. § 102 ................................................ 143a
17 U.S.C. § 105 ................................................ 144a
17 U.S.C. § 501 ................................................ 146a
21 U.S.C. § 355 ................................................ 149a
35 U.S.C. § 271 ................................................ 192a
35 U.S.C. § 287 ................................................ 200a
40 C.F.R. § 152.42 ........................................... 209a
40 C.F.R. § 152.50 ........................................... 209a
40 C.F.R. § 152.80............................................ 213a
40 C.F.R. § 152.81............................................ 214a
40 C.F.R. § 152.82............................................ 216a
40 C.F.R. § 152.83 ........................................... 217a
40 C.F.R. § 152.84............................................ 219a

viii
40 C.F.R. § 152.85............................................ 219a
40 C.F.R. § 152.86 ........................................... 222a
40 C.F.R. § 152.90 ........................................... 225a
40 C.F.R. § 152.91 ........................................... 226a
40 C.F.R. § 152.92 ........................................... 227a
40 C.F.R. § 152.93 ........................................... 228a
40 C.F.R. § 152.94 ........................................... 230a
40 C.F.R. § 152.95 ........................................... 231a
40 C.F.R. § 152.96 ........................................... 232a
40 C.F.R. § 152.97 ........................................... 234a
40 C.F.R. § 152.98 ........................................... 235a
40 C.F.R. § 152.99 ........................................... 237a
40 C.F.R. § 152.107 ......................................... 241a
40 C.F.R. § 152.108 ......................................... 241a
40 C.F.R. § 152.113 ......................................... 243a
40 C.F.R. § 156.3 ............................................. 246a
40 C.F.R. § 156.10 ........................................... 246a
40 C.F.R. § 156.60 ........................................... 263a
40 C.F.R. § 156.62 ........................................... 265a
40 C.F.R. § 156.64 ........................................... 267a

ix
40 C.F.R. § 156.66 ........................................... 268a
40 C.F.R. § 156.68 ........................................... 269a
40 C.F.R. § 156.70 ........................................... 270a
40 C.F.R. § 156.78 ........................................... 273a
40 C.F.R. § 156.80 ........................................... 277a
40 C.F.R. § 156.85 ........................................... 277a
40 C.F.R. § 156.140 ......................................... 279a
40 C.F.R. § 156.144 ......................................... 283a
40 C.F.R. § 156.146 ......................................... 284a
40 C.F.R. § 156.156 ......................................... 288a
40 C.F.R. § 156.159 ......................................... 290a
40 C.F.R. § 156.200 ......................................... 290a
40 C.F.R. § 156.203 ......................................... 291a
40 C.F.R. § 156.204 ......................................... 292a
40 C.F.R. § 156.206 ......................................... 293a
40 C.F.R. § 156.208 ......................................... 295a
40 C.F.R. § 156.210 ......................................... 299a
40 C.F.R. § 156.212 ......................................... 301a
S. Rep. 100-83, Process Patents Amendments
Act of 1987 (June 23, 1987) ............................. 312a

x
APPENDIX, Volume II: (Separately Bound)
H. R. Conf. Rep. 100-576 (1988)...................... 441a
Letter to Warren Stickle, President of Chemical
Producers & Distributors Association, from
Susan B. Hazen, Principal Deputy Assistant
Administrator of the U.S. Environmental
Protection Agency
dated August 3, 2005 ................................. 480a
Declaration of Lois Rossi
undated....................................................... 483a
Declaration of Debra Edwards,
With Attached Declaration of Lois Rossi,
dated June 17, 2009 ................................... 491a
Willowood Azoxy 2C Label Submitted to EPA
dated August 15, 2013 ............................... 501a

xi
TABLE OF AUTHORITIES
Page(s)
CASES
Ajinomoto Co. v. Archer-Daniels-Midland Co.,
228 F.3d 1338 (Fed. Cir. 2000)....................... 14-15
Brulotte v. Thys Co.,
379 U.S. 29 (1964) ............................................... 19
Cardiac Pacemakers, Inc. v. St. Judge Medical, Inc.,
576 F.3d 1348 (Fed. Cir. 2009)............................ 22
Corley v. United States,
556 U.S. 303 (2009) ............................................. 29
Deepsouth Packing Co. v. Laitram Corp.,
406 U.S. 518 (1972) ........................................ 16-17
Eli Lilly & Co. v. Am. Cyanamid Co.,
82 F.3d 1568 (Fed. Cir. 1996) ............................. 15
FMC Corp. v. Control Solutions, Inc.,
369 F. Supp. 2d 539 (E.D. Pa. 2005) ............... 6, 32
Kimble v. Marvel Entertainment,
135 S. Ct. 2401 (2015) ................................... 19, 20
Limelight Networks, Inc. v.
Akamai Technologies, Inc.,
572 U.S. 915 (2014) ..................................... passim
Muniacution, Inc. v. Thomson Corp.,
532 F.3d 1318 (2008) ..................................... 12, 13
Mycogen Plant Sci., Inc. v. Monsanto Co.,
252 F.3d 1306 (Fed. Cir. 2001),
vacated on other grounds,
535 U.S. 1109 (2002) ........................................... 15

xii
NTP, Inc. v. Research in Motion,
418 F.3d 1282 (Fed. Cir. 2005)............................ 15
Ratzlaf v. United States,
510 U.S. 135 (1994) ....................................... 21, 24
Ruckelshaus v. Monsanto Co.,
467 U.S. 986 (1984) ............................ 25-26, 28, 31
SmithKline Beecham Consumer
Healthcare, L.P. v. Watson Pharm., Inc.,
211 F.3d 21 (2d Cir. 2000) ........................... passim
Synaptic Pharm. Corp. v. MDS Panlabs, Inc.,
265 F. Supp. 2d 452 (D. N.J. 2002) ..................... 16
Thomas v. Union Carbide Agric. Prods. Co.,
473 U.S. 568 (1985) ............................................. 31
STATUTES
7 U.S.C. § 136(a)(c)(3)(B)(i)(I)................................... 28
7 U.S.C. § 136(p) ....................................................... 26
7 U.S.C. § 136(q)(1)(E) .............................................. 26
7 U.S.C. § 136(q)(1)(F) .............................................. 26
7 U.S.C. § 136(q)(1)(G) .............................................. 26
7 U.S.C. § 136(q)(2)(A)-(D) ....................................... 26
7 U.S.C. § 136a(a) ..................................................... 25
7 U.S.C. § 136a(c)(1) ................................................. 25
7 U.S.C. § 136a(c)(1)(C) ............................................ 26
7 U.S.C. § 136a(c)(1)(F)(i) ......................................... 25
7 U.S.C. § 136a(c)(2) ................................................. 25

xiii
7 U.S.C. § 136a(c)(3)(B) ............................................ 27
7 U.S.C. § 136a(c)(3)(B)(i)(I) ............................. passim
7 U.S.C. § 136a(c)(3)(B)(ii)(II) .................................. 28
7 U.S.C. § 136a(c)(5) ..................................... 25, 27, 28
7 U.S.C. § 136a(c)(7) ................................................. 28
7 U.S.C. § 136a(c)(F)(iii) ........................................... 25
7 U.S.C. § 136a(t) ...................................................... 25
7 U.S.C. § 136a(u) ..................................................... 25
7 U.S.C. § 136j(a)(2)(G)............................................. 26
7 U.S.C. § 136w-8(b)(3)(tbl.1) ................................... 27
17 U.S.C. § 102............................................................ 1
17 U.S.C. § 105............................................................ 1
17 U.S.C. § 501............................................................ 2
17 U.S.C. § 501(a) ....................................................... 1
28 U.S.C. § 1254(1) ..................................................... 1
28 U.S.C. § 1331.......................................................... 2
28 U.S.C. § 1338.......................................................... 2
35 U.S.C. § 271...................................................... 2, 21
35 U.S.C. § 271(a) ............................................. passim
35 U.S.C. § 271(b) ............................................. passim
35 U.S.C. § 271(f) ................................................ 22, 23
35 U.S.C. § 271(g) ............................................. passim
35 U.S.C. § 287(b) ............................................... 23, 24

xiv
35 U.S.C. § 287(b)(1)(A) ............................................ 24
35 U.S.C. § 287(b)(1)(C) ............................................ 23
REGULATIONS
40 C.F.R. Part 152 ................................................ 1, 25
40 C.F.R. § 152.42 ..................................................... 25
40 C.F.R. § 152.50 ..................................................... 25
40 C.F.R. § 152.50(e)................................................. 26
40 C.F.R. § 152.80-99................................................ 25
40 C.F.R. § 152.107 ................................................... 27
40 C.F.R. § 152.108 ................................................... 27
40 C.F.R. § 152.109 ................................................... 27
40 C.F.R. § 152.110 ................................................... 27
40 C.F.R. § 152.111 ................................................... 27
40 C.F.R. § 152.112 ............................................. 27, 29
40 C.F.R. § 152.113 ................................................... 29
40 C.F.R. Part 156 ................................................ 1, 26
40 C.F.R. § 156.10 ..................................................... 27
40 C.F.R. § 156.10(i)(1)(i) ......................................... 26
OTHER AUTHORITIES
H.R. Conf. Rep. No. 576, 100th Cong.,
2d Sess. 1085–86 (1988),
reprinted in 1988 U.S.C.C.A.N. 2118-19.................. 16
H.R. Rep. No. 100-939 (1988) ................................... 28

xv
Office of Pesticide Programs, U.S. Envt. Prot.
Agency, Label Review Manual (rev. 2016)
(https://www.epa.gov/pesticideregistration/pesticide-registration-manual ....... 27, 29
S. Rep. No. 100-83 (1987) ......................................... 16
S. Rep. No. 100-346 (1988) ....................................... 28

1
PETITION FOR A WRIT OF CERTIORARI
________________________
Petitioners respectfully petition for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Federal Circuit.
OPINIONS BELOW
The opinion of the Federal Circuit (App. 1a) is
reported at 994 F.3d 1344 (Fed. Cir. 2019). The
district court decisions at issue are unreported. (App.
40a; 42a).
JURISDICTION
The judgment of the Federal Circuit was
entered on December 18, 2019. (App. 1a). This
Court’s jurisdiction is invoked under 28 U.S.C.
§1254(1).
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
The relevant
provisions are:

statutory

and

regulatory

Section 271(g) of the Patent Act, 35 U.S.C.
§271(g);
Section 136a(c)(3)(B)(i)(I) of the Federal
Insecticide, Fungicide and Rodenticide
Act, 7 U.S.C. §136a(c)(3)(B)(i)(I);
Sections 102, 105 and 501(a) of the
Copyright Act, 17 U.S.C. §§102, 105 and
501(a); and
40 C.F.R. Parts 152 and 156.

2
STATEMENT OF CASE
This case presents questions of fundamental
importance to the proper interpretation of the United
States Patent Act and, more specifically, of this
Court’s construction of that statute in Limelight
Networks. It also presents questions of fundamental
importance to the proper interpretation and
implementation of the Federal Insecticide, Fungicide
and Rodenticide Act (“FIFRA”) which governs the
registration, sale, and use of pesticide products in the
United States.
A. Factual and Procedural Background
On March 27, 2015, Syngenta sued Willowood1
in the United States District Court for the Middle
District of North Carolina, for infringement of four
patents concerning the fungicide compound known as
azoxystrobin. Two of the asserted patents claimed the
azoxystrobin compound and expired in 2014, while
the other two were directed to processes for
manufacturing azoxystrobin. Syngenta also asserted
copyright infringement claims against Willowood
pertaining to the labels accompanying the defendants’
generic azoxystrobin products. The district court’s
jurisdiction was predicated on 28 U.S.C. §§1331 and
1338, 17 U.S.C. §271 and 35 U.S.C. §501. Of the
myriad of issues addressed by the courts below, this
Petition seeks review of the Federal Circuit’s holdings
concerning (1) alleged infringement of one of the
process patents, U.S. Patent No. 5,847,138 (“the ‘138
On February 15, 2019, WW-USA, WW-LLC, and WW-Azoxy
filed for protection under the United States Bankruptcy Act in
the United States Bankruptcy Court for the District of Colorado,
Case No. 19-11079-KHT. On March 3, 2020, that court approved
a plan of reorganization.

1

3
patent”) and (2)
infringement.

Petitioners’ alleged copyright

Syngenta uses azoxystrobin as an active
ingredient in formulating a number of end-use
fungicide products under various brand names,
including QUADRIS® and QUILT EXCEL®. As
required by FIFRA, both products are sold with
detailed labels that provide directions for use, storage
and disposal, as well as first-aid instructions and
environmental physical and chemical hazard
warnings. The QUADRIS label is comprised of more
than fifty, pages of small-type texts and charts, while
the QUILT EXCEL label includes twenty-nine pages.
(App. 5a-6a, 501a).
WW-China is a Hong Kong company that
contracts for the manufacture of azoxystrobin in
China and sells the fungicide to WW-USA, a separate
company based in Oregon. WW-USA and its wholly
owned subsidiary WW-LLC contracted with third
parties in the United States to formulate the
azoxystrobin compound into generic end-use
fungicide products, which they then marketed and
sold in this country pursuant to registrations
approved by the Environmental Protection Agency
(“EPA”), under the names Azoxy 2SC and AzoxysProp
Xtra, which correspond in composition and labeling to
Syngenta’s QUADRIS® and QUILT XCEL®,
respectively. (App. 5a-6a).
B. Pre-Trial Rulings
1. Patent Infringement
Syngenta moved for summary judgment that
Willowood infringed all four patents, including the
‘138 patent. The district court denied that motion

4
with respect to the ‘138 patent. (App. 51a-53a). The
court found it to be undisputed that WW-Ltd
purchased azoxystrobin from its Chinese supplier,
Yangcheng Tai He Chemicals Corp (“Tai He”), and
sold it to WW-USA, which then imported the
azoxystrobin into the United States. (App. 51a-53a).
The court found that it was also undisputed that the
azoxystrobin was manufactured in China by
performing both steps of the process claimed in the
‘138 patent. (App. 51a-53a). However, relying on this
Court’s opinion in Limelight Networks, the district
court held that 35 U.S.C. §271(g) requires that all
steps of the claimed process be performed by, or at
least be attributable to, a single entity. (App. 51a53a). The district court found genuine issues of
material facts as to whether Tai He performed both
steps of the process claimed by the ‘138 patent or
whether Willowood directed Tai He and others to
practice the claimed process. (App. 51a-53a). At trial,
both sides presented evidence on this issue. The jury
returned a verdict in favor of Willowood, finding that
Syngenta did not prove that both steps of the claimed
process were performed by, or were attributable to,
Willowood or any other single entity. (App.15a).
2. Copyright Claims
Willowood filed a motion for summary
judgment with respect to the copyright claims on the
grounds that FIFRA precludes copyright protection
for Syngenta’s pesticide labels. (App. 9a). Willowood
asserted that by directing EPA to “expeditiously”
review and approve generic pesticide labels that are
“identical or substantially similar” to brand-name
labels (7 U.S.C. §136a(c)(3)(B)(i)(I) (App. 110a)),
Congress intended to preclude copyright protection

5
for pesticide labels. (App. 9a). Willowood also argued
that because much of the labels’ text comprises
instructions and warnings mandated by FIFRA and
EPA regulations, and only limited means of
expressing such information exist, extending
copyright protection to Syngenta’s labels would
substantially constrain a generic company’s ability to
devise original label language and thus conflict with
FIFRA’s goals of encouraging and facilitating generic
competition. (App. 10a).
Willowood also relied on SmithKline Beecham
Consumer Healthcare, L.P. v. Watson Pharm., Inc.,
211 F.3d 21, 23 (2d Cir. 2000), in which the Second
Circuit held that very similar provisions in the HatchWaxman Act governing generic drug labeling
preclude assertion of copyright claims by drug
manufacturers. (App. 10a). Alternatively, Willowood
argued that its use of Syngenta’s label language was
protected by the copyright doctrines of merger and
fair use because any language not specifically
authored or required by the EPA is so “basic” and
“commonplace in the industry” that it could not be
protected by copyrights. (App. 10a).
The United States filed a Statement of Interest
supporting Willowood’s positions with regard to the
copyright claims. The government emphasized that,
in light of the plain language of 7 U.S.C.
§136a(c)(3)(B)(i)(I), EPA has long encouraged generic
labels to be identical to approved labels and has
consistently interpreted FIFRA as precluding the
application of copyright law to pesticide labels. (App.
11a). As the government has noted in this and other
cases, EPA has registered thousands of generic
products and most of their labels largely use language

6
that is identical or substantially similar to labels used
by the original registrants. Therefore, as a practical
matter, requiring every label of similar products to
differ from previously approved labels could
significantly limit the number of generic products
that could be approved, since it would be difficult,
especially for commonly used pesticides, for every
individual label to avoid copyright infringement.
(App. 488a).
In opposition, Syngenta argued that neither
FIFRA nor EPA’s regulations required Willowood to
copy Syngenta’s labels. Syngenta relied on FMC
Corp. v. Control Solutions, Inc., 369 F. Supp. 2d 539,
553-60 (E.D. Pa. 2005), which held that FIFRA does
not preclude copyright protection for pesticide labels.
(App. 10a).
The district court granted summary judgment
in favor of Willowood and dismissed the copyright
claims. (App. 40a). The court found the analysis in
FMC to be “unconvincing,” determining that “[e]ven
with some changes, use of the original pesticide label
as a ‘go by’ for the new label will result in copyright
infringement.” (App.41a). The court concluded that
because FIFRA contemplates copying by a generic
applicant “in ways that would otherwise infringe a
copyright….Congress intended a narrow exception to
copyright protection for the required elements” of
fungicide labels. (App. 40a-41a).
C. Proceedings in the Federal Circuit
Syngenta appealed (among other issues) the
district court’s judgments entered in favor of
Willowood with respect to the ‘138 patent and
copyright claims. The Federal Circuit reversed the

7
trial court’s ruling that §271(g) of the Patent Act
requires all steps of patented processes be practiced
by, or attributable to, a single entity. The Federal
Circuit also reversed the district court’s holding that
FIFRA precludes copyright protection for pesticide
labels.
1. Patent Infringement
The Federal Circuit recognized that §271(g)
provides that “[w]hoever without authority imports
into the United States or offers to sell, sells, or uses
within the United States a product which is made by
a process patented in the United States shall be liable
as an infringer.” 35 U.S.C §271(g). (App. 26a).
According to the Federal Circuit, it was “an issue of
first impression” whether the single entity rule
applies to §271(g) as it does to §§271(a) and (b). (App.
26a).
The Federal Circuit noted that, as with any
statutory construction case, it must “begin with the
language of the statute.” (App. 26a). Because the
language of §271(g) makes clear that the acts that
give rise to liability are the importation, offer for sale,
sale, or use within the United States of a product that
was made by a process patented in the United States,
the Federal Circuit held that “nothing in the statutory
language suggests that liability arises from practicing
the patented process….” (App. 27a)(emphasis in
original). Rather, the court held, the focus is “only on
acts with respect to products resulting from the
patented process.” (App. 27a)(emphasis in original).
According to the appellate court, because the
statutory language is clear that practicing a patented
process abroad cannot create liability under §271(g),
“whether that process is practiced by a single entity

8
is immaterial to the infringement analysis under that
section.” (App. 27a).
The Federal Circuit rejected Willowood’s
argument that this Court’s decision in Limelight
Networks required application of the single entity
rule. (App. 28a). While the Federal Circuit agreed
with Willowood that §271(g) involved a form of direct
liability similar to §271(a), it concluded that liability
does not arise from practicing the patented process,
but rather from importing or selling the product
resulting from that patented process. (App. 29a).
Limelight Networks, the Federal Circuit held, was
inapposite because the statute at issue – §271(b) –
predicates induced infringement liability on the
existence of direct infringement. (App. 29a). Because
direct infringement under §271(a) requires a single
entity to perform all of the claimed steps, this Court
explained where “performance of all the patent’s steps
is not attributable to any one person….there has been
no direct infringement,” and consequently “no
inducement of infringement under §271(b).” (App.
29a). By contrast, the Federal Circuit held that
because liability under §271(g) is not predicated on
direct infringement of the patented process, it would
“not read into the patent laws limitations and
conditions which the legislature has not expressed.”
(App. 29a). The Federal Circuit therefore reversed the
district court’s judgment that Willowood USA did not
infringe the ‘138 patent under §271(g). (App. 35a).2

The Federal Circuit affirmed the jury’s finding that WWChina did not import into the United States, or sell or offer for
sale in the United States, the azoxystrobin at issue and therefore
affirmed the trial court’s judgment that WW-China did not
infringe the ‘138 patent. (App. 35a).

2

9
2. Copyright Infringement
On appeal,3 the Federal Circuit held that
FIFRA does not necessarily preclude copyright
protection for portions of Syngenta’s azoxystrobin
product labels, and therefore, the district court’s
holding that FIFRA precluded claims of copyright
infringement was “premature.” (App. 19a). The court
relied heavily on the fact that FIFRA allows EPA to
grant expedited approval for generic pesticide labels
not only where the generic label is “identical or
substantially similar” to the approved label, but
alternatively, where the generic’s label differs “only in
ways that would not significantly increase the risk of
unreasonable adverse effects on the environment.” 7
U.S.C. § 136a(c)(3)(B)(i)(I). According to the court, the
alternative pathway for obtaining expedited approval
for a generic label signifies that FIFRA does not
require generic labels to be identical or substantially
similar. (App. 21a).
On this basis, the court sought to distinguish
the Second Circuit’s decision in SmithKline.
According to the Federal Circuit, the Copyright Act
protects only against actual copying of protected
elements of a protected work, whereas FIFRA’s
similarity requirement does not foreclose expedited
review of an independently composed generic label
that happens to address the same facts, concepts, and
methods derived from the previously approved label.
(App. 21a-22a). The court instructed that on remand,
the district court should “first discern whether the
Copyright Act, as interpreted under existing
copyright doctrines [such as the doctrines of merger
On appeal, the United States again weighed in on behalf of
Willowood, this time as amicus curiae. See App. 2a.

3

10
and fair use], would prohibit Willowood’s use of any
portion of Syngenta’s label.” “Only if the District
Court concludes that the Copyright Act would in fact
prohibit Willowood’s conduct in a manner
inconsistent with the purposes of FIFRA should it
revisit the question of whether and to what extent
FIFRA precludes Syngenta’s copyright claims for any
part of its pesticide labels.” (App. 24a-25a).
REASONS FOR GRANTING PETITION
A. Patent Infringement
This Court recently took it as a given that a
process patent may not be infringed under §271(a)
unless each element of the patented process is
practiced by, or attributable to, a single entity.
Limelight Networks, 572 U.S. at 921-22. This Court
then broadened that well-established principle by
holding that the single entity rule applied to claims
based on a party’s alleged inducement to infringe a
process patent under §271(b). Id. The Federal Circuit,
however, rejected these fundamental propositions by
finding Willowood liable for importing into, and
selling, azoxystrobin products in the United States
despite the fact that these products had been
manufactured by multiple parties each practicing less
than all steps of the ‘138 patent.
The Federal Circuit’s ruling turns patent law
on its head by imposing liability on a distributor of a
product that is made by a non-infringing method.
This broadening of protections for owners of process
patents flies in the face of Congress’ intent to simply
close a loophole in the Patent Act where infringers
could simply perform some or all of the steps of a
patented process outside of the United States to avoid

11
infringement liability notwithstanding that the
products manufactured by that patented process were
later sold in the United States. While §271(g) closed
this loophole, Congress did not intend to broaden the
scope of process patents to cover the practice of less
than all of the claimed steps of the patent. This,
however, is exactly what the result will be if the
Federal Circuit’s decision is permitted to stand.
B. Copyright Infringement
The Federal Circuit’s holding that FIFRA does
not preclude copyright protection for pesticide labels
effectively deletes FIFRA’s express requirement that
EPA “expeditiously” approve generic pesticide labels
that are identical or substantially similar to
previously approved labels. Given the length and
complexity of pesticide labels, Congress could not
possibly have permitted generic applicants to submit
“identical or substantially similar” labels – and
required EPA to approve such labels – without
understanding that the only practical way to devise
an identical or substantially similar label would be to
copy the prior label. The Federal Circuit’s decision
thus violates one of the most basic tenets of statutory
construction enunciated by this Court – that every
provision of a statute should be construed in a way
that gives it meaning.
As the government has repeatedly made clear
(in this case and elsewhere), applying copyright
protection to pesticide labels would thwart FIFRA’s
goals of encouraging and facilitating generic
competition in the pesticide market and would
upend EPA’s longstanding interpretation and
implementation of the statute, under which the
agency has approved thousands of pesticide labels

12
that are identical or substantially similar to
previously approved labels. The Federal Circuit
decision also cannot be reconciled with the Second
Circuit’s decision in SmithKline, which construed an
analogous statute governing drug labels to preclude
copyright infringement claims against generic drug
applicants. This Court should review the decision
below in order to correct an elemental error of
statutory construction committed by the Federal
Circuit, thus giving full effect to FIFRA’s language; to
remove the uncertainty hanging over generic
pesticide companies and EPA concerning a matter of
fundamental importance; and address the conflict
between the Federal and Second Circuits.
ARGUMENT
I.

THIS COURT SHOULD REVERSE THE
APPELLATE COURT’S HOLDING THAT
THE SINGLE ENTITY RULE DOES NOT
APPLY TO SECTION 271(g) OF THE
PATENT ACT

This Court recently took it as a given that a
process patent may not be infringed unless each
element of the patented process is practiced by, or
attributable to, a single entity.
See Limelight
Networks, 572 U.S. at 921-22. That is, if multiple
steps are necessary to infringe a patented process,
practicing less than all of those required steps does
not constitute infringement. See, e.g., Muniacution,
Inc. v. Thomson Corp., 532 F.3d 1318 (2008). Yet, the
Federal Circuit’s decision imposes liability for these
very acts by finding Willowood liable for importing
into, and selling, azoxystrobin products in the United
States despite the fact that patents claiming the
azoxystrobin compound had expired and the specific

13
compound at issue had been manufactured by
multiple parties practicing less than all of the
patented steps. Such an inconsistent ruling should
not be permitted to stand.
A. Failing to Apply the Single Entity
Rule to §271(g) Would Impermissibly
Expand the Scope of §271(g) Beyond
Congress’ Intent.
Direct infringement of a process patent
requires a single party to practice every step of a
claimed method. Muniauction, 532 F.3d at 1328. For
if a single party practices less than all the steps of the
patented process that party would simply be
performing individual non-patented steps, and
therefore, could not be liable for infringement.
Parties cannot, however, avoid liability for
patent infringement simply by having third parties
carry out one or more of the claimed steps on its
behalf. Accordingly, where the actions of multiple
parties combine to perform every step of a patented
process, the patent is infringed if one party exercises
“control or direction” over the entire process such that
every step is attributable to that single entity. Id. at
1329. Consequently, in order to infringe on a multistep process claim under §271(a), a single party must
perform each step, or must control or direct other
parties involved in practicing each step, of the
patented process. Id. at 1330. This proposition has
become known as the “single entity” rule.
In Limelight Networks, this Court expanded
this principle by holding that liability for inducement
to infringe under §271(b) must similarly be predicated
on the actions of a single entity. 572 U.S. at 921-22.

14
To hold otherwise, this Court found, would deprive
§271(b) of ascertainable standards and require courts
to develop two parallel bodies of infringement law:
The Federal Circuit’s [decision to not
apply the single entity rule deprives]
§ 271(b) of ascertainable standards. If a
defendant can be held liable under
§271(b) for inducing conduct that does
not constitute infringement, then how
can a court assess when a patent
holder’s rights have been invaded? What
if a defendant pays another to perform
just one step of a 12-step process, and no
one performs the other steps, but that
one step can be viewed as the most
important step in the process? In that
case the defendant has not encouraged
infringement, but no principled reason
prevents him from being held liable for
inducement under the Federal Circuit’s
reasoning, which permits inducement
liability when fewer than all of a
method’s steps have been performed
within the meaning of the patent.
Id. at 922.
Notwithstanding this Court’s application of the
single entity rule to allegations of both direct and
indirect infringement under §§271(a) and (b), the
Federal Circuit held below that §271(g) does not
require application of the single entity rule. As this
Court is aware, however, §271(g) is simply another
form of direct infringement enacted to close a loophole
in the statutory scheme for the protection of process
patent owners. Ajinomoto Co. v. Archer-Daniels-

15
Midland Co., 228 F.3d 1338, 1347 (Fed. Cir. 2000); Eli
Lilly & Co. v. Am. Cyanamid Co., 82 F.3d 1568, 157172 (Fed. Cir. 1996).
Prior to enactment of §271(g), the owner of a
process patent had a remedy only if the unauthorized
use of its patented process occurred entirely within
the United States. See, e.g., NTP, Inc. v. Research in
Motion, 418 F.3d 1282, 1317-18 (Fed. Cir. 2005). That
same patent owner had no remedy, however, if those
same individuals practiced some or all of the patented
process abroad to manufacture products later
imported into the United States for sale or use. Id.
To close this loophole, §271(g) was enacted to “grant
patent owners the same protection against oversees
infringers as they already enjoyed against domestic
entities” under §271(a). Mycogen Plant Sci., Inc. v.
Monsanto Co., 252 F.3d 1306, 1318 (Fed. Cir. 2001),
vacated on other grounds, 535 U.S. 1109 (2002). The
legislative history of §271(g) confirms this analysis:
…[T]he process patent bill [ultimately
codified, in part, as 35 U.S.C. §271(g)]
was crafted to apply equally to the use or
sale of a product made by a process
patented in this country whether the
product (and the process) was used in
this country or a foreign country. The
bill is prompted by the use of patented
processes in other countries followed by
the importation of the resulting products
into this country. The use of the process
in this country is already an act of
infringement under existing patent law,
and such an infringing party would be
subject to the jurisdiction of the U.S.

16
courts. Thus, the inclusion of a domestic
process patent infringement in the scope
of a bill to extend protection to the
products is regarded by the [Judiciary
Committee] as a formality…, with little
or no practical consequences in patent
enforcement….
[35 U.S.C. §217(g)] will prevent
circumvention of a U.S. process
patentee’s rights through manufacture
abroad and subsequent importation into
the United States of products made by
the patented process.
S. REP. NO. 100-83, at 46–48 (1987)(emphasis added).
As the legislative history makes clear,
although its emphasis is on the importation of
products, the primary purpose of §271(g) is to
preserve the force of the patented processes that
create those products. Synaptic Pharm. Corp. v. MDS
Panlabs, Inc., 265 F. Supp. 2d 452, 460 (D. N.J.
2002).4 Nothing in the legislative history, however,
suggests that Congress intended to provide patent
owners with broader protections for the unauthorized
use of their patented processes outside the United
States than within the United States. Deepsouth
Packing Co. v. Laitram Corp., 406 U.S. 518, 531
The Conference Report which accompanied H.R. 3, the bill
that included the process patent provision when it was enacted,
characterizes both the House and Senate versions of the bill as
providing “that using, selling or importing a product made in
violation of a U.S. process patent is an act of patent
infringement.” H.R. Conf. Rep. No. 576, 100th Cong., 2d Sess.
1085–86 (1988), reprinted in 1988 U.S.C.C.A.N. 2118–19
(emphasis added).

4

17
“We…require a clear and certain signal from
Congress before approving the position of a litigant
who…argues that the beachhead of [patent
protection] is wider, and the area of public use is
narrower, than courts had previously thought. “).
As Congress has not evidenced any intent to
broaden the effect of the Patent Act, this Court should
not permit expansion of the protections afforded by
§271(g) to activities that are clearly not infringing
under any other set of circumstances. But that is
precisely what the Federal Circuit’s interpretation of
the statute does. Under §271(a), if multiple parties
combine to perform every step of a patented process
but those actions are not attributable to a single
entity, their actions would not give rise to
infringement liability. The same can be said for
indirect infringement under §271(b). Under the
Federal Circuit’s interpretation of §271(g), however, if
those same parties engaged in those same actions,
liability will nonetheless be imposed on the
distributor offering that product for sale in the United
States notwithstanding the fact that the patented
process had not been infringed. This result would be
in clear contravention of §271(g)’s purpose to grant
process patent holders a remedy (not a broader
remedy) against oversees infringement of their
patented processes where the resulting product is
imported into the United States.
The Federal Circuit supported its expansion of
the scope of §271(g) by focusing primarily on its
language:
[The language of §271(g)] makes clear
that the acts that give rise to liability
under §271(g) are the importation, offer

18
for sale, sale, or use within this country
of a product that was made by a process
patented in the United States. Nothing
in this statutory language suggests that
liability arises from practicing the
patent process abroad. Rather, the focus
is only on acts with respect to products
resulting from the patented process.
Thus, because the statutory language as
a whole is clear that practicing a
patented process abroad cannot create
liability under §271(g), whether that
process is practiced by a single entity is
immaterial to the infringement analysis
under that section.
(App. 26a-27a) (emphasis in original) (internal
citations omitted).
While the Federal Circuit
correctly noted that §271(g) targets the importers and
distributors of products made by a patented process,
it failed to recognize that it was expanding the scope
of process patents by imposing liability on parties
where the patented process was not infringed. The
dramatic effect of this decision can be seen here where
the process claimed by the patent at issue is
comprised of two steps, both of which were well
known in the industry prior to issuance of the patent,
yet, their practice by two separate entities acting
independently of each other, is held to be infringing.
The ‘138 patent claims a process for the
manufacture of azoxystrobin comprised of two steps –
an etherification step followed by a condensation step.
Both of these steps were well known in the industry
and had been practiced for many years prior to
issuance of the ‘138 patent. The jury found that two

19
separate entities performed each of these steps and
that their performance could not be attributed to
either Willowood or any other party. (App. 15a).
Accordingly, Willowood was held to not infringe
because the product that it imported into, and sold in,
the United States was not made by a patented
process, but rather, was manufactured by two
separate entities each performing non-patented steps.
The Federal Circuit’s decision to impose liability on
Willowood as a result of these actions turns patent
law on its head by imposing liability on the distributor
of a product that is made in a non-infringing manner.
B. The
Federal
Circuit’s
Holding
Impermissibly Extends the Patent
Owner’s
Monopoly
Beyond
the
Expiration of the Patents Covering the
Product at Issue.
In addition to the impermissible extension of
§271(g)’s affect noted above, the Federal Circuit’s
decision violates Kimble v. Marvel Entertainment, 135
S. Ct. 2401 (2015), by impermissibly extending
Syngenta’s patent protection beyond the expiration
date of the compound patents claiming azoxystrobin.
In Kimble, this Court affirmed the over fifty-year old
proposition first identified in Brulotte v. Thys Co., 379
U.S. 29 (1964), that a patent license agreement
requiring the payment of royalties for some period
beyond the life of the licensed patent was
unenforceable as a misuse of patent rights. In so
holding, the Court noted that the United States
patent system reflects a balance between fostering
innovation and ensuring public access to discoveries.
Consequently, once the statutory term of a patent
monopoly ends, “the right to make or use the article,

20
free from restriction, passes to the public.” Kimble,
135 S. Ct. at 2407. This Court elaborated on this
point:
In case after case, the Court has
construed … laws [which] preclude
measures that restrict free access to
formerly patented … inventions. In one
line of cases, we have struck down state
statutes with that consequence. By
virtue of federal law, we reasoned, “an
article on which the patent has expired,”
like an unpatentable article, “is in the
public domain and may be made and
sold by whoever chooses to do so.” In
a related line of decisions, we have
deemed unenforceable private contract
provisions limiting free use of such
inventions. ... Allowing even a single
company to restrict its use of an expired
or invalid patent, we explained, “would
deprive ... the consuming public of the
advantage to be derived” from free
exploitation of the discovery. And to
permit such a result, whether or not
authorized “by express contract,” would
impermissibly undermine the patent
laws.
Id.
Here, the products at issue had been protected
by two separate patents claiming the azoxystrobin
compound. Those patents expired, thus passing to the
public, free from restriction, the right to import,
make, use, sell, and offer for sale azoxystrobin in the
United States. By imposing liability on Willowood for

21
importing and selling azoxystrobin in the United
States notwithstanding that its manufacture did not
result from infringement of any patent, the Federal
Circuit has impermissibly extended Syngenta’s
patent monopoly beyond the term of the compound
patents.
C. The Federal Circuit’s Decision Applies
Different Interpretations of the Same
Statutory Provision Within §271.
The Federal Circuit’s decision also leads to the
impermissible application of different interpretations
of the same term within §271. See Ratzlaf v. United
States, 510 U.S. 135, 143 (1994)(“A term appearing in
several places in a statutory text is generally read the
same way each time it appears.”). In this regard,
§271(a) refers to direct infringement as making,
using, or selling “any patented invention” within the
United States. As this Court has made clear, multiple
parties who independently practice separate steps of
a multi-step process are not making, using, or selling
the “patented invention.” Thus, if the term “patented”
in §§271(a) and 271(g) is to be construed consistently,
a process which would not be a direct infringement
under §271(a) is not a “patented” process under
§271(g). To hold otherwise would lead to the term
“patented” having different meanings in §§271(a) and
271(g).

22
D. The Federal Circuit’s Reliance on
Other Provisions of the U.S. Patent Act
to Support its Holding is Misplaced.
The Federal Circuit also improperly relied on
Section 271(f)
§271(f) to support its holding.5
provides that the supply of components made in the
United States for assembly outside the country
constitutes infringement if “such combination
occurred within the United States.” The Federal
Circuit pointed to this provision as evidence that if
Congress intended to limit liability under §271(g) to
instances where the patented process was practiced
in a manner that would infringe the patent if
practiced within the United States – such as by
requiring a single entity to perform the entire process
– it knew how to do so. (App. 29a-31a). A virtually
identical argument, however, was rejected in
Limelight Networks.
As noted above, by failing to require
application of the single entity rule to §271(g), the
Federal Circuit gave a process patent broader
application than what was intended by Congress. As
this Court held in Limelight Networks, “courts should
not create liability for … non-infringing conduct
where Congress has elected not to extend that
concept.” Limelight Networks, 572 U.S. at 923.
Inclusion of certain language in §271(f) (“…if such
combination occurred within the United States…”)
instead illustrates that “when Congress wishes to
impose liability for [certain] activity that does not
Reliance on §271(f) to interpret §271(g) is fundamentally
questionable in the first place as §271(f) is not applicable to
method claims. Cardiac Pacemakers, Inc. v. St. Judge Medical,
Inc., 576 F.3d 1348 (Fed. Cir. 2009).

5

23
constitute direct infringement, it knows precisely how
to do so.” Id. As Congress has not indicated a clear
and certain signal that §271(g) was enacted to impose
liability for what is otherwise non-infringing activity,
the Federal Circuit’s reliance on §271(f) is improper.
As set forth above, the legislative history
makes clear that Congress simply intended to close a
loophole in the Patent Act with the adoption of
§271(g) so as to provide process patent owners with a
means to prevent the use of their patented processes
outside of the United States with the resulting
products being distributed inside the United States.
Congress did not set forth a clear and certain signal
that it intended to broaden the scope of those process
patents to preclude the non-infringing practice of
certain steps of the claimed process by separate and
independent parties. Yet, this is the exact result of
the Federal Circuit’s decision.
The Federal Circuit’s additional reliance on
§287(b) is also misplaced. The Federal Circuit,
relying on §287(b)(1)(C), held that because the act of
infringement under §271(g) occurs after a patented
process has already been used (i.e., the product has
been imported or sold), it is “immaterial” whether
that process is infringed. (App. 31a-32a). Willowood
does not dispute that the actions giving rise to
liability under §271(g) (i.e., the importation or sale of
the product made by the patented process) must occur
after the product has been made. This does not
change the fact that the Federal Circuit’s decision
broadens the scope of any process patent to provide
protection to processes that do not infringe the patent,
e.g., where practicing the claimed process cannot be
attributed to a single entity.

24
Moreover, the Federal Circuit failed to take
stock of another clause of the same provision –
§287(b)(1)(A) – which provides that modifications of
remedies provided by §287(b) are not available to “any
person who … practiced the patented process….” The
fact that §287(b)(1)(A) limits the modifications of
remedies provided in §287(b) to any “person who
practiced the patented process” as opposed to any
“persons who practiced the patented process” implies
Congress’ recognition that single entities practice
patented processes, not multiple entities. Furthermore,
Congress’ use of the term “patented process” in
§287(b)(1)(A) actually supports Willowood’s position.
As set forth above, §271(a) provides that any
person who, without authority, makes, uses, offers for
sale, or sells a “patented” invention, infringes that
patent. 35 U.S.C. §271(a). To hold that practicing a
“patented” invention means one thing – application of
the single entity rule – when construed in the context
of §271(a), but that it means something different –
single entity rule should not be applied – when
construing §271(g) and/or §287(b)(1)(A) violates basic
principles of statutory construction and turns patent
law on its head by imposing liability where the patent
has not been infringed. Ratzlaf, supra.
Here, the jury found that manufacture of the
azoxystrobin imported and sold by Willowood was not
attributable to any single entity.
Accordingly,
Willowood should not be held liable for patent
infringement under §271(g) as the process claimed by
the ‘138 patent was not infringed.

25
II. THIS
COURT
SHOULD
REVERSE
THE FEDERAL CIRCUIT’S HOLDING
THAT FIFRA DOES NOT PRECLUDE
COPYRIGHT CLAIMS AS TO PESTICIDE
LABELS.
A. The FIFRA Statutory Scheme
FIFRA prohibits the distribution or sale of “any
pesticide that is not registered” by EPA. 7 U.S.C.
§136a(a) (App. 92a).6 EPA shall register a pesticide
when, among other things, “its labeling and other
material required to be submitted comply with the
requirements of this subchapter” and “it will not …
cause unreasonable adverse effects on the
environment.” §136a(c)(5).
To facilitate EPA’s determination of whether
the substantive criteria are met, applicants must
submit or cite to data supporting the environmental
safety and efficacy of the pesticide.
7 U.S.C.
§136a(c)(1)-(2); 40 C.F.R. 152.42, 152.50, 152.80-99.7
FIFRA establishes an exclusivity period under which
the applicant maintains the sole right to use any data
it develops and submits for at least ten years
following registration and requires payment of
compensation for a generic applicant’s reliance on
such data. 7 U.S.C. §136a(c)(1)(F)(i) (App. 94a)
(requiring written permission of original submitter
for ten years following registration); §136a(c)(F)(iii)
(requiring compensation).
See Ruckelshaus v.

6
The term “pesticide” includes fungicides,
azoxystrobin. Id. §136(t), (u) (App. 81a).

such

as

Relevant sections of 40 C.F.R. Part 152 are reprinted at App.
209a et seq.

7

26
Monsanto Co., 467 U.S. 986, 994-95 (1984) (describing
these provisions).
The EPA-approved labeling is an integral part
of the registration. It is the primary means by which
EPA establishes and enforces the terms of the
registration and regulates the use of the pesticide.
FIFRA makes it unlawful to “use any registered
pesticide in a manner inconsistent with its labeling.”
§136j(a)(2)(G).
Each applicant must submit “a
complete copy of the labeling of the pesticide, a
statement of all claims to be made for it, and any
directions for use.” §136a(c)(1)(C) (App. 93a); 40
C.F.R. §152.50(e) (App. 211a); see 7 U.S.C. §136(p)
(App. 76a) (defining “labeling”). The information on
the label must be “placed thereon in such terms as to
render it likely to be read and understood by the
ordinary individual under customary conditions of
purchase and use.” §136(q)(1)(E). The label must
contain the necessary “directions for use,”
§136(q)(1)(F), which likewise must “be stated in terms
which can be easily read and understood by the
average person likely to use or to supervise the use of
the pesticide.” 40 C.F.R. §156.10(i)(1)(i) (App. 256a).8
The label also must include, among other things,
any necessary “warning or caution statement” for
the protection of health and the environment,
§136(q)(1)(G);
“an ingredient
statement,”
a
“statement of use classification,” and, for highly toxic
pesticides, “the skull and crossbones;…the word
“poison’ prominently in red on a background of
distinctly contrasting color; and a statement of a
practical treatment (first aid or otherwise) in case of
poisoning. §136(q)(2)(A)-(D).
8

A copy of 40 C.F.R. Part 156 is reprinted at App. 246a et seq.

27
EPA regulations prescribe in detail the required
contents and formatting of the label, including
specific language that must be used depending on
toxicity and use patterns. 40 C.F.R. §156.10.9 EPA
has published a manual with extensive guidance on
FIFRA’s labeling requirements. Office of Pesticide
Programs, U.S. Envt. Prot. Agency, Label Review
Manual (rev. 2016) (https://www.epa.gov/pesticideregistration/pesticide-registration-manual (the “EPA
Manual”)). The EPA Manual states that a “critical
function of the label is to translate the results of the
science evaluations into a set of conditions, directions,
precautions, and restrictions that define who may use
a pesticide, as well as where, how, how much and how
often it may be used.” Id. at 1-2.
EPA reviews all of the relevant data and the
proposed labeling for a completed application, assesses
the potential risks and benefits, and decides whether
to approve the application. §§152.107 – 152.112
(App. 241a-242a); see also 7 U.S.C. §136a(c)(5) (App.
113a). This process requires significant time and
resources. 7 U.S.C. §136w-8(b)(3)(tbl.1) (providing
review periods of fourteen to twenty-four months for
pesticides containing new active ingredients).
In 1988, Congress amended FIFRA to provide
a simpler path for expedited registration of generic
pesticides. Codified at §136a(c)(3)(B), FIFRA requires
EPA “as expeditiously as possible” to review and act
on any application for an end-use product that

Much of the label language and formatting is expressly
required by EPA regulations (see App. 246a et seq.) or otherwise
authored by EPA in documents such as the EPA Manual.
9

28
if registered as proposed, would be
identical or substantially similar in
composition and labeling to a currentlyregistered pesticide identified in the
application, or that would differ in
composition and labeling from such
currently-registered pesticide only in
ways that would not significantly
increase the risk of unreasonable
adverse effects on the environment.
7 U.S.C. §136(a)(c)(3)(B)(i)(I) (App. 110a). Congress
intended that these expedited procedures would
“hasten” and provide “for ‘fast track’ consideration” of
registration applications for end-use pesticide
products that are identical or substantially similar to
an already registered product. H.R. Rep. No. 100-939,
at 31 (1988); S. Rep. No. 100-346, at 20 (1988).
Applications for generic products and labeling that
meet the criteria of this provision must be reviewed
and approved within ninety days after receipt of a
complete application (7 U.S.C. §136a(c)(3)(B)(ii)(II))
(App. 110a-111a), thus drastically reducing the twoyear review time which the statute specifies for new
active ingredients. These provisions are in keeping
with one of the primary goals of Congress in enacting
FIFRA – to encourage, promote, and facilitate generic
competition in the pesticide market. Ruckelshaus,
467 U.S. at 1014.
Generic applicants (also known as “me-too”
applicants) can take advantage of the expedited
review process, but also must satisfy the
requirements for pesticide registration in §136a(c)(5),
including that the pesticide’s labeling complies
with FIFRA’s requirements. 7 U.S.C. §136a(c)(7); see

29
40 C.F.R. §§152.112 and 152.113. As the labeling for
the me-too pesticide (as well as the compound itself)
must be identical or substantially similar to the
currently registered pesticide or differ only in limited
ways, EPA can decide whether the application meets
the applicable requirements on an expedited basis.
For these pesticides, the EPA directs the label
reviewer to “ensure that the new product’s use
patterns, including any public health claims, are the
same as those of the cited product.” EPA Manual at
4-8. Further, in reviewing the directions of use on a
me-too label, the reviewer must make only “a side-byside comparison of the proposed set of use directions
to the use directions on the label for the registered
product(s).” Id.
B. The Federal Circuit’s Holding that
FIFRA Does Not Necessarily Preclude
Copyright Protection for Pesticide
Labels
Effectively
Repeals
the
Statute’s Explicit Authorization of
Labels
that
are
“Identical
or
Substantially Similar” to Registered
Labels.
One of this Court’s most fundamental
principles of statutory construction is that a statute
should be construed so that effect is given to all its
provisions, so that no part will be inoperative or
superfluous, void, or insignificant. Corley v. United
States, 556 U.S. 303, 314 (2009). The Federal
Circuit’s holding that FIFRA does not preclude
application of copyright protection for pesticide labels
violates this principle by effectively striking from the
statute Congress’ directive that EPA approve
“identical or substantially similar” labels and its

30
commensurate grant of permission for generic
applicants to submit such labels for approval.
The Federal Circuit thought it dispositive that
FIFRA §136a(c)(3)(B)(i)(I) requires expedited EPA
review not just if the product’s composition and
labeling is “identical or substantially similar” but also
if they would differ “only in ways that would not
significantly increase the risk of unreasonable
adverse effects on the environment.” (App 21a). The
Federal Circuit reasoned that in light of this second
pathway for expedited review, the statute does not
require me-too labels to be copied. By the Court’s
reasoning, however, the second pathway for expedited
approval is not just one alternative; it effectively
eliminates the first pathway, which specifically
directs EPA to expeditiously approve generic labels
that are “identical or substantially similar,” and
therefore necessarily contemplates copying of
previously approved labels.
In the Federal Circuit’s view, “FIFRA’s
similarity requirement does not foreclose expedited
review for an independently composed label that relies
solely on unprotected facts, concepts, and methods
derived from the registered label.”
(App. 21a)
(emphasis in original). This reasoning is untethered
to reality, however, because Willowood could not
reasonably be expected to “independently compose” a
generic label that would be identical to Syngenta’s
label. Even a cursory review of the azoxystrobin
labels at issue here shows why there is no realistic
way for a me-too applicant to devise a label that is
“identical” to an already approved label without
copying. Syngenta’s label for Azoxy 2.08SC, for
example, is over 50 pages long and contains primarily

31
technical and scientific information and instructions.
(App. 501a). Absent purposeful copying, the likelihood
that Willowood could come up with an “identical
label” is vanishingly small.
Rather than giving effect to both pathways for
expedited label approval that FIFRA authorizes, the
Federal Circuit effectively construed the second
pathway as nullifying, rather than supplementing,
the first. This violation of basic tenets of statutory
construction as applied to an important environmental
regulatory statute warrants reversal.
C. Allowing
Copyright
Infringement
Claims Against Pesticide Labels
Would be Contrary to FIFRA’s
Fundamental Goals of Promoting
Generic Competition and Would Upend
Decades of EPA’s Implementation of
the Statute.
This Court has twice found that in enacting
FIFRA, Congress intended to encourage competition,
reduce barriers to entry for generic products, and
streamline EPA’s review process for me-too
applications. Ruckelshaus, at 1015; Thomas v. Union
Carbide Agric. Prods. Co., 473 U.S. 568, 571 (1985).
FIFRA §136a(c)(3)(B)(i)(I) is a linchpin in furthering
those goals by allowing me-too applicants to submit,
and directing EPA to approve, generic product labels
that are “identical or substantially similar” to
registered labels. (App. 110a). Consequently, as the
government has noted in this and other cases, EPA
has long encouraged me-too applicants to submit
product labels that are in fact identical to registered
labels, and interpreted FIFRA as permitting label
copying. Fifteen years ago, a district court held that

32
FIFRA does not preclude copyright protection for metoo labels. FMC, 369 F. Supp. 2d at 569. That court,
however, was significantly influenced by the fact that
the EPA failed to appear in support of the generic
applicant’s position. Id. at 570. But on many
occasions thereafter – including in this case – the EPA
has made plain that it interprets FIFRA as precluding
copyright infringement. Less than three months after
FMC was decided, EPA informed a trade association
why “[i]t has been the practice of [EPA] since…1978
to strongly encourage ‘me-too’ product labels to be
identical or substantially similar to the labels of the
products on which their registrations are based.”
(App. 480a). As me-too applicants continued to
submit proposed labels that were copied from
previously approved labels, brand-name companies
continued to threaten and initiate copyright
infringement actions. In cases brought in 2006 and
2009, senior EPA officials submitted detailed
declarations explaining why the agency views
application of copyright law to pesticide labels to be
antithetical to FIFRA’s statutory scheme and in
direct conflict with EPA’s interpretation and
implementation of the statute. (App. 483a; 491a).
In this case, the EPA again weighed in before
the district court and the Federal Circuit, explaining
why the FIFRA ‘me too’ standard, which is intended
to streamline review and registration of me too
products, “endorses label copying….” (App. 10a). As
the EPA has stated in this case and elsewhere,
allowing copyright infringement claims conflict not
just with the plain language of FIFRA
§136a(c)(3)(i)(I), and its’ pro-competitive goals; it
would also vitiate FIFRA’s bedrock purpose of
protecting human health and the environment

33
because variability in label language for substantially
identical products significantly increases the risk of
confusion among users, and hence the risk of pesticide
misuse. (App. 490a).
The United States also has pointed out that in
many cases there may be hundreds of EPA-approved
generic versions of a particular product. For example,
EPA has registered more than 650 generic versions of
the pesticide 2,4-D alone. (App. 489a). Even if there
were numerous ways to express the technical
information and instructions contained in a pesticide
label, application of copyright laws to every label
would mean that numerous generic labels must
convey the same basic information while avoiding
infringement not only of the original registrant’s
label, but of every previously approved generic label.
Not only would this serve no purpose, but as the
government has noted, it would severely increase the
risk of confusion on the part of end-users, thus
increasing the risk of environmental harm and
personal injury – completely contrary to FIFRA’s
purpose.
The Federal Circuit concluded that these
practical concerns do not necessarily create a conflict
between FIFRA and the Copyright Act because metoo applicants can invoke traditional copyright
defenses like merger (which can defeat copyright
claims when an underlying fact, procedure, or idea
can be expressed in so few ways that ‘protection of the
expression would effectively accord protection to the
idea itself”) or the fair use doctrine. (App. 21a). But
subjecting me-too applicants to the threat of copyright
infringement litigation in which they would have the
burden to prove various defenses does not comport

34
with FIFRA’s pro-competitive and pro-environmental
goals. The success of these defenses would be highly
fact-dependent in each case. The uncertainty of
success and substantial cost associated with
defending copyright claims would act as significant
deterrents to copy a registered label. The generic
would be faced with the Hobson’s choice of either
taking the risk that its copied label will be invalidated
under copyright law – and thus its ability to sell the
pesticide product derailed until it rewrites the label to
EPA’s satisfaction – or attempt to write an original
product label and thus defer its entry into the market
even though FIFRA does not require it to do so. In
short, the potential availability of affirmative
defenses to copyright infringement does not resolve
the conflict between copyright protection on the one
hand and FIFRA’s plain statutory language and
fundamental goals on the other.
The facts of this case bear this out. After
Syngenta filed suit, Willowood attempted to revise
the language and formatting of its azoxystrobin labels
in an effort to avoid Syngenta’s copyright claims.
Although EPA eventually approved revised labels,
the process was neither quick nor easy. In fact, EPA
rejected many proposed revisions submitted by
Willowood to ensure compliance with FIFRA’s
substantive requirements. (App. 23a-24a). Most
significantly, even after EPA approved revised label
language, Syngenta persisted in alleging that the
EPA-approved revised language infringed its
copyrights.
EPA plainly lacks the expertise to review metoo labels in relation to copyright law. Consequently,
no generic could be confident that any label approved

35
by EPA is non-infringing unless and until a copyright
claim is adjudicated. It is nonsensical to believe that
Congress would require EPA to spend the time and
effort to “expeditiously” approve an identical label
that might subsequently be nullified under copyright
law.
D. This Court’s Review is Warranted
Because the Federal Circuit’s Decision
Cannot be Reconciled With the Second
Circuit’s Decision in SmithKline.
In SmithKline, the Second Circuit held that the
Hatch-Waxman Amendments to the Federal Food,
Drug, and Cosmetic Act, which direct copying of drug
labels by generic producers in order to facilitate
generic drug competition, preclude copyright
infringement claims with respect to such labels.
SmithKline, 211 F.3d at 25. The Second Circuit
recognized that Congress could not have required
generic drug labels be to be identical to registered
labels “without requiring labels that will often violate
copyrights.” Id. at 28-29. It concluded: “Certainly, a
legislative drafter would believe that a sameness
requirement would lead to the creation of works that
would easily fall within the copyright law’s
infringement of ‘substantial similarity.’” Id. at 27.
The Second Circuit also explained in the generic drug
context that “[i]f labels that were ‘substantially
similar’ to copyrighted labels on pioneer drugs had to
be avoided, the administrative process of approving a
new label would…drain the resources of the FDA and
generic producer – not to mention the problem of
successive generic producers avoiding infringement of
multiple copyrighted labels.” Id. “Avoiding such
infringement would also delay the introduction of the

36
generic product without advancing public health and
safety ….” Id.
The Second Circuit’s reasoning in the drug
context applies with equal force to pesticide labels.
The Federal Circuit sought to distinguish SmithKline
on the grounds that the Hatch Waxman Act requires
generic drug labels to be identical. (App. 22a). But
the Second Circuit’s reasoning is equally applicable
here because FIFRA permits me-too applicants to
submit identical labels and requires EPA to approve
such labels. Consequently, the drafters of FIFRA, no
less than the drafters of the Hatch-Waxman Act,
would have understood that identical or substantially
similar pesticide labels might otherwise be subject to
copyright infringement claims. Application of
copyright law to pesticide labels, no less than drug
labels, would delay the process of approving generic
products, drain the resources of the EPA, create
enormous problems for successive generic producers
who would have to avoid infringing copyrighted
labels, and would conflict with FIFRA’s primary goals
of environmental protection by creating potential
confusion among end users as a result of numerous
labels conveying the same information in varying
language and formats.
For the foregoing reasons, the Petition should
be granted so that this Court can resolve the conflict
between the Federal Circuit’s decision in this and the
Second Circuit’s decision in SmithKline.

37
Respectfully submitted,
Steven E. Tiller
Counsel of Record
WHITEFORD TAYLOR PRESTON LLP
Seven Saint Paul Street, Suite 1300
Baltimore, Maryland 21202-1626
Telephone: (410) 347-9425
Facsimile: (410) 223-4325
stiller@wtplaw.com
Barry S. Neuman
WHITEFORD TAYLOR PRESTON LLP
1800 M Street, NW, Suite 450N
Washington, DC 20036
Telephone: (202) 659-6761
Facsimile: (202) 327-6151
bneuman@wtplaw.com
Barry E. Bretschneider
WHITEFORD TAYLOR PRESTON LLP
3190 Fairview Park Drive, Suite 800
Falls Church, Virginia 22042-4510
Telephone: (703) 280-9086
Facsimile: (703) 280-9130
bretschneider@wtplaw.com
Attorneys for Petitioners

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
VOLUME I OF II
Page
Opinion of
The United States Court of Appeals
For the Federal Circuit
entered December 18, 2019 ........................... 1a
Order of
The United States District Court
For the Middle District of North Carolina
Re: Granting in Part Defendants’ Motion for
Summary Judgment and Denying Plaintiff’s
Motion to Exclude Mr. Schatzow’s Report
entered April 10, 2017 ................................. 40a
Memorandum Opinion and Order of
The United States District Court
For the Middle District of North Carolina
Re: Granting in Part and Denying in Part
Plaintiff’s Motion for Summary Judgment,
Denying in Part Defendants’ Motion for
Summary Judgment, and Granting in
Part and Denying in Part Plaintiff’s
Motion to Exclude Certain Expert Opinions
entered March 24, 2017 ............................... 42a
7 U.S.C. § 136.......................................................... 72a
7 U.S.C. § 136a........................................................ 92a
17 U.S.C. § 102...................................................... 143a
17 U.S.C. § 105...................................................... 144a

iia
17 U.S.C. § 501...................................................... 146a
21 U.S.C. § 355...................................................... 149a
35 U.S.C. § 271...................................................... 192a
35 U.S.C. § 287...................................................... 200a
40 C.F.R. § 152.42 ................................................. 209a
40 C.F.R. § 152.50 ................................................. 209a
40 C.F.R. § 152.80 ................................................. 213a
40 C.F.R. § 152.81 ................................................. 214a
40 C.F.R. § 152.82 ................................................. 216a
40 C.F.R. § 152.83 ................................................. 217a
40 C.F.R. § 152.84 ................................................. 219a
40 C.F.R. § 152.85 ................................................. 219a
40 C.F.R. § 152.86 ................................................. 222a
40 C.F.R. § 152.90 ................................................. 225a
40 C.F.R. § 152.91 ................................................. 226a
40 C.F.R. § 152.92 ................................................. 227a
40 C.F.R. § 152.93 ................................................. 228a
40 C.F.R. § 152.94 ................................................. 230a
40 C.F.R. § 152.95 ................................................. 231a
40 C.F.R. § 152.96 ................................................. 232a

iiia
40 C.F.R. § 152.97 ................................................. 234a
40 C.F.R. § 152.98 ................................................. 235a
40 C.F.R. § 152.99 ................................................. 237a
40 C.F.R. § 152.107 ............................................... 241a
40 C.F.R. § 152.108 ............................................... 241a
40 C.F.R. § 152.113 ............................................... 243a
40 C.F.R. § 156.3 ................................................... 246a
40 C.F.R. § 156.10 ................................................. 246a
40 C.F.R. § 156.60 ................................................. 263a
40 C.F.R. § 156.62 ................................................. 265a
40 C.F.R. § 156.64 ................................................. 267a
40 C.F.R. § 156.66 ................................................. 268a
40 C.F.R. § 156.68 ................................................. 269a
40 C.F.R. § 156.70 ................................................. 270a
40 C.F.R. § 156.78 ................................................. 273a
40 C.F.R. § 156.80 ................................................. 277a
40 C.F.R. § 156.85 ................................................. 277a
40 C.F.R. § 156.140 ............................................... 279a
40 C.F.R. § 156.144 ............................................... 283a
40 C.F.R. § 156.146 ............................................... 284a

iva
40 C.F.R. § 156.156 ............................................... 288a
40 C.F.R. § 156.159 ............................................... 290a
40 C.F.R. § 156.200 ............................................... 290a
40 C.F.R. § 156.203 ............................................... 291a
40 C.F.R. § 156.204 ............................................... 292a
40 C.F.R. § 156.206 ............................................... 293a
40 C.F.R. § 156.208 ............................................... 295a
40 C.F.R. § 156.210 ............................................... 299a
40 C.F.R. § 156.212 ............................................... 301a
S. Rep. 100-83, Process Patents Amendments
Act of 1987 (June 23, 1987) .................................. 312a

va
APPENDIX TABLE OF CONTENTS
VOLUME II OF II
Page
H. R. Conf. Rep. 100-576 (1988) ........................... 441a
Letter to Warren Stickle, President of Chemical
Producers & Distributors Association, from
Susan B. Hazen, Principal Deputy Assistant
Administrator of the U.S. Environmental
Protection Agency
dated August 3, 2005 ................................. 480a
Declaration of Lois Rossi
undated....................................................... 483a
Declaration of Debra Edwards,
With Attached Declaration of Lois Rossi,
dated June 17, 2009 ................................... 491a
Willowood Azoxy 2C Label Submitted to EPA
dated August 15, 2013 ............................... 501a

1a
[ENTERED: December 18, 2019]
United States Court of Appeals
for the Federal Circuit
______________________
SYNGENTA CROP PROTECTION, LLC,
Plaintiff-Appellant
v.
WILLOWOOD, LLC, WILLOWOOD USA, LLC,
WILLOWOOD AZOXYSTROBIN, LLC,
WILLOWOOD LIMITED,
Defendants-Cross-Appellants
______________________
2018-1614, 2018-2044
______________________
Appeals from the United States District Court
for the Middle District of North Carolina in No. 1:15cv-00274-CCE-JEP, Judge Catherine C. Eagles.
______________________
Decided: December 18, 2019
______________________
RUSSELL EVAN LEVINE, Kirkland & Ellis LLP,
Chicago, IL, argued for plaintiff-appellant. Also
represented by HARI SANTHANAM, MEREDITH ZINANNI.
STEVEN EDWARD TILLER, Whiteford, Taylor &
Preston LLP, Baltimore, MD, argued for defendantscross-appellants. Also represented by PETER JAMES
DAVIS; BARRY S. NEUMAN, Washington, DC; ALAN
DUNCAN, LESLIE COOPER HARRELL, Mullins Duncan
Harrell & Russell PLLC, Greensboro, NC.

2a
MEGAN BARBERO, Appellate Staff, Civil
Division, United States Department of Justice,
Washington, DC, argued for amicus curiae United
States. Also represented by MARK R. FREEMAN,
JOSEPH H. HUNT; MATTHEW G.T. MARTIN, The United
States Attorney’s Office, Middle District of North
Carolina, United States Department of Justice,
Greensboro, NC.
MELVIN C. GARNER, Leason Ellis LLP, White
Plains, NY, for amicus curiae New York Intellectual
Property Law Association. Also represented by
LAUREN BETH EMERSON, ROBERT M. ISACKSON,
MARTIN SCHWIMMER.
JAMES PETER RATHVON, Paley Rothman,
Bethesda, MD, for amici curiae Aceto Agricultural
Chemicals Corp., Aceto Corporation, AgLogic
Chemical, LLC, Agro-Gor Corp., Albaugh, LLC,
Argite, LLC, Atticus, LLC, Axss Technical Holdings,
LLC, Chemstarr, LLC, Consus Chemicals, Inc., Decco
US Post-Harvest, Inc., Drexel Chemical Company,
Ensystex, Inc., Ensystex II, Inc., Ensystex III, Inc.,
Ensystex IV, Inc., Extremis, LLC, GeneraTec, LLC,
Gharda Chemicals International, Inc., Helm Agro US,
Inc., LG Chem, Ltd., MEY Corporation, PBI Gordon
Corp., Promika, LLC, Raymat Crop Science, Inc.,
Raymat Materials, Inc., RedEagle International,
LLC, RiceCo, LLC, Rotam Agrochemical Company,
Ltd., Rotam Ltd., Rotam North America Inc., Sharda
CropChem Ltd., Sharda USA, LLC, Summit Agro US,
LLC, Summit Agro North America Holding
Corporation, Tacoma AG, LLC, Tide International
USA, Inc., Troy Corporation, United Phosphorus,
Inc., UPL Delaware Inc., Woodstream Corporation.

3a
JEFFREY PAUL KUSHAN, Sidley Austin LLP, for
amici curiae Biotechnology Innovation Organization,
CropLife International. Also represented by KATHI A.
COVER, iBiquity Digital Corporation, Columbia, MD.
______________________
Before REYNA, TARANTO, and STOLL, Circuit
Judges.
REYNA, Circuit Judge.
Syngenta Crop Protection, LLC, sued
Willowood, LLC, Willowood USA, LLC, Willowood
Azoxystrobin, LLC, and Willowood Limited in the
U.S. District Court for the Middle District of North
Carolina for copyright infringement and patent
infringement, asserting four patents directed to a
fungicide compound and its manufacturing processes.
Prior to trial, the district court dismissed the
copyright infringement claims, determining them to
be precluded by the Federal Insecticide Fungicide and
Rodenticide Act. The district court granted-in-part
and denied-in-part Syngenta Crop Protection, LLC’s
summary judgment motion with respect to patent
infringement. The district court also denied-in-part
the defendants’ motion to exclude expert testimony on
damages.
After a jury trial, the district court entered
judgment in favor of Willowood Limited on all patent
infringement claims; in favor of all defendants on
infringement of one patent at issue; and against
Willowood, LLC, and Willowood USA, LLC, on
infringement of the remaining three patents. The
district court denied Syngenta Crop Protection, LLC’s
motions for judgment as a matter of law. Syngenta
Crop Protection, LLC, appeals the district court’s

4a
denials of its motions for judgment as a matter of law
and its final judgment. Defendants conditionally
cross-appeal the district court’s partial denial of their
motion to exclude expert testimony on damages. For
the reasons explained below, we affirm-in-part,
reverse-in-part, vacate-in-part, and remand for
further proceedings consistent with this opinion.
BACKGROUND
I. The Asserted Patents
Syngenta Crop Protection, LLC, (“Syngenta”)
is the assignee of U.S. Patent Nos. 5,602,076 (“the
’076 patent”), 5,633,256 (“the ’256 patent”), 5,847,138
(“the ’138 patent”), and 8,124,761 (“the ’761 patent”).
The ’076 patent is entitled “Certain Fungicides,
Pesticides and Plant Growth Regulants.” The ’256
patent is entitled “Certain Pyrimidinyloxy-phenyl
Acrylates, Derivatives Thereof and Their Fungicidal
Use.” The ’076 and ’256 patents (collectively, “the
Compound Patents”) expired on February 11, 2014.
The Compound Patents are directed to a group of
chemical compounds, including azoxystrobin, a
fungicide commonly used in agriculture to control
fungal growth on crops. J.A. 7; Appellant’s Br. 9.
The ’138 patent is entitled “Chemical Process”
and expired on December 8, 2015. The ’138 patent is
directed to a two-step process for manufacturing
azoxystrobin that includes an etherification step
followed by a condensation step. Appellant’s Br. 12;
J.A. 6672. The etherification step produces an
intermediate compound that is then used in the
condensation step to produce azoxystrobin. J.A. 6672.
The ’761 patent is entitled “Processes for the
Preparation of Azoxystrobin Using DABCO as a

5a
Catalyst and Novel Intermediates Used in the
Processes” and does not expire until April 15, 2029.
The ’761 patent is directed to a process of using
the chemical catalyst 1,4-diazabicyclo[2.2.2]octane
(“DABCO”) during the condensation step to
manufacture azoxystrobin. ’761 patent col. 1 ll. 20–25;
J.A. 6682–83. Each claim of the ’761 patent requires
at least “the presence of between 0.1 and 2 mol % of
[DABCO].” ’761 patent col. 20 ll. 1–2, 25–26.
II. The Asserted Copyrights
Syngenta uses azoxystrobin as an active
ingredient in formulating its fungicide end-use
products. Appellant’s Br. 7. Syngenta markets and
sells these end-use products under several brand
names, including QUADRIS® and QUILT XCEL®.
Id. Both products are sold with detailed labels that
provide directions for use, storage, and disposal, as
well as first-aid instructions and environmental,
physical, and chemical hazard warnings. Id. at 19.
The QUADRIS® label comprises fifty-four pages of
small-type text and charts. J.A. 276; 424–77. The
QUILT XCEL® label comprises twenty-nine pages of
small-type text and charts. J.A. 276; 481–509.
Syngenta registered these two labels with the U.S.
Copyright Office on March 25, 2015. Appellant’s Br.
19; J.A. 276–77, 479.
III. District Court Proceedings
On March 27, 2015, Syngenta brought suit
against Willowood, LLC (“Willowood LLC”),
Willowood USA, LLC (“Willowood USA”), and
Willowood Limited (“Willowood China”) (collectively,

6a
“Willowood”)1 for patent and copyright infringement.
Willowood China is a Hong Kong company that
contracts for the manufacture of azoxystrobin in China
and sells the fungicide to Willowood USA, its Oregonbased affiliate. Willowood USA and Willowood LLC
contract with third parties to formulate azoxystrobin
into Willowood’s generic end-use fungicide products,
and market and sell azoxystrobin and those end-use
products in the United States. Shortly before the
expiration of the Compound Patents, Willowood filed
applications with the Environmental Protection
Agency (“EPA”) to register its Azoxy 2SC and
AzoxyProp Xtra generic products, which correspond
in composition and labeling to Syngenta’s
QUADRIS® and QUILT XCEL® fungicides,
respectively. J.A. 278, 714; Appellant’s Br. 19.
Syngenta asserted in its suit that Willowood’s
Azoxy 2SC and AzoxyProp Xtra products infringed
claims 1–4 and 12–14 of the ’076 patent, claims 1–3,
5, and 7 of the ’256 patent, claims 6 and 12–14 of the
’138 patent, and claims 1, 3–5, and 9–10 of the ’761
patent. J.A. 1617–1619, 1627. Syngenta also asserted
that Willowood infringed Syngenta’s registered
copyrights in its QUADRIS® and QUILT XCEL®
labels by copying those labels for Willowood’s Azoxy
2SC and AzoxyProp Xtra product labels. J.A. 289–91.
A. Pre-Trial Motions
On October 31, 2016, both parties filed motions
for summary judgment. Syngenta moved for
summary judgment that all asserted claims of the
Syngenta also sued Willowood Azoxystrobin,
LLC, but does not appeal the district court’s rulings concerning
this entity. Appellant’s Br. 6 n.1.
1

7a
four patents were infringed by Willowood. Willowood
cross-moved for summary judgment, seeking
dismissal of Syngenta’s copyright claims and its claim
of infringement of the ’761 patent.
1. Patent Infringement Claims
The district court granted summary judgment
against Willowood USA for direct infringement of the
Compound Patents on the basis of Willowood’s
concession that Willowood USA imported five
kilograms of azoxystrobin into the United States in
2013, prior to the Compound Patents’ expiration.
Syngenta Crop Prot., LLC v. Willowood, LLC, No.
1:15-CV-274, 2017 WL 1133378, at *2 (M.D.N.C. Mar.
24, 2017) (“Summary Judgment Order”); see also J.A.
1617–18. The district court also granted summary
judgment against Willowood LLC for induced
infringement of the Compound Patents on the basis of
Willowood’s concession that Willowood LLC
contributed to and induced the formulation and
testing of Willowood’s Azoxy 2SC and AzoxyProp Xtra
products by third parties using the same imported
five kilograms of azoxystrobin. Summary Judgment
Order, 2017 WL 1133378, at *2–3; see also J.A. 1618.
The district court, however, denied summary
judgment against Willowood China for direct
infringement of the Compound Patents. Summary
Judgment Order, 2017 WL 1133378, at *2. The
district court found a genuine dispute of material fact
as to whether Willowood China’s sale of five
kilograms of azoxystrobin to Willowood USA took
place in China or within the United States as required
under 35 U.S.C. § 271(a). Id.
The district court next denied summary
judgment as to infringement of the ’138 patent. Id. at

8a
*5. The district court found that it was undisputed
that Willowood China purchases azoxystrobin from
its Chinese supplier, Yangcheng Tai He Chemicals
Corp. (“Tai He”), and sells it to Willowood USA, which
then imports the azoxystrobin into the United States.
Id. at *4; see also J.A. 1619. The district court found
that it was also undisputed that the azoxystrobin in
question was manufactured in China by performing
both steps of the process claimed in the ’138 patent.
Summary Judgment Order, 2017 WL 1133378, at *4.
Relying on our decision in Akamai Technologies., Inc.
v. Limelight Networks, Inc., the district court
determined that 35 U.S.C. § 271(g) requires that all
steps of a claimed process be performed by or
attributable to a single entity. Id. at *5 (citing 797
F.3d 1020, 1022 (Fed. Cir. 2015)). On this basis, the
district court found a genuine dispute of material fact
as to whether Tai He performed both steps of the
process claimed by the ’138 patent during its
manufacture of azoxystrobin or whether Willowood
directed Tai He and others to practice the claimed
process. Id. at *4–5.
With respect to the ’761 patent, both parties
agreed that the issue of infringement turned on
whether the azoxystrobin that Willowood China
purchases and Willowood USA imports was
manufactured using DABCO at concentrations within
the claimed range of 0.1 and 2 mol %. Summary
Judgment Order, 2017 WL 1133378, at *6; J.A. 1627.
The district court denied summary judgment on this
issue, finding a genuine dispute of material fact as to
whether Willowood’s suppliers used DABCO within
the claimed range in the manufacturing process. See
Summary Judgment Order, 2017 WL 1133378, at *7.

9a
The district court next granted Syngenta’s
motion to shift the burden of proof to Willowood
under 35 U.S.C. § 295 on the claim of infringement
of the ’761 patent. The district court found that
Syngenta demonstrated a substantial likelihood of
infringement, rejecting Willowood’s argument that
neither Tai He nor any of its intermediaries
manufacture azoxystrobin using DABCO within the
claimed range. Id. at *7–8. The district court credited
the testimony of Syngenta’s expert, who testified that
it would not be commercially reasonable to
manufacture azoxystrobin using DABCO outside the
claimed range. Id. at *8. The district court noted that
Willowood’s expert did not rebut this testimony, and
Willowood’s only rebuttal witness, the president of
Tai He, had “credibility issues.” Id. The district court
also determined that Willowood did not produce any
manufacturing records demonstrating that DABCO
was not used or describing what process was used
instead. Id. at *8, *10. The district court further
found that Syngenta made reasonable efforts to
discover Tai He’s actual manufacturing process, but
was unsuccessful because of Willowood’s failure to
cooperate. Id. at *9–10. Finding both elements of
§ 295 satisfied, the district court shifted the burden to
Willowood to prove non-infringement of the ’761
patent. Id. at *11.
2. Copyright Infringement Claims
In its cross-motion for summary judgment,
Willowood argued that Syngenta’s copyright claims
should be dismissed because the Federal Insecticide,
Fungicide, and Rodenticide Act (“FIFRA”) precludes
copyright protection for Syngenta’s labels. J.A. 730–
37. Willowood asserted that FIFRA requires generic

10a
fungicide products to have labels that are “identical
or substantially similar” to brand-name labels. J.A.
730–31. Willowood further contended that because
much of its labels’ text comprises instructions and
warnings mandated by FIFRA and EPA regulations,
and only limited means of expressing such
information exist, extending copyright protection to
Syngenta’s labels “would make subsequent labeling
practically impossible.” J.A. 731 & n.14, 733–35 (citing
SmithKline Beecham Consumer Healthcare, L.P. v.
Watson Pharm. Inc., 211 F.3d 21, 23 (2d Cir. 2000)).
Willowood also argued that any language that
is not required by the EPA is nonetheless
uncopyrightable because it is so “basic” and
“commonplace in the industry,” that it merges with
the ideas the language is meant to convey. J.A. 732.
In the alternative, Willowood argued that its use of
some of the language from Syngenta labels
constituted permissible fair use. J.A. 737–40.
In response, Syngenta argued that nothing in
FIFRA or EPA regulations authorizes or requires
Willowood to copy verbatim Syngenta’s labels. J.A.
2806. Syngenta asserted that pursuant to FIFRA’s
legislative scheme, the EPA requires only generic
products—not label language—to be identical or
substantially
similar
to
their
brand-name
counterparts, and then only to the extent that a
generic applicant seeks expedited review by the EPA.
Id. In support of its arguments, Syngenta relied
heavily on FMC Corp. v. Control Solutions., Inc., a
decision from the Eastern District of Pennsylvania,
which held that FIFRA does not preclude copyright
protection for pesticide labels because “verbatim or
nearly wholesale copying of another registrant’s label

11a
is unnecessary to obtain expedited review by the EPA
of a label.” 369 F. Supp. 2d 539, 553–60 (E.D. Pa.
2005); see J.A. 2806.
The United States filed a statement of interest
on this issue, presenting four arguments in support of
Willowood’s position. J.A. 2969–3005. First, according
to the government, FIFRA “endorses” copying by
generic applicants and furthers Congress’s intent of
expediting market access for generic fungicide
manufacturers. J.A. 2970, 2983–91. Second, the
government asserted that Syngenta granted
Willowood an implied license to copy its labels by
participating in FIFRA’s labeling scheme. J.A. 2970,
2991–94. Third, the government argued that
Willowood’s labels are protected under the doctrine of
merger, which permits copying of material that can
only be expressed in a limited number of ways. J.A.
2971, 2994–98. Lastly, the government argued that
Willowood’s labels are also protected under the
doctrine of fair use. J.A. 2971, 2998–3005.
The district court agreed with Willowood and
the United States, and issued a short order granting
summary judgment against Syngenta and dismissing
its copyright infringement claims. J.A. 33–34. The
district court stated that it found the analysis in FMC
“unconvincing,” and determined that “[e]ven with some
changes, use of the original pesticide label as a ‘go by’
for the new label will result in copyright infringement.”
Id. The district court concluded that because FIFRA
contemplates copying by a generic applicant “in ways
that would otherwise infringe a copyright, . . .
Congress intended a narrow exception to copyright
protection for the required elements” of fungicide

12a
labels. Id. The district court did not otherwise address
the arguments presented on this issue.
3. Willowood’s Motion to Exclude
On April 10, 2017, Willowood filed a motion to
exclude the testimony of Syngenta’s damages expert.
J.A. 3838–67; see also J.A. 37. Willowood did not
object to the expert’s methodology; rather, Willowood
contended that the expert’s choice of benchmarks was
based on unreliable facts or data. J.A. 44. Willowood
argued that the expert’s damages calculation was
speculative and unreliable because he based his
analysis on products unrelated to azoxystrobin and
Syngenta’s “wildly inaccurate” budgets. J.A. 48; see
also J.A. 3851–3861. Willowood also argued that
Syngenta’s expert did not properly apportion
damages for infringement of the ’761 patent because
the expert relied on the same methodology that he
used to calculate damages for infringement of the ’138
patent, even though the ’138 patent claims two steps
of the manufacturing process (etherification and
condensation) while the ’761 patent claims only one
step (condensation). J.A. 3861–3865.
The district court denied Willowood’s motion to
exclude with respect to the Compound Patents,
determining that Syngenta’s expert relied on
“sufficient facts and data applied using a reasonable
method in a justifiable manner” based on a
hypothetical non-infringing market with a similar
product as a benchmark. J.A. 35. The district court
approved the expert’s choice of using an herbicide
product as a benchmark, explaining that both
products created similar barriers to generic access to
the markets, were sold in similar markets, protected
the same crops, had comparable life cycles, and were

13a
both leading products for Syngenta. J.A. 47, 50. With
respect to using Syngenta’s budgets as benchmarks,
the district court found that the expert accounted for
any errors in budgeting, and explained that any
inaccuracies went to the weight of the evidence
instead of its admissibility. J.A. 49.
The
district
court,
however,
granted
Willowood’s motion to exclude Syngenta’s expert’s
testimony with respect to the ’138 and ’761 patents,
finding that the expert did not provide an adequate
explanation for his choice of bench-marks. The
district court found that in contrast to the
benchmarks chosen for the Compound Patents, the
expert provided “scant analysis for why nonazoxystrobin fungicides” were a proper benchmark
and no evidence of similarities between the products
and their markets. J.A. 53–54. The district court also
excluded testimony on lost profits with respect to the
’761 patent, explaining that the expert failed to
address but-for causation or account for existing noninfringing alternatives in his calculations. J.A. 55–58.
B. Trial and Post-Trial Motions
The district court held a seven-day trial
beginning on September 5, 2017. With respect to the
Compound Patents, the only issues at trial were
whether Willowood China imported into the United
States or sold to Willowood USA within the United
States the five-kilogram sample of azoxystrobin.
Syngenta argued that Willowood China imported
azoxystrobin into the United States by arranging for
its entry into the country. J.A. 6961. Syngenta also
argued that Willowood China’s sale of the
azoxystrobin necessarily occurred within the United
States because Willowood USA is located within the

14a
United States. Id. Willowood argued in response that
Willowood China did not infringe the Compound
Patents because the shipment of five-kilogram
sample of azoxystrobin was marked “f.o.b. China,”2
meaning that title to the azoxystrobin passed from
Willowood China to Willowood USA overseas. J.A.
6961. After presenting its case, Syngenta moved for a
judgment as a matter of law (“JMOL”) on this issue.
The district court denied Syngenta’s JMOL
motion, and the jury returned a specific verdict in
favor of Willowood China, finding that Syngenta did
not prove that Willowood China imported
azoxystrobin into the United States or sold
azoxystrobin within the United States. J.A. 266. The
jury awarded Syngenta $75,600 in damages for
infringement of the Compound Patents by Willowood
USA and Willowood LLC. Syngenta renewed its
motion for JMOL after the verdict, which the district
court again denied. J.A. 6523; Appellant’s Br. 12.
With respect to the ’138 patent, the only issue
at trial was whether both steps of the claimed process
were performed by a single entity or attributable to
Willowood as the directing or controlling entity. J.A.
240–241; 266; Appellant’s Br. 13. Syngenta presented
evidence that Willowood directed or controlled Tai
He’s manufacturing process, and that Tai He
performed both claimed steps. Appellant’s Br. 13–15.
In rebuttal, Willowood presented evidence that Tai
He did not perform the etherification step when
“F.o.b” stands for “free on board” and designates
a method of shipment whereby legal title passes from the seller
to the buyer once goods are delivered at a designated location.
Litecubes, LLC v. N. Light Prod., Inc., 523 F.3d 1353, 1358 n.1
(Fed. Cir. 2008).
2

15a
manufacturing Willowood’s azoxystrobin. See J.A.
8232–8241; J.A. 7682 at 63:22–64:11; Appellant’s Br.
15. The jury returned a specific verdict in favor of
Willowood with respect to the ’138 patent, finding
that Syngenta did not prove that both steps of the
claimed process were performed by or attributable to
a single entity. J.A. 266.
With respect to the ’761 patent, the only issue
at trial was whether during manufacture of
Willowood’s azoxystrobin, the condensation step was
performed using the DABCO catalyst within the
range claimed by the ’761 patent. J.A. 248–50;
Appellant’s Br. 17. The burden of proof was on
Willowood pursuant to the district court’s order under
35 U.S.C. § 295. Summary Judgment Order, 2017 WL
1133378, at *11. After presenting its case, Syngenta
moved for JMOL on this issue, which the district court
denied. J.A. 7045; Appellant’s Br. 18. After trial, the
jury returned a specific verdict in favor of Syngenta
that “the Defendants” did not prove that DABCO was
not used as claimed. J.A. 267. The jury awarded
$900,000 in damages to Syngenta for infringement of
the ’761 patent “by the Defendants.” Id.
After trial, the parties submitted proposed
final judgments to the district court. J.A. 6489. At
that point, a dispute arose between the parties as to
whether the jury found that Willowood China
infringed the ’761 patent. In resolving the dispute, the
district court noted that the jury found with respect
to the Compound Patents that Willowood China did
not import azoxystrobin into the United States or sell
azoxystrobin within the United States. Id. The
district court explained that “[n]either party asked
the court to submit a separate issue as to Willowood

16a
China’s infringement of the ’138 patent or the ’761
patent,” and concluded that “the parties implicitly
agreed to resolve Willowood China’s liability for the
[’138 and ’761 patents] based on the answer to the
importation question which was first on the verdict
sheet.” Id. The district court concluded that “[t]here is
no evidentiary basis” for finding that Willowood
China infringed the ’761 patent. Id.
On November 20, 2017, the district court
entered final judgment. The district court entered
judgment in favor of Willowood China on “all claims”
and in favor of all Willowood defendants on the claim
of infringement of the ’138 patent. J.A. 3. The district
court entered judgment against Willowood USA and
Willowood LLC on the claims of infringement of the
Compound Patents and the ’761 patent. Id. After the
district court entered final judgment, Syngenta
renewed its JMOL motion with respect to Willowood
China’s infringement. J.A. 6522–6523; Appellant’s
Br. 18. Syngenta contended that Willowood waived its
argument that Willowood China did not infringe the
’761 patent by not objecting to the wording of the jury
verdict form. J.A. 6522. The district court denied
Syngenta’s renewed JMOL motion. J.A. 91.
Syngenta appeals the district court’s dismissal
of its copyright claims, the district court’s conclusion
that § 271(g) requires every step of a claimed process
to be performed by or attributable to a single entity,
the jury’s verdict that Willowood did not infringe
the ’138 patent even with the single entity
requirement imposed on § 271(g), and the district
court’s judgment that Willowood China did not
infringe any of the asserted patents. Willowood
conditionally cross-appeals the district court’s partial

17a
denial of its motion to exclude the testimony of
Syngenta’s damages expert. We have jurisdiction
under 28 U.S.C. § 1295(a)(1).
DISCUSSION
I. Standard of Review
We review a district court’s decisions on
motions for summary judgment and JMOL under the
law of the regional circuit, in this case the Fourth
Circuit. Supernus Pharm., Inc. v. Iancu, 913 F.3d
1351, 1356 (Fed. Cir. 2019); Mohsenzadeh v. Lee, 790
F.3d 1377, 1381 (Fed. Cir. 2015). The Fourth Circuit
reviews the grant of a motion for summary judgment
de novo, viewing all evidence in the light most
favorable to the non-moving party. Amdocs (Israel)
Ltd. v. Openet Telecom, Inc., 761 F.3d 1329, 1337–38
(Fed. Cir. 2014) (citing Ramos v. S. Maryland Elec.
Co–op., Inc., 996 F.2d 52, 53 (4th Cir. 1993)). The
Fourth Circuit reviews a district court’s post-verdict
JMOL decisions de novo, determining whether the
jury’s verdict is supported by substantial evidence.
LifeNet Health v. LifeCell Corp., 837 F.3d 1316, 1322
(Fed. Cir. 2016) (citing Carolina Trucks & Equip., Inc.
v. Volvo Trucks of N. Am., 492 F.3d 484, 488 (4th Cir.
2007)). The Fourth Circuit reviews a district court’s
pre-verdict grant of JMOL de novo, viewing all
evidence in light most favorable to the non-moving
party and considering whether a reasonable jury
could find for the non-moving party. ActiveVideo, 694
F.3d at 1319 (citing Brown v. CSX Transp., 18 F.3d
245, 248 (4th Cir. 1994)).
We review questions of patent law under
Federal Circuit law. Ericsson, Inc. v. D-Link Sys.,
Inc., 773 F.3d 1201, 1214 (Fed. Cir. 2014). We review

18a
a jury’s findings on questions of fact, such as
infringement and damages, for substantial evidence.
Power Integrations, Inc. v. Fairchild Semiconductor
Int’l, Inc., 711 F.3d 1348, 1377 (Fed. Cir. 2013). We
review a district court’s decisions concerning damages
methodologies for abuse of discretion. ActiveVideo
Networks, Inc. v. Verizon Commc’ns, Inc., 694 F.3d
1312, 1332 (Fed. Cir. 2012) (citing Lucent Techs., Inc.
v. Gateway, Inc., 580 F.3d 1301, 1310 (Fed. Cir.
2009)).
We apply copyright law as interpreted by the
regional circuit. Amini Innovation Corp. v. Anthony
Cal., Inc., 439 F.3d 1365, 1368 (Fed. Cir. 2006).
Interpretation of the rights granted by the Copyright
Act is a question of law that the Fourth Circuit
reviews de novo. See Rosciszewski v. Arete Assocs.,
Inc., 1 F.3d 225, 229 (4th Cir. 1993).
We also review a district court’s rulings on
admission of expert testimony under the law of the
regional circuit. ePlus, Inc. v. Lawson Software, Inc.,
700 F.3d 509, 516 (Fed. Cir. 2012). The Fourth Circuit
reviews such evidentiary rulings for abuse of
discretion. Id. (citing Kopf v. Skyrm, 993 F.2d 374, 378
(4th Cir. 1993)).
We
review
questions
of
statutory
interpretation de novo. Mohsenzadeh, 790 F.3d at
1381 (citing AD Global Fund, LLC v. United States,
481 F.3d 1351, 1353 (Fed. Cir. 2007)). If two statutory
provisions are “capable of co-existence, it is the duty
of the courts, absent a clearly expressed congressional
intention to the contrary, to regard each as effective.”
Ruckelshaus v. Monsanto Co., 467 U.S. 986, 1018
(1984) (quoting Regional Rail Reorganization Act

19a
Cases, 419 U.S. 102, 133-34 (1974)) (internal
quotation marks omitted).
II. Syngenta’s Copyright Claims
Syngenta challenges the district court’s
summary judgment order dismissing its copyright
claims in their entirety. The dismissal was based on
the court’s holding that FIFRA “precludes copyright
protection for the required elements of pesticide
labels as against the labels of me-too [i.e. generic3]
registrants.” J.A. 33. We conclude that this
determination was premature. Because the text of
FIFRA does not, on its face, require a me-too
registrant to copy the label of a registered product, the
statute only conflicts with the Copyright Act to the
extent that some particular element of Syngenta’s
label is both protected under existing copyright
doctrines and necessary for the expedited approval
of Willowood’s generic pesticide product. This
determination requires this court to review the merits
of Syngenta’s copyright claims, which the district
court did not reach. Thus, we remand for the court to
do so in the first instance.
When evaluating the “alleged preclusion of a
cause of action under one federal statute by the
provisions of another federal statute,” we rely on
traditional rules of statutory interpretation. POM
Wonderful LLC v. Coca-Cola Co., 573 U.S. 102, 111
(2014). Among these principles is the presumption
Consistent with terminology used by the EPA,
the parties and the district court use the term “me-too” to refer
to applications requesting registration of generic pesticide
products pursuant to FIFRA’s criteria for expedited review.
See EPA, PRIA Glossary, https://www.epa.gov/pria-fees/priaglossary (last visited December 9, 2019).
3

20a
that a later-enacted statute does not impliedly repeal,
even in part, an earlier one. Id. (citing Carcieri v.
Salazar, 555 U.S. 379, 395 (2009)). Thus, where the
later-enacted statute does not cover the whole subject
of the earlier one and is not “clearly intended as a
substitute,” an implied repeal will only be found
where provisions in the two statutes are in
“irreconcilable conflict”—a stringent standard that
renders implicit repeals a “rarity.” Nat’l Ass’n of Home
Builders v. Defs. of Wildlife, 551 U.S. 644, 662-63
(2007); J.E.M. Ag Supply, Inc. v. Pioneer Hi-Bred
Int’l, Inc., 534 U.S. 124, 142 (2001). In the absence of
such conflict, statutory provisions acting upon the
same subject should be interpreted and applied in a
way that “gives effect to each” and “preserves the
purposes of both.” United States v. Borden Co., 308
U.S. 188, 198 (1939); Zenith Elecs. Corp. v. Exzec, Inc.,
182 F.3d 1340, 1347 (Fed. Cir. 1999).
Here, the Copyright Act prohibits parties from
reproducing the protected elements of a valid
copyright without authorization, except where such
actions would constitute fair use. See Harper & Row
Publishers, Inc. v. Nation Enterprises, 471 U.S. 539,
547 (1985); Lyons P’ship, L.P. v. Morris Costumes,
Inc., 243 F.3d 789, 801 (4th Cir. 2001); Ale House
Mgmt., Inc. v. Raleigh Ale House, Inc., 205 F.3d 137,
143 (4th Cir. 2000). At the same time, FIFRA provides
for expedited EPA review of applications for generic
pesticide products when the proposed “me-too”
product, as compared to the currently registered
product, (1) “would be identical or substantially
similar in composition and labeling” or (2) would
“differ in composition and labeling” “only in ways that
would not significantly increase the risk of

21a
unreasonable adverse effects on the environment.” 7
U.S.C. § 136a(c)(3)(B)(i)(I) (emphasis added).
In finding that FIFRA precluded copyright
claims against me-too applicants, the district court
relied on its understanding that “FIFRA
contemplates that a ‘me-too’ applicant will copy from
the original pesticide label in ways that would
otherwise infringe a copyright.” J.A. 33. But while use
of FIFRA’s expedited generic pathway is premised on
similarity to a registered product, the text of § 136
does not require a me-too applicant to ensure that its
product label is identical to a registered label; nor
does it require applicants to otherwise derive the
elements of its label from that of the registered label.
Rather, the statute provides for expedited review so
long as any differences between the proposed and
registered products “would not significantly increase
the risk of unreasonable adverse effects on the
environment”—a substantive criterion evaluated by
the EPA under its technical expertise. 7 U.S.C.
§ 136a(c)(3)(B)(i)(I).
This is significant because copyright
infringement requires, at a minimum, some copying
of protected elements from the copyrighted work,
which does not include “any idea, procedure, process,
system, method of operation, concept, principle, or
discovery” embodied by the work. 17 U.S.C. § 102(b);
Lyons P’ship, 243 F.3d at 801. FIFRA’s similarity
requirement does not foreclose expedited review for
an independently composed label that relies solely on
unprotected facts, concepts, and methods derived from
the registered label.
In this respect, the asserted conflict between
the Copyright Act and FIFRA differs from the conflict

22a
between the Copyright Act and the Hatch-Waxman
Act that was addressed in SmithKline, a decision
cited by the district court and Willowood. SmithKline
Beecham Consumer Healthcare, L.P. v. Watson
Pharms., Inc., 211 F.3d 21 (2d Cir. 2000). There, the
Second Circuit found that the Hatch-Waxman Act
“not only permit[s] but require[s] producers of generic
drugs to use the same labeling as was approved for,
and is used in, the sale of the pioneer drug.”4 Id. at 25
(emphasis added). In these circumstances, the court
concluded that generic applicants faced a doublebind: “if [the plaintiff’s] copyright claim has merit,
then [the defendant] cannot realistically use the
ANDA process to sell its [generic product] because it
will either have to change the label and lose FDA
approval or be enjoined from using a label that
infringes [the plaintiff’s] copyright.” Id. at 27. Thus,
the court found it “obvious” that Congress intended
for the Hatch-Waxman Act to “trump the copyright
laws.” Id. at 29. Here, in contrast, FIFRA’s express
allowance for differences between the proposed and
registered labels allows me-too applicants to avoid
this conflict by using an independently created label.
Willowood and 41 Companies Holding Generic
EPA Pesticide Registrations (“Generics Amici”)
counter that there are nonetheless practical and
regulatory constraints that frustrate their reasonable
attempts to comply with the requirements of both the
The Hatch-Waxman Act requires that, except for
changes related to the manufacturer name or approved
difference in the drug, “[a]n abbreviated application for a new
drug shall contain . . . (v) information to show that the labeling
proposed for the new drug is the same as the labeling approved
for the listed drug . . . .” 21 U.S.C. § 355(j)(2)(A) (emphases
added).
4

23a
Copyright Act and expedited review under FIFRA.
We disagree that these concerns alone warrant
preclusion. To begin with, Generics Amici contend
there are “only so many ways to express the same
instructions and warnings” contained in many
portions of these pesticide labels, such that any
attempt to capture the pertinent information will
inevitably require using substantially the same
expressions. Generics Amici Br. at 8 (emphasis in
original); see also Appellee’s Br. at 23-25. But this is
precisely the type of problem addressed by the
traditional copyright doctrine of merger, under which
courts have declined to protect against copying when
an underlying fact, procedure, or idea can be
expressed in so few ways that “protection of the
expression would effectively accord protection to the
idea itself.” Kregos v. Associated Press, 937 F.2d 700,
705 (2d Cir. 1991); see also Morrissey v. Procter &
Gamble Co., 379 F.2d 675, 678 (1st Cir. 1967) (“When
the uncopyrightable subject matter is very narrow, so
that the topic necessarily requires, if not only one
form of expression, at best only a limited number, to
permit copyrighting would mean that a party or
parties, by copyrighting a mere handful of forms,
could exhaust all possibilities of future use of the
substance.” (internal citations and quotation marks
omitted)). Thus, copyright law has its own solution for
the constraints inherent in the expression of certain
information contained in pesticide labels.
Willowood raises a more difficult problem with
respect to portions of a registered label for which
the EPA has allegedly required me-too applicants to
copy otherwise protectable elements from the
registered label on the grounds that any differences
may adversely affect the environment by confusing

24a
users.5 For example, Willowood contends that when it
sought to revise the directions for use in its own label
from the four-column table format used by Syngenta
to a narrative form, the EPA required Willowood to
reinstate the information in a table, essentially
requiring Willowood to copy Syngenta’s format.
Appellee’s Br. at 24 (citing J.A. 3129-3200 (Azoxy 2.08
SC Label); J.A. 3201-3339 (AzoxProp Xtra label)). But
this is a predicament appropriately addressed, at
least in the first instance, under copyright law’s own
“equitable rule of reason”: the fair use doctrine. Sony
Corp. of Am. v. Universal City Studios, Inc., 464 U.S.
417, 448 (1984) (quoting H. Rep. No. 94–1476, at 65–
66, reprinted in 1976 U.S.C.C.A.N. 5659, 5679).
Under that established framework, the district court
can assess, based on factors such as the character of
the allegedly creative elements, their substantiality
in the context of the labels as a whole, and the nature
and effect of their use by Willowood, whether the
presence of those elements in Willowood’s generic
labels would fairly constitute infringement in
violation of the Copyright Act.6
Thus, we vacate the district court’s grant of
summary judgment on Syngenta’s copyright claims
and remand for further consideration. On remand,
5
This is distinct from portions of the registered
label where the language was originally mandated or suggested
by the EPA. Syngenta has disclaimed any copyright protection
over those label elements. Appellant’s Reply Br. at 11.

The Copyright Act expressly identifies the
following non-exhaustive factors to be considered in assessing
fair use: “(1) the purpose and character of the use . . . ; (2) the
nature of the copyrighted work; (3) the amount and
substantiality of the portion used in relation to the copyrighted
work as a whole; and (4) the effect of the use upon the potential
market for or value of the copyrighted work.” 17 U.S.C. § 107.
6

25a
the district court should first discern whether the
Copyright Act, as interpreted under existing
copyright doctrines, would prohibit Willowood’s use of
any portion of Syngenta’s label. The district court
should, for instance, consider whether the fair-use
doctrine or limits on copyrightable subject matter,
such as the merger doctrine, would eliminate
infringement. Only if the district court concludes that
the Copyright Act would in fact prohibit Willowood’s
conduct in a manner inconsistent with the purposes
of FIFRA should it revisit the question of whether and
to what extent FIFRA precludes Syngenta’s copyright
claims for any part of its pesticide labels. It is possible
that after a full assessment of the requirements of
copyright law and FIFRA as applied in this case,
there may come to light a truly irreconcilable conflict
between Copyright Act liability and implementation
of FIFRA. In the absence of a clear facial conflict,
however, we decline to wield the blunt tool of
preclusion before the full factual and legal contours of
any latent problem have been examined.
III. Infringement Under 35 U.S.C. § 271(g)
Syngenta next challenges the district court’s
interpretation of 35 U.S.C. § 271(g). The district court
interpreted § 271(g) to require that all steps of a
patented process be performed by or at the direction
or control of a single entity before infringement
liability under that section can attach. Summary
Judgment Order, 2017 WL 1133378, at *5. Syngenta
contends that the district court’s interpretation of
§ 271(g) is contrary to the plain language of the
statute and Congress’s intent expressed in the
legislative history. Appellant’s Br. 41–46. The amici
add to this argument by asserting that the district

26a
court’s interpretation is inconsistent with the
broader context of the statute as a whole and the
purpose behind § 271(g), and creates an impossible
evidentiary burden on the patent owner. See Amicus
NYPLA Br. 10–14; Amici Biotechnology & CropLife
Br. 8–14; 17–23. This is an issue of first impression.
We conclude that the district court erred by imposing
a single-entity requirement under § 271(g).
“As in all statutory construction cases, we
begin with the language of the statute.” Barnhart v.
Sigmon Coal Co., 534 U.S. 438, 450 (2002). The
meaning of statutory language “is determined by
reference to the language itself, the specific context in
which that language is used, and the broader context
of the statute as a whole.” Robinson v. Shell Oil Co.,
519 U.S. 337, 340 (1997). If the statutory language
does not clearly resolve the disputed issue, we also
consider the legislative history to determine
Congressional intent. Burlington N. R. Co. v.
Oklahoma Tax Comm’n, 481 U.S. 454, 461 (1987); In
re Swanson, 540 F.3d 1368, 1376 (Fed. Cir. 2008)
(citing Timex V.I. v. United States, 157 F.3d 879, 882
(Fed. Cir. 1998), and Deluxe Corp. v. United States,
885 F.2d 848, 850 (Fed. Cir. 1989)).
The resolution of this issue turns on the nature
of the infringing acts covered by § 271(g). Section
271(g) provides in relevant part that “[w]hoever
without authority imports into the United States or
offers to sell, sells, or uses within the United States a
product which is made by a process patented in the
United States shall be liable as an infringer.” 35
U.S.C. § 271(g) (2012). This language makes clear
that the acts that give rise to liability under § 271(g)
are the importation, offer for sale, sale, or use within

27a
this country of a product that was made by a process
patented in the United States. Id. Nothing in this
statutory language suggests that liability arises from
practicing the patented process abroad. Rather, the
focus is only on acts with respect to products resulting
from the patented process. Thus, because the
statutory language as a whole is clear that practicing
a patented process abroad cannot create liability
under § 271(g), whether that process is practiced by a
single entity is immaterial to the infringement
analysis under that section.
The context of the statute as a whole also
supports our conclusion. Section 271(a) states that
“whoever without authority makes, uses, offers to sell,
or sells any patented invention, within the United
States or imports into the United States any patented
invention during the term of the patent therefor,
infringes the patent.” 35 U.S.C. § 271(a). Derived from
this statutory language is the single-entity
requirement under § 271(a), which limits direct
infringement liability only to circumstances “where
all steps of a claimed method are performed by or
attributable to a single entity.” Akamai Techs., 797
F.3d at 1022; BMC Res., Inc. v. Paymentech, L.P., 498
F.3d 1373, 1379–81 (Fed. Cir. 2007).
On the basis of this court’s § 271(a)
jurisprudence, the district court concluded that §
271(g) similarly imposes a single-entity requirement
on the performance of a patented process. Summary
Judgment Order, 2017 WL 1133378, at *5 (citing
Akamai, 797 F.3d at 1022). This conclusion was
erroneous because infringement liability under the
two sections is distinct. In contrast to § 271(g), the act
that gives rise to liability under § 271(a) occurs when

28a
“a party . . . make[s], use[s], sell[s], or offer[s] to sell
the patented invention, meaning the entire patented
invention.” BMC, 498 F.3d at 1380. Under this
precedent, direct infringement under § 271(a) of a
process patent occurs only when a single party
practices every step of the claimed process. Id.; see
also 35 U.S.C. § 271(a) (infringement occurs when
“whoever without authority makes, uses, offers to sell,
or sells . . . or imports . . . any patented invention”
(emphasis added)). As discussed above, however,
liability under § 271(g) is not predicated on practicing
the claimed process, but rather on importing, offering
for sale, selling, or using a product. See 35 U.S.C.
§ 271(g) (infringement occurs when “whoever without
authority imports . . . or offers to sell, sells, or uses . . .
a product” (emphasis added)). Thus, the single-entity
requirement, which is necessary for direct
infringement liability under § 271(a), has no
application to acts that do not constitute infringement
under § 271(g).
On the same basis we reject Willowood’s
argument that the Supreme Court’s Limelight
decision requires us to apply the single-entity rule to
§ 271(g). Willowood asserts that the Court in that case
applied “the single entity rule to allegations of both
direct and indirect infringement under [§] 271(a) and
(b).” Appellee’s Br. 29 (citing Limelight Networks, Inc.
v. Akamai Techs., Inc., 572 U.S. 915, 921–22 (2014)).
Willowood argues that because “§ 271(g) is simply
another form of direct infringement,” we are bound by
the Limelight decision to apply the single-entity rule
to § 271(g). Id. We disagree.
Willowood fundamentally misunderstands the
nature of the act that gives rise to liability under

29a
§ 271(g). Although § 271(g) may involve a form of
direct liability, that liability does not arise from
practicing a patented process abroad. Limelight is
further inapposite because the statute at issue in
Limelight—§ 271(b)—predicates induced infringement
liability on the existence of direct infringement.
35 U.S.C. § 271(b) (“Whoever actively induces
infringement of a patent shall be liable as an
infringer.” (emphasis added)); Limelight, 572 U.S. at
921. Because direct infringement under § 271(a)
requires a single entity to perform all of the claimed
steps, the Supreme Court explained that where
“performance of all the patent’s steps is not
attributable to any one person[,] . . . . there has been
no direct infringement,” and consequently “no
inducement of infringement under § 271(b).” Id. at
922. By contrast, infringement liability under § 271(g)
is not predicated on direct infringement of the
patented process, and we will “not read into the
patent laws limitations and conditions which the
legislature has not expressed.” Diamond v. Diehr, 450
U.S. 175, 182 (1981) (quoting Diamond v.
Chakrabarty, 447 U.S. 303, 308 (1980)).
Section 271(f) reinforces our conclusion.
Section 271(f) creates liability for induced
infringement when a party “supplies or causes to be
supplied in or from the United States all or a
substantial portion of the components of a patented
invention . . . in such manner as to actively induce the
combination of such components outside of the United
States in a manner that would infringe the patent if
such combination occurred within the United States.”
35 U.S.C. § 271(f)(1) (2012) (emphasis added). If
Congress intended to limit liability under § 271(g) to
instances where the patented process was practiced

30a
in a manner that would infringe the patent if such
practice occurred within the United States—such as
it did by requiring a single entity to perform the entire
process under § 271(a)—it “kn[ew] precisely how to do
so.” Limelight, 572 U.S. at 923. Congress, however,
did not do so, even though § 271(g) was enacted four
years after § 271(f). See Microsoft Corp. v. AT & T
Corp., 550 U.S. 437, 441 (2007); Kinik Co. v. Int’l
Trade Comm’n, 362 F.3d 1359, 1362 (Fed. Cir. 2004).
“Where Congress includes particular language in one
section of a statute but omits it in another section of
the same Act, it is generally presumed that Congress
acts intentionally and purposely in the disparate
inclusion or exclusion.” Rodriguez v. United States,
480 U.S. 522, 525 (1987) (quoting Russello v. United
States, 464 U.S. 16, 23 (1983)) (internal alterations
and quotation marks omitted). The Supreme Court
has warned that “courts should not create liability
for . . . non-infringing conduct where Congress has
elected not to extend that concept.” Limelight, 572
U.S. 923. We heed this warning.
Willowood asserts that the inclusion of the
phrase “if such combination occurred within the
United States” in § 271(f) but not in § 271(g)
demonstrates that Congress did not intend for
§ 271(g) to extend the scope of patent protection
outside the United States to include conduct that
would
not
constitute
direct
infringement
domestically—such as the divided practice of a
patented process by more than one entity. Appellee’s
Br. 41–42. We agree with this proposition but reject
Willowood’s conclusion that the absence of that
phrase necessitates the application of the singleentity requirement to § 271(g). As explained above,
practicing a patented process abroad does not give

31a
rise to infringement liability under § 271(g). Thus, our
conclusion that a single entity need not perform every
step of a patented process abroad under § 271(g) does
not extend patent protection to cover extraterritorial
conduct that would not otherwise trigger liability
within the United States. Rather, it is Willowood who
asks us to impermissibly apply § 271(g) to
extraterritorial conduct by attempting to shift the
focus of the statute from domestic acts of importation,
offer for sale, sale, or use of a product to cover a
foreign act of practicing a patented process. See
WesternGeco LLC v. ION Geophysical Corp., 138 S.
Ct. 2129, 2137 (2018) (“If the conduct relevant to the
statute’s focus . . . . occurred in another country, ‘then
the case involves an impermissible extraterritorial
application regardless of any other conduct that
occurred in U.S. territory.’” (quoting RJR Nabisco,
Inc. v. European Cmty., 136 S. Ct. 2090, 2094 (2016))).
We are not inclined to do so.
Other sections of Title 35 add support to our
conclusion that infringement under § 271(g) is not
predicated on a single entity practicing a patented
process abroad. For example, § 287(b), which limits
available damages under § 271(g), states that “[t]he
modifications of remedies provided in this subsection
shall not be available to any [infringer under § 271(g)]
who . . . had knowledge before the infringement that a
patented process was used to make the product the
importation, use, offer for sale, or sale of which
constitutes the infringement.” 35 U.S.C. § 287(b)(1)(C)
(2012) (emphasis added). This language makes clear
that the act of infringement under § 271(g) occurs
after a patented process has already been used.
Thus, because practicing a patented process does not
trigger liability under § 271(g), it is immaterial

32a
whether that process is practiced by more than a
single entity. Additionally, § 287(b) limits available
remedies under § 271(g) in certain circumstances
where the manufacturer of a product made by a
patented process “is not known.” See 35 U.S.C.
§§ 287(b)(3)(B)(iii); 287(b)(4)(A)(iii); 287(b)(5)(C)(i)
(2012). It would not have made sense for Congress to
make infringement liability under § 271(g) contingent
on a single entity practicing a patented process while
expressly providing limitations on that liability where
it is unknown which manufacturer—or how many—
practiced the process.
The legislative history is instructive. A Senate
Report
accompanying
the
Process
Patents
Amendments Act of 1987, the bill that enacted
§ 271(g), states that the purpose of the statute is to
provide a remedy “when someone, without
authorization, uses or sells in the United States, or
imports into the United States a product made by
their patented process.” S. Rep. 100-83, at 29 (1987).
The Report makes clear that § 271(g) was enacted to
“extend protection to the products” resulting from
practicing a patented process and to “prevent
circumvention of a U.S. process patentee’s rights
through manufacture abroad and subsequent
importation into the United States of products made
by the patented process.” Id. at 46, 48 (emphasis
added); see also id. at 30 (stating that § 271(g) would
“protect against the entry into the U.S. marketplace
of goods made abroad without authorization from the
inventor”). Even Willowood concedes that the
legislative history’s clear “focus is on the importation
of products,” rather than on the use of a patented
process. Appellee’s Br. 31 The Report also clarifies
that § 271(g) “does not attempt to prevent the use of

33a
the process in another country.” S. Rep. 100-83, at 30
(emphasis added); see also id. at 48. The Report
explains that a “U.S. process patentholder [that] has
not obtained a similar patent in the other country . . .
has no right by virtue of his U.S. patent to prevent
anyone from using the process in that country.” S.
Rep. 100-83, at 30. Thus, because simply practicing a
patented process abroad does not come within the
ambit of § 271(g), that there may be several entities
involved in practicing the process is immaterial to the
infringement analysis under § 271(g).
Willowood argues that in enacting § 271(g),
Congress intended to provide patentees with “the
same protection against overse[a]s infringers as they
already enjoyed against domestic entities.” Appellee’s
Br. 30 (quoting Mycogen Plant Sci., Inc. v. Monsanto
Co., 252 F.3d 1306, 1318 (Fed. Cir. 2001), judgment
vacated on other grounds, 535 U.S. 1109 (2002))
(emphasis removed). On this basis, Willowood
contends that because direct infringement of a
process patent under § 271(a) requires the same
entity to perform all of the claimed steps, the same
must be true under § 271(g). Id. at 30–31. We
disagree.
The statutory language and legislative history
described above make clear that practicing a patented
process abroad does not trigger liability under
§ 271(g) in the same manner that practicing a
patented process domestically does under § 271(a).
Section 271(a) covers all patented processes, whether
or not they result in a product. Infringement under
§ 271(g) instead requires importation, sale, offer for
sale, or use within the United States of a product
made by a patented process. The different scope of

34a
protection offered under § 271(a) and § 271(g)
demonstrates that there is no inconsistency between
the two sections. The legislative history further
demonstrates that Congress did not enact § 271(g) to
provide for identical rights to those enjoyed by
patentees under § 271(a) with respect to process
patents. Rather, Congress made clear that § 271(g) “is
prompted by the use of patented processes in other
countries followed by the importation of the resulting
products into this country,” and simply “extend[s]
protection to the products” made by such processes. S.
Rep. 100-83 at 46.
Lastly, applying a single-entity requirement to
the practice of a patented process under § 271(g)
would impose an undue evidentiary burden on
patentees that is contrary to the intent of Congress.
Congress recognized “the great difficulties a patentee
may have in proving that the patented process was
used in the manufacture of the product in question”
where the manufacture occurred abroad. Id. at 57. As
a solution, Congress provided for a rebuttable
presumption in § 295 that shifted the burden to the
accused infringer to prove that the patented process
was not used in manufacturing the accused products.
See 35 U.S.C. § 295. Congress would not have on the
one hand recognized the difficulty in determining how
a product was manufactured, and on the other hand
concluded that determining who manufactured the
product would be an easy exercise so as to require
patentees to prove that a single manufacturer
practiced the claimed process.
We hold that in light of the plain language of
the statute, the broader context of the statutory
scheme as a whole, and the legislative history,

35a
§ 271(g) does not require a single entity to perform all
of the steps of a patented process for infringement
liability to arise from the importation into the United
States or offer to sell, sale, or use within the United
States of a product made by a process patented in the
United States.
It is undisputed that Willowood USA imported
into the United States an azoxystrobin compound
that was manufactured abroad using the process
patented by the ’138 patent. Summary Judgment
Order, 2017 WL 1133378, at *5. We therefore reverse
the district court’s judgment that Willowood USA did
not infringe the ’138 patent under § 271(g). The jury
found, however, that Willowood China did not import
into the United States or sell or offer for sale in the
United States the azoxystrobin compound at issue,
and as discussed below, substantial evidence supports
this finding. We therefore affirm the district court’s
judgment that Willowood China did not infringe the
’138 patent under § 271(g). Because neither the jury
nor the district court made any findings concerning
Willowood LLC’s role, if any, with respect to the
azoxystrobin compound made using the process
claimed in the ’138 patent, we vacate the district
court’s judgement that Willowood LLC did not
infringe the ’138 patent under § 271(g) and remand
for further proceedings.
IV. Infringement by Willowood China
Syngenta argues that the district court erred as
a matter of law by denying its JMOL motion and
entering judgment in favor of Willowood China on the
issues of infringement of the Compound Patents and

36a
the ’761 patent.7 Syngenta contends that substantial
evidence does not support the jury’s verdict that
Willowood China did not sell or import azoxystrobin
within the United States. Syngenta points to evidence
it presented that Willowood China “agreed to be ‘the
exclusive seller’” of Tai He’s azoxystrobin within the
United States and continued to sell azoxystrobin to
Willowood USA after 2013. Appellant’s Br. 63.
Syngenta argues that the fact that Willowood China’s
sale of azoxystrobin to Willowood USA was made
“f.o.b. China” is not determinative, because “a sale can
take place in more than one location.” Appellant’s
Reply Br. 36. Syngenta also contends that Willowood
China imported azoxystrobin into the United States,
pointing to evidence in the record that Willowood
China coordinates the shipping from China to the
United States, pays freight charges, and makes delivery
arrangements. Appellant’s Br. 63; Appellant’s Reply Br.
34–35. We are not persuaded by Syngenta’s arguments.
The question before us is not whether
substantial evidence supports Syngenta’s position but
whether substantial evidence supports the jury’s
verdict. See Regents of Univ. of California v. Broad
Inst., Inc., 903 F.3d 1286, 1294 (Fed. Cir. 2018) (“We
do not reweigh the evidence. It is not our role to ask
whether substantial evidence supports fact-findings
not made . . . , but instead whether such evidence
On the issue of Willowood China’s alleged
infringement of the Compound Patents, Syngenta appeals both
the district court’s denial of its motion for summary judgment
and its post-verdict motion for JMOL. See Appellant’s Br. 58–68.
A district court’s denial of summary judgment is not appealable
after a trial on the merits. Ortiz v. Jordan, 562 U.S. 180, 183–84
(2011); Function Media, L.L.C. v. Google, Inc., 708 F.3d 1310,
1322 (Fed. Cir. 2013). We therefore limit our review to
Syngenta’s appeal of the district court’s denial of JMOL.
7

37a
supports the findings that were in fact made.”). Here,
the jury heard evidence that because the shipment of
azoxystrobin was marked “f.o.b. China,” legal title
passed from Willowood China to Willowood USA in
Hong Kong. See J.A. 6794. The jury also heard
evidence that Willowood USA is responsible for
clearing the shipments of azoxystrobin through
customs in United States and for registering the
fungicide with the EPA. J.A. 6795. In addition,
Willowood presented testimony that Willowood USA
reimburses Willowood China for the freight charges,
and the jury saw Willowood’s invoices stating that
Willowood USA assumes the entire liability for the
shipment of azoxystrobin from China to the United
States. See id.; J.A. 8225–27.8 We conclude that this is
substantial evidence that supports the jury’s findings
that Willowood China did not infringe the Compound
Patents because it sold azoxystrobin in China and did
not import azoxystrobin into the United States.
Syngenta also contends that even if Willowood
China did not infringe the Compound Patents, the
jury found that Willowood China infringed the ’761
patent. Syngenta points to the jury’s finding that “the
Defendants” did not prove that Willowood’s
azoxystrobin was not manufactured using DABCO
within the range claimed by the ’761 patent and the
jury’s award of damages for infringement of the ’761
patent by “the Defendants.” Appellant’s Br. 68 (citing
J.A. 267). Syngenta asserts that “the Defendants”
Willowood’s counsel confirmed at Oral
Argument that Willowood USA is the importer of record and
assumes the risk of shipment. Oral Arg. at 22:29–22:31,
http://oralarguments.cafc.uscourts.gov/de-fault.aspx?fl=20181614.mp3 (“The importer of record is Willowood USA.”); id. at
23:16–23:19 (“Willowood USA assumes liability.”).
8

38a
referred to all Willowood entities collectively, including
Willowood China, and contends that Willowood waived
any argument to the contrary by failing to object to
the wording of the jury verdict form. Id. at 68, 71–72;
see also Appellant’s Reply Br. 39–42. Syngenta argues
that the question on the jury verdict form regarding
Willowood China’s importation or sale of azoxystrobin
applied only to the issue of infringement of the
Compound Patents, not the ’761 patent, and the
district court erred by linking the two issues.
Appellant’s Br. 69–72; Appellant’s Reply Br. 39–42.
We disagree.9 As we discussed above,
substantial evidence supports the jury’s finding that
Willowood China did not import azoxystrobin into the
United States or sell or offer for sale azoxystrobin
within the United States. The district court was thus
correct to find that Willowood China did not infringe
the ’761 patent. J.A. 6489. To the extent there was
any ambiguity in the jury verdict form, we have held
that district courts enjoy “broad discretion to
interpret an ambiguous verdict form, because district
courts witness and participate directly in the jury
trial process.” Telcordia Techs., Inc. v. Cisco Sys., Inc.,
612 F.3d 1365, 1378 (Fed. Cir. 2010); see also Prism
Techs. LLC v. Sprint Spectrum L.P., 849 F.3d 1360,
1377 (Fed. Cir. 2017).
In light of the foregoing, we conclude that the
district court did not err by denying Syngenta’s JMOL
motion with respect to infringement of the Compound
We reject Syngenta’s waiver argument because
we “have the discretion to consider issues not raised below ‘as
justice may require.’” Ninestar Tech. Co. v. Int’l Trade Comm’n,
667 F.3d 1373, 1382 (Fed. Cir. 2012) (quoting Hormel v.
Helvering, 312 U.S. 552, 555–59 (1941)).
9

39a
Patents and the ’761 patent and entering judgment in
favor of Willowood China on these issues.
V. Willowood’s Cross-Appeal
Willowood conditionally cross-appeals the
district court’s denial of its motion to exclude the
testimony of Syngenta’s expert concerning damages
for infringement of the Compound Patents. CrossAppellant’s Br. 56–66. Syngenta responds that
Willowood’s cross-appeal is procedurally improper
because it does not seek to expand the scope of the
judgment below. Appellant’s Resp. Br. 49–51. We
need not decide these issues because Willowood’s
cross-appeal is conditional on our reversal of the
judgment concerning the Compound Patents, and we
affirm the district court in that respect.
CONCLUSION
We have considered the parties’ remaining
arguments and find them unpersuasive. We conclude
that the district court did not provide an adequate
analysis of the potential conflict between FIFRA and
the Copyright Act for us to determine whether such a
conflict truly exists. We also conclude that the district
court erred by imposing a single-entity requirement
on the performance of a patented process under
§ 271(g). We agree with the district court in all other
respects. We therefore affirm-in-part, reverse-in-part,
vacate-in-part, and remand for further proceedings
consistent with this opinion.
AFFIRMED-IN-PART, REVERSED-IN-PART,
VACATED-IN-PART, AND REMANDED
COSTS
Each party shall bear its own costs.

40a
[ENTERED: April 10, 2017]
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF NORTH CAROLINA
SYNGENTA CROP
PROTECTION, LLC,

)
)
)
Plaintiff,
)
)
v.
)
)
WILLOWOOD, LLC, et al., )
)
Defendant.
)

1:15-CV-00274

ORDER
Syngenta Crop Protection, LLC has sued four
affiliated companies, denominated collectively here as
Willowood,
claiming
patent
and
copyright
infringement. Because the Federal Insecticide
Fungicide and Rodenticide Act (FIFRA) precludes
copyright protection for the required elements of
pesticide labels as against the labels of me-too
registrants, the Court will grant summary judgment
to Willowood on Syngenta’s copyright claims. Cf.
SmithKline Beecham Consumer Healthcare, LP.
v.Watson Pharm., Inc., 211 F.3d 21, 29 (2d Cir. 2000)
(holding that the Hatch-Waxman Act precludes
copyright protections for prescription drug labels as
against generic drug manufacturers).
The Court appreciates the analysis of FMC
Corp. v. Control Solutions, Inc., 369 F. Supp. 2d 539,
555-71 (E.D. Pa. 2005), but finds it unconvincing.
FIFRA contemplates that a “me-too” applicant will
copy from the original pesticide label in ways that

41a
would otherwise infringe a copyright. 7 U.S.C.
§ 136a(c)(3)(B)(i)(I). Even with some changes, use of
the original pesticide label as a “go by” for the new
label will result in copyright infringement. See 17
U.S.C. § 106; Lyons P’ship, L.P. v. Morris Costumes,
Inc., 243 F.3d 789, 801 (4th Cir. 2001) (discussing
substantially similar standard for copyright
infringement). In enacting FIFRA, Congress intended
a narrow exception to copyright protection for the
required elements of pesticide labels as against metoo registrants.
Syngenta has moved to exclude an expert
report from Steven Schatzow and declarations from
Gerald Simmons, Lois Rossi, Debra Edwards, and
Janelle Kay, all offered by Willowood in its defense of
Syngenta’s copyright claims. Because the Court is
granting the summary judgment motion on legal
grounds unrelated to the proffered evidence, the
Court has not considered this evidence and concludes
that these evidentiary motions are moot.
It is ORDERED that the Willowood’s motion
for summary judgment, Doc. 87, is GRANTED in
part as to Counts V and VI and Syngenta’s copyright
claims are dismissed. It is further ORDERED that
Syngenta’s motions to exclude Mr. Schatzow’s report,
Doc. 90, and certain declarations, Doc. 106, are
DENIED as moot.
This the 10th day of April, 2017.
/s/
UNITED STATES DISTRICT JUDGE

42a
[ENTERED: March 24, 2017]
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF NORTH CAROLINA
SYNGENTA CROP
PROTECTION, LLC,

)
)
)
Plaintiff,
)
)
v.
)
)
WILLOWOOD, LLC, et al., )
)
Defendants.
)

1:15-CV-274

MEMORANDUM OPINION AND ORDER
Catherine C. Eagles, District Judge.
Syngenta Crop Protection, LLC has sued four
affiliated companies denominated collectively here as
Willowood,1
alleging
patent
and
copyright
infringement. Syngenta contends Willowood has
infringed its patents in connection with the
manufacture and sale of Willowood’s Azoxy 2SC,
AzoxyProp Xtra, and Tebustrobin SC products and
has infringed its copyrights by verbatim copying of
Syngenta product labels. Syngenta seeks partial
summary judgment on Counts I through IV, asserting
that its 5,602,076 Patent, 5,633,256 Patent, 5,847,138
Patent, and 8,124,761 Patent are valid and that
Willowood infringed the patents. Syngenta makes
The defendants are Willowood, LLC; Willowood USA,
LLC; Willowood Azoxystrobin, LLC; and Willowood Limited.
Where it is necessary to distinguish between the defendants,
these companies are referenced individually as W-LLC, W-USA,
and W-Ltd.
1

43a
related evidentiary objections to opinion testimony by
the defendant’s expert Dr. Mark A. Lipton.2
Willowood seeks summary judgment on Count IV,
asserting that its products do not infringe the ‘761
Patent as a matter of law, and on Counts V and VI,
asserting that Syngenta does not have a valid
copyright and that its copying constituted fair use.
The Court will grant in part and deny in part
Syngenta’s motion for summary judgment and will
deny Willowood’s motion for summary judgment as to
Count IV. The Court retains under advisement
Willowood’s motion for summary judgment as to
Counts V and VI, which will be resolved by separate
order.
I.

Facts

The following facts are undisputed. Syngenta
holds several patents protecting azoxystrobin, a
fungicidal compound used to protect various crops,
and the process for making it.3 The ‘076 and ‘256
Patents expired on February 11, 2014, and the ‘138
Patent expired on December 8, 2015. Doc. 96-1 ¶¶ 29,
30. The ‘761 Patent will expire in April 2029. Id. at ¶
31. Willowood sells generic versions of crop-protection
2 Syngenta has objected to other expert testimony and
related declarations, which the Court will address in separate
orders.

See Doc. 12 at ¶¶ 20-21; Doc. 96-1 at ¶¶ 29-31; Doc. 1-8
(the ‘076 Patent); Doc. 1-9 (the ‘256 Patent); Doc. 1-10 (the ‘138
Patent); Doc. 1-11 (the ‘761 Patent). All citations in this opinion
are to the ECF docket and page numbers, or where appropriate
internal paragraph designations, except for deposition
transcripts, where citations are to the ECF docket number and
the deposition page and line numbers provided by the court
reporter.
3

44a
products, including the generic azoxystrobin
fungicides Azoxy 2SC and AzoxyProp Xtra. Doc. 12 at
¶¶ 73, 75; Doc 16 at ¶¶ 4, 8. Willowood and Syngenta
use azoxystrobin technical, a relatively pure form of
the chemical compound azoxystrobin, as the active
ingredient in their azoxystrobin fungicides. Doc. 96-1
¶¶ 34-35; Doc. 12 at ¶ 37 (admitting allegation in Doc,
1 at ¶ 37).
II.

Count I (the ‘076 Patent) and Count II (the
‘256 Patent)

Syngenta moves for summary judgment on
these two counts, contending that the evidence shows
that the two patents are valid and that Willowood
infringed the patents. The Court views the evidence
in the light most favorable to Willowood, the nonmoving party, as is appropriate at summary
judgment.
a.

Validity

Patents are “presumed valid,” 35 U.S.C.
§ 282(a), unless the defendant can show invalidity by
clear and convincing evidence. Microsoft Corp. v. i4i
Ltd. P’ship, 564 U.S. 91, 95 (2011); Insite Vision Inc.
v. Sandoz, Inc., 783 F.3d 853, 858 (Fed. Cir. 2015).
Willowood presents no evidence of invalidity for
either the '076 or ‘256 Patents. Doc. 137 at 17:1318:15. The Court will grant summary judgment for
Syngenta on this issue.
b.

Infringement
i.

Relevant Facts

The ‘076 and ‘256 Patents claim a group of
chemical compounds, which include azoxystrobin.
Docs. 1-8, 1-9; Doc. 96-1 at ¶¶ 74, 87. In 2013, W-Ltd

45a
bought five kilograms of azoxystrobin technical from
its Chinese supplier, Yangcheng Tai He Chemicals
Corp., (“Tai He”), and sold it to W-USA. See Doc. 137
at 41:12-:15; Doc. 105 at 6-7 n.3; Doc. 15 at ¶ 6. WUSA imported the five kilograms of azoxystrobin
technical into the United States before the expiration
of the two patents. Doc. 96-7 at 3; Doc. 96-9 at 5, 6. WLLC commissioned Adjuvants Unlimited, Inc. to
formulate fungicides using azoxystrobin technical
and to create product samples. See Doc. 137 at 26:3:7. W-LLC then commissioned Analytical &
Regulatory Chemistry, Inc. (ARC) to analyze the
product samples for its EPA applications. Doc. 96-7 at
3; Doc. 96-10 at 41:21-42:10. Before performing these
studies, and before importing the azoxystrobin
technical, Willowood knew of the ‘076 and ‘256
Patents and knew that these activities would likely
infringe the patents. See Doc. 96-7 at 3; Doc. 96-10 at
305:11-:18.
ii.

Direct Infringement by WUSA and W-Ltd

Anyone who “makes, uses, offers to sell, or sells
any patented invention, within the United States or
imports into the United States any patented
invention” without the patent holder’s permission has
infringed the patent. 35 U.S.C. § 271(a).
Willowood concedes that in 2013. W-USA
infringed the ‘076 and ‘256 Patents by importing five
kilograms of azoxystrobin technical into the United
States. Doc. 96-9 at 5, 6. The Court will grant
summary judgment against W-USA on these two
counts.

46a
Willowood also concedes that W-Ltd sold
azoxystrobin technical to W-USA, which is located in
Roseburg, Oregon. See Doc. 15 at ¶ 6; Doc. 16 at ¶ 3.
Willowood asserts that the sale did not infringe
because the shipment of azoxystrobin technical “FOB
China” by W-Ltd, a Hong Kong company, was not a
sale “within the United States” under § 271(a). See
Doc. 15 at ¶ 3, 6; Doc. 137 at 18:16-:19.
Free on board or “FOB” is a shipping term that
indicates when in the delivery process title transfers
from the buyer to the seller. Litecubes, LLC v. N.
Light Prods., Inc., 523 F.3d 1353, 1.358 n. 1 (Fed. Cir.
2008). “FOB China” means that title transferred to
the buyer, W-USA, when the seller, W-Ltd, conveyed
the goods to the shipper in China. See id. at 1358 n.1,
1369.
In analyzing where a sale took place, the Court
should not “exalt form over substance. Id. at 1370
(quoting N. Am. Philips Corp. v. Am. Vending Sales,
Inc., 35 F.3d 1576, 1579 (Fed. Cir. 1994)). When other
factors indicate an intention to sell infringing
products to customers in the United States, shipment
FOB a location abroad neither limits the place of sale
to the location from which the goods were shipped nor
precludes liability under § 271. SEB S.A. v.
Montgomery Ward & Co., Inc., 594 F.3d 1360, 1375
(Fed. Cir. 2010), aff’d sub nom. Glob.-Tech
Appliances, Inc. v. SEB S.A., 563 U.S. 754 (2011); see
also Transocean Offshore Deepwater Drilling, Inc., v.
Maersk Contractors USA, Inc., 617 F.3d 1296, 131011 (Fed. Cir. 2010). To determine the location of the
sale, the fact-finder can consider the location, of the
buyer and seller, N. Am. Philips, 35 F.3d at 1579,
“where the products were shipped from and where the

47a
products were shipped to.” SEB, 594 F.3d at 1375,
“the transfer of tangible property,” Transocean, 617
F.3d at 1311, and “the agreement by which such a
transfer t[ook] place.” Id.; see also Litecubes, 523 F.3d
at 1369.
Here, the seller, W-Ltd, was in Hong Kong,
Doc. 15 at ¶ 3, while the buyer, W-USA, was in the
United States. Doc. 16 at ¶ 3. W-Ltd shipped the
azoxystrobin technical FOB China to W-USA, for
delivery in the United States. See id. at ¶ 8; Doc. 15
at ¶ 6. There is a genuine issue of material fact on
whether the sale took place in the United States, See
SEB, 594 F.3d at 1375 (approving instructions to the
jury to consider evidence including FOB terms,
invoices with U.S. companies, and delivery to the
United States to determine the location of the sale).
Summary judgment will be denied as to whether WLtd infringed.
iii.

Indirect Infringement by WLLC

“Whoever actively induces infringement of a
patent shall be liable as an infringer.” 35 U.S.C.
§ 271(b). Induced infringement requires (1) “active
steps taken to encourage direct infringement,”
Takeda Pharm. U.S.A., Inc. v. W.-Ward Pharm. Corp.,
785 F.3d 625, 630 (Fed. Cir. 2015) (quotation
omitted), and (2) knowledge or willful blindness that
the induced acts constitute patent infringement.
Glob.-Tech Appliances, 563 U.S. at 766, 768. An active
step sufficient for induced infringement includes
causing, urging, encouraging, or aiding another to
infringe the patent. Takeda Pharm., 785 F.3d at 631

48a
n.3 (citing Tegal Corp. v. Tokyo Electron Co., Ltd., 248
F.3d 1376, 1379 (Fed. Cir. 2001)).
W-LLC commissioned Adjuvants to formulate
azoxystrobin
fungicides
from
the
imported
azoxystrobin technical and commissioned ARC to
analyze samples of the resulting end products. Doc.
137 at 20:9-: 19, 26:3-:7; Doc. 96-10 at 41:21-42:10. WLLC knew that this use of azoxystrobin technical by
Adjuvants and ARC would infringe Syngenta’s
patents. Doc. 96-10 at 305:5-:18. By commissioning
Adjuvants and ARC to undertake formulation and
analysis that required using azoxystrobin technical,
W-LLC actively induced infringement of the ‘076 and
‘256 Patents. The Court will grant summary
judgment in favor of Syngenta against W-LLC.
III.

Count III (the '138 Patent)
a.

Validity

Syngenta moves for summary judgment as to
the validity of the ‘138 Patent, which protects a
chemical process used to produce azoxystrobin
technical. Willowood proffers Dr. Lipton’s expert
opinion as evidence that the ‘138 Patent is invalid due
to obviousness, see 35 U.S.C. § 103, and asserts that
summary judgment should be denied, Syngenta
contends that Willowood’s evidence of obviousness is
insufficient to raise a disputed question of material
fact and moves to exclude Dr. Lipton’s analysis. As
noted supra, the burden to show invalidity is on the
challenger, and therefore Willowood must show by
clear and convincing evidence that at the time of the
invention, the patent’s claimed subject matter was
obvious to a person of ordinary skill in the art.

49a
Plantronics, Inc. v. Aliph, Inc., 724 F.3d 1343, 1353
(Fed. Cir. 2013). To prove obviousness, the defendant
must explicitly provide “[a] reason for combining
disparate prior art references.” InTouch Techs., Inc. v.
VGO Commc’ns, Inc., 751 F.3d 1327, 1351 (Fed. Cir.
2014); KSR Int'l Co. v. Teleflex Inc., 550 U.S. 398, 418
(2007) (requiring that arguments explicitly provide
an “articulated reasoning with some rational
underpinning” to make the asserted combinations
(quoting In re Kahn, 441 F.3d 977, 988 (Fed. Cir.
2006))).
In evaluating obviousness, an expert should
take steps “to guard against slipping into use of
hindsight and to resist the temptation to read into the
prior art the teachings of the invention in issue.”
Graham v. John Deere Co. of Kan. City, 383 U.S. 1, 36
(1966) (quotation omitted); see KSR Int’l, 550 U.S. at
421 (noting a factfinder “must be cautious of
arguments reliant upon ex post reasoning”); Insite
Vision, 783 F.3d at 859. In this case, Dr. Lipton stated
several times that “the substance of claim 6” was the
“starting point” of his obviousness analysis. Doc. 9615 at 142:8-:21, 144:5-:6. He explicitly admitted that
he started with Claim Six and worked backwards.
Doc. 96-15 at 140:7-:19.
Relying on Interactive Gift Express, Inc. v.
CompuServe Inc., 256 F.3d 1323, 1331 (Fed. Cir.
2001), Willowood contends that “an analysis of claim
validity must start with the claim itself.” Doc. 102 at
13. However, Interactive involved claim construction,
not validity, and it does not justify a hindsight
analysis. See 256 F.3d at 1331. Willowood also asserts
that Dr. Lipton only started with Claim Six to identify

50a
prior art and to understand the invention. See MPEP
§ 2145(X)(A) (9th ed. Nov. 2015). However, his
deposition belies this assertion:
Q: So as part of your invalidity analysis
you assume that someone of ordinary
skill would be interested, in the first
instance, in making compound (XV) from
compound (X), correct?
A: Since that is the substance of claim 6,
that’s my starting point.
Doc. 96-15 at 142:16-:21. Willowood points to no
explanation from Dr. Lipton indicating that he had a
reason beyond the ‘138 Patent to assume that a
person of ordinary skill would be motivated to
attempt the intermediate combinations of prior art
necessary to achieve the ‘138 Patent’s process. Dr.
Lipton analyzed obviousness using the “patent itself
as [a] roadmap” and “did not articulate reasons why a
person of ordinary skill in the art at the time of the
invention would combine” particular prior art
references. InTouch Techs., 751 F.3d at 1351; see Doc.
96-15 at 146:11-:20.
Because of the hindsight embedded in his
analysis and the lack of reasons for combining the
relevant prior art, Dr. Lipton’s expert opinion is not
the product of a reliable method and will not help the
jury determine obviousness. See Fed. R. Evid. 702;
InTouch Techs., 751 F.3d at 1351-52. The Court will
grant Syngenta’s motion to exclude this evidence.
Without any additional evidence on the validity of the
‘138 Patent, Willowood cannot meet, its burden to

51a
demonstrate obviousness.4 The Court will grant
summary judgment for Syngenta on the issue of the
validity of the ‘138 Patent.
b.

Infringement

The ‘138 Patent claims a process for preparing
a group of compounds, including azoxystrobin, by
performing an etherification step followed by a
condensation step. See Doc. 96-1 at ¶¶ 94-99, 111-13;
Doc. 1-10 at 16-17. It is undisputed that W-Ltd buys
azoxystrobin technical from Tai He and sells it to WUSA, and that W-USA imports the azoxystrobin
technical into the U.S. and uses it to formulate its end
products, which W-LLC sells to the public. Doc. 96-10
at 64:4-:15, 278:4-:14; Doc. 96-8 at 3. It further is
undisputed that the azoxystrobin technical that WLtd buys from Tai He is made overseas by a process
that contains the etherification and condensation
Willowood suggested at oral argument that even
without Dr. Lipton's testimony, it can prove invalidity through
the prosecution history. Doc. 137 at 60:10-:16 (suggesting that
the prosecution history alone could convince the jury of
obviousness). But see Doc. 137 at 50:10-:15 (conceding that Dr.
Lipton’s testimony is the only evidence of obviousness).
Willowood has since filed the prosecution history. Doc. 133-1.
Willowood has not identified the relevant portions of the history
in its briefing or explained how it supports obviousness. The
Court will not scour the record to locate evidentiary support.
Hughes v. B/E Aerospace, Inc., No. 1:12CV717, 2014 WL 906220,
at *1 n.1 (M.D.N.C. Mar. 7, 2014) (“A party should not expect a
court to do the work that it elected not to do.”); see also Ritchie
v. Glidden Co., 242 F.3d 713, 723 (7th Cir. 2001) (“[A] court is
not required to scour the record in search of evidence to defeat a
motion for summary judgment” (quotation omitted)). Since it
was not raised in the briefing, Syngenta has not had an
opportunity to address Willowood's argument. Consequently the
Court has not considered the prosecution history.
4

52a
steps set forth in the ‘138 patent. See Doc. 99-9 at 23,
28;5 Doc. 99-8 at 4-5, 7; Doc. 137 at 40:9-41:10.
It is an act of infringement to “import[ ] into the
United States or offer[ ] to sell, sell[ ], or use[ ] within
the United States a product which is made by a
process patented in the United States.” 35 U.S.C.
§ 271(g). Syngenta contends that it is entitled to
summary judgment on infringement because the
Willowood entities infringed the “138 Patent, under
§ 271(g) by importing into the United States
azoxystrobin technical made by the claimed process,
using it to formulate end products, and selling the
azoxystrobin technical and resulting end products in
the United States. Willowood asserts that § 271(g)
requires that a single entity perform the patented
process and that the evidence here shows that no
single entity performed all the steps claimed in the
‘138 Patent.
The Federal Circuit has not decided whether
the single entity requirement applies to claims of
infringement under § 271(g), and there do not appear
to be district court decisions on this question. While
there are arguments both ways, the Court concludes
that the single-entity rule in § 271(a) should also
apply in § 271(g) infringement actions.
The single-entity rule requires that “all steps of
a claimed method are performed by or attributable to
a single entity.” See Akamai Techs., Inc., v. Limelight
Networks, Inc., 797 F.3d 1020, 1022 (Fed. Cir. 2015)
(en banc) (per curiam). If more than one actor is
involved in practicing the steps, “the acts of one are
The parties have submitted much of the evidence in
this case under seal, subject to motions to seal. The Court will
resolve those motions to seal by separate order.
5

53a
attributable to the other such that a single entity is
responsible for the infringement .... in two sets of
circumstances; (1) where that entity directs or
controls others’ performance, and (2) where the actors
form a joint enterprise.” Id.
Here, there is a factual dispute as to whether
all steps of the process claimed by the ‘138 Patent are
performed by or attributable to a single entity.
Syngenta has evidence that Tai He either performed
all of the claimed steps of the ‘138 Patent, e.g., Doc.
99-9 at 23, 28 (stating that the etherification and
condensation steps are “carried out at” Tai He), or
alternatively that Willowood arranged for Tai He and
other entities to manufacture azoxystrobin according
to the patented process. Doc. 99-8 at 4-5; Doc. 96-10
at 229:2-:8, 252:12-253:8. Willowood points to
conflicting evidence indicating that Tai He controls its
own process, acts independently from Willowood, and
contracts at arms-length with other companies, who
perform portions of the manufacturing process. Doc,
105-4 at 20:5-21:18.
Finding a disputed question of material fact,
the Court will deny Syngenta’s motion for summary
judgment as to the infringement of the ‘138 Patent.
IV.

Count IV (the ‘761 Patent)

The ‘761 Patent claims a process for making
azoxystrobin technical that uses DABCO,6 a catalyst,
at concentrations between 0.1 and 2 mol % for the
condensation step. Doc. 1-11 at 2; Doc. 96-1 at ¶ 31.
Syngenta moves for summary judgment on the issue
of validity. Syngenta and Willowood both move for
DABCO stands for 1, 4-diazabicyclo[2.2.2]octane. Doc.
1-11 at 3.
6

54a
summary judgment as to the infringement of the ‘761
Patent,
a.

Validity

To meet its burden to show invalidity,
Willowood offers Dr. Lipton’s expert testimony to show
that the ‘761 Patent was obvious in light of Weintritt,
an earlier patent application. In turn, Syngenta moves
to exclude this testimony, contending that hindsight
bias infected Dr. Lipton’s analysis and that he parrots
Willowood's counsel, rather than presenting his own
opinion and analysis. Syngenta further contends that
Dr. Lipton’s opinions are insufficient to establish
invalidity based on obviousness.
i.

Admissibility of Dr. Lipton’s
Opinion.

In contrast with Dr. Lipton’s invalidity analysis
for the ‘138 Patent, where he started with the patent’s
claim and worked backwards. Dr. Lipton’s obviousness
analysis for the ‘761 patent starts with the prior art
reference. His report describes why a person of
ordinary skill in the art would want to minimize the
amount of catalyst from that claimed in the Weintritt
reference. See Doc. 96-3 at ¶¶ 36, 39 (noting
researchers are motivated to decrease the amount of
catalyst used to lower costs and health hazards).7
Dr. Lipton attests that he performed his own
analysis. Doc. 96-15 at 38:18-:20 (“I arrived at a
decision about invalidity based on discussions with
counsel and my own reading of the patents.”); see also
Doc. 96-15 at 35:12-:15. In his deposition, he was
In his report, Dr. Lipton refers to Weintritt as the ‘723
Patent. Doc. 96-3 at ¶ 18.
7

55a
responsive to counsel’s questions and demonstrated a
firm understanding of his report. See Doc. 96-15. His
report explains the patent’s chemistry, the role of a
catalyst in a chemical reaction, and how manipulation
of the catalyst affects the reaction. Doc. 96-3 at ¶¶ 3340. Every indication is that the opinions expressed in
his report are his own, and those opinions will not be
excluded. Cf Numatics, Inc. v. Balluff. Inc., 66 F.
Supp. 3d 934, 941-43, 945 (E.D. Mich. 2014)
(excluding opinion after the expert admitted that he
signed a report written by the lawyer and showed a
lack of understanding both of the facts and relevant
legal standards).
Syngenta has not identified any evidence of
hindsight bias in Dr. Lipton’s analysis. Rather.
Syngenta disputes his understanding of the teachings
of the Weintritt reference. See Doc. 96-2 at ¶ 53 (Dr.
Joseph Fortunak’s testimony that “Weintritt would
have discouraged ... using DABCO at even lower
amounts”). This is a question of fact underlying the
obviousness analysis. Apple Inc. v. Samsung Elecs. Co.,
Ltd., 839 F.3d 1034, 1051 (Fed. Cir. 2016) (en banc),
pet. for cert. filed, No. 16-1102 (U.S. Mar. 10, 2017).
Dr. Lipton’s report also includes verbatim an
invalidity claims chart provided to him by counsel.
Doc. 96-15 at 37:2-39:5; see Doc. 96-3 at pp. 21-26. The
Court does not decide here whether this chart will be
admissible at trial.
ii.

Obviousness

Obviousness “is a question of law based on
underlying questions of fact.” Plantronics, 724 F.3d at
1353 (quotation omitted); Apple Inc., 839 F.3d at 1051
(“What a prior art reference teaches and whether a

56a
skilled artisan would have been motivated to combine
references are questions of fact.”). As noted supra,
Willowood must show obviousness by clear and
convincing evidence.
As evidence of obviousness, Willowood offers
Dr. Tipton’s testimony that, based on Weintritt, a
person of ordinary skill in the art would have been
motivated to test smaller amounts of DABCO in the
reaction, see Doc. 105-6 at ¶¶ 36-40, and the proximity
of the ‘761 Patent’s claimed range to the range
described by Weintritt. Compare Doc. 96-34 at 8
(claiming use of DABCO from 2 to 40 mol %) with Doc.
1-11 at 2 (claiming use of DABCO between .1 and 2
mol %). This evidence conflicts with Syngenta’s
evidence, including Dr. Fortunak’s testimony on what
Weintritt teaches. See Doc. 96-2 at ¶ 53.
There is a disputed question of material fact
underlying obviousness. The Court will deny
Syngenta’s motion for summary judgment as to
validity of the ‘761 patent.
b.

Infringement of the ‘761 Patent

Syngenta and Willowood both move for
summary judgment on the issue of infringement of
the ‘761 Patent. They agree that if the azoxystrobin
technical used by Willowood was made with DABCO
within the claimed range, then Willowood infringes
the ‘761 Patent by importing it, using it to make its
end products, and selling those end products.
Conversely, they agree that if DABCO is not used or
is used outside the claimed range, then the products
do not infringe. Doc. 137 at 67:10-:22. In its motion for
summary judgment, Syngenta contends that
Willowood should bear the burden to prove non-

57a
infringement under § 295. Syngenta also moves to
exclude certain laboratory tests offered by Willowood
as inadmissible. Willowood opposes these motions.
Each party contends that either way, the Court
should grant summary judgment in its favor.
i.

Evidence of Infringement and
Non-Infringement

Willowood provides testimony from Tai He’s
president, Wu Xiaolong, stating that neither Tai He
nor its intermediaries use DABCO to manufacture
azoxystrobin technical. Doc. 88-5. Willowood also
provides analyses from JDM Research and Product
Safety Laboratories (PSL), which show that their
azoxystrobin technical contains no DABCO.8 Doc. 9910 at 2 (JDM); Doc. 88-4 at 10 (PSL). This evidence, if
believed, is sufficient to prove non-infringement.
In turn, Syngenta presents tests from two
laboratories, CAC Shanghai and JDM Research,9 which
detected DABCO in Willowood’s azoxystrobin technical.
Doc. 99-1 at ¶¶ 129-133; Doc. 99-4 at 270:2-271:20,
273:19-275:11, and its own analysis that Willowood’s
Azoxy 2SC contains DABCO. Doc. 96-1 at ¶ 128. This
is well sufficient to prove that DABCO was used.
Whether Syngenta has sufficient evidence
showing that DABCO is used within the infringing
8 As discussed infra, Willowood also offers inadmissible
evidence from EAG, which shows that a form of azoxystrobin
tested before the condensation step contained no DABCO.

There appears to be some confusion about what the
JDM results show and both sides offer the JDM tests to support
their position. See Doc. 96-1 at ¶ 52 & n.31 (Dr. Fortunak relying
on Mr. Heinze’s testimony that JDM detected DABCO); Doc. 992 at ¶¶ 21-23 (Dr. Lipton explaining Mr. Heinze’s confusion and
that JDM did not detect DABCO).
9

58a
amount is a closer question. Syngenta relies on Dr.
Fortunak’s analysis that it would not be commercially
reasonable for Tai He to manufacture azoxystrobin
technical using DABCO outside the range claimed by
the “761 Patent. Doc. 96-1 at ¶ 138; Doc. 88-2 at
100:13-101:15. Dr. Fortunak is a Professor of
Chemistry and Pharmaceutical Sciences at Howard
University. Doc. 96-1 at ¶ 6. He has extensive
experience in relevant product development,
including transferring process technology to
commercial scale production. See id. at ¶¶ 5-20. He
appears qualified to offer such an opinion. While on
the edge, the Court concludes that this creates a
disputed question of material fact as to whether
DABCO was used in an infringing amount.10
There is a genuine dispute of material fact as
to whether DABCO is used in the manufacture of
Willowood’s azoxystrobin technical and if so, in what
amount. Thus, the Court will deny both motions for
summary judgment.
ii.

Barden-Shifting under § 295

Syngenta and Willowood disagree on which
party should bear the burden of proof on the claim of
infringement of the ‘761 Patent. Ordinarily, the
plaintiff bears the burden to show infringement, but
when “the accused infringer is in a far better position
to determine the actual manufacturing process than
the patentee,” the patent statute authorizes shifting
the burden to the accused infringer to show noninfringement. Creative Compounds, LLC v. Starmark
If the Court is mistaken in this conclusion, it provides
a further reason to shift the burden of proof. See discussion infra
at pp. 16-24.
10

59a
Labs., 651 F.3d 1303, 1314-15 (Fed. Cir. 2011)
(citation omitted). Section 295 provides:
[I]f the court finds—
(1) that a substantial likelihood
exists that the product was
made by the patented process,
and
(2) that the plaintiff has made a
reasonable effort to determine
the process actually used in
the production of the product
and was unable to so
determine,
the product shall be presumed to have
been so made, and the burden of
establishing that the product was not
made by the process shall be on the party
asserting that it was not so made.
35 U.S.C. § 295.
Syngenta asserts that it has satisfied both
prongs of the § 295 test, showing a substantial
likelihood that Willowood’s azoxystrobin technical
was made with an infringing amount of DABCO and
that it has made reasonable efforts to determine the
actual process, without success. Willowood disagrees,
emphasizing that Syngenta’s evidence is insufficient
and that Willowood disclosed the non-infringing
manufacturing process for their azoxystrobin
technical. The Court finds that Syngenta has shown
both a substantial likelihood and reasonable efforts,
and the Court will shift the burden to Willowood to
show non-infringement at trial.

60a
The Court has discretion to determine when
§ 295 “will be brought into play.” Nutrinova Nutrition
Specialties & Food Ingredients GmbH v. Int'l Trade
Comm'n. 224 F.3d 1356, 1360 (Fed. Cir. 2000); West
v. Jewelry Innovations, Inc., No. C 07-1812 JF (HRL),
2009 WL 1010848, at *7 (N.D. Cal. Apr. 14, 2009) (“A
district court may rule on a § 295 motion at any stage
of the proceedings.”). It is appropriate to consider this
burden-shifting provision now: discovery has closed;
the Court has the benefit of summary judgment
briefing; and resolution of the issue now will allow for
better trial preparation by the parties.
1.

Substantial Likelihood

As the patent holder, Syngenta must show a
substantial likelihood that the azoxystrobin technical
imported and sold by Willowood was made by the
patented
process
before
burden-shifting
is
appropriate. 35 U.S.C. § 295(1). The patent holder
must “present evidence that would support a
reasonable conclusion that the imported product was
made by the patented process;” but need not show
that the patented method is the “only commercially
practical method of manufacture.” West, 2009 WL
1010848, at *8. This requires something less than
proving the issue at trial by a preponderance of the
evidence, but more than a slight possibility. Id.
(citation omitted); LG Display Co., Ltd. v. AU
Optronics Corp., 709 F. Supp. 2d 311, 335 (D. Del.
2010); see also Aventis Pharm., Inc. v. Barr Labs., Inc.,
411 F. Supp. 2d 490, 510 (D.N.J.), aff'd, 208 Fed.Appx.
842 (Fed. Cir.) (per curiam), and aff'd, 208 Fed.Appx.
843 (Fed. Cir. 2006) (examining evidence for a
“persuasive showing of substantial likelihood”).

61a
As discussed supra, Syngenta presents
persuasive evidence that the azoxystrobin technical
imported by Willowood was manufactured using
DABCO during the condensation phase, including
internal and external testing by several laboratories
and admissions by Willowood. Its evidence that
DABCO was used in an infringing amount—Dr.
Fortunak’s opinion about commercial reasonableness—
is less strong. Nonetheless, given Dr. Fortunak’s
experience and qualifications, his opinion is adequate
to make a “persuasive showing of substantial
likelihood” Aventis, 411 F. Supp. 2d at 510. This is
especially so in light of Willowood’s failure to rebut
Dr. Fortunak’s opinion11 and the absence of evidence
that anyone actually manufactures azoxystrobin
using DABCO by a method different than that
claimed by the ‘761 Patent. Doc. 137 at 85:16-86:5.
While Willowood offers testimony from Tai
He’s president, Mr. Wu, that neither Tai He nor any
of its intermediaries use DABCO to make
azoxystrobin technical, Doc. 88-5, his testimony has
credibility issues.12 Moreover, Mr. Wu did not provide
any manufacturing or batch records to confirm his
11 Willowood’s expert, Dr. Lipton, has not offered any
opinion on the commercial benefits and burdens of producing
azoxystrobin according to particular methods. See Doc. 96-15 at
66:14-70:16, 121:20-122:2; Doc. 110-5 at 17:11-18:2, 19:1-:11.

For example, Mr. Wu’s testimony on other production
matters contradicts manufacturing documents from Tai He.
Compare Doc. 99-6 at 20:9-:12 (stating Guoshang creates
intermediate from etherification step) and at 93:24-94:2 (stating
condensation step is not performed at Tai He) with Doc. 99-9 at
23, 28 (noting the etherification and condensation steps are
“carried out at” Tai He) and Doc. 96-10 at 246:10-247:8
(discussing email stating Tai He performs the etherification and
condensation steps).
12

62a
testimony, even though he was asked for them and
admitted they existed. See Doc. 96-13 at 87:6-88:4;
Doc. 88-7. Nor has Willowood provided a noninfringing explanation for how DABCO and its byproducts could be detected in its end products or the
samples of azoxystrobin technical.
Because Syngenta offers significant persuasive
evidence of the presence of DABCO, consistent with
the use of the patented process, and expert testimony
opining that the patented process is used, the Court
finds Syngenta has shown a substantial likelihood
that Willowood’s azoxystrobin technical is made with
the process claimed by the ‘761 Patent.
2.

Reasonable Efforts

Syngenta contends that it made reasonable
efforts to discover Tai He’s process for producing
azoxystrobin technical, but that it has been thwarted
by Willowood’s lack of full cooperation and its
inability to get information from Tai He, a Chinese
company. To show “reasonable efforts,” the patentee
must follow “all of the avenues of discovery likely to
uncover the defendant’s [or manufacturer’s] process,
including written discovery requests, facility
inspections, first-hand observation of the process,
independent testing of process samples, the use of
experts, and depositions of the defendant’s [or
manufacturer’s] officials.” LG Display Co., 709 F.
Supp. 2d at 335 (quotation omitted).
Syngenta tested Willowood’s azoxystrobin
technical and the Azoxy 2SC end product, employed
experts, and deposed representatives from Willowood.
See, e.g., Doc. 99-1 at ¶¶ 128-31; Doc. 96-10. Syngenta
also attempted to obtain production documents and

63a
information from Willowood and Tai He. See, e.g.,
Docs. 88-5, 88-6.
On December 17, 2015, Syngenta submitted
several interrogatories and requests for production to
Willowood, seeking information on the manufacture
of Willowood’s azoxystrobin technical. Doc. 96-5 at 1213, 16; Doc. 96-6 at 11, 14. Willowood provided two
documents describing Tai He’s process, one that had
been submitted to the EPA and one from its
manufacturer Tai He. Docs. 99-9, 99-8. Syngenta
followed up on March 1, 2016, asking Willowood to
clarify what catalyst was used in the process or to
state whether no catalyst was used. Doc. 96-28 at 2-3.
Willowood responded that, to the best of its
knowledge, DABCO was not used, but that it bought
the azoxystrobin technical from Tai He. Doc. 96-29 at
2-3. On June 15, 2016, Syngenta requested that
Willowood provide all communications between
Willowood and Tai He and any agreements between
the two companies not yet provided. Doc. 110-14 at 24. Willowood asserted that it had no written
communications with Tai He, because they
corresponded only in person, via telephone, or via a
chat program that did not save correspondence. Doc.
110-15 at 2.
Finally, on July 26, 2016, following Willowood’s
decision to depose Mr. Wu at the end of the discovery
period, Syngenta told Willowood it would need several
categories of documents, including on the
manufacturing process, from Tai He before the
deposition so that the deposition would not be
“significantly one-sided.” Doc. 88-6 at 2. Willowood
forwarded the request for documents to Tai He on
July 28, 2016. Doc, 88-7 at 2-3. Shortly before the

64a
deposition on August 31, 2016, Doc. 99-6 at 3, and
after the date originally established for the close of
fact discovery on July 29, 2016, Doc. 48 at 2,
Willowood provided another Tai He document
describing the manufacturing process. See Doc. 99-17.
At his deposition, Mr. Wu testified that Tai He
and its intermediaries make azoxystrobin technical
without the use of DABCO. Doc. 88-5. He also
affirmed that Tai He has production records with the
ratios and quantities of materials used in the
manufacturing process, see Doc. 96-13 at 87:6-88:4,
but that no one associated with Willowood informed
him that Syngenta was asking for those documents,
apart from sharing the July 28 letter about a month
before his deposition. Id. at 55:9-56:4. He did not
produce any of these documents at his deposition,
despite being aware that Syngenta had asked for
them.
The Court finds that these efforts by Syngenta
to discover how Willowood’s azoxystrobin technical is
made were reasonable. While Syngenta did not seek
discovery directly from Tai He. Willowood itself
admitted that it “is extremely difficult, if not
impossible...to compel the Manufacturer [in China] to
produce any documents,” Doc. 75 at ¶ 11, and Mr. Wu
appeared for his deposition voluntarily at the request
of Willowood, not under compulsion by law.
Willowood had to obtain an extension of the discovery
schedule in order to take Mr. Wu’s deposition, which
the Court allowed over Syngenta’s objection, see Docs.
75, 78; Text Order 08/22/2016, and which prevented
any follow-up discovery directly from Tai He.
Moreover, given Tai He’s location in China,
requesting voluntary facility inspections or observing

65a
the process firsthand are unlikely possibilities for
discovering information.
“Reasonable efforts” under § 295 do not require
fruitless discovery attempts overseas or motions to
compel against a party, like Willowood, who says it
does not have the documents. See Kemin Foods v.
Pigmentos Vegetales Del Centro S.A. de C. V., No.
4:02-cv-40327, 2004 U.S. Dist. Lexis 17206, at *34-35,
45-47 (S.D. Iowa Aug. 27, 2004) (finding reasonable
efforts and shifting the burden despite some
cooperation by the defendant and no motions to
compel). Moreover, Syngenta did not know that Tai
He had additional production records not shared with
Willowood until Mr. Wu’s late deposition, a month
after the close of fact discovery. See id. at *34-35
(applying § 295, noting inter alia that the defendant’s
failure to produce production documents creates
problems for patent holder in proving infringement).
Here, Syngenta repeatedly requested that Willowood
provide the information, it conducted its own tests,
employed experts, and it asked Tai He for the
production records; this establishes that Syngenta
has made reasonable efforts to obtain the
information.
The Court further finds that despite these
reasonable efforts, Syngenta has not been able to
determine the process actually used in the production
of the product, particularly as to the amount of
DABCO used. As discussed above, Willowood
provided some information about the manufacturing
process for its azoxystrobin technical. Docs. 99-8, 999, 99-17. However, this information has been
inconsistent. Compare Doc. 99-9 at 14, 28 (noting the
condensation step is “carried out at” Tai He) with Doc.

66a
99-6 at 93:8-94:2 (stating Tai He oversees the
condensation step, performed by Guangda). It does
not explain the presence of DABCO in Willowood’s
end products or samples of azoxystrobin technical,
and it is incomplete given the relevant production
records held but not provided by Tai He. See Doc. 9613 at 87:20-88:4; see also Kemin Foods, 2004 U.S.
Dist. LEXIS 17206, at *43 (applying § 295 when
patent holder “was left with a host of inconsistent
observations, unexplained solvents, and constantly
changing representations”).
Willowood contends that it cooperated with
discovery and provided Syngenta with relevant
information about the process. Yet, Mr. Wu testified
that no one associated with Willowood told him
Syngenta was requesting documents from Tai He
until a short time before the close of the planned
discovery period. Doc, 96-13 at 54:5-:20. This does not
indicate full cooperation and, regardless, Willowood
was in a better position than Syngenta to obtain the
relevant
production
records.
See
Creative
Compounds, 651 F.3d at 1314-15. In any event, the
plain language of § 295 indicates that Syngenta’s, and
not Willowood’s, actions are determinative to the
“reasonable efforts” question.
Willowood also contends that it has given
Syngenta information about the manufacturing
process showing that DABCO is not used, and that
the burden should not be shifted merely because
Syngenta does not like Willowood’s evidence.
Certainly Willowood is correct that the burden should
not be shifted where discovery indicates a noninfringing process. See Nutrinova, 224 F.3d at 1360.
Here, however, Syngenta has produced significant

67a
evidence that DABCO is used, and Willowood has not
suggested a non-infringing reason for the appearance
of DABCO in Syngenta’s tests. Nor has it made Tai
He’s production records available to Syngenta.
Because Syngenta has shown a substantial
likelihood of infringement and made reasonable but
unsuccessful discovery efforts to obtain Tai He’s
production records, the Court will shift the burden
under § 295 to Willowood to show non-infringement of
the ‘761 Patent.
iii.

Syngenta’s Motion to Exclude
Lab Analyses and Expert
Testimony

The ‘761 Patent claims a process to make
azoxystrobin technical using DABCO as a catalyst. As
previously discussed, Willowood contends that Tai He
uses a different process, without DABCO, to make its
azoxystrobin technical and that its importation of Tai
He’s azoxystrobin technical did not infringe the ‘761
Patent. To support this contention, it offers test
reports from Product Safety Laboratories (PSL) and
EAG Laboratories (EAG) on the absence of DABCO in
azoxystrobin technical and testimony from Dr. Lipton
explaining the test reports. See Doc. 99-2 at ¶¶ 24-26,
pp. 24-110. Syngenta asserts that the Court should
exclude test reports from PSL and EAG and Dr.
Lipton’s interpretation of those reports under
Daubert v. Merrell Dow Pharmaceuticals, Inc., 509
U.S. 579 (1993), because the testing was
fundamentally flawed and will not assist the trier of
fact.

68a
1.

The EAG Test and
Dr. Lipton’s Related
Testimony

Willowood admits that EAG did not test
azoxystrobin technical, but rather a form of
azoxystrobin from a stage of manufacturing before the
condensation reaction, when DABCO is added under
the ‘761 Patent’s claimed process. Doc. 102 at 17; see
Doc. 96-4 at ¶ 26. In other words, EAG tested for
DABCO at a point during the process when DABCO
would not have yet been added. The absence of DABCO
is hardly surprising under those circumstances. To
the extent Willowood offers the EAG test to show that
the absence of DABCO before the condensation step
tends to prove that Willowood did not infringe the ‘761
Patent’s claimed process, the Court will exclude the
test and Dr. Lipton’s related testimony.
Willowood suggests that the EAG test shows
that DABCO was not present before the condensation
step, and that this may be otherwise relevant. Doc.
137 at 125:11-126:2. Syngenta contends that even if
this is so, it would tend to confuse the jury and be
unfairly prejudicial. See Fed. R. Evid. 403. If and
when Willowood decides to offer the EAG test into
evidence at trial, it shall advise the Court outside the
presence of the jury.
2.

The PSL Test

PSL analyzed azoxystrobin technical from Tai
He’s completed process. Its finding that the sample did
not contain DABCO is relevant to the issue of whether
Tai He’s manufacturing process infringes the ‘761
Patent. Based on its own testing, Syngenta contends
that PSL’s test lacked sufficient sensitivity to detect
DABCO. However, Dr. Lipton critiques the reliability

69a
and methodology of Syngenta’s tests and testifies that
PSL performed its analysis “to a very high level of
confidence.” See Doc. 99-2 at ¶¶ 13-20, 24. Syngenta has
not challenged his qualifications to offer this opinion.
The jury should determine the appropriate
weight to be given to PSL’s test and Dr. Lipton’s
testimony explaining the PSL test. See i4i Ltd. P’ship
v. Microsoft Corp., 598 F.3d 831, 852 (Fed. Cir. 2010),
aff’d, 564 U.S. 91 (2011). The Court will deny the
motion to exclude as to the PSL test and Dr. Lipton’s
corresponding opinion because they are relevant to
whether the process for making Willowood’s
azoxystrobin technical infringes on the ‘761 Patent
and they are based on sufficient data and reliable
methods to reach the jury. See Fed. R. Evid. 702.
V.

Counts V and VI: Copyright Claims

Willowood moves for summary judgment on
Syngenta’s claims for copyright violation. The Court
will rule by separate order on this aspect of
Willowood’s motion, along with Syngenta’s motion to
exclude certain evidence offered by Willowood in
support of summary judgment on these claims.
VI.

Conclusion

For the reasons stated, the Court will grant
summary judgment in favor of Syngenta as to validity
of the ‘076, ‘256, and ‘138 Patents; will grant
Syngenta’s motion as to infringement of the ‘076 and
‘256 Patents by Willowood USA and Willowood, LLC
and deny it as to Willowood Limited; will deny
Syngenta’s motion as to infringement of the ‘138
patent and as to validity and infringement of the ‘761
patent; and will deny Willowood’s motion as to the
infringement of the ‘761 patent. The Court will also

70a
grant in part, deny in part, and otherwise defer
Syngenta’s motion to exclude as to Dr. Lipton’s
testimony, as stated herein.
Willowood’s motion on Syngenta’s copyright
claims will be resolved by separate order. The Court
will also resolve by separate order Syngenta’s
remaining motions to exclude certain evidence
proffered by Willowood related to the copyright claim,
see Docs. 90, 106, and damages. See Doc. 90.
It is ORDERED that the plaintiff's motion for
summary judgment, Doc. 93, is GRANTED in part
and DENIED in part and the defendants’ motion for
summary judgment, Doc. 87, is DENIED in part
and is otherwise retained under advisement, as
follows:
1. Counts I and II: The Court grants summary
judgment in favor of Syngenta as to validity
for the ‘076 and ‘256 Patents and in favor of
Syngenta as to infringement of the ‘076 and
‘256 Patents by Willowood, LLC and
Willowood USA, LLC. The Court denies
summary judgement as to infringement by
Willowood Limited. The issues remaining
for trial are infringement by Willowood
Limited, willfulness, and damages.
2. Count III: The Court grants summary
judgment to Syngenta as to validity of the
‘138 Patent and denies summary judgment as
to infringement. The issues of infringement,
willfulness, and damages remain for trial.
3. Count IV: The Court denies Syngenta’s
motion for summary judgment on validity
and infringement of the ‘761 Patent and

71a
denies Willowood’s motion for summary
judgment on infringement. The Court
grants Syngenta’s request to shift the
burden to prove non-infringement to
Willowood under § 295. All issues related to
Count IV remain for trial.
4. Counts V and VI: The Court retains under
advisement the part of Willowood’s motion
for summary judgment directed towards
Syngenta’s copyright claims and will rule on
this aspect of the motion by separate order.
It is further ORDERED that the plaintiff's
motion to exclude certain expert opinions. Doc. 90, is
GRANTED in part, DENIED in part, and
DEFERRED in part and is otherwise retained
under advisement as follows:
1. The Court grants the motion to exclude Dr.
Lipton’s testimony about the validity of the
‘138 Patent. Subject to developments at trial,
the Court also grants the motion to exclude
the EAG test and Dr. Lipton’s related
testimony. The Court defers until trial the
question of admissibility of the claims chart
for the ‘761 Patent in Dr. Lipton’s report.
Otherwise, the Court denies the motion
directed towards Dr. Lipton’s testimony.
2. The Court retains under advisement the
remaining issues raised by the motion,
relating to testimony of Mr. Steven
Schatzow and. Mr. John C. Jarosz.
This the 24th day of March, 2017.
/s/
UNITED STATES DISTRICT JUDGE

72a
7 U.S.C.A. § 136
§ 136. Definitions
Effective: August 3, 1996
For purposes of this subchapter-(a) Active ingredient
The term “active ingredient” means-(1) in the case of a pesticide other than a plant
regulator, defoliant, desiccant, or nitrogen
stabilizer, an ingredient which will prevent,
destroy, repel, or mitigate any pest;
(2) in the case of a plant regulator, an ingredient
which, through physiological action, will
accelerate or retard the rate of growth or rate of
maturation or otherwise alter the behavior of
ornamental or crop plants or the product thereof;
(3) in the case of a defoliant, an ingredient which
will cause the leaves or foliage to drop from a
plant;
(4) in the case of a desiccant, an ingredient which
will artificially accelerate the drying of plant
tissue; and
(5) in the case of a nitrogen stabilizer, an
ingredient which will prevent or hinder the
process of nitrification, denitrification, ammonia
volatilization, or urease production through action
affecting soil bacteria.
(b) Administrator
The term “Administrator” means the Administrator
of the Environmental Protection Agency.

73a
(c) Adulterated
The term “adulterated” applies to any pesticide if-(1) its strength or purity falls below the professed
standard of quality as expressed on its labeling
under which it is sold;
(2) any substance has been substituted wholly or
in part for the pesticide; or
(3) any valuable constituent of the pesticide has
been wholly or in part abstracted.
(d) Animal
The term “animal” means all vertebrate and
invertebrate species, including but not limited to man
and other mammals, birds, fish, and shellfish.
(e) Certified applicator, etc.
(1) Certified applicator
The term “certified applicator” means any
individual who is certified under section 136i of
this title as authorized to use or supervise the use
of any pesticide which is classified for restricted
use. Any applicator who holds or applies
registered pesticides, or uses dilutions of
registered pesticides consistent with subsection
(ee), only to provide a service of controlling pests
without delivering any unapplied pesticide to any
person so served is not deemed to be a seller or
distributor of pesticides under this subchapter.
(2) Private applicator
The term “private applicator” means a certified
applicator who uses or supervises the use of any
pesticide which is classified for restricted use for

74a
purposes of producing any agricultural commodity
on property owned or rented by the applicator or
the applicator's employer or (if applied without
compensation other than trading of personal
services between producers of agricultural
commodities) on the property of another person.
(3) Commercial applicator
The term “commercial applicator” means an
applicator (whether or not the applicator is a
private applicator with respect to some uses) who
uses or supervises the use of any pesticide which is
classified for restricted use for any purpose or on any
property other than as provided by paragraph (2).
(4) Under the direct supervision of a certified
applicator
Unless otherwise prescribed by its labeling, a
pesticide shall be considered to be applied under
the direct supervision of a certified applicator if it
is applied by a competent person acting under the
instructions and control of a certified applicator
who is available if and when needed, even though
such certified applicator is not physically present
at the time and place the pesticide is applied.
(f) Defoliant
The term “defoliant” means any substance or mixture
of substances intended for causing the leaves or
foliage to drop from a plant, with or without causing
abscission.
(g) Desiccant
The term “desiccant” means any substance or mixture
of substances intended for artificially accelerating the
drying of plant tissue.

75a
(h) Device
The term “device” means any instrument or contrivance
(other than a firearm) which is intended for trapping,
destroying, repelling, or mitigating any pest or any
other form of plant or animal life (other than man and
other than bacteria, virus, or other microorganism on
or in living man or other living animals); but not
including equipment used for the application of
pesticides when sold separately therefrom.
(i) District court
The term “district court” means a United States
district court, the District Court of Guam, the District
Court of the Virgin Islands, and the highest court of
American Samoa.
(j) Environment
The term “environment” includes water, air, land, and
all plants and man and other animals living therein,
and the interrelationships which exist among these.
(k) Fungus
The term “fungus” means any non-chlorophyllbearing thallophyte (that is, any non-chlorophyllbearing plant of a lower order than mosses and
liverworts), as for example, rust, smut, mildew, mold,
yeast, and bacteria, except those on or in living man
or other animals and those on or in processed food,
beverages, or pharmaceuticals.
(l) Imminent hazard
The term “imminent hazard” means a situation which
exists when the continued use of a pesticide during
the time required for cancellation proceeding would
be likely to result in unreasonable adverse effects on

76a
the environment or will involve unreasonable hazard
to the survival of a species declared endangered or
threatened by the Secretary pursuant to the
Endangered Species Act of 1973.
(m) Inert ingredient
The term “inert ingredient” means an ingredient
which is not active.
(n) Ingredient statement
The term “ingredient statement” means a statement
which contains-(1) the name and percentage of each active
ingredient, and the total percentage of all inert
ingredients, in the pesticide; and
(2) if the pesticide contains arsenic in any form, a
statement of the percentages of total and water
soluble arsenic, calculated as elementary arsenic.
(o) Insect
The term “insect” means any of the numerous small
invertebrate animals generally having the body more
or less obviously segmented, for the most part
belonging to the class insecta, comprising six-legged,
usually winged forms, as for example, beetles, bugs,
bees, flies, and to other allied classes of arthropods
whose members are wingless and usually have more
than six legs, as for example, spiders, mites, ticks,
centipedes, and wood lice.
(p) Label and labeling
(1) Label
The term “label” means the written, printed,
or graphic matter on, or attached to, the

77a
pesticide or device or any of its containers or
wrappers.
(2) Labeling
The term “labeling” means all labels and all other
written, printed, or graphic matter-(A) accompanying the pesticide or device at
any time; or
(B) to which reference is made on the label or
in literature accompanying the pesticide or
device, except to current official publications of
the Environmental Protection Agency, the
United States Departments of Agriculture and
Interior, the Department of Health and Human
Services, State experiment stations, State
agricultural colleges, and other similar Federal
or State institutions or agencies authorized by
law to conduct research in the field of
pesticides.
(q) Misbranded
(1) A pesticide is misbranded if-(A) its labeling bears any statement, design, or
graphic representation relative thereto or to its
ingredients which is false or misleading in any
particular;
(B) it is contained in a package or other
container or wrapping which does not conform to
the standards established by the Administrator
pursuant to section 136w(c)(3) of this title;
(C) it is an imitation of, or is offered for sale
under the name of, another pesticide;

78a
(D) its label does not bear the registration
number assigned under section 136e of this title
to each establishment in which it was produced;
(E) any word, statement, or other information
required by or under authority of this
subchapter to appear on the label or labeling is
not prominently placed thereon with such
conspicuousness (as compared with other
words, statements, designs, or graphic matter
in the labeling) and in such terms as to render
it likely to be read and understood by the
ordinary
individual
under
customary
conditions of purchase and use;
(F) the labeling accompanying it does not
contain directions for use which are necessary
for effecting the purpose for which the product
is intended and if complied with, together with
any requirements imposed under section
136a(d) of this title, are adequate to protect
health and the environment;
(G) the label does not contain a warning or
caution statement which may be necessary and
if complied with, together with any
requirements imposed under section 136a(d) of
this title, is adequate to protect health and the
environment; or
(H) in the case of a pesticide not registered in
accordance with section 136a of this title and
intended for export, the label does not contain,
in words prominently placed thereon with such
conspicuousness (as compared with other
words, statements, designs, or graphic matter
in the labeling) as to render it likely to be noted

79a
by the ordinary individual under customary
conditions of purchase and use, the following:
“Not Registered for Use in the United States of
America”.
(2) A pesticide is misbranded if-(A) the label does not bear an ingredient
statement on that part of the immediate
container (and on the outside container or
wrapper of the retail package, if there be one,
through which the ingredient statement on the
immediate container cannot be clearly read)
which is presented or displayed under
customary conditions of purchase, except that
a pesticide is not misbranded under this
subparagraph if-(i) the size or form of the immediate
container, or the outside container or
wrapper of the retail package, makes it
impracticable to place the ingredient
statement on the part which is presented or
displayed under customary conditions of
purchase; and
(ii) the ingredient statement appears
prominently on another part of the
immediate container, or outside container or
wrapper, permitted by the Administrator;
(B) the labeling does not contain a statement
of the use classification under which the
product is registered;
(C) there is not affixed to its container, and to
the outside container or wrapper of the retail
package, if there be one, through which the
required information on the immediate

80a
container cannot be clearly read, a label
bearing-(i) the name and address of the producer,
registrant, or person for whom produced;
(ii) the name, brand, or trademark under
which the pesticide is sold;
(iii) the net weight or measure of the
content, except that the Administrator may
permit reasonable variations; and
(iv) when required by regulation of the
Administrator to effectuate the purposes of
this subchapter, the registration number
assigned to the pesticide under this
subchapter, and the use classification; and
(D) the pesticide contains any substance or
substances in quantities highly toxic to man,
unless the label shall bear, in addition to any
other matter required by this subchapter-(i) the skull and crossbones;
(ii) the word “poison” prominently in red on
a background of distinctly contrasting color;
and
(iii) a statement of a practical treatment
(first aid or otherwise) in case of poisoning
by the pesticide.
(r) Nematode
The term “nematode” means invertebrate animals of
the phylum nemathelminthes and class nematoda,
that is, unsegmented round worms with elongated,
fusiform, or saclike bodies covered with cuticle, and

81a
inhabiting soil, water, plants, or plant parts; may also
be called nemas or eelworms.
(s) Person
The term “person” means any individual, partnership,
association, corporation, or any organized group of
persons whether incorporated or not.
(t) Pest
The term “pest” means (1) any insect, rodent,
nematode, fungus, weed, or (2) any other form of
terrestrial or aquatic plant or animal life or virus,
bacteria, or other micro-organism (except viruses,
bacteria, or other micro-organisms on or in living man
or other living animals) which the Administrator
declares to be a pest under section 136w(c)(1) of this
title.
(u) Pesticide
The term “pesticide” means (1) any substance or
mixture of substances intended for preventing,
destroying, repelling, or mitigating any pest, (2) any
substance or mixture of substances intended for use
as a plant regulator, defoliant, or desiccant, and (3)
any nitrogen stabilizer, except that the term
“pesticide” shall not include any article that is a “new
animal drug” within the meaning of section 321(w) of
Title 21, that has been determined by the Secretary of
Health and Human Services not to be a new animal
drug by a regulation establishing conditions of use for
the article, or that is an animal feed within the
meaning of section 321(x) of Title 21 bearing or
containing a new animal drug. The term “pesticide”
does not include liquid chemical sterilant products
(including any sterilant or subordinate disinfectant
claims on such products) for use on a critical or semi-

82a
critical device, as defined in section 321 of Title 21.
For purposes of the preceding sentence, the term
“critical device” includes any device which is
introduced directly into the human body, either into
or in contact with the bloodstream or normally sterile
areas of the body and the term “semi-critical device”
includes any device which contacts intact mucous
membranes but which does not ordinarily penetrate
the blood barrier or otherwise enter normally sterile
areas of the body.
(v) Plant regulator
The term “plant regulator” means any substance or
mixture of substances intended, through physiological
action, for accelerating or retarding the rate of growth
or rate of maturation, or for otherwise altering the
behavior of plants or the produce thereof, but shall not
include substances to the extent that they are intended
as plant nutrients, trace elements, nutritional
chemicals, plant inoculants, and soil amendments.
Also, the term “plant regulator” shall not be required
to include any of such of those nutrient mixtures or
soil amendments as are commonly known as vitaminhormone horticultural products, intended for
improvement, maintenance, survival, health, and
propagation of plants, and as are not for pest
destruction and are nontoxic, nonpoisonous in the
undiluted packaged concentration.
(w) Producer and produce
The term “producer” means the person who
manufactures, prepares, compounds, propagates, or
processes any pesticide or device or active ingredient
used in producing a pesticide. The term “produce”
means to manufacture, prepare, compound,

83a
propagate, or process any pesticide or device or active
ingredient used in producing a pesticide. The dilution
by individuals of formulated pesticides for their own
use and according to the directions on registered
labels shall not of itself result in such individuals
being included in the definition of “producer” for the
purposes of this subchapter.
(x) Protect health and the environment
The terms “protect health and the environment” and
“protection of health and the environment” mean
protection against any unreasonable adverse effects
on the environment.
(y) Registrant
The term “registrant” means a person who has
registered any pesticide pursuant to the provisions of
this subchapter.
(z) Registration
The term “registration” includes reregistration.
(aa) State
The term “State” means a State, the District of
Columbia, the Commonwealth of Puerto Rico, the
Virgin Islands, Guam, the Trust Territory of the
Pacific Islands, and American Samoa.
(bb) Unreasonable adverse effects on the
environment
The term “unreasonable adverse effects on the
environment” means (1) any unreasonable risk to
man or the environment, taking into account the
economic, social, and environmental costs and
benefits of the use of any pesticide, or (2) a human
dietary risk from residues that result from a use of a

84a
pesticide in or on any food inconsistent with the
standard under section 346a of Title 21. The
Administrator shall consider the risks and benefits of
public health pesticides separate from the risks and
benefits of other pesticides. In weighing any
regulatory action concerning a public health pesticide
under this subchapter, the Administrator shall weigh
any risks of the pesticide against the health risks such
as the diseases transmitted by the vector to be
controlled by the pesticide.
(cc) Weed
The term “weed” means any plant which grows where
not wanted.
(dd) Establishment
The term “establishment” means any place where a
pesticide or device or active ingredient used in
producing a pesticide is produced, or held, for
distribution or sale.
(ee) To use any registered pesticide in a manner
inconsistent with its labeling
The term “to use any registered pesticide in a manner
inconsistent with its labeling” means to use any
registered pesticide in a manner not permitted by the
labeling, except that the term shall not include (1)
applying a pesticide at any dosage, concentration, or
frequency less than that specified on the labeling
unless the labeling specifically prohibits deviation
from the specified dosage, concentration, or
frequency, (2) applying a pesticide against any target
pest not specified on the labeling if the application is
to the crop, animal, or site specified on the labeling,
unless the Administrator has required that the
labeling specifically state that the pesticide may be

85a
used only for the pests specified on the labeling after
the Administrator has determined that the use of the
pesticide against other pests would cause an
unreasonable adverse effect on the environment, (3)
employing any method of application not prohibited
by the labeling unless the labeling specifically states
that the product may be applied only by the methods
specified on the labeling, (4) mixing a pesticide or
pesticides with a fertilizer when such mixture is not
prohibited by the labeling, (5) any use of a pesticide in
conformance with section 136c, 136p, or 136v of this
title, or (6) any use of a pesticide in a manner that the
Administrator determines to be consistent with the
purposes of this subchapter. After March 31, 1979,
the term shall not include the use of a pesticide for
agricultural or forestry purposes at a dilution less
than label dosage unless before or after that date the
Administrator issues a regulation or advisory opinion
consistent with the study provided for in section 27(b)
of the Federal Pesticide Act of 1978, which regulation
or advisory opinion specifically requires the use of
definite amounts of dilution.
(ff) Outstanding data requirement
(1) In general
The term “outstanding data requirement” means a
requirement for any study, information, or data
that is necessary to make a determination under
section 136a(c)(5) of this title and which study,
information, or data-(A) has not been
Administrator; or

submitted

to

the

(B) if submitted to the Administrator, the
Administrator has determined must be

86a
resubmitted because it is not valid, complete, or
adequate to make a determination under section
136a(c)(5) of this title and the regulations and
guidelines issued under such section.
(2) Factors
In making a determination under paragraph
(1)(B) respecting a study, the Administrator shall
examine, at a minimum, relevant protocols,
documentation of the conduct and analysis of the
study, and the results of the study to determine
whether the study and the results of the study
fulfill the data requirement for which the study
was submitted to the Administrator.
(gg) To distribute or sell
The term “to distribute or sell” means to distribute,
sell, offer for sale, hold for distribution, hold for sale,
hold for shipment, ship, deliver for shipment, release
for shipment, or receive and (having so received)
deliver or offer to deliver. The term does not include
the holding or application of registered pesticides or
use dilutions thereof by any applicator who provides
a service of controlling pests without delivering any
unapplied pesticide to any person so served.
(hh) Nitrogen stabilizer
The term “nitrogen stabilizer” means any substance
or mixture of substances intended for preventing or
hindering the process of nitrification, denitrification,
ammonia volatilization, or urease production through
action upon soil bacteria. Such term shall not
include-(1) dicyandiamide;
(2) ammonium thiosulfate; or

87a
(3) any substance or mixture of substances.1 -(A) that was not registered pursuant to section
136a of this title prior to January 1, 1992; and
(B) that was in commercial agronomic use
prior to January 1, 1992, with respect to which
after January 1, 1992, the distributor or seller
of the substance or mixture has made no
specific claim of prevention or hindering of the
process
of
nitrification,
denitrification,
ammonia volatilization2 urease production
regardless of the actual use or purpose for, or
future use or purpose for, the substance or
mixture.
Statements made in materials required to be
submitted to any State legislative or regulatory
authority, or required by such authority to be
included in the labeling or other literature
accompanying any such substance or mixture shall
not be deemed a specific claim within the meaning of
this subsection.
(jj)3 Maintenance applicator
The term “maintenance applicator” means any
individual who, in the principal course of such
individual’s employment, uses, or supervises the use
of, a pesticide not classified for restricted use (other
than a ready to use consumer products pesticide); for
the purpose of providing structural pest control or
lawn pest control including janitors, general
maintenance personnel, sanitation personnel, and
1

So in original. Probably should not have a period.

2

So in original. Probably should be followed by “, or”.

3

So in original. No subsec. (ii) has been enacted.

88a
grounds
maintenance
personnel.
The
term
“maintenance applicator” does not include private
applicators as defined in subsection (e)(2); individuals
who use antimicrobial pesticides, sanitizers or
disinfectants; individuals employed by Federal, State,
and local governments or any political subdivisions
thereof, or individuals who use pesticides not
classified for restricted use in or around their homes,
boats, sod farms, nurseries, greenhouses, or other
noncommercial property.
(kk) Service technician
The term “service technician” means any individual
who uses or supervises the use of pesticides (other
than a ready to use consumer products pesticide) for
the purpose of providing structural pest control or
lawn pest control on the property of another for a fee.
The term “service technician” does not include
individuals who use antimicrobial pesticides,
sanitizers or disinfectants; or who otherwise apply
ready to use consumer products pesticides.
(ll) Minor use
The term “minor use” means the use of a pesticide on
an animal, on a commercial agricultural crop or site,
or for the protection of public health where-(1) the total United States acreage for the crop is
less than 300,000 acres, as determined by the
Secretary of Agriculture; or
(2) the Administrator, in consultation with the
Secretary of Agriculture, determines that, based
on information provided by an applicant for
registration or a registrant, the use does not
provide sufficient economic incentive to support

89a
the initial registration or continuing registration
of a pesticide for such use and-(A)
there
are insufficient
efficacious
alternative registered pesticides available for
the use;
(B) the alternatives to the pesticide use pose
greater risks to the environment or human
health;
(C) the minor use pesticide plays or will play a
significant part in managing pest resistance; or
(D) the minor use pesticide plays or will play a
significant part in an integrated pest
management program.
The status as a minor use under this subsection shall
continue as long as the Administrator has not
determined that, based on existing data, such use
may cause an unreasonable adverse effect on the
environment and the use otherwise qualifies for such
status.
(mm) Antimicrobial pesticide
(1) In general
The term “antimicrobial pesticide” means a
pesticide that-(A) is intended to-(i) disinfect, sanitize, reduce, or mitigate
growth or development of microbiological
organisms; or
(ii) protect inanimate objects, industrial
processes or systems, surfaces, water,
or other chemical substances from

90a
contamination, fouling, or deterioration
caused by bacteria, viruses, fungi, protozoa,
algae, or slime; and
(B) in the intended use is exempt from, or
otherwise not subject to, a tolerance under
section 346a of Title 21 or a food additive
regulation under section 348 of Title 21.
(2) Excluded products
The term “antimicrobial pesticide” does not
include-(A) a wood preservative or antifouling paint
product for which a claim of pesticidal activity
other than or in addition to an activity
described in paragraph (1) is made;
(B) an agricultural fungicide product; or
(C) an aquatic herbicide product.
(3) Included products
The term “antimicrobial pesticide” does include
any other chemical sterilant product (other than
liquid chemical sterilant products exempt under
subsection (u)), any other disinfectant product,
any other industrial microbiocide product, and any
other preservative product that is not excluded by
paragraph (2).
(nn) Public health pesticide
The term “public health pesticide” means any minor
use pesticide product registered for use and used
predominantly in public health programs for vector
control or for other recognized health protection uses,
including the prevention or mitigation of viruses,

91a
bacteria, or other microorganisms (other than viruses,
bacteria, or other microorganisms on or in living man
or other living animal) that pose a threat to public
health.
(oo) Vector
The term “vector” means any organism capable of
transmitting the causative agent of human disease or
capable of producing human discomfort or injury,
including mosquitoes, flies, fleas, cockroaches, or
other insects and ticks, mites, or rats.

92a
7 U.S.C.A. § 136a
§ 136a. Registration of pesticides
Effective: December 20, 2018
(a) Requirement of registration
Except as provided by this subchapter, no person in
any State may distribute or sell to any person any
pesticide that is not registered under this subchapter.
To the extent necessary to prevent unreasonable
adverse effects on the environment, the Administrator
may by regulation limit the distribution, sale, or use
in any State of any pesticide that is not registered
under this subchapter and that is not the subject of
an experimental use permit under section 136c of this
title or an emergency exemption under section 136p
of this title.
(b) Exemptions
A pesticide which is not registered with the
Administrator may be transferred if-(1) the transfer is from one registered establishment
to another registered establishment operated by
the same producer solely for packaging at the
second establishment or for use as a constituent
part of another pesticide produced at the second
establishment; or
(2) the transfer is pursuant to and in accordance
with the requirements of an experimental use
permit.

93a
(c) Procedure for registration
(1) Statement required
Each applicant for registration of a pesticide shall
file with the Administrator a statement which
includes-(A) the name and address of the applicant and
of any other person whose name will appear on
the labeling;
(B) the name of the pesticide;
(C) a complete copy of the labeling of the
pesticide, a statement of all claims to be made
for it, and any directions for its use;
(D) the complete formula of the pesticide;
(E) a request that the pesticide be classified for
general use or for restricted use, or for both;
and
(F) except as otherwise provided in paragraph
(2)(D), if requested by the Administrator, a full
description of the tests made and the results
thereof upon which the claims are based, or
alternatively a citation to data that appear in
the public literature or that previously had
been submitted to the Administrator and that
the Administrator may consider in accordance
with the following provisions:
(i) With respect to pesticides containing
active ingredients that are initially
registered under this subchapter after
September 30, 1978, data submitted to
support the application for the original
registration of the pesticide, or an

94a
application for an amendment adding any
new use to the registration and that
pertains solely to such new use, shall not,
without the written permission of the
original data submitter, be considered by
the Administrator to support an application
by another person during a period of ten
years following the date the Administrator
first registers the pesticide, except that
such permission shall not be required in the
case of defensive data.
(ii) The period of exclusive data use
provided under clause (i) shall be extended
1 additional year for each 3 minor uses
registered after August 3, 1996, and within
7 years of the commencement of the
exclusive use period, up to a total of 3
additional years for all minor uses
registered by the Administrator if the
Administrator, in consultation with the
Secretary of Agriculture, determines that,
based on information provided by an
applicant for registration or a registrant,
that-(I) there are insufficient efficacious
alternative
registered
pesticides
available for the use;
(II) the alternatives to the minor use
pesticide pose greater risks to the
environment or human health;
(III) the minor use pesticide plays or will
play a significant part in managing pest
resistance; or

95a
(IV) the minor use pesticide plays or will
play a significant part in an integrated
pest management program.
The registration of a pesticide for a
minor use on a crop grouping
established by the Administrator
shall be considered for purposes of
this clause 1 minor use for each
representative crop for which data
are provided in the crop grouping.
Any additional exclusive use period
under this clause shall be modified as
appropriate or terminated if the
registrant voluntarily cancels the
product or deletes from the
registration the minor uses which
formed the basis for the extension of
the additional exclusive use period or
if the Administrator determines that
the registrant is not actually
marketing the product for such minor
uses.
(iii) Except as otherwise provided in clause
(i), with respect to data submitted after
December 31, 1969, by an applicant or
registrant to support an application for
registration, experimental use permit, or
amendment adding a new use to an existing
registration, to support or maintain in effect
an existing registration, or for reregistration,
the Administrator may, without the
permission of the original data submitter,
consider any such item of data in support of
an application by any other person

96a
(hereinafter in this subparagraph referred
to as the “applicant”) within the fifteen-year
period following the date the data were
originally submitted only if the applicant
has made an offer to compensate the
original data submitter and submitted such
offer to the Administrator accompanied by
evidence of delivery to the original data
submitter of the offer. The terms and
amount of compensation may be fixed by
agreement between the original data
submitter and the applicant, or, failing such
agreement, binding arbitration under this
subparagraph. If, at the end of ninety days
after the date of delivery to the original data
submitter of the offer to compensate, the
original data submitter and the applicant
have neither agreed on the amount and
terms of compensation nor on a procedure
for reaching an agreement on the amount
and terms of compensation, either person
may initiate binding arbitration proceedings
by requesting the Federal Mediation
and Conciliation Service to appoint an
arbitrator from the roster of arbitrators
maintained by such Service. The procedure
and rules of the Service shall be applicable
to the selection of such arbitrator and to
such arbitration proceedings, and the
findings and determination of the arbitrator
shall be final and conclusive, and no
official or court of the United States shall
have power or jurisdiction to review any
such findings and determination, except
for fraud, misrepresentation, or other

97a
misconduct by one of the parties to the
arbitration or the arbitrator where there is
a verified complaint with supporting
affidavits attesting to specific instances of
such fraud, misrepresentation, or other
misconduct. The parties to the arbitration
shall share equally in the payment of the fee
and expenses of the arbitrator. If the
Administrator determines that an original
data submitter has failed to participate in a
procedure for reaching an agreement or in
an arbitration proceeding as required by
this subparagraph, or failed to comply with
the terms of an agreement or arbitration
decision concerning compensation under
this subparagraph, the original data
submitter shall forfeit the right to
compensation for the use of the data in
support of the application. Notwithstanding
any other provision of this subchapter, if the
Administrator determines that an applicant
has failed to participate in a procedure for
reaching an agreement or in an arbitration
proceeding
as
required
by
this
subparagraph, or failed to comply with the
terms of an agreement or arbitration
decision concerning compensation under
this subparagraph, the Administrator shall
deny the application or cancel the
registration of the pesticide in support of
which the data were used without further
hearing. Before the Administrator takes
action under either of the preceding two
sentences, the Administrator shall furnish
to the affected person, by certified mail,

98a
notice of intent to take action and allow
fifteen days from the date of delivery of the
notice for the affected person to respond. If
a registration is denied or canceled under
this subparagraph, the Administrator may
make such order as the Administrator
deems appropriate concerning the continued
sale and use of existing stocks of such
pesticide. Registration action by the
Administrator shall not be delayed pending
the fixing of compensation.
(iv) After expiration of any period of
exclusive use and any period for which
compensation is required for the use of an
item of data under clauses (i), (ii), and (iii),
the Administrator may consider such item
of data in support of an application by any
other applicant without the permission of
the original data submitter and without an
offer having been received to compensate
the original data submitter for the use of
such item of data.
(v) The period of exclusive use provided
under clause (ii) shall not take effect until 1
year after August 3, 1996, except where an
applicant or registrant is applying for the
registration of a pesticide containing an
active ingredient not previously registered.
(vi) With respect to data submitted after
August 3, 1996, by an applicant or
registrant to support an amendment adding
a new use to an existing registration that
does not retain any period of exclusive use,
if such data relates solely to a minor use of

99a
a pesticide, such data shall not, without the
written permission of the original data
submitter,
be
considered
by
the
Administrator to support an application for
a minor use by another person during the
period of 10 years following the date of
submission of such data. The applicant or
registrant at the time the new minor use is
requested shall notify the Administrator
that to the best of their knowledge the
exclusive use period for the pesticide has
expired and that the data pertaining solely
to the minor use of a pesticide is eligible for
the provisions of this paragraph. If the
minor use registration which is supported
by data submitted pursuant to this
subsection is voluntarily canceled or if such
data are subsequently used to support a
nonminor use, the data shall no longer be
subject to the exclusive use provisions of
this clause but shall instead be considered
by the Administrator in accordance with the
provisions of clause (i), as appropriate.
(G) If the applicant is requesting that the
registration or amendment to the registration
of a pesticide be expedited, an explanation of
the basis for the request must be submitted, in
accordance with paragraph (10) of this
subsection.
(2) Data in support of registration
(A) In general
The Administrator shall publish guidelines
specifying the kinds of information which will

100a
be required to support the registration of a
pesticide and shall revise such guidelines from
time to time. If thereafter the Administrator
requires any additional kind of information
under subparagraph (B) of this paragraph,
the Administrator shall permit sufficient time
for applicants to obtain such additional
information. The Administrator, in establishing
standards for data requirements for the
registration of pesticides with respect to
minor uses, shall make such standards
commensurate with the anticipated extent of
use, pattern of use, the public health and
agricultural need for such minor use, and the
level and degree of potential beneficial or
adverse effects on man and the environment.
The Administrator shall not require a person to
submit, in relation to a registration or
reregistration of a pesticide for minor
agricultural use under this subchapter, any
field residue data from a geographic area
where the pesticide will not be registered for
such use. In the development of these
standards, the Administrator shall consider
the economic factors of potential national
volume of use, extent of distribution, and the
impact of the cost of meeting the requirements
on the incentives for any potential registrant to
undertake the development of the required
data. Except as provided by section 136h of this
title, within 30 days after the Administrator
registers a pesticide under this subchapter the
Administrator shall make available to the
public the data called for in the registration
statement together with such other scientific

101a
information as the Administrator deems
relevant to the Administrator's decision.
(B) Additional data
(i) If the Administrator determines that
additional data are required to maintain in
effect an existing registration of a pesticide,
the Administrator shall notify all existing
registrants of the pesticide to which the
determination relates and provide a list of
such registrants to any interested person.
(ii) Each registrant of such pesticide shall
provide evidence within ninety days after
receipt of notification that it is taking
appropriate steps to secure the additional
data that are required. Two or more
registrants may agree to develop jointly, or
to share in the cost of developing, such data
if they agree and advise the Administrator
of their intent within ninety days after
notification. Any registrant who agrees to
share in the cost of producing the data shall
be entitled to examine and rely upon such
data in support of maintenance of such
registration. The Administrator shall issue
a notice of intent to suspend the registration
of a pesticide in accordance with the
procedures prescribed by clause (iv) if a
registrant fails to comply with this clause.
(iii) If, at the end of sixty days after
advising the Administrator of their
agreement to develop jointly, or share in the
cost of developing, data, the registrants
have not further agreed on the terms of the

102a
data development arrangement or on a
procedure for reaching such agreement, any
of such registrants may initiate binding
arbitration proceedings by requesting the
Federal Mediation and Conciliation Service
to appoint an arbitrator from the roster of
arbitrators maintained by such Service. The
procedure and rules of the Service shall be
applicable to the selection of such arbitrator
and to such arbitration proceedings, and the
findings and determination of the arbitrator
shall be final and conclusive, and no official
or court of the United States shall have
power or jurisdiction to review any such
findings and determination, except for fraud,
misrepresentation, or other misconduct by
one of the parties to the arbitration or the
arbitrator where there is a verified
complaint with supporting affidavits
attesting to specific instances of such fraud,
misrepresentation, or other misconduct. All
parties to the arbitration shall share equally
in the payment of the fee and expenses of the
arbitrator. The Administrator shall issue a
notice of intent to suspend the registration
of a pesticide in accordance with the
procedures prescribed by clause (iv) if a
registrant fails to comply with this clause.
(iv) Notwithstanding any other provision of
this subchapter, if the Administrator
determines that a registrant, within the
time required by the Administrator, has
failed to take appropriate steps to secure
the data required under this subparagraph,
to participate in a procedure for reaching

103a
agreement concerning a joint data
development arrangement under this
subparagraph or in an arbitration
proceeding
as
required
by
this
subparagraph, or to comply with the terms
of an agreement or arbitration decision
concerning a joint data development
arrangement under this subparagraph, the
Administrator may issue a notice of intent
to suspend such registrant's registration of
the pesticide for which additional data is
required. The Administrator may include in
the notice of intent to suspend such
provisions as the Administrator deems
appropriate concerning the continued sale
and use of existing stocks of such pesticide.
Any suspension proposed under this
subparagraph shall become final and
effective at the end of thirty days from
receipt by the registrant of the notice of
intent to suspend, unless during that time a
request for hearing is made by a person
adversely affected by the notice or the
registrant has satisfied the Administrator
that the registrant has complied fully with
the requirements that served as a basis for
the notice of intent to suspend. If a hearing
is requested, a hearing shall be conducted
under section 136d(d) of this title. The only
matters for resolution at that hearing shall
be whether the registrant has failed to take
the action that served as the basis for the
notice of intent to suspend the registration
of the pesticide for which additional data is
required, and whether the Administrator's

104a
determination with respect to the
disposition of existing stocks is consistent
with this subchapter. If a hearing is held, a
decision after completion of such hearing
shall be final. Notwithstanding any other
provision of this subchapter, a hearing shall
be held and a determination made within
seventy-five days after receipt of a request
for such hearing. Any registration
suspended under this subparagraph shall
be reinstated by the Administrator if the
Administrator
determines
that
the
registrant has complied fully with the
requirements that served as a basis for the
suspension of the registration.
(v) Any data submitted under this
subparagraph shall be subject to the
provisions of paragraph (1)(D). Whenever
such data are submitted jointly by two or
more registrants, an agent shall be agreed
on at the time of the joint submission to
handle any subsequent data compensation
matters for the joint submitters of such
data.
(vi) Upon the request of a registrant the
Administrator shall, in the case of a minor
use, extend the deadline for the production
of residue chemistry data under this
subparagraph for data required solely to
support that minor use until the final
deadline for submission of data under
section 136a-1 of this title for the other uses
of the pesticide established as of August 3,
1996, if--

105a
(I) the data to support other uses of the
pesticide on a food are being provided;
(II) the registrant, in submitting a
request for such an extension, provides a
schedule, including interim dates to
measure progress, to assure that the
data production will be completed before
the expiration of the extension period;
(III) the Administrator has determined
that such extension will not significantly
delay the Administrator's schedule for
issuing a reregistration eligibility
determination required under section
136a-1 of this title; and
(IV) the Administrator has determined
that based on existing data, such
extension would not significantly
increase the risk of any unreasonable
adverse effect on the environment. If the
Administrator grants an extension
under this clause, the Administrator
shall monitor the development of the
data and shall ensure that the registrant
is meeting the schedule for the
production of the data. If the
Administrator determines that the
registrant is not meeting or has not met
the schedule for the production of such
data, the Administrator may proceed in
accordance with clause (iv) regarding
the continued registration of the affected
products with the minor use and shall
inform the public of such action.
Notwithstanding the provisions of this

106a
clause, the Administrator may take
action to modify or revoke the extension
under this clause if the Administrator
determines that the extension for the
minor use may cause an unreasonable
adverse effect on the environment. In
such circumstance, the Administrator
shall provide, in writing to the
registrant, a notice revoking the
extension of time for submission of data.
Such data shall instead be due in
accordance with the date established by
the Administrator for the submission of
the data.
(vii) If the registrant does not commit to
support a specific minor use of the pesticide,
but is supporting and providing data in a
timely and adequate fashion to support uses
of the pesticide on a food, or if all uses of the
pesticide are nonfood uses and the
registrant does not commit to support a
specific minor use of the pesticide but is
supporting and providing data in a timely
and adequate fashion to support other
nonfood uses of the pesticide, the
Administrator, at the written request of the
registrant, shall not take any action
pursuant to this clause in regard to such
unsupported minor use until the final
deadline established as of August 3, 1996,
for the submission of data under section
136a-1 of this title for the supported uses
identified pursuant to this clause unless the
Administrator determines that the absence
of the data is significant enough to cause

107a
human health or environmental concerns.
On the basis of such determination, the
Administrator may refuse the request for
extension by the registrant. Upon receipt of
the request from the registrant, the
Administrator shall publish in the Federal
Register a notice of the receipt of the
request and the effective date upon which
the uses not being supported will be
voluntarily deleted from the registration
pursuant to section 136d(f)(1) of this title. If
the Administrator grants an extension
under this clause, the Administrator shall
monitor the development of the data for the
uses being supported and shall ensure that
the registrant is meeting the schedule for the
production of such data. If the Administrator
determines that the registrant is not
meeting or has not met the schedule for the
production of such data, the Administrator
may proceed in accordance with clause (iv)
of this subparagraph regarding the
continued registration of the affected
products with the minor and other uses and
shall inform the public of such action in
accordance with section 136d(f)(2) of this
title. Notwithstanding the provisions of this
clause, the Administrator may deny,
modify, or revoke the temporary extension
under this subparagraph if the Administrator
determines that the continuation of the
minor use may cause an unreasonable
adverse effect on the environment. In the
event of modification or revocation, the
Administrator shall provide, in writing, to

108a
the registrant a notice revoking the
temporary extension and establish a new
effective date by which the minor use shall
be deleted from the registration.
(viii)(I) If data required to support
registration
of
a
pesticide
under
subparagraph (A) is requested by a Federal
or State regulatory authority, the
Administrator shall, to the extent
practicable, coordinate data requirements,
test protocols, timetables, and standards of
review and reduce burdens and redundancy
caused to the registrant by multiple
requirements on the registrant.
(II) The Administrator may enter into a
cooperative agreement with a State to
carry out subclause (I).
(III) Not later than 1 year after August
3, 1996, the Administrator shall develop
a process to identify and assist in
alleviating future disparities between
Federal and State data requirements.
(C) Simplified procedures
Within nine months after September 30, 1978,
the Administrator shall, by regulation,
prescribe simplified procedures for the
registration of pesticides, which shall include
the provisions of subparagraph (D) of this
paragraph.
(D) Exemption
No applicant for registration of a pesticide who
proposes to purchase a registered pesticide

109a
from another producer in order to formulate
such purchased pesticide into the pesticide that
is the subject of the application shall be
required to-(i) submit or cite data pertaining to such
purchased product; or
(ii) offer to pay reasonable compensation
otherwise required by paragraph (1)(D) of
this subsection for the use of any such data.
(E) Minor use waiver
In handling the registration of a pesticide for a
minor use, the Administrator may waive
otherwise applicable data requirements if the
Administrator determines that the absence of
such data will not prevent the Administrator
from determining-(i) the incremental risk presented by the
minor use of the pesticide; and
(ii) that such risk, if any, would not be an
unreasonable adverse effect on the
environment.
(3) Application
(A) In general
The Administrator shall review the data after
receipt of the application and shall, as
expeditiously as possible, either register the
pesticide in accordance with paragraph (5), or
notify the applicant of the Administrator's
determination that it does not comply with the
provisions of the subchapter in accordance with
paragraph (6).

110a
(B) Identical or substantially similar
(i) The Administrator shall, as expeditiously
as possible, review and act on any
application received by the Administrator
that-(I) proposes the initial or amended
registration of an end-use pesticide that,
if registered as proposed, would be
identical or substantially similar in
composition and labeling to a currentlyregistered pesticide identified in the
application, or that would differ in
composition and labeling from such
currently-registered pesticide only in
ways that would not significantly
increase the risk of unreasonable
adverse effects on the environment; or
(II) proposes an amendment to the
registration of a registered pesticide that
does not require scientific review of data.
(ii) In expediting the review of an
application for an action described in clause
(i), the Administrator shall-(I) review the application in accordance
with section 136w-8(f)(4)(B) of this title
and, if the application is found to be
incomplete, reject the application;
(II) not later than the applicable
decision review time established
pursuant to section 136w-8(f)(4)(B) of
this title, or, if no review time is
established, not later than 90 days after

111a
receiving a complete application, notify
the registrant if the application has been
granted or denied; and
(III) if the application is denied, notify
the registrant in writing of the specific
reasons for the denial of the application.
(C) Minor use registration
(i) The Administrator shall, as expeditiously
as possible, review and act on any complete
application-(I) that proposes the initial registration
of a new pesticide active ingredient if the
active ingredient is proposed to be
registered solely for minor uses, or
proposes a registration amendment
solely for minor uses to an existing
registration; or
(II) for a registration or a registration
amendment that proposes significant
minor uses.
(ii) For the purposes of clause (i)-(I) the term “as expeditiously as
possible” means that the Administrator
shall, to the greatest extent practicable,
complete a review and evaluation of all
data, submitted with a complete
application, within 12 months after the
submission of the complete application,
and the failure of the Administrator to
complete such a review and evaluation
under clause (i) shall not be subject to
judicial review; and

112a
(II) the term “significant minor uses”
means 3 or more minor uses proposed for
every nonminor use, a minor use that
would, in the judgment of the
Administrator, serve as a replacement
for any use which has been canceled in
the 5 years preceding the receipt of the
application, or a minor use that in the
opinion of the Administrator would
avoid the reissuance of an emergency
exemption under section 136p of this
title for that minor use.
(D) Adequate time for submission of
minor use data
If a registrant makes a request for a minor use
waiver, regarding data required by the
Administrator, pursuant to paragraph (2)(E),
and if the Administrator denies in whole or in
part such data waiver request, the registrant
shall have a full-time period for providing such
data. For purposes of this subparagraph, the
term “full-time period” means the time period
originally established by the Administrator for
submission of such data, beginning with the
date of receipt by the registrant of the
Administrator's notice of denial.
(4) Notice of application
The Administrator shall publish in the Federal
Register, promptly after receipt of the statement
and other data required pursuant to paragraphs
(1) and (2), a notice of each application for
registration of any pesticide if it contains any new
active ingredient or if it would entail a changed

113a
use pattern. The notice shall provide for a period
of 30 days in which any Federal agency or any
other interested person may comment.
(5) Approval of registration
The Administrator shall register a pesticide if the
Administrator determines that, when considered
with any restrictions imposed under subsection
(d)-(A) its composition is such as to warrant the
proposed claims for it;
(B) its labeling and other material required to
be submitted comply with the requirements of
this subchapter;
(C) it will perform its intended function
without unreasonable adverse effects on the
environment; and
(D) when used in accordance with widespread
and commonly recognized practice it will not
generally cause unreasonable adverse effects
on the environment.
The Administrator shall not make any lack of
essentiality a criterion for denying registration
of any pesticide. Where two pesticides meet the
requirements of this paragraph, one should not
be registered in preference to the other. In
considering an application for the registration
of a pesticide, the Administrator may waive
data requirements pertaining to efficacy, in
which event the Administrator may register
the pesticide without determining that the
pesticide's composition is such as to warrant
proposed claims of efficacy. If a pesticide is

114a
found to be efficacious by any State under
section 136v(c) of this title, a presumption is
established that the Administrator shall waive
data requirements pertaining to efficacy for
use of the pesticide in such State.
(6) Denial of registration
If the Administrator determines that the
requirements of paragraph (5) for registration are
not satisfied, the Administrator shall notify the
applicant for registration of the Administrator's
determination and of the Administrator's reasons
(including the factual basis) therefor, and that,
unless the applicant corrects the conditions and
notifies the Administrator thereof during the 30day period beginning with the day after the date
on which the applicant receives the notice, the
Administrator may refuse to register the pesticide.
Whenever the Administrator refuses to register a
pesticide, the Administrator shall notify the
applicant of the Administrator's decision and of
the Administrator's reasons (including the factual
basis) therefor. The Administrator shall promptly
publish in the Federal Register notice of such
denial of registration and the reasons therefor.
Upon such notification, the applicant for
registration or other interested person with the
concurrence of the applicant shall have the same
remedies as provided for in section 136d of this
title.
(7) Registration under special circumstances
Notwithstanding the provisions of paragraph (5)-(A) The Administrator may conditionally
register or amend the registration of a pesticide

115a
if the Administrator determines that (i) the
pesticide and proposed use are identical or
substantially similar to any currently registered
pesticide and use thereof, or differ only in ways
that would not significantly increase the risk
of unreasonable adverse effects on the
environment, and (ii) approving the registration
or amendment in the manner proposed by the
applicant would not significantly increase the
risk of any unreasonable adverse effect on the
environment. An applicant seeking conditional
registration or amended registration under
this subparagraph shall submit such data as
would be required to obtain registration of a
similar pesticide under paragraph (5). If the
applicant is unable to submit an item of data
because it has not yet been generated, the
Administrator may register or amend the
registration of the pesticide under such
conditions as will require the submission of
such data not later than the time such data are
required to be submitted with respect to
similar pesticides already registered under this
subchapter.
(B) The Administrator may conditionally
amend the registration of a pesticide to
permit additional uses of such pesticide
notwithstanding that data concerning the
pesticide may be insufficient to support an
unconditional amendment, if the Administrator
determines that (i) the applicant has submitted
satisfactory data pertaining to the proposed
additional use, and (ii) amending the registration
in the manner proposed by the applicant
would not significantly increase the risk of

116a
any unreasonable adverse effect on the
environment. Notwithstanding the foregoing
provisions of this subparagraph, no registration
of a pesticide may be amended to permit an
additional use of such pesticide if the
Administrator has issued a notice stating that
such pesticide, or any ingredient thereof, meets
or exceeds risk criteria associated in whole or
in part with human dietary exposure
enumerated in regulations issued under this
subchapter, and during the pendency of any
risk- benefit evaluation initiated by such
notice, if (I) the additional use of such pesticide
involves a major food or feed crop, or (II) the
additional use of such pesticide involves a
minor food or feed crop and the Administrator
determines, with the concurrence of the
Secretary of Agriculture, there is available an
effective alternative pesticide that does not
meet or exceed such risk criteria. An applicant
seeking amended registration under this
subparagraph shall submit such data as would
be required to obtain registration of a similar
pesticide under paragraph (5). If the applicant
is unable to submit an item of data (other than
data pertaining to the proposed additional use)
because it has not yet been generated, the
Administrator may amend the registration
under such conditions as will require the
submission of such data not later than the time
such data are required to be submitted with
respect to similar pesticides already registered
under this subchapter.
(C) The Administrator may conditionally
register a pesticide containing an active

117a
ingredient not contained in any currently
registered pesticide for a period reasonably
sufficient for the generation and submission of
required data (which are lacking because a
period reasonably sufficient for generation of
the data has not elapsed since the
Administrator first imposed the data
requirement) on the condition that by the end
of such period the Administrator receives such
data and the data do not meet or exceed risk
criteria enumerated in regulations issued
under this subchapter, and on such other
conditions as the Administrator may prescribe.
A conditional registration under this
subparagraph shall be granted only if the
Administrator determines that use of the
pesticide during such period will not cause any
unreasonable
adverse
effect
on
the
environment, and that use of the pesticide is in
the public interest.
(8) Interim administrative review
Notwithstanding any other provision of this
subchapter, the Administrator may not initiate a
public interim administrative review process to
develop a risk-benefit evaluation of the
ingredients of a pesticide or any of its uses prior to
initiating a formal action to cancel, suspend, or
deny registration of such pesticide, required under
this
subchapter,
unless
such
interim
administrative process is based on a validated test
or other significant evidence raising prudent
concerns of unreasonable adverse risk to man or to
the environment. Notice of the definition of the
terms “validated test” and “other significant

118a
evidence” as used herein shall be published by the
Administrator in the Federal Register.
(9) Labeling
(A) Additional statements
Subject to subparagraphs (B) and (C), it shall
not be a violation of this subchapter for a
registrant to modify the labeling of an
antimicrobial pesticide product to include
relevant information on product efficacy,
product composition, container composition or
design, or other characteristics that do not
relate to any pesticidal claim or pesticidal
activity.
(B) Requirements
Proposed
labeling
information
under
subparagraph (A) shall not be false or
misleading, shall not conflict with or detract
from any statement required by law or the
Administrator as a condition of registration,
and shall be substantiated on the request of the
Administrator.
(C) Notification and disapproval
(i) Notification
A registration may be modified under
subparagraph (A) if-(I)
the
registrant
notifies
the
Administrator in writing not later than
60 days prior to distribution or sale of a
product bearing the modified labeling;
and

119a
(II) the Administrator does not
disapprove of the modification under
clause (ii).
(ii) Disapproval
Not later than 30 days after receipt of
a notification under clause (i), the
Administrator
may
disapprove
the
modification by sending the registrant
notification in writing stating that the
proposed language is not acceptable and
stating the reasons why the Administrator
finds the proposed modification unacceptable.
(iii) Restriction on sale
A registrant may not sell or distribute a
product bearing a disapproved modification.
(iv) Objection
A registrant may file an objection in writing
to a disapproval under clause (ii) not later
than 30 days after receipt of notification of
the disapproval.
(v) Final action
A decision by the Administrator following
receipt and consideration of an objection
filed under clause (iv) shall be considered a
final agency action.
(D) Use dilution
The label or labeling required under this
subchapter for an antimicrobial pesticide that
is or may be diluted for use may have a
different statement of caution or protective

120a
measures for use of the recommended diluted
solution of the pesticide than for use of a
concentrate of the pesticide if the Administrator
determines that-(i) adequate data have been submitted to
support the statement proposed for the
diluted solution uses; and
(ii) the label or labeling provides adequate
protection for exposure to the diluted
solution of the pesticide.
(10) Expedited registration of pesticides
(A) Not later than 1 year after August 3, 1996,
the Administrator shall, utilizing public
comment, develop procedures and guidelines,
and expedite the review of an application for
registration of a pesticide or an amendment to
a registration that satisfies such guidelines.
(B) Any application for registration or an
amendment,
including
biological
and
conventional pesticides, will be considered for
expedited review under this paragraph. An
application for registration or an amendment
shall qualify for expedited review if use of the
pesticide proposed by the application may
reasonably be expected to accomplish 1 or more
of the following:
(i) Reduce the risks of pesticides to human
health.
(ii) Reduce the risks of pesticides to
nontarget organisms.

121a
(iii) Reduce the potential for contamination
of groundwater, surface water, or other
valued environmental resources.
(iv) Broaden the adoption of integrated pest
management strategies, or make such
strategies more available or more effective.
(C) The Administrator, not later than 30 days
after receipt of an application for expedited
review, shall notify the applicant whether the
application is complete. If it is found to be
incomplete, the Administrator may either
reject the request for expedited review or
ask the applicant for additional information
to satisfy the guidelines developed under
subparagraph (A).
(11) Interagency working group
(A) Definition of covered agency
In this paragraph, the term “covered agency”
means any of the following:
(i) The Department of Agriculture.
(ii) The Department of Commerce.
(iii) The Department of the Interior.
(iv) The Council on Environmental Quality.
(v) The Environmental Protection Agency.
(B) Establishment
The Administrator shall establish an
interagency working group, to be comprised of
representatives from each covered agency, to
provide recommendations regarding, and to

122a
implement a strategy for improving, the
consultation process required under section 7
of the Endangered Species Act of 1973 (16
U.S.C. 1536) for pesticide registration and
registration review.
(C) Duties
The interagency working group established
under subparagraph (B) shall-(i) analyze relevant Federal law (including
regulations) and case law for purposes of
providing an outline of the legal and
regulatory framework for the consultation
process referred to in that subparagraph,
including-(I) requirements under this subchapter
and the Endangered Species Act of 1973
(16 U.S.C. 1531 et seq.);
(II) Federal case law regarding the
intersection of this subchapter and the
Endangered Species Act of 1973 (16
U.S.C. 1531 et seq.); and
(III) Federal regulations relating to the
pesticide consultation process;
(ii) provide advice regarding methods of-(I) defining the scope of actions of the
covered agencies that are subject to the
consultation requirement referred to in
subparagraph (B); and
(II) properly identifying and classifying
effects of actions of the covered agencies

123a
with respect
requirement;

to

that

consultation

(iii) identify the obligations and limitations
under Federal law of each covered agency
for purposes of providing a legal and
regulatory framework for developing the
recommendations
referred
to
in
subparagraph (B);
(iv) review practices for the consultation
referred to in subparagraph (B) to identify
problem areas, areas for improvement, and
best practices for conducting that
consultation among the covered agencies;
(v) develop scientific and policy approaches
to increase the accuracy and timeliness of
the process for that consultation, in
accordance with requirements of this
subchapter and the Endangered Species Act
of 1973 (16 U.S.C. 1531 et seq.), including-(I) processes to efficiently share data
and coordinate analyses among the
Department
of
Agriculture,
the
Department
of
Commerce,
the
Department of the Interior, and the
Environmental Protection Agency;
(II) a streamlined process for identifying
which actions require no consultation,
informal
consultation,
or
formal
consultation;
(III) an approach that will provide
clarity with respect to what constitutes
the best scientific and commercial data

124a
available in the fields of pesticide
use and ecological risk assessment,
pursuant to section 7(a)(2) of the
Endangered Species Act of 1973 (16
U.S.C. 1536(a)(2)); and
(IV) approaches that enable the
Environmental Protection Agency to
better assist the Department of the
Interior and the Department of
Commerce in carrying out obligations
under that section in a timely and
efficient manner; and
(vi) propose and implement a strategy to
implement approaches to consultations
under the Endangered Species Act of 1973
(16 U.S.C. 1531 et seq.) and document
that strategy in a memorandum of
understanding, revised regulations, or
another appropriate format to promote
durable cooperation among the covered
agencies.
(D) Reports
(i) Progress reports
(I) In general
Not later than 18 months after
December 20, 2018, the Administrator,
in coordination with the head of each
other covered agency, shall submit to the
Committee on Agriculture of the House
of Representatives and the Committee
on Agriculture, Nutrition, and Forestry
of the Senate a report describing the

125a
progress of the working group in
developing the recommendations under
subparagraph (B).
(II) Requirements
The report under this clause shall-(aa) reflect the perspectives of each
covered agency; and
(bb) identify areas of new consensus
and continuing topics of disagreement
and debate.
(ii) Results
(I) In general
Not later than 1 year after December 20,
2018, the Administrator, in coordination
with the head of each other covered
agency, shall submit to the Committee
on Agriculture of the House of
Representatives and the Committee on
Agriculture, Nutrition, and Forestry of
the Senate a report describing-(aa) the recommendations developed
under subparagraph (B); and
(bb) plans for implementation of
those recommendations.
(II) Requirements
The report under this clause shall-(aa) reflect the perspectives of each
covered agency; and

126a
(bb) identify areas of consensus and
continuing topics of disagreement
and debate, if any.
(iii) Implementation
Not later than 1 year after the date of
submission of the report under clause (i),
the Administrator, in coordination with the
head of each other covered agency, shall
submit to the Committee on Agriculture of
the House of Representatives and the
Committee on Agriculture, Nutrition, and
Forestry of the Senate a report describing-(I)
the
implementation
of
the
recommendations referred to in that
clause;
(II) the extent to which that
implementation
improved
the
consultation process referred to in
subparagraph (B); and
(III) any additional recommendations
for improvements to the process
described in subparagraph (B).
(iv) Other reports
Not later than the date that is 180 days
after the date of submission of the report
under clause (iii), and not less frequently
than once every 180 days thereafter during
the 5-year period beginning on that date,
the Administrator, in coordination with the
head of each other covered agency, shall
submit to the Committee on Agriculture of
the House of Representatives and the

127a
Committee on Agriculture, Nutrition, and
Forestry of the Senate a report describing-(I)
the
implementation
of
the
recommendations referred to in that
clause;
(II) the extent to which that
implementation
improved
the
consultation process referred to in
subparagraph (B); and
(III) any additional recommendations
for improvements to the process
described in subparagraph (B).
(E) Consultation with private sector
In carrying out the duties under this
paragraph, the working group shall, as
appropriate-(i) consult with, representatives of
interested industry stakeholders and
nongovernmental organizations; and
(ii) take into consideration factors, such as
actual and potential differences in interest
between, and the views of, those
stakeholders and organizations.
(F) Federal Advisory Committee Act
The Federal Advisory Committee Act (5 U.S.C.
App.) shall not apply to the working group
established under this paragraph.
(G) Savings clause
Nothing in this paragraph supersedes any
provision of--

128a
(i) this subchapter; or
(ii) the Endangered Species Act of 1973 (16
U.S.C. 1531 et seq.), including the
requirements under section 7 of that Act (16
U.S.C. 1536).
(d) Classification of pesticides
(1) Classification for general use, restricted
use, or both
(A) As a part of the registration of a pesticide
the Administrator shall classify it as being for
general use or for restricted use. If the
Administrator determines that some of the
uses for which the pesticide is registered
should be for general use and that other uses
for which it is registered should be for
restricted use, the Administrator shall classify
it for both general use and restricted use.
Pesticide uses may be classified by regulation
on the initial classification, and registered
pesticides may be classified prior to
reregistration. If some of the uses of the
pesticide are classified for general use, and
other uses are classified for restricted use, the
directions relating to its general uses shall be
clearly separated and distinguished from those
directions relating to its restricted uses. The
Administrator may require that its packaging
and labeling for restricted uses shall be clearly
distinguishable from its packaging and
labeling for general uses.
(B) If the Administrator determines that the
pesticide, when applied in accordance with its
directions for use, warnings and cautions and

129a
for the uses for which it is registered, or for one
or more of such uses, or in accordance with a
widespread and commonly recognized practice,
will not generally cause unreasonable adverse
effects on the environment, the Administrator
will classify the pesticide, or the particular use
or uses of the pesticide to which the
determination applies, for general use.
(C) If the Administrator determines that the
pesticide, when applied in accordance with its
directions for use, warnings and cautions and
for the uses for which it is registered, or for one
or more of such uses, or in accordance with a
widespread and commonly recognized practice,
may generally cause, without additional
regulatory restrictions, unreasonable adverse
effects on the environment, including injury to
the applicator, the Administrator shall classify
the pesticide, or the particular use or uses to
which the determination applies, for restricted
use:
(i) If the Administrator classifies a
pesticide, or one or more uses of such
pesticide, for restricted use because of a
determination that the acute dermal or
inhalation toxicity of the pesticide presents
a hazard to the applicator or other persons,
the pesticide shall be applied for any use to
which the restricted classification applies
only by or under the direct supervision of a
certified applicator.
(ii) If the Administrator classifies a pesticide,
or one or more uses of such pesticide, for
restricted use because of a determination

130a
that its use without additional regulatory
restriction may cause unreasonable adverse
effects on the environment, the pesticide
shall be applied for any use to which the
determination applies only by or under the
direct supervision of a certified applicator,
or subject to such other restrictions as the
Administrator may provide by regulation.
Any such regulation shall be reviewable in
the appropriate court of appeals upon
petition of a person adversely affected filed
within 60 days of the publication of the
regulation in final form.
(2) Change in classification
If the Administrator determines that a change in
the classification of any use of a pesticide from
general use to restricted use is necessary to
prevent unreasonable adverse effects on the
environment, the Administrator shall notify the
registrant of such pesticide of such determination
at least forty-five days before making the change
and shall publish the proposed change in the
Federal Register. The registrant, or other
interested person with the concurrence of the
registrant, may seek relief from such
determination under section 136d(b) of this title.
(3) Change in classification from restricted
use to general use
The registrant of any pesticide with one or more
uses classified for restricted use may petition the
Administrator to change any such classification
from restricted to general use. Such petition shall
set out the basis for the registrant's position that
restricted use classification is unnecessary because

131a
classification of the pesticide for general use would
not cause unreasonable adverse effects on the
environment. The Administrator, within sixty
days after receiving such petition, shall notify the
registrant whether the petition has been granted
or denied. Any denial shall contain an explanation
therefor and any such denial shall be subject to
judicial review under section 136n of this title.
(e) Products with same formulation and claims
Products which have the same formulation, are
manufactured by the same person, the labeling of
which contains the same claims, and the labels of
which bear a designation identifying the product as
the same pesticide may be registered as a single
pesticide; and additional names and labels shall be
added to the registration by supplemental statements.
(f) Miscellaneous
(1) Effect of
formulation

change

of

labeling

or

If the labeling or formulation for a pesticide is
changed, the registration shall be amended to
reflect such change if the Administrator
determines that the change will not violate any
provision of this subchapter.
(2) Registration not a defense
In no event shall registration of an article be
construed as a defense for the commission of any
offense under this subchapter. As long as no
cancellation proceedings are in effect registration
of a pesticide shall be prima facie evidence that the
pesticide, its labeling and packaging comply with
the registration provisions of the subchapter.

132a
(3) Authority to consult other Federal
agencies
In connection with consideration of any
registration or application for registration under
this section, the Administrator may consult with
any other Federal agency.
(4) Mixtures of nitrogen stabilizers and
fertilizer products
Any mixture or other combination of-(A) 1 or more nitrogen stabilizers registered
under this subchapter; and
(B) 1 or more fertilizer products,
shall not be subject to the provisions of this
section or sections 136a-1, 136c, 136e, 136m,
and 136o(a)(2) of this title if the mixture or
other combination is accompanied by the
labeling required under this subchapter for the
nitrogen stabilizer contained in the mixture or
other combination, the mixture or combination
is mixed or combined in accordance with such
labeling, and the mixture or combination does
not contain any active ingredient other than
the nitrogen stabilizer.
(g) Registration review
(1) General rule
(A) Periodic review
(i) In general
The registrations of pesticides are to be
periodically reviewed.

133a
(ii) Regulations
In accordance with this subparagraph, the
Administrator shall by regulation establish
a procedure for accomplishing the periodic
review of registrations.
(iii) Initial registration review
The Administrator shall complete the
registration review of each pesticide or
pesticide case, which may be composed of 1
or more active ingredients and the products
associated with the active ingredients, not
later than the later of-(I) October 1, 2022; or
(II) the date that is 15 years after the
date on which the first pesticide
containing a new active ingredient is
registered.
(iv) Subsequent registration review
Not later than 15 years after the date on
which the initial registration review is
completed under clause (iii) and each 15
years thereafter, the Administrator shall
complete a subsequent registration review
for each pesticide or pesticide case.
(v) Cancellation
No registration shall be canceled as a result
of the registration review process unless the
Administrator follows the procedures and
substantive requirements of section 136d of
this title.

134a
(B) Docketing
(i) In general
Subject to clause (ii), after meeting with 1
or more individuals that are not
government employees to discuss matters
relating to a registration review, the
Administrator shall place in the docket
minutes of the meeting, a list of attendees,
and any documents exchanged at the
meeting, not later than the earlier of-(I) the date that is 45 days after the
meeting; or
(II) the date of issuance
registration review decision.

of

the

(ii) Protected information
The Administrator shall identify, but not
include in the docket, any confidential
business information the disclosure of which
is prohibited by section 136h of this title.
(C) Limitation
Nothing in this subsection shall prohibit the
Administrator from undertaking any other
review of a pesticide pursuant to this
subchapter.
(2) Data
(A) Submission required
The Administrator shall use the authority in
subsection (c)(2)(B) to require the submission of
data when such data are necessary for a
registration review.

135a
(B) Data submission, compensation, and
exemption
For purposes of this subsection, the provisions
of subsections (c)(1), (c)(2)(B), and (c)(2)(D)
shall be utilized for and be applicable to any
data required for registration review.
(h) Registration requirements for antimicrobial
pesticides
(1) Evaluation of process
To the maximum extent practicable consistent
with the degrees of risk presented by an
antimicrobial pesticide and the type of review
appropriate to evaluate the risks, the
Administrator shall identify and evaluate reforms
to the antimicrobial registration process that
would reduce review periods existing as of August
3, 1996, for antimicrobial pesticide product
registration applications and applications for
amended registration of antimicrobial pesticide
products, including-(A) new antimicrobial active ingredients;
(B) new antimicrobial end-use products;
(C) substantially similar
antimicrobial pesticides; and

or

identical

(D) amendments to antimicrobial pesticide
registrations.
(2) Review time period reduction goal
Each reform identified under paragraph (1) shall
be designed to achieve the goal of reducing the
review period following submission of a complete

136a
application, consistent with the degree of risk, to a
period of not more than-(A) 540 days for a new antimicrobial active
ingredient pesticide registration;
(B) 270 days for a new antimicrobial use of a
registered active ingredient;
(C) 120 days for any other new antimicrobial
product;
(D) 90 days for a substantially similar or
identical antimicrobial product;
(E) 90 days for an amendment to an
antimicrobial registration that does not require
scientific review of data; and
(F) 120 days for an amendment to an
antimicrobial registration that requires
scientific review of data and that is not
otherwise described in this paragraph.
(3) Implementation
(A) Proposed rulemaking
(i) Issuance
Not later than 270 days after August 3,
1996, the Administrator shall publish in the
Federal Register proposed regulations to
accelerate and improve the review of
antimicrobial pesticide products designed to
implement, to the extent practicable, the
goals set forth in paragraph (2).
(ii) Requirements
Proposed regulations issued under clause (i)
shall--

137a
(I) define the various classes of
antimicrobial use patterns, including
household, industrial, and institutional
disinfectants and sanitizing pesticides,
preservatives, water treatment, and
pulp and paper mill additives, and other
such products intended to disinfect,
sanitize, reduce, or mitigate growth
or development of microbiological
organisms, or protect inanimate objects,
industrial processes or systems, surfaces,
water, or other chemical substances from
contamination, fouling, or deterioration
caused by bacteria, viruses, fungi,
protozoa, algae, or slime;
(II) differentiate the types of review
undertaken for antimicrobial pesticides;
(III) conform the degree and type of
review to the risks and benefits
presented by antimicrobial pesticides
and the function of review under this
subchapter, considering the use patterns
of the product, toxicity, expected
exposure, and product type;
(IV) ensure that the registration process
is sufficient to maintain antimicrobial
pesticide efficacy and that antimicrobial
pesticide products continue to meet
product performance standards and
effectiveness levels for each type of label
claim made; and
(V) implement effective and reliable
deadlines for process management.

138a
(iii) Comments
In developing the proposed regulations, the
Administrator shall solicit the views from
registrants and other affected parties to
maximize the effectiveness of the rule
development process.
(B) Final regulations
(i) Issuance
The Administrator shall issue final
regulations not later than 240 days after the
close of the comment period for the proposed
regulations.
(ii) Failure to meet goal
If a goal described in paragraph (2) is not
met by the final regulations, the
Administrator shall identify the goal,
explain why the goal was not attained,
describe the element of the regulations
included instead, and identify future steps
to attain the goal.
(iii) Requirements
In
issuing
final
Administrator shall--

regulations,

the

(I) consider the establishment of a
certification process for regulatory
actions involving risks that can be
responsibly managed, consistent with
the degree of risk, in the most costefficient manner;

139a
(II) consider the establishment of a
certification process by approved
laboratories as an adjunct to the review
process;
(III) use all appropriate and costeffective review mechanisms, including-(aa) expanded use of notification and
non-notification procedures;
(bb)
revised
procedures
application review; and

for

(cc) allocation of appropriate
resources to ensure streamlined
management
of
antimicrobial
pesticide registrations; and
(IV) clarify criteria for determination of
the completeness of an application.
(C) Expedited review
This subsection does not affect the
requirements or extend the deadlines or review
periods contained in subsection (c)(3).
(D) Alternative review periods
If the final regulations to carry out this
paragraph are not effective 630 days after
August 3, 1996, until the final regulations
become effective, the review period, beginning
on the date of receipt by the Agency of a
complete application, shall be-(i) 2 years for a new antimicrobial active
ingredient pesticide registration;

140a
(ii) 1 year for a new antimicrobial use of a
registered active ingredient;
(iii) 180 days for
antimicrobial product;

any

other

new

(iv) 90 days for a substantially similar or
identical antimicrobial product;
(v) 90 days for an amendment to an
antimicrobial registration that does not
require scientific review of data; and
(vi) 120 days for an amendment to an
antimicrobial registration that requires
scientific review of data and that is not
otherwise described in this subparagraph.
(E) Wood preservatives
An application for the registration, or for an
amendment to the registration, of a wood
preservative product for which a claim of
pesticidal activity listed in section 136(mm) of
this title is made (regardless of any other
pesticidal claim that is made with respect to
the product) shall be reviewed by the
Administrator within the same period as that
established under this paragraph for an
antimicrobial pesticide product application,
consistent with the degree of risk posed by the
use of the wood preservative product, if the
application requires the applicant to satisfy the
same data requirements as are required to
support an application for a wood preservative
product that is an antimicrobial pesticide.

141a
(F) Notification
(i) In general
Subject to clause (iii), the Administrator
shall notify an applicant whether an
application has been granted or denied not
later than the final day of the appropriate
review period under this paragraph, unless
the applicant and the Administrator agree
to a later date.
(ii) Final decision
If the Administrator fails to notify an
applicant within the period of time required
under clause (i), the failure shall be
considered an agency action unlawfully
withheld or unreasonably delayed for
purposes of judicial review under chapter 7
of Title 5.
(iii) Exemption
This subparagraph does not apply to an
application for an antimicrobial pesticide
that is filed under subsection (c)(3) (B) prior
to 90 days after August 3, 1996.
(iv) Limitation
Notwithstanding clause (ii), the failure of
the Administrator to notify an applicant for
an amendment to a registration for an
antimicrobial pesticide shall not be
judicially reviewable in a Federal or State
court if the amendment requires scientific
review of data within--

142a
(I) the time period specified in
subparagraph (D)(vi), in the absence of a
final regulation under subparagraph
(B); or
(II) the time period specified in
paragraph (2)(F), if adopted in a final
regulation under subparagraph (B).
(4) Annual report
(A) Submission
Beginning on August 3, 1996, and ending on
the date that the goals under paragraph (2) are
achieved, the Administrator shall, not later
than March 1 of each year, prepare and submit
an annual report to the Committee on
Agriculture of the House of Representatives
and the Committee on Agriculture, Nutrition,
and Forestry of the Senate.
(B) Requirements
A report submitted under subparagraph (A)
shall include a description of-(i) measures taken to reduce the backlog of
pending registration applications;
(ii) progress toward achieving reforms
under this subsection; and
(iii) recommendations to improve the
activities of the Agency pertaining to
antimicrobial registrations.

143a
17 U.S.C.A. § 102
§ 102. Subject matter of copyright: In general
(a) Copyright protection subsists, in accordance with
this title, in original works of authorship fixed in any
tangible medium of expression, now known or later
developed, from which they can be perceived,
reproduced, or otherwise communicated, either
directly or with the aid of a machine or device. Works
of authorship include the following categories:
(1) literary works;
(2) musical works, including any accompanying
words;
(3) dramatic works, including any accompanying
music;
(4) pantomimes and choreographic works;
(5) pictorial, graphic, and sculptural works;
(6) motion pictures and other audiovisual works;
(7) sound recordings; and
(8) architectural works.
(b) In no case does copyright protection for an original
work of authorship extend to any idea, procedure,
process, system, method of operation, concept,
principle, or discovery, regardless of the form in which
it is described, explained, illustrated, or embodied in
such work.

144a
17 U.S.C.A. § 105
§ 105. Subject matter of copyright: United States
Government works
Effective: December 20, 2019
(a) In general.--Copyright protection under this title
is not available for any work of the United States
Government, but the United States Government is
not precluded from receiving and holding copyrights
transferred to it by assignment, bequest, or otherwise.
(b) Copyright protection of certain of works.-Subject to subsection (c), the covered author of a
covered work owns the copyright to that covered
work.
(c)1 Use by Federal Government.--The Secretary
of Defense may direct the covered author of a covered
work to provide the Federal Government with an
irrevocable, royalty-free, world-wide, nonexclusive
license to reproduce, distribute, perform, or display
such covered work for purposes of the United States
Government.
(c)1 Definitions.--In this section:
(1) The term “covered author” means a civilian
member of the faculty of a covered institution.
(2) The term “covered institution” means the
following:
(A) National Defense University.
(B) United States Military Academy.

1

So in original. Two subsecs. (c) were enacted.

145a
(C) Army War College.
(D) United States Army Command and
General Staff College.
(E) United States Naval Academy.
(F) Naval War College.
(G) Naval Post Graduate School.
(H) Marine Corps University.
(I) United States Air Force Academy.
(J) Air University.
(K) Defense Language Institute.
(L) United States Coast Guard Academy.
(3) The term “covered work” means a literary work
produced by a covered author in the course of
employment at a covered institution for
publication by a scholarly press or journal.

146a
17 U.S.C.A. § 501
§ 501. Infringement of copyright
Effective: December 20, 2019
(a) Anyone who violates any of the exclusive rights of
the copyright owner as provided by sections 106
through 122 or of the author as provided in section
106A(a), or who imports copies or phonorecords into
the United States in violation of section 602, is an
infringer of the copyright or right of the author, as the
case may be. For purposes of this chapter (other than
section 506), any reference to copyright shall be
deemed to include the rights conferred by section
106A(a). As used in this subsection, the term “anyone”
includes any State, any instrumentality of a State,
and any officer or employee of a State or
instrumentality of a State acting in his or her official
capacity. Any State, and any such instrumentality,
officer, or employee, shall be subject to the provisions
of this title in the same manner and to the same
extent as any nongovernmental entity.
(b) The legal or beneficial owner of an exclusive right
under a copyright is entitled, subject to the
requirements of section 411, to institute an action for
any infringement of that particular right committed
while he or she is the owner of it. The court may
require such owner to serve written notice of the
action with a copy of the complaint upon any person
shown, by the records of the Copyright Office or
otherwise, to have or claim an interest in the
copyright, and shall require that such notice be served
upon any person whose interest is likely to be affected
by a decision in the case. The court may require the
joinder, and shall permit the intervention, of any

147a
person having or claiming an interest in the
copyright.
(c) For any secondary transmission by a cable system
that embodies a performance or a display of a work
which is actionable as an act of infringement under
subsection (c) of section 111, a television broadcast
station holding a copyright or other license to
transmit or perform the same version of that work
shall, for purposes of subsection (b) of this section, be
treated as a legal or beneficial owner if such
secondary transmission occurs within the local
service area of that television station.
(d) For any secondary transmission by a cable system
that is actionable as an act of infringement pursuant
to section 111(c) (3), the following shall also have
standing to sue: (i) the primary transmitter whose
transmission has been altered by the cable system;
and (ii) any broadcast station within whose local
service area the secondary transmission occurs.
(e) With respect to any secondary transmission that
is made by a satellite carrier of a performance or
display of a work embodied in a primary transmission
and is actionable as an act of infringement under
section 119(a)(3), a network station holding a
copyright or other license to transmit or perform the
same version of that work shall, for purposes of
subsection (b) of this section, be treated as a legal or
beneficial owner if such secondary transmission
occurs within the local service area of that station.
(f)(1) With respect to any secondary transmission
that is made by a satellite carrier of a performance or
display of a work embodied in a primary transmission
and is actionable as an act of infringement under

148a
section 122, a television broadcast station holding a
copyright or other license to transmit or perform the
same version of that work shall, for purposes of
subsection (b) of this section, be treated as a legal or
beneficial owner if such secondary transmission
occurs within the local market of that station.
(2) A television broadcast station may file a civil
action against any satellite carrier that has refused to
carry television broadcast signals, as required under
section 122(a)(2), to enforce that television broadcast
station's rights under section 338(a) of the
Communications Act of 1934.

149a
21 U.S.C.A. § 355
§ 355. New drugs
Effective: October 24, 2018
(a) Necessity of effective approval of application
No person shall introduce or deliver for introduction
into interstate commerce any new drug, unless an
approval of an application filed pursuant to
subsection (b) or (j) is effective with respect to such
drug.
(b) Filing application; contents
(1) Any person may file with the Secretary an
application with respect to any drug subject to the
provisions of subsection (a). Such person shall
submit to the Secretary as a part of the application
(A) full reports of investigations which have been
made to show whether or not such drug is safe for
use and whether such drug is effective in use; (B)
a full list of the articles used as components of such
drug; (C) a full statement of the composition of
such drug; (D) a full description of the methods
used in, and the facilities and controls used for, the
manufacture, processing, and packing of such
drug; (E) such samples of such drug and of the
articles used as components thereof as the
Secretary may require; (F) specimens of the
labeling proposed to be used for such drug, and (G)
any assessments required under section 355c of
this title. The applicant shall file with the
application the patent number and the expiration
date of any patent which claims the drug for which
the applicant submitted the application or which
claims a method of using such drug and with

150a
respect to which a claim of patent infringement
could reasonably be asserted if a person not
licensed by the owner engaged in the manufacture,
use, or sale of the drug. If an application is filed
under this subsection for a drug and a patent
which claims such drug or a method of using such
drug is issued after the filing date but before
approval of the application, the applicant shall
amend the application to include the information
required by the preceding sentence. Upon
approval of the application, the Secretary shall
publish information submitted under the two
preceding sentences. The Secretary shall, in
consultation with the Director of the National
Institutes of Health and with representatives of
the drug manufacturing industry, review and
develop guidance, as appropriate, on the inclusion
of women and minorities in clinical trials required
by clause (A).
(2) An application submitted under paragraph (1)
for a drug for which the investigations described
in clause (A) of such paragraph and relied upon by
the applicant for approval of the application were
not conducted by or for the applicant and for which
the applicant has not obtained a right of reference
or use from the person by or for whom the
investigations were conducted shall also include-*

*

*

(A) information on design of the investigation
and adequate reports of basic information,
certified by the applicant to be accurate
reports, necessary to assess the safety of the
drug for use in clinical investigation; and

151a
(B) adequate information on the chemistry and
manufacturing of the drug, controls available
for the drug, and primary data tabulations
from animal or human studies.
(3)(A) At any time, the Secretary may prohibit the
sponsor of an investigation from conducting the
investigation (referred to in this paragraph as a
“clinical hold”) if the Secretary makes a
determination described in subparagraph (B). The
Secretary shall specify the basis for the clinical hold,
including the specific information available to the
Secretary which served as the basis for such clinical
hold, and confirm such determination in writing.
(B) For purposes of subparagraph (A), a
determination described in this subparagraph
with respect to a clinical hold is that-(i) the drug involved represents an
unreasonable risk to the safety of the
persons who are the subjects of the clinical
investigation, taking into account the
qualifications of the clinical investigators,
information about the drug, the design of
the clinical investigation, the condition for
which the drug is to be investigated, and the
health status of the subjects involved; or
(ii) the clinical hold should be issued for
such other reasons as the Secretary may by
regulation establish (including reasons
established by regulation before November
21, 1997).
(C) Any written request to the Secretary from
the sponsor of an investigation that a clinical
hold be removed shall receive a decision, in

152a
writing and specifying the reasons therefor,
within 30 days after receipt of such request.
Any such request shall include sufficient
information to support the removal of such
clinical hold.
(4) Regulations under paragraph (1) shall provide
that such exemption shall be conditioned upon the
manufacturer, or the sponsor of the investigation,
requiring that experts using such drugs for
investigational
purposes
certify
to
such
manufacturer or sponsor that they will inform any
human beings to whom such drugs, or any controls
used in connection therewith, are being
administered, or their representatives, that such
drugs are being used for investigational purposes
and will obtain the consent of such human beings
or their representatives, except where it is not
feasible, it is contrary to the best interests of such
human beings, or the proposed clinical testing
poses no more than minimal risk to such human
beings and includes appropriate safeguards as
prescribed to protect the rights, safety, and
welfare of such human beings. Nothing in this
subsection shall be construed to require any
clinical investigator to submit directly to the
Secretary reports on the investigational use of
drugs. The Secretary shall update such
regulations to require inclusion in the informed
consent documents and process a statement that
clinical trial information for such clinical
investigation has been or will be submitted for
inclusion in the registry data bank pursuant to
subsection (j) of section 282 of Title 42.

153a
(j) Abbreviated new drug applications
(1) Any person may file with the Secretary an
abbreviated application for the approval of a new
drug.
(2)(A) An abbreviated application for a new drug
shall contain-(i) information to show that the conditions
of use prescribed, recommended, or
suggested in the labeling proposed for the
new drug have been previously approved for
a drug listed under paragraph (7)
(hereinafter in this subsection referred to as
a “listed drug”);
(ii)(I) if the listed drug referred to in clause
(i) has only one active ingredient,
information to show that the active
ingredient of the new drug is the same as
that of the listed drug;
(II) if the listed drug referred to in
clause (i) has more than one active
ingredient, information to show that the
active ingredients of the new drug are
the same as those of the listed drug, or
(III) if the listed drug referred to in
clause (i) has more than one active
ingredient and if one of the active
ingredients of the new drug is different
and the application is filed pursuant to
the approval of a petition filed under
subparagraph (C), information to show
that the other active ingredients of the
new drug are the same as the active

154a
ingredients of the listed drug,
information to show that the different
active ingredient is an active ingredient
of a listed drug or of a drug which does
not meet the requirements of section
321(p) of this title, and such other
information respecting the different
active ingredient with respect to which
the petition was filed as the Secretary
may require;
(iii) information to show that the route of
administration, the dosage form, and the
strength of the new drug are the same as
those of the listed drug referred to in clause
(i) or, if the route of administration, the
dosage form, or the strength of the new drug
is different and the application is filed
pursuant to the approval of a petition filed
under subparagraph (C), such information
respecting the route of administration,
dosage form, or strength with respect to
which the petition was filed as the
Secretary may require;
(iv) information to show that the new drug
is bioequivalent to the listed drug referred
to in clause (i), except that if the application
is filed pursuant to the approval of a
petition filed under subparagraph (C),
information to show that the active
ingredients of the new drug are of the same
pharmacological or therapeutic class as
those of the listed drug referred to in clause
(i) and the new drug can be expected to have
the same therapeutic effect as the listed

155a
drug when administered to patients for a
condition of use referred to in clause (i);
(v) information to show that the labeling
proposed for the new drug is the same as the
labeling approved for the listed drug
referred to in clause (i) except for changes
required because of differences approved
under a petition filed under subparagraph
(C) or because the new drug and the listed
drug are produced or distributed by
different manufacturers;
(vi) the items specified in clauses (B)
through (F) of subsection (b)(1);
(vii) a certification, in the opinion of the
applicant and to the best of his knowledge,
with respect to each patent which claims
the listed drug referred to in clause (i) or
which claims a use for such listed drug for
which the applicant is seeking approval
under this subsection and for which
information is required to be filed under
subsection (b) or (c)-(I) that such patent information has not
been filed,
(II) that such patent has expired,
(III) of the date on which such patent
will expire, or
(IV) that such patent is invalid or will
not be infringed by the manufacture,
use, or sale of the new drug for which the
application is submitted; and

156a
(viii) if with respect to the listed drug
referred to in clause (i) information was
filed under subsection (b) or (c) for a method
of use patent which does not claim a use for
which the applicant is seeking approval
under this subsection, a statement that the
method of use patent does not claim such a
use.
The Secretary may not require that an
abbreviated application contain information in
addition to that required by clauses (i) through
(viii).
(B) Notice of opinion that patent is invalid
or will not be infringed
(i) Agreement to give notice
An applicant that makes a certification
described in subparagraph (A)(vii)(IV) shall
include in the application a statement that
the applicant will give notice as required by
this subparagraph.
(ii) Timing of notice
An applicant that makes a certification
described in subparagraph (A)(vii)(IV) shall
give notice as required under this
subparagraph-(I) if the certification is in the
application, not later than 20 days after
the date of the postmark on the notice
with which the Secretary informs the
applicant that the application has been
filed; or

157a
(II) if the certification is in an
amendment or supplement to the
application, at the time at which the
applicant submits the amendment or
supplement, regardless of whether the
applicant has already given notice with
respect to another such certification
contained in the application or in an
amendment or supplement to the
application.
(iii) Recipients of notice
An applicant required under this
subparagraph to give notice shall give
notice to-(I) each owner of the patent that is the
subject of the certification (or a
representative of the owner designated
to receive such a notice); and
(II) the holder of the approved
application under subsection (b) for the
drug that is claimed by the patent or a
use of which is claimed by the patent (or
a
representative
of
the
holder
designated to receive such a notice).
(iv) Contents of notice
A notice required under this subparagraph
shall-(I) state that an application that
contains data from bioavailability or
bioequivalence
studies
has
been
submitted under this subsection for the
drug with respect to which the

158a
certification is made to obtain approval
to
engage
in
the
commercial
manufacture, use, or sale of the drug
before the expiration of the patent
referred to in the certification; and
(II) include a detailed statement of the
factual and legal basis of the opinion of
the applicant that the patent is invalid
or will not be infringed.
(C) If a person wants to submit an abbreviated
application for a new drug which has a
different active ingredient or whose route of
administration, dosage form, or strength differ
from that of a listed drug, such person shall
submit a petition to the Secretary seeking
permission to file such an application. The
Secretary shall approve or disapprove a
petition submitted under this subparagraph
within ninety days of the date the petition is
submitted. The Secretary shall approve such a
petition unless the Secretary finds-(i) that investigations must be conducted to
show the safety and effectiveness of the drug
or of any of its active ingredients, the route
of administration, the dosage form, or
strength which differ from the listed drug; or
(ii) that any drug with a different active
ingredient may not be adequately evaluated
for approval as safe and effective on the
basis of the information required to be
submitted in an abbreviated application.
(D)(i) An applicant may not amend or
supplement an application to seek approval of

159a
a drug referring to a different listed drug from
the listed drug identified in the application as
submitted to the Secretary.
(ii) With respect to the drug for which an
application is submitted, nothing in this
subsection prohibits an applicant from
amending or supplementing the application
to seek approval of a different strength.
(iii) Within 60 days after December 8, 2003,
the Secretary shall issue guidance defining
the term “listed drug” for purposes of this
subparagraph.
(3)(A) The Secretary shall issue guidance for the
individuals who review applications submitted
under paragraph (1), which shall relate to
promptness in conducting the review, technical
excellence, lack of bias and conflict of interest, and
knowledge of regulatory and scientific standards,
and which shall apply equally to all individuals
who review such applications.
(B) The Secretary shall meet with a sponsor of
an investigation or an applicant for approval
for a drug under this subsection if the sponsor
or applicant makes a reasonable written
request for a meeting for the purpose of
reaching agreement on the design and size of
bioavailability and bioequivalence studies
needed for approval of such application. The
sponsor or applicant shall provide information
necessary for discussion and agreement on the
design and size of such studies. Minutes of any
such meeting shall be prepared by the

160a
Secretary and made available to the sponsor or
applicant.
(C) Any agreement regarding the parameters
of design and size of bioavailability and
bioequivalence studies of a drug under this
paragraph that is reached between the
Secretary and a sponsor or applicant shall be
reduced to writing and made part of the
administrative record by the Secretary. Such
agreement shall not be changed after the
testing begins, except-(i) with the written agreement of the
sponsor or applicant; or
(ii) pursuant to a decision, made in
accordance with subparagraph (D) by the
director of the reviewing division, that a
substantial scientific issue essential to
determining the safety or effectiveness of
the drug has been identified after the
testing has begun.
(D) A decision under subparagraph (C)(ii) by
the director shall be in writing and the
Secretary shall provide to the sponsor or
applicant an opportunity for a meeting at
which the director and the sponsor or applicant
will be present and at which the director will
document the scientific issue involved.
(E) The written decisions of the reviewing
division shall be binding upon, and may not
directly or indirectly be changed by, the field or
compliance office personnel unless such field or
compliance office personnel demonstrate to the

161a
reviewing division why such decision should be
modified.
(F) No action by the reviewing division may be
delayed because of the unavailability of
information from or action by field personnel
unless the reviewing division determines that
a delay is necessary to assure the marketing of
a safe and effective drug.
(G) For purposes of this paragraph, the
reviewing division is the division responsible
for the review of an application for approval of
a drug under this subsection (including
scientific matters, chemistry, manufacturing,
and controls).
(4) Subject to paragraph (5), the Secretary shall
approve an application for a drug unless the
Secretary finds-(A) the methods used in, or the facilities and
controls used for, the manufacture, processing,
and packing of the drug are inadequate to
assure and preserve its identity, strength,
quality, and purity;
(B) information submitted with the application
is insufficient to show that each of the proposed
conditions of use have been previously
approved for the listed drug referred to in the
application;
(C)(i) if the listed drug has only one active
ingredient, information submitted with the
application is insufficient to show that the
active ingredient is the same as that of the
listed drug;

162a
(ii) if the listed drug has more than one
active ingredient, information submitted
with the application is insufficient to show
that the active ingredients are the same as
the active ingredients of the listed drug, or
(iii) if the listed drug has more than one
active ingredient and if the application is for
a drug which has an active ingredient
different from the listed drug, information
submitted with the application is
insufficient to show-(I) that the other active ingredients are
the same as the active ingredients of the
listed drug, or
(II) that the different active ingredient
is an active ingredient of a listed drug or
a drug which does not meet the
requirements of section 321(p) of this
title,
or no petition to file an application for
the drug with the different ingredient
was approved under paragraph (2)(C);
(D)(i) if the application is for a drug whose
route of administration, dosage form, or
strength of the drug is the same as the route of
administration, dosage form, or strength of the
listed drug referred to in the application,
information submitted in the application is
insufficient to show that the route of
administration, dosage form, or strength is the
same as that of the listed drug, or
(ii) if the application is for a drug whose
route of administration, dosage form, or

163a
strength of the drug is different from that of
the listed drug referred to in the
application, no petition to file an application
for the drug with the different route of
administration, dosage form, or strength
was approved under paragraph (2)(C);
(E) if the application was filed pursuant to the
approval of a petition under paragraph (2)(C),
the application did not contain the information
required by the Secretary respecting the active
ingredient, route of administration, dosage
form, or strength which is not the same;
(F) information submitted in the application is
insufficient to show that the drug is
bioequivalent to the listed drug referred to
in the application or, if the application was
filed pursuant to a petition approved under
paragraph (2)(C), information submitted in the
application is insufficient to show that the
active ingredients of the new drug are of the
same pharmacological or therapeutic class
as those of the listed drug referred to in
paragraph (2)(A)(i) and that the new drug can
be expected to have the same therapeutic effect
as the listed drug when administered to
patients for a condition of use referred to in
such paragraph;
(G) information submitted in the application is
insufficient to show that the labeling proposed
for the drug is the same as the labeling approved
for the listed drug referred to in the application
except for changes required because of
differences approved under a petition filed
under paragraph (2)(C) or because the drug

164a
and the listed drug are produced or distributed
by different manufacturers;
(H) information submitted in the application or
any other information available to the Secretary
shows that (i) the inactive ingredients of the
drug are unsafe for use under the conditions
prescribed, recommended, or suggested in the
labeling proposed for the drug, or (ii) the
composition of the drug is unsafe under such
conditions because of the type or quantity of
inactive ingredients included or the manner in
which the inactive ingredients are included;
(I) the approval under subsection (c) of the
listed drug referred to in the application under
this subsection has been withdrawn or
suspended for grounds described in the first
sentence of subsection (e), the Secretary has
published a notice of opportunity for hearing to
withdraw approval of the listed drug under
subsection (c) for grounds described in the first
sentence of subsection (e), the approval under
this subsection of the listed drug referred to in
the application under this subsection has been
withdrawn or suspended under paragraph (6),
or the Secretary has determined that the listed
drug has been withdrawn from sale for safety
or effectiveness reasons;
(J) the application does not meet any other
requirement of paragraph (2)(A); or
(K) the application contains
statement of material fact.

an

untrue

(5)(A) Within one hundred and eighty days of the
initial receipt of an application under paragraph

165a
(2) or within such additional period as may be
agreed upon by the Secretary and the applicant,
the Secretary shall approve or disapprove the
application.
(B) The approval of an application submitted
under paragraph (2) shall be made effective on
the last applicable date determined by
applying the following to each certification
made under paragraph (2)(A)(vii):
(i) If the applicant only made a certification
described in subclause (I) or (II) of
paragraph (2)(A)(vii) or in both such
subclauses, the approval may be made
effective immediately.
(ii) If the applicant made a certification
described in subclause (III) of paragraph
(2)(A)(vii), the approval may be made
effective on the date certified under
subclause (III).
(iii) If the applicant made a certification
described in subclause (IV) of paragraph
(2)(A)(vii), the approval shall be made
effective immediately unless, before the
expiration of 45 days after the date on which
the notice described in paragraph (2)(B)
is received, an action is brought for
infringement of the patent that is the
subject of the certification and for which
information was submitted to the Secretary
under subsection (b)(1) or (c)(2) before
the date on which the application (excluding
an amendment or supplement to the
application), which the Secretary later

166a
determines to be substantially complete,
was submitted. If such an action is brought
before the expiration of such days, the
approval shall be made effective upon the
expiration of the thirty-month period
beginning on the date of the receipt of the
notice provided under paragraph (2)(B)(i) or
such shorter or longer period as the court
may order because either party to the action
failed to reasonably cooperate in expediting
the action, except that-(I) if before the expiration of such period
the district court decides that the patent
is invalid or not infringed (including
any substantive determination that
there is no cause of action for patent
infringement or invalidity), the approval
shall be made effective on-(aa) the date on which the court
enters judgment reflecting the
decision; or
(bb) the date of a settlement order or
consent decree signed and entered by
the court stating that the patent that
is the subject of the certification is
invalid or not infringed;
(II) if before the expiration of such
period the district court decides that the
patent has been infringed-(aa) if the judgment of the district
court is appealed, the approval shall
be made effective on--

167a
(AA) the date on which the court
of appeals decides that the patent
is invalid or not infringed
(including
any
substantive
determination that there is no
cause of action for patent
infringement or invalidity); or
(BB) the date of a settlement
order or consent decree signed
and entered by the court of
appeals stating that the patent
that is the subject of the
certification is invalid or not
infringed; or
(bb) if the judgment of the district
court is not appealed or is affirmed,
the approval shall be made effective
on the date specified by the district
court in a court order under section
271(e)(4)(A) of Title 35;
(III) if before the expiration of such
period the court grants a preliminary
injunction prohibiting the applicant
from engaging in the commercial
manufacture or sale of the drug until the
court decides the issues of patent
validity and infringement and if the
court decides that such patent is invalid
or not infringed, the approval shall be
made effective as provided in subclause
(I); or
(IV) if before the expiration of such
period the court grants a preliminary

168a
injunction prohibiting the applicant
from engaging in the commercial
manufacture or sale of the drug until the
court decides the issues of patent
validity and infringement and if the
court decides that such patent has been
infringed, the approval shall be made
effective as provided in subclause (II).
In such an action, each of the parties
shall reasonably cooperate in
expediting the action.
(iv) 180-day exclusivity period
(I) Effectiveness of application
Subject to subparagraph (D), if the
application contains a certification
described in paragraph (2)(A)(vii)(IV)
and is for a drug for which a first
applicant has submitted an application
containing such a certification, the
application shall be made effective on
the date that is 180 days after the date
of the first commercial marketing of
the drug (including the commercial
marketing of the listed drug) by any first
applicant.
(II) Definitions
In this paragraph:
(aa) 180-day exclusivity period
The term “180-day exclusivity period”
means the 180-day period ending on
the day before the date on which an

169a
application submitted by an applicant
other than a first applicant could
become effective under this clause.
(bb) First applicant
As used in this subsection, the term
“first applicant” means an applicant
that, on the first day on which a
substantially complete application
containing a certification described
in paragraph (2)(A)(vii)(IV) is
submitted for approval of a drug,
submits a substantially complete
application that contains and
lawfully maintains a certification
described in paragraph (2)(A)(vii)(IV)
for the drug.
(cc)
Substantially
application

complete

As used in this subsection, the term
“substantially complete application”
means an application under this
subsection that on its face is
sufficiently complete to permit a
substantive review and contains all
the
information
required
by
paragraph (2)(A).
(dd) Tentative approval
(AA) In general
The term “tentative approval”
means notification to an applicant
by the Secretary that an
application under this subsection

170a
meets the requirements of
paragraph (2)(A), but cannot
receive effective approval because
the application does not meet the
requirements of this subparagraph,
there is a period of exclusivity
for the listed drug under subparagraph (F) or section 355a of
this title, or there is a 7-year period
of exclusivity for the listed drug
under section 360cc of this title.
(BB) Limitation
A drug that is granted tentative
approval by the Secretary is not
an approved drug and shall not
have an effective approval until
the Secretary issues an approval
after any necessary additional
review of the application.
(v) 180-day exclusivity period
competitive generic therapies

for

(I) Effectiveness of application
Subject to subparagraph (D)(iv), if the
application is for a drug that is the same
as a competitive generic therapy for
which any first approved applicant has
commenced commercial marketing, the
application shall be made effective on
the date that is 180 days after the date
of the first commercial marketing of the
competitive generic therapy (including
the commercial marketing of the listed
drug) by any first approved applicant.

171a
(II) Limitation
The exclusivity period under subclause
(I) shall not apply with respect to a
competitive generic therapy that has
previously received an exclusivity period
under subclause (I).
(III) Definitions
In this clause and subparagraph (D)(iv):
(aa) The term “competitive generic
therapy” means a drug-(AA) that is designated as a
competitive generic therapy under
section 356h of this title; and
(BB) for which there are no
unexpired patents or exclusivities
on the list of products described in
section 355(j) (7)(A) of this title at
the time of submission.
(bb) The term “first approved
applicant” means any applicant that
has submitted an application that-(AA) is for a competitive generic
therapy that is approved on the
first day on which any application
for such competitive generic
therapy is approved;
(BB) is not eligible for a 180-day
exclusivity period under clause
(iv) for the drug that is the subject
of the application for the
competitive generic therapy; and

172a
(CC) is not for a drug for which all
drug versions have forfeited
eligibility for a 180-day exclusivity
period under clause (iv) pursuant
to subparagraph (D).
(C) Civil action to obtain patent certainty
(i) Declaratory judgment
infringement action

absent

(I) In general
No action may be brought under section
2201 of Title 28, by an applicant under
paragraph (2) for a declaratory
judgment with respect to a patent which
is the subject of the certification referred
to in subparagraph (B)(iii) unless-(aa) the 45-day period referred to in
such subparagraph has expired;
(bb) neither the owner of such patent
nor the holder of the approved
application under subsection (b) for
the drug that is claimed by the patent
or a use of which is claimed by the
patent brought a civil action against
the applicant for infringement of the
patent before the expiration of such
period; and
(cc) in any case in which the notice
provided under paragraph (2)(B)
relates to noninfringement, the notice
was accompanied by a document
described in subclause (III).

173a
(II) Filing of civil action
If the conditions described in items (aa),
(bb), and as applicable, (cc) of subclause
(I) have been met, the applicant referred
to in such subclause may, in accordance
with section 2201 of Title 28, bring a civil
action under such section against the
owner or holder referred to in such
subclause (but not against any owner or
holder that has brought such a civil
action against the applicant, unless that
civil action was dismissed without
prejudice) for a declaratory judgment
that the patent is invalid or will not be
infringed by the drug for which the
applicant seeks approval, except that
such civil action may be brought for a
declaratory judgment that the patent
will not be infringed only in a case in
which the condition described in
subclause (I)(cc) is applicable. A civil
action referred to in this subclause shall
be brought in the judicial district where
the defendant has its principal place of
business or a regular and established
place of business.
(III) Offer of confidential access to
application
For purposes of subclause (I)(cc), the
document described in this subclause is
a document providing an offer of
confidential access to the application
that is in the custody of the applicant
under paragraph (2) for the purpose of

174a
determining whether an action referred
to in subparagraph (B)(iii) should be
brought. The document providing the
offer of confidential access shall contain
such restrictions as to persons entitled
to access, and on the use and disposition
of any information accessed, as would
apply had a protective order been
entered for the purpose of protecting
trade secrets and other confidential
business information. A request for
access to an application under an offer of
confidential access shall be considered
acceptance of the offer of confidential
access with the restrictions as to persons
entitled to access, and on the use and
disposition of any information accessed,
contained in the offer of confidential
access, and those restrictions and other
terms of the offer of confidential access
shall be considered terms of an
enforceable contract. Any person provided
an offer of confidential access shall
review the application for the sole and
limited purpose of evaluating possible
infringement of the patent that is the
subject of the certification under
paragraph (2)(A)(vii)(IV) and for no other
purpose, and may not disclose information
of no relevance to any issue of patent
infringement to any person other than a
person provided an offer of confidential
access. Further, the application may be
redacted by the applicant to remove any

175a
information of no relevance to any issue
of patent infringement.
(ii) Counterclaim to infringement action
(I) In general
If an owner of the patent or the holder
of the approved application under
subsection (b) for the drug that is
claimed by the patent or a use of which
is claimed by the patent brings a patent
infringement action against the applicant,
the applicant may assert a counterclaim
seeking an order requiring the holder to
correct or delete the patent information
submitted by the holder under
subsection (b) or (c) on the ground that
the patent does not claim either-(aa) the drug for which
application was approved; or

the

(bb) an approved method of using the
drug.
(II) No independent cause of action
Subclause (I) does not authorize the
assertion of a claim described in
subclause (I) in any civil action or
proceeding other than a counterclaim
described in subclause (I).
(iii) No damages
An applicant shall not be entitled to
damages in a civil action under clause (i) or
a counterclaim under clause (ii).

176a
(D) Forfeiture of 180-day exclusivity period
(i) Definition of forfeiture event
In this subparagraph, the term “forfeiture
event”, with respect to an application under
this subsection, means the occurrence of
any of the following:
(I) Failure to market
The first applicant fails to market the
drug by the later of-(aa) the earlier of the date that is-(AA) 75 days after the date on
which the approval of the
application of the first applicant is
made effective under subparagraph
(B)(iii); or
(BB) 30 months after the date of
submission of the application of
the first applicant; or
(bb) with respect to the first applicant
or any other applicant (which other
applicant has received tentative
approval), the date that is 75 days
after the date as of which, as to each
of the patents with respect to which
the first applicant submitted and
lawfully maintained a certification
qualifying the first applicant for the
180-day exclusivity period under
subparagraph (B)(iv), at least 1 of the
following has occurred:

177a
(AA) In an infringement action
brought against that applicant
with respect to the patent or in a
declaratory
judgment
action
brought by that applicant with
respect to the patent, a court
enters a final decision from which
no appeal (other than a petition to
the Supreme Court for a writ of
certiorari) has been or can be
taken that the patent is invalid or
not infringed.
(BB) In an infringement action or
a declaratory judgment action
described in subitem (AA), a court
signs a settlement order or consent
decree that enters a final judgment
that includes a finding that the
patent is invalid or not infringed.
(CC) The patent information
submitted under subsection (b) or
(c) is withdrawn by the holder of
the application approved under
subsection (b).
(II) Withdrawal of application
The first applicant withdraws the
application or the Secretary considers
the application to have been withdrawn
as a result of a determination by the
Secretary that the application does not
meet the requirements for approval
under paragraph (4).

178a
(III) Amendment of certification
The first applicant amends or withdraws
the certification for all of the patents
with respect to which that applicant
submitted a certification qualifying the
applicant for the 180-day exclusivity
period.
(IV) Failure to obtain tentative
approval
The first applicant fails to obtain
tentative approval of the application
within 30 months after the date on
which the application is filed, unless the
failure is caused by a change in or a
review of the requirements for approval
of the application imposed after the date
on which the application is filed.
(V)
Agreement
with
another
applicant, the listed drug application
holder, or a patent owner
The first applicant enters into an
agreement with another applicant under
this subsection for the drug, the holder
of the application for the listed drug,
or an owner of the patent that is the
subject of the certification under
paragraph (2)(A)(vii)(IV), the Federal
Trade Commission or the Attorney
General files a complaint, and there is a
final decision of the Federal Trade
Commission or the court with regard to
the complaint from which no appeal
(other than a petition to the Supreme

179a
Court for a writ of certiorari) has been or
can be taken that the agreement has
violated the antitrust laws (as defined in
section 12 of Title 15, except that the
term includes section 45 of Title 15 to the
extent that that section applies to unfair
methods of competition).
(VI) Expiration of all patents
All of the patents as to which the
applicant submitted a certification
qualifying it for the 180-day exclusivity
period have expired.
(ii) Forfeiture
The 180-day exclusivity period described in
subparagraph (B)(iv) shall be forfeited by a
first applicant if a forfeiture event occurs
with respect to that first applicant.
(iii) Subsequent applicant
If all first applicants forfeit the 180-day
exclusivity period under clause (ii)-(I) approval of any application
containing a certification described in
paragraph (2)(A)(vii)(IV) shall be made
effective
in
accordance
with
subparagraph (B)(iii); and
(II) no applicant shall be eligible for a
180-day exclusivity period.
(iv) Special forfeiture rule
competitive generic therapy

for

The 180-day exclusivity period described in
subparagraph (B)(v) shall be forfeited by a

180a
first approved applicant if the applicant
fails to market the competitive generic
therapy within 75 days after the date on
which the approval of the first approved
applicant's application for the competitive
generic therapy is made effective.
(E) If the Secretary decides to disapprove an
application, the Secretary shall give the
applicant notice of an opportunity for a hearing
before the Secretary on the question of whether
such application is approvable. If the applicant
elects to accept the opportunity for hearing by
written request within thirty days after such
notice, such hearing shall commence not more
than ninety days after the expiration of such
thirty days unless the Secretary and the
applicant otherwise agree. Any such hearing
shall thereafter be conducted on an expedited
basis and the Secretary's order thereon shall be
issued within ninety days after the date fixed
by the Secretary for filing final briefs.
(F)(i) If an application (other than an
abbreviated new drug application) submitted
under subsection (b) for a drug, no active
ingredient (including any ester or salt of the
active ingredient) of which has been approved
in any other application under subsection (b),
was approved during the period beginning
January 1, 1982, and ending on September 24,
1984, the Secretary may not make the approval
of an application submitted under this
subsection which refers to the drug for which
the subsection (b) application was submitted
effective before the expiration of ten years from

181a
the date of the approval of the application
under subsection (b).
(ii) If an application submitted under
subsection (b) for a drug, no active
ingredient (including any ester or salt of the
active ingredient) of which has been
approved in any other application under
subsection (b), is approved after September
24, 1984, no application may be submitted
under this subsection which refers to the
drug for which the subsection (b)
application was submitted before the
expiration of five years from the date of the
approval of the application under
subsection (b), except that such an
application may be submitted under this
subsection after the expiration of four years
from the date of the approval of the
subsection (b) application if it contains a
certification of patent invalidity or
noninfringement described in subclause
(IV) of paragraph (2)(A)(vii). The approval
of such an application shall be made
effective in accordance with subparagraph
(B) except that, if an action for patent
infringement is commenced during the oneyear period beginning forty-eight months
after the date of the approval of the
subsection (b) application, the thirty-month
period referred to in subparagraph (B)(iii)
shall be extended by such amount of time (if
any) which is required for seven and onehalf years to have elapsed from the date of
approval of the subsection (b) application.

182a
(iii) If an application submitted under
subsection (b) for a drug, which includes an
active ingredient (including any ester or
salt of the active ingredient) that has been
approved in another application approved
under subsection (b), is approved after
September 24, 1984, and if such application
contains
reports
of
new
clinical
investigations (other than bioavailability
studies) essential to the approval of the
application and conducted or sponsored by
the applicant, the Secretary may not make
the approval of an application submitted
under this subsection for the conditions of
approval of such drug in the subsection (b)
application effective before the expiration of
three years from the date of the approval of
the application under subsection (b) for
such drug.
(iv) If a supplement to an application
approved under subsection (b) is approved
after September 24, 1984, and the
supplement contains reports of new clinical
investigations (other than bioavailability
studies) essential to the approval of the
supplement and conducted or sponsored by
the person submitting the supplement, the
Secretary may not make the approval of an
application submitted under this subsection
for a change approved in the supplement
effective before the expiration of three years
from the date of the approval of the
supplement under subsection (b).

183a
(v) If an application (or supplement to an
application) submitted under subsection (b)
for a drug, which includes an active
ingredient (including any ester or salt of the
active ingredient) that has been approved in
another application under subsection (b),
was approved during the period beginning
January 1, 1982, and ending on September
24, 1984, the Secretary may not make the
approval of an application submitted under
this subsection which refers to the drug for
which the subsection (b) application was
submitted or which refers to a change
approved in a supplement to the subsection
(b) application effective before the
expiration of two years from September 24,
1984.
(6) If a drug approved under this subsection refers
in its approved application to a drug the approval
of which was withdrawn or suspended for grounds
described in the first sentence of subsection (e) or
was withdrawn or suspended under this
paragraph or which, as determined by the
Secretary, has been withdrawn from sale for safety
or effectiveness reasons, the approval of the drug
under this subsection shall be withdrawn or
suspended-(A) for the same period as the withdrawal or
suspension under subsection (e) or this
paragraph, or
(B) if the listed drug has been withdrawn from
sale, for the period of withdrawal from sale or,
if earlier, the period ending on the date the

184a
Secretary determines that the withdrawal from
sale is not for safety or effectiveness reasons.
(7)(A)(i) Within sixty days of September 24, 1984,
the Secretary shall publish and make available to
the public-(I) a list in alphabetical order of the
official and proprietary name of each
drug which has been approved for safety
and effectiveness under subsection (c)
before September 24, 1984;
(II) the date of approval if the drug is
approved after 1981 and the number of
the application which was approved; and
(III) whether in vitro or in vivo
bioequivalence studies, or both such
studies, are required for applications
filed under this subsection which will
refer to the drug published.
(ii) Every thirty days after the publication
of the first list under clause (i) the Secretary
shall revise the list to include each drug
which has been approved for safety and
effectiveness under subsection (c) or
approved under this subsection during the
thirty-day period.
(iii) When patent information submitted
under subsection (b) or (c) respecting a drug
included on the list is to be published by the
Secretary, the Secretary shall, in revisions
made under clause (ii), include such
information for such drug.

185a
(B) A drug approved for safety and
effectiveness under subsection (c) or approved
under this subsection shall, for purposes of this
subsection, be considered to have been
published under subparagraph (A) on the date
of its approval or September 24, 1984,
whichever is later.
(C) If the approval of a drug was withdrawn or
suspended for grounds described in the first
sentence of subsection (e) or was withdrawn or
suspended under paragraph (6) or if the
Secretary determines that a drug has been
withdrawn from sale for safety or effectiveness
reasons, it may not be published in the list
under subparagraph (A) or, if the withdrawal
or suspension occurred after its publication in
such list, it shall be immediately removed from
such list-(i) for the same period as the withdrawal or
suspension under subsection (e) or
paragraph (6), or
(ii) if the listed drug has been withdrawn
from sale, for the period of withdrawal from
sale or, if earlier, the period ending on the
date the Secretary determines that the
withdrawal from sale is not for safety or
effectiveness reasons.
A notice of the removal shall be published in
the Federal Register.
(8) For purposes of this subsection:
(A)(i) The term “bioavailability” means the
rate and extent to which the active ingredient

186a
or therapeutic ingredient is absorbed from a
drug and becomes available at the site of drug
action.
(ii) For a drug that is not intended to be
absorbed into the bloodstream, the
Secretary may assess bioavailability by
scientifically valid measurements intended
to reflect the rate and extent to which the
active ingredient or therapeutic ingredient
becomes available at the site of drug action.
(B) A drug shall be considered to be
bioequivalent to a listed drug if-(i) the rate and extent of absorption of the
drug do not show a significant difference
from the rate and extent of absorption of the
listed drug when administered at the same
molar dose of the therapeutic ingredient
under similar experimental conditions in
either a single dose or multiple doses; or
(ii) the extent of absorption of the drug does
not show a significant difference from the
extent of absorption of the listed drug when
administered at the same molar dose of the
therapeutic ingredient under similar
experimental conditions in either a single
dose or multiple doses and the difference
from the listed drug in the rate of
absorption of the drug is intentional, is
reflected in its proposed labeling, is not
essential to the attainment of effective body
drug concentrations on chronic use, and is
considered medically insignificant for the
drug.

187a
(C) For a drug that is not intended to be
absorbed into the bloodstream, the Secretary
may establish alternative, scientifically valid
methods to show bioequivalence if the
alternative methods are expected to detect a
significant difference between the drug and the
listed drug in safety and therapeutic effect.
(9) The Secretary shall, with respect to each
application submitted under this subsection,
maintain a record of-(A) the name of the applicant,
(B) the name of the drug covered by the
application,
(C) the name of each person to whom the
review of the chemistry of the application was
assigned and the date of such assignment, and
(D) the name of each person to whom the
bioequivalence review for such application was
assigned and the date of such assignment.
The information the Secretary is required to
maintain under this paragraph with respect to an
application submitted under this subsection shall
be made available to the public after the approval
of such application.
(10)(A) If the proposed labeling of a drug that is
the subject of an application under this subsection
differs from the listed drug due to a labeling
revision described under clause (i), the drug that
is the subject of such application shall,
notwithstanding any other provision of this
chapter, be eligible for approval and shall not be

188a
considered misbranded under section 352 of this
title if-(i) the application is otherwise eligible for
approval under this subsection but for
expiration of patent, an exclusivity period,
or of a delay in approval described in
paragraph (5)(B)(iii), and a revision to the
labeling of the listed drug has been
approved by the Secretary within 60 days of
such expiration;
(ii) the labeling revision described under
clause (i) does not include a change to the
“Warnings” section of the labeling;
(iii) the sponsor of the application under
this subsection agrees to submit revised
labeling of the drug that is the subject of
such application not later than 60 days after
the notification of any changes to such
labeling required by the Secretary; and
(iv) such application otherwise meets the
applicable requirements for approval under
this subsection.
(B) If, after a labeling revision described in
subparagraph (A)(i), the Secretary determines
that the continued presence in interstate
commerce of the labeling of the listed drug (as
in effect before the revision described in
subparagraph (A)(i)) adversely impacts the
safe use of the drug, no application under this
subsection shall be eligible for approval with
such labeling.
(11)(A) Subject to subparagraph (B), the
Secretary shall prioritize the review of, and act

189a
within 8 months of the date of the submission of,
an original abbreviated new drug application
submitted for review under this subsection that is
for a drug-(i) for which there are not more than 3
approved drug products listed under
paragraph (7) and for which there are no
blocking patents and exclusivities; or
(ii) that has been included on the list under
section 356e of this title.
(B) To qualify for priority review under this
paragraph, not later than 60 days prior to the
submission of an application described in
subparagraph (A) or that the Secretary may
prioritize pursuant to subparagraph (D), the
applicant shall provide complete, accurate
information regarding facilities involved in
manufacturing processes and testing of the
drug that is the subject of the application,
including facilities in corresponding Type II
active pharmaceutical ingredients drug master
files referenced in an application and sites or
organizations involved in bioequivalence and
clinical studies used to support the application,
to enable the Secretary to make a
determination
regarding
whether
an
inspection of a facility is necessary. Such
information shall include the relevant (as
determined by the Secretary) sections of such
application, which shall be unchanged relative
to the date of the submission of such
application, except to the extent that a change
is made to such information to exclude a facility
that was not used to generate data to meet any

190a
application requirements for such submission
and that is not the only facility intended to
conduct one or more unit operations in
commercial production. Information provided
by an applicant under this subparagraph shall
not be considered the submission of an
application under this subsection.
(C) The Secretary may expedite an inspection
or reinspection under section 374 of this title of
an establishment that proposes to manufacture
a drug described in subparagraph (A).
(D) Nothing in this paragraph shall prevent
the Secretary from prioritizing the review of
other applications as the Secretary determines
appropriate.
(12) The Secretary shall publish on the internet
website of the Food and Drug Administration, and
update at least once every 6 months, a list of all
drugs approved under subsection (c) for which all
patents and periods of exclusivity under this
chapter have expired and for which no application
has been approved under this subsection.
(13) Upon the request of an applicant regarding
one or more specified pending applications under
this subsection, the Secretary shall, as
appropriate, provide review status updates
indicating the categorical status of the
applications by each relevant review discipline.
(k) Records and reports; required information;
regulations and orders; access to records
(1) In the case of any drug for which an approval
of an application filed under subsection (b) or (j) is
in effect, the applicant shall establish and

191a
maintain such records, and make such reports to
the Secretary, of data relating to clinical
experience and other data or information, received
or otherwise obtained by such applicant with
respect to such drug, as the Secretary may by
general regulation, or by order with respect to
such application, prescribe on the basis of a
finding that such records and reports are
necessary in order to enable the Secretary to
determine, or facilitate a determination, whether
there is or may be ground for invoking subsection
(e). Regulations and orders issued under this
subsection and under subsection (i) shall have due
regard for the professional ethics of the medical
profession and the interests of patients and shall
provide, where the Secretary deems it to be
appropriate, for the examination, upon request, by
the persons to whom such regulations or orders
are applicable, of similar information received or
otherwise obtained by the Secretary.
(2) Every person required under this section to
maintain records, and every person in charge or
custody thereof, shall, upon request of an officer or
employee designated by the Secretary, permit
such officer or employee at all reasonable times to
have access to and copy and verify such records.
*

*

*

192a
35 U.S.C.A. § 271
§ 271. Infringement of patent
Effective: March 23, 2010
(a) Except as otherwise provided in this title, whoever
without authority makes, uses, offers to sell, or sells
any patented invention, within the United States or
imports into the United States any patented
invention during the term of the patent therefor,
infringes the patent.
(b) Whoever actively induces infringement of a patent
shall be liable as an infringer.
(c) Whoever offers to sell or sells within the United
States or imports into the United States a component
of a patented machine, manufacture, combination or
composition, or a material or apparatus for use in
practicing a patented process, constituting a material
part of the invention, knowing the same to be
especially made or especially adapted for use in an
infringement of such patent, and not a staple article
or commodity of commerce suitable for substantial
noninfringing use, shall be liable as a contributory
infringer.
(d) No patent owner otherwise entitled to relief for
infringement or contributory infringement of a patent
shall be denied relief or deemed guilty of misuse or
illegal extension of the patent right by reason of his
having done one or more of the following: (1) derived
revenue from acts which if performed by another
without his consent would constitute contributory
infringement of the patent; (2) licensed or authorized
another to perform acts which if performed without his
consent would constitute contributory infringement of

193a
the patent; (3) sought to enforce his patent rights
against infringement or contributory infringement;
(4) refused to license or use any rights to the patent;
or (5) conditioned the license of any rights to the
patent or the sale of the patented product on the
acquisition of a license to rights in another patent or
purchase of a separate product, unless, in view of the
circumstances, the patent owner has market power in
the relevant market for the patent or patented
product on which the license or sale is conditioned.
(e)(1) It shall not be an act of infringement to make,
use, offer to sell, or sell within the United States or
import into the United States a patented invention
(other than a new animal drug or veterinary biological
product (as those terms are used in the Federal Food,
Drug, and Cosmetic Act and the Act of March 4, 1913)
which is primarily manufactured using recombinant
DNA, recombinant RNA, hybridoma technology, or
other processes involving site specific genetic
manipulation techniques) solely for uses reasonably
related to the development and submission of
information under a Federal law which regulates the
manufacture, use, or sale of drugs or veterinary
biological products.
(2) It shall be an act of infringement to submit-(A) an application under section 505(j) of the
Federal Food, Drug, and Cosmetic Act or
described in section 505(b)(2) of such Act for a
drug claimed in a patent or the use of which is
claimed in a patent,
(B) an application under section 512 of such
Act or under the Act of March 4, 1913 (21
U.S.C. 151-158) for a drug or veterinary

194a
biological product which is not primarily
manufactured using recombinant DNA,
recombinant RNA, hybridoma technology, or
other processes involving site specific genetic
manipulation techniques and which is claimed
in a patent or the use of which is claimed in a
patent, or
(C)(i) with respect to a patent that is identified
in the list of patents described in section
351(l)(3) of the Public Health Service Act
(including as provided under section 351(l)(7)
of such Act), an application seeking approval of
a biological product, or
(ii) if the applicant for the application fails
to provide the application and information
required under section 351(l)(2)(A) of such
Act, an application seeking approval of a
biological product for a patent that could be
identified pursuant to section 351(l)(3)(A)(i)
of such Act,
if the purpose of such submission is to obtain
approval under such Act to engage in the
commercial manufacture, use, or sale of a drug,
veterinary biological product, or biological product
claimed in a patent or the use of which is claimed
in a patent before the expiration of such patent.
(3) In any action for patent infringement brought
under this section, no injunctive or other relief
may be granted which would prohibit the making,
using, offering to sell, or selling within the United
States or importing into the United States of a
patented invention under paragraph (1).

195a
(4) For an act of infringement described in
paragraph (2)-(A) the court shall order the effective date of
any approval of the drug or veterinary
biological product involved in the infringement
to be a date which is not earlier than the date
of the expiration of the patent which has been
infringed,
(B) injunctive relief may be granted against an
infringer
to
prevent
the
commercial
manufacture, use, offer to sell, or sale within
the United States or importation into the
United States of an approved drug, veterinary
biological product, or biological product,
(C) damages or other monetary relief may be
awarded against an infringer only if there has
been commercial manufacture, use, offer to
sell, or sale within the United States or
importation into the United States of an
approved drug, veterinary biological product,
or biological product, and
(D) the court shall order a permanent
injunction prohibiting any infringement of the
patent by the biological product involved in the
infringement until a date which is not earlier
than the date of the expiration of the patent
that has been infringed under paragraph
(2)(C), provided the patent is the subject of a
final court decision, as defined in section
351(k)(6) of the Public Health Service Act, in an
action for infringement of the patent under
section 351(l)(6) of such Act, and the biological

196a
product has not yet been approved because of
section 351(k)(7) of such Act.
The remedies prescribed by subparagraphs (A),
(B), (C), and (D) are the only remedies which may
be granted by a court for an act of infringement
described in paragraph (2), except that a court
may award attorney fees under section 285.
(5) Where a person has filed an application
described in paragraph (2) that includes a
certification under subsection (b)(2)(A) (iv) or
(j)(2)(A)(vii)(IV) of section 505 of the Federal Food,
Drug, and Cosmetic Act (21 U.S.C. 355), and
neither the owner of the patent that is the subject
of the certification nor the holder of the approved
application under subsection (b) of such section for
the drug that is claimed by the patent or a use of
which is claimed by the patent brought an action
for infringement of such patent before the
expiration of 45 days after the date on which the
notice given under subsection (b)(3) or (j)(2)(B) of
such section was received, the courts of the United
States shall, to the extent consistent with the
Constitution, have subject matter jurisdiction in
any action brought by such person under section
2201 of title 28 for a declaratory judgment that
such patent is invalid or not infringed.
(6)(A) Subparagraph (B) applies, in lieu of
paragraph (4), in the case of a patent-(i) that is identified, as applicable, in the
list of patents described in section 351(l)(4)
of the Public Health Service Act or the lists
of patents described in section 351(l)(5)(B)

197a
of such Act with respect to a biological
product; and
(ii) for which an action for infringement of
the patent with respect to the biological
product-(I) was brought after the expiration of
the 30-day period described in
subparagraph (A) or (B), as applicable, of
section 351(l)(6) of such Act; or
(II) was brought before the expiration of
the 30-day period described in subclause
(I), but which was dismissed without
prejudice or was not prosecuted to
judgment in good faith.
(B) In an action for infringement of a patent
described in subparagraph (A), the sole and
exclusive remedy that may be granted by a
court, upon a finding that the making, using,
offering to sell, selling, or importation into the
United States of the biological product that is
the subject of the action infringed the patent,
shall be a reasonable royalty.
(C) The owner of a patent that should have
been included in the list described in section
351(l)(3)(A) of the Public Health Service Act,
including as provided under section 351(l)(7) of
such Act for a biological product, but was not
timely included in such list, may not bring an
action under this section for infringement of
the patent with respect to the biological
product.

198a
(f)(1) Whoever without authority supplies or causes
to be supplied in or from the United States all or a
substantial portion of the components of a patented
invention, where such components are uncombined in
whole or in part, in such manner as to actively induce
the combination of such components outside of the
United States in a manner that would infringe the
patent if such combination occurred within the
United States, shall be liable as an infringer.
(2) Whoever without authority supplies or causes
to be supplied in or from the United States any
component of a patented invention that is
especially made or especially adapted for use in
the invention and not a staple article or commodity
of commerce suitable for substantial noninfringing
use, where such component is uncombined in
whole or in part, knowing that such component is
so made or adapted and intending that such
component will be combined outside of the United
States in a manner that would infringe the patent
if such combination occurred within the United
States, shall be liable as an infringer.
(g) Whoever without authority imports into the
United States or offers to sell, sells, or uses within the
United States a product which is made by a process
patented in the United States shall be liable as an
infringer, if the importation, offer to sell, sale, or use
of the product occurs during the term of such process
patent. In an action for infringement of a process
patent, no remedy may be granted for infringement
on account of the noncommercial use or retail sale of
a product unless there is no adequate remedy under
this title for infringement on account of the
importation or other use, offer to sell, or sale of that

199a
product. A product which is made by a patented
process will, for purposes of this title, not be
considered to be so made after-(1) it is materially changed by subsequent
processes; or
(2) it becomes a trivial and
component of another product.

nonessential

(h) As used in this section, the term “whoever”
includes any State, any instrumentality of a State,
and any officer or employee of a State or
instrumentality of a State acting in his official
capacity. Any State, and any such instrumentality,
officer, or employee, shall be subject to the provisions
of this title in the same manner and to the same
extent as any nongovernmental entity.
(i) As used in this section, an “offer for sale” or an
“offer to sell” by a person other than the patentee, or
any designee of the patentee, is that in which the sale
will occur before the expiration of the term of the
patent.

200a
35 U.S.C.A. § 287
§ 287. Limitation on damages and other remedies;
marking and notice
(a) Patentees, and persons making, offering for sale,
or selling within the United States any patented
article for or under them, or importing any patented
article into the United States, may give notice to the
public that the same is patented, either by fixing
thereon the word “patent” or the abbreviation “pat.”,
together with the number of the patent, or by fixing
thereon the word “patent” or the abbreviation “pat.”
together with an address of a posting on the Internet,
accessible to the public without charge for accessing
the address, that associates the patented article with
the number of the patent, or when, from the character
of the article, this can not be done, by fixing to it, or
to the package wherein one or more of them is
contained, a label containing a like notice. In the
event of failure so to mark, no damages shall be
recovered by the patentee in any action for
infringement, except on proof that the infringer was
notified of the infringement and continued to infringe
thereafter, in which event damages may be recovered
only for infringement occurring after such notice.
Filing of an action for infringement shall constitute
such notice.
(b)(1) An infringer under section 271(g) shall be
subject to all the provisions of this title relating to
damages and injunctions except to the extent those
remedies are modified by this subsection or section
9006 of the Process Patent Amendments Act of 1988.
The modifications of remedies provided in this
subsection shall not be available to any person who--

201a
(A) practiced the patented process;
(B) owns or controls, or is owned or controlled
by, the person who practiced the patented
process; or
(C) had knowledge before the infringement
that a patented process was used to make the
product the importation, use, offer for sale, or
sale of which constitutes the infringement.
(2) No remedies for infringement under section
271(g) shall be available with respect to any
product in the possession of, or in transit to, the
person subject to liability under such section
before that person had notice of infringement with
respect to that product. The person subject to
liability shall bear the burden of proving any such
possession or transit.
(3)(A) In making a determination with respect to
the remedy in an action brought for infringement
under section 271(g), the court shall consider-(i) the good faith demonstrated by the
defendant with respect to a request for
disclosure,
(ii) the good faith demonstrated by the
plaintiff with respect to a request for
disclosure, and
(iii) the need to restore the exclusive rights
secured by the patent.
(B) For purposes of subparagraph (A), the
following are evidence of good faith:

202a
(i) a request for disclosure made by the
defendant;
(ii) a response within a reasonable time by
the person receiving the request for
disclosure; and
(iii) the submission of the response by the
defendant to the manufacturer, or if the
manufacturer is not known, to the supplier,
of the product to be purchased by the
defendant, together with a request for a
written statement that the process claimed
in any patent disclosed in the response is
not used to produce such product.
The failure to perform any acts described in the
preceding sentence is evidence of absence of good
faith unless there are mitigating circumstances.
Mitigating circumstances include the case in
which, due to the nature of the product, the
number of sources for the product, or like
commercial circumstances, a request for
disclosure is not necessary or practicable to avoid
infringement.
(4)(A) For purposes of this subsection, a “request
for disclosure” means a written request made to a
person then engaged in the manufacture of a
product to identify all process patents owned by or
licensed to that person, as of the time of the
request, that the person then reasonably believes
could be asserted to be infringed under section
271(g) if that product were imported into, or sold,
offered for sale, or used in, the United States by an
unauthorized person. A request for disclosure is
further limited to a request--

203a
(i) which is made by a person regularly
engaged in the United States in the sale of
the same type of products as those
manufactured by the person to whom the
request is directed, or which includes facts
showing that the person making the request
plans to engage in the sale of such products
in the United States;
(ii) which is made by such person before the
person’s first importation, use, offer for sale,
or sale of units of the product produced by
an infringing process and before the person
had notice of infringement with respect to
the product; and
(iii) which includes a representation by the
person making the request that such person
will promptly submit the patents identified
pursuant
to
the
request
to
the
manufacturer, or if the manufacturer is not
known, to the supplier, of the product to be
purchased by the person making the
request, and will request from that
manufacturer or supplier a written
statement that none of the processes
claimed in those patents is used in the
manufacture of the product.
(B) In the case of a request for disclosure
received by a person to whom a patent is
licensed, that person shall either identify the
patent or promptly notify the licensor of the
request for disclosure.
(C) A person who has marked, in the manner
prescribed by subsection (a), the number of the

204a
process patent on all products made by the
patented process which have been offered for
sale or sold by that person in the United States,
or imported by the person into the United
States, before a request for disclosure is
received is not required to respond to the
request for disclosure. For purposes of the
preceding sentence, the term “all products”
does not include products made before the
effective date of the Process Patent
Amendments Act of 1988.
(5)(A) For purposes of this subsection, notice of
infringement means actual knowledge, or receipt
by a person of a written notification, or a
combination thereof, of information sufficient to
persuade a reasonable person that it is likely that
a product was made by a process patented in the
United States.
(B) A written notification from the patent
holder charging a person with infringement
shall specify the patented process alleged to
have been used and the reasons for a good faith
belief that such process was used. The patent
holder shall include in the notification such
information as is reasonably necessary to
explain fairly the patent holder’s belief, except
that the patent holder is not required to
disclose any trade secret information.
(C) A person who receives a written
notification described in subparagraph (B) or a
written response to a request for disclosure
described in paragraph (4) shall be deemed to
have notice of infringement with respect to any
patent referred to in such written notification

205a
or response unless that
mitigating circumstances--

person,

absent

(i) promptly transmits the written
notification or response to the manufacturer
or, if the manufacturer is not known, to the
supplier, of the product purchased or to be
purchased by that person; and
(ii) receives a written statement from the
manufacturer or supplier which on its face
sets forth a well grounded factual basis for
a belief that the identified patents are not
infringed.
(D) For purposes of this subsection, a person
who obtains a product made by a process
patented in the United States in a quantity
which is abnormally large in relation to the
volume of business of such person or an
efficient inventory level shall be rebuttably
presumed to have actual knowledge that the
product was made by such patented process.
(6) A person who receives a response to a request
for disclosure under this subsection shall pay to
the person to whom the request was made a
reasonable fee to cover actual costs incurred in
complying with the request, which may not exceed
the cost of a commercially available automated
patent search of the matter involved, but in no
case more than $500.
(c)(1) With respect to a medical practitioner’s
performance of a medical activity that constitutes an
infringement under section 271(a) or (b), the
provisions of sections 281, 283, 284, and 285 shall not
apply against the medical practitioner or against a

206a
related health care entity with respect to such
medical activity.
(2) For the purposes of this subsection:
(A) the term “medical activity” means the
performance of a medical or surgical procedure
on a body, but shall not include (i) the use of a
patented
machine,
manufacture,
or
composition of matter in violation of such
patent, (ii) the practice of a patented use of a
composition of matter in violation of such
patent, or (iii) the practice of a process in
violation of a biotechnology patent.
(B) the term “medical practitioner” means any
natural person who is licensed by a State to
provide the medical activity described in
subsection (c)(1) or who is acting under the
direction of such person in the performance of
the medical activity.
(C) the term “related health care entity” shall
mean an entity with which a medical
practitioner has a professional affiliation under
which the medical practitioner performs the
medical activity, including but not limited to a
nursing home, hospital, university, medical
school, health maintenance organization,
group medical practice, or a medical clinic.
(D) the term “professional affiliation” shall mean
staff privileges, medical staff membership,
employment or contractual relationship,
partnership or ownership interest, academic
appointment, or other affiliation under which a
medical practitioner provides the medical

207a
activity on behalf of, or in association with, the
health care entity.
(E) the term “body” shall mean a human body,
organ or cadaver, or a nonhuman animal used
in medical research or instruction directly
relating to the treatment of humans.
(F) the term “patented use of a composition of
matter” does not include a claim for a method
of performing a medical or surgical procedure
on a body that recites the use of a composition
of matter where the use of that composition of
matter does not directly contribute to
achievement of the objective of the claimed
method.
(G) the term “State” shall mean any State or
territory of the United States, the District of
Columbia, and the Commonwealth of Puerto
Rico.
(3) This subsection does not apply to the activities
of any person, or employee or agent of such person
(regardless of whether such person is a tax exempt
organization under section 501(c) of the Internal
Revenue Code), who is engaged in the commercial
development, manufacture, sale, importation, or
distribution of a machine, manufacture, or
composition of matter or the provision of
pharmacy or clinical laboratory services (other
than clinical laboratory services provided in a
physician’s office), where such activities are:
(A) directly related to the commercial
development, manufacture, sale, importation,
or distribution of a machine, manufacture, or
composition of matter or the provision of

208a
pharmacy or clinical laboratory services (other
than clinical laboratory services provided in a
physician’s office), and
(B) regulated under the Federal Food, Drug,
and Cosmetic Act, the Public Health Service
Act, or the Clinical Laboratories Improvement
Act.
(4) This subsection shall not apply to any patent
issued based on an application which has an
effective filing date before September 30, 1996.

209a
40 C.F.R. § 152.42
§ 152.42 Application for new registration.
Any person seeking to obtain a registration for a new
pesticide product must submit an application for
registration, containing the information specified in
§ 152.50. An application for new registration must be
approved by the Agency before the product may
legally be distributed or sold, except as provided by
§ 152.30.
40 C.F.R. § 152.50
§ 152.50 Contents of application.
Effective: February 10, 2009
Each application for registration or amended
registration must include the following information,
as applicable:
(a) Application form. An application form must be
completed and submitted to the Agency. Application
forms are provided by the Agency, with instructions
as to the number of copies required and proper
completion.
(b) Identity of the applicant—
(1) Name. The applicant must identify himself. An
applicant not residing in the United States must
also designate an agent in accordance with
paragraph (b)(3) of this section to act on behalf of
the applicant on all registration matters.
(2) Address of record. The applicant must provide
an address in the United States for correspondence
purposes. The U.S. address provided will be
considered the applicant’s address of record, and

210a
EPA will send all correspondence concerning the
application and any subsequent registration to that
address. It is the responsibility of the applicant
and any registrant under § 152.122 to ensure that
the Agency has a current and accurate address.
(3) Authorized agent. An applicant may designate
a person residing in the United States to act as his
agent. If an applicant wishes to designate an
agent, he must send the Agency a letter stating the
name and United States address of his agent. The
applicant must notify the Agency if he changes his
designated agent. This relationship may be
terminated at any time by the applicant by
notifying the Agency in writing.
(4) Company number. If an applicant has been
assigned a company number by the Agency, the
application must reference that number.
(c) Summary of the application. Each application
must include a list of the data submitted with the
application, together with a brief description of the
results of the studies. The list of data submitted may
be the same as the list required by § 158.32 or §
161.32, as applicable, of this chapter. The summary
must state that it is releasable to the public after
registration in accordance with § 152.119.
(d) Identity of the product. The product for which
application is being submitted must be identified. The
following information is required:
(1) The product name;
(2) The trade name(s) (if different); and
(3) The EPA Registration Number, if currently
registered.

211a
(e) Draft labeling. Each application for new
registration must be accompanied by five legible
copies of draft labeling (typescript or mock-up). Each
application for amended registration that proposes to
make any changes in the product labeling must be
accompanied by five legible copies of draft labeling
incorporating the proposed labeling changes. If the
proposed labeling change affects only a portion of the
labeling, such as the use directions, the applicant may
submit five copies of that portion of the label which is
the subject of the amendment. Upon request, an
applicant for amended registration must submit a
complete label to consolidate amendments.
(f) Registration data requirements.
(1) An applicant must submit materials to
demonstrate that he has complied with the FIFRA
sec. 3(c)(1)(F) and subpart E of this part with
respect to satisfaction of data requirements, to
enable the Agency to make the determination
required by FIFRA sec. 3(c)(5)(B). Required items
are described in subpart E of this part.
(2) An applicant must furnish any data specified
in part 158 or part 161 of this chapter, as
applicable, of this chapter which are required by
the Agency to determine that the product meets
the registration standards of FIFRA sec. 3(c)(5) or
(7). Each study must comply with:
(i) Section 158.32 of this chapter, with respect
to format of data submission.
(ii) Section 158.33 of this chapter, with respect
to studies for which a claim of trade secret or
confidential business information is made.

212a
(iii) Section 158.34 of this chapter, with respect
to flagging for potential adverse effects.
(iv) Section 160.12 of this chapter, with respect
to a statement whether studies were conducted
in accordance with Good Laboratory Practices
of part 160.
(3) An applicant shall furnish with his application
any factual information of which he is aware
regarding unreasonable adverse effects of the
pesticide on man or the environment, which would
be required to be reported under FIFRA sec. 6(a)
(2) if the product were registered.
(g) Certification relating to child-resistant packaging.
If the product meets the criteria for child-resistant
packaging, the applicant must submit a certification
that the product will be distributed or sold only in
child-resistant packaging. Refer to part 157 of this
chapter
for
the
criteria
and
certification
requirements.
(h) Request for classification. If an applicant wishes
to request a classification different from that
established by the Agency, he must submit a request
for such classification and information supporting the
request.
(i) Statement concerning tolerances.
(1) If the proposed labeling bears instructions for
use of the pesticide on food or feed crops, or if the
intended use of the pesticide results or may be
expected to result, directly or indirectly, in
pesticide chemical residues in or on food or feed
(including residues of any active ingredient, inert
ingredient, metabolite, or degradation product),

213a
the applicant must submit a statement indicating
whether such residues are authorized by a
tolerance or exemption from the requirement of a
tolerance issued under section 408 of the Federal
Food, Drug and Cosmetic Act (FFDCA).
(2) If such residues have not been authorized, the
application must be accompanied by a petition for
establishment of appropriate tolerances or
exemptions from the requirement of a tolerance, in
accordance with part 180 of this chapter.
(j) Fees.
(1) The applicant shall identify the appropriate fee
category in the schedule provided for by FIFRA
sec. 33, and shall submit the fee for that category
as prescribed by the latest EPA notice of section 33
fees.
(2) If FIFRA sec. 33 is not in effect, the applicant
shall submit any fees required by subpart U of this
part, if applicable.
40 C.F.R. § 152.80
§ 152.80 General.
Effective: February 10, 2009
This subpart E describes the information that an
applicant must submit with his application for
registration or amended registration to comply (and
for the Agency to determine compliance) with the
provisions of FIFRA sec. 3(c)(1)(F). This subpart also
describes the procedures by which data submitters
may challenge registration actions which allegedly
failed to comply with these procedures. If the Agency
determines that an applicant has failed to comply

214a
with the requirements and procedures in this
subpart, the application may be denied. If the Agency
determines, after registration has been issued, that
an applicant failed to comply with these procedures
and requirements, the Agency may issue a notice of
intent to cancel the product's registration.
40 C.F.R. § 152.81
§ 152.81 Applicability.
Effective: April 7, 2014
(a) Except as provided in paragraph (b) of this section,
the requirements of this subpart apply to:
(1) Each application for registration of a new
product.
(2) Each application for amended registration of a
currently registered product.
(3) Each submission in response to a Data Call–In
under the Federal Insecticide, Fungicide, and
Rodenticide Act (FIFRA) section 3(c)(2)(B)1 for an
existing registration, including but not limited to,
a product subject to reregistration under FIFRA
section 42 or registration review under FIFRA
section 3(g)3. If the Data Call–In establishes
procedures for protection of data submitters’
rights, recipients must comply with the specific
requirements of the Data Call–In rather than the
generic procedures set forth in §§ 152.85 through
152.96.
1

See 7 USCA § 136a(c)(2)(B).

2

See 7 USCA § 136a–1.

3

See 7 USCA § 136(g).

215a
(b) This subpart does not apply to any of the following:
(1) An application for registration submitted to a
State under FIFRA section 24(c).4
(2) An application for an experimental use permit
(EUP) under FIFRA section 55.
(3) An application for an emergency exemption
under FIFRA section 18.6
(4) A request for cancellation of a registration, or a
request for deletion of one or more existing uses,
under FIFRA section 6(f).7
(5) A modification to registration of a currently
registered product that may be accomplished
under the notification or non-notification
provisions of § 152.46 and any procedures issued
thereunder. Notwithstanding the preceding
sentence, compliance with this subpart is required
if the Administrator has, by written notice under
§ 152.46, determined that the modification may
not be accomplished by notification or nonnotification.
(6) Any type of amendment if the Administrator
determines, by written finding, that Agency
consideration of data would not be necessary in
order to approve the amendment under FIFRA
section 3(c)(5).8
4

See 7 USCA § 136v.

5

See 7 USCA § 136c.

6

See 7 USCA § 136p.

7

See 7 USCA § 136d.

8

See 7 USCA § 136a–1(c)(5).

216a
(7) Compliance with Agency regulations,
adjudicatory hearing decisions, notices, or other
Agency
announcements
that
unless
the
registration is amended in the manner the Agency
proposes, the product’s registration will be
suspended or canceled, or that a hearing will be
held under FIFRA section 6.9 However, this
paragraph does not apply to amendments
designed to avoid cancellation or suspension
threatened under FIFRA section 3(c)(2)(B)10 or
because of failure to submit data.
40 C.F.R. § 152.82
§ 152.82 Definitions.
Effective: April 7, 2014
For the purposes of this subpart, the definitions set
forth in the Federal Insecticide, Fungicide, and
Rodenticide Act (FIFRA), in § 152.3, and in this
section apply. In addition, the term “exclusive use
study” shall have the meaning set forth in § 152.83.
Data gap means the absence of any valid study or
studies in the Agency’s files which would satisfy a
specific data requirement for a particular pesticide
product.
Data Submitters List means the current Agency list,
entitled “Pesticide Data Submitters by Chemical,” of
persons who have submitted data to the Agency.
Original data submitter means the person who
possesses all rights to exclusive use or compensation
9

See 7 USCA § 136(d).

10

See 7 USCA § 136a(c)(2)(B).

217a
under FIFRA section 3(c)(1)(F) in a study originally
submitted in support of an application for
registration, amended registration, reregistration, or
experimental use permit, or to maintain an existing
registration in effect. The term includes the person
who originally submitted the study, any person to
whom the rights under FIFRA section 3(c)(1)(F) have
been transferred, or the authorized representative of
a group of joint data developers.
Valid study means a study that has been conducted in
accordance with the Good Laboratory Practice
standards of 40 CFR part 160 or generally accepted
scientific methodology and that EPA has not
determined to be invalid.
40 C.F.R. § 152.83
§ 152.83 Definition of exclusive use study.
Effective: April 7, 2014
A study is an exclusive use study if it meets the
conditions of either paragraph (a) or paragraph (b) of
this section.
(a) Initial exclusive use period. A study submitted to
support the registration of a product containing a new
active ingredient (new chemical) or a new
combination of active ingredients (new combination)
is an exclusive use study if all the following conditions
are met:
(1) The study pertains to a new active ingredient
(new chemical) or new combination of active
ingredients (new combination) first registered
after September 30, 1978.

218a
(2) The study was submitted in support of, or as a
condition of approval of, the application resulting
in the first registration of a product containing
such new chemical or new combination, or an
application to amend such registration to add a
new use.
(3) Less than 10 years have passed (or up to 13
years, if the period of exclusive use protection has
been extended under the Federal Insecticide,
Fungicide, and Rodenticide Act (FIFRA) section
3(c)(1)(F)(ii)) since the issuance of the registration
for which the data were submitted.
(4) The study was not submitted to satisfy a data
requirement imposed under FIFRA section
3(c)(2)(B).
(b) Exclusive use period for certain minor use data. A
study submitted by an applicant or registrant to
support an amendment adding a new minor use to an
existing registration that does not retain any period
of exclusive use under paragraph (b)(1) of this section
is an exclusive study under FIFRA section
3(c)(1)(F)(vi) if all the following conditions are met:
(1) The study relates solely to a minor use of a
pesticide.
(2) The applicant or registrant at the time the new
use is requested has notified the Administrator
that any exclusive use period for the pesticide has
expired and that the study is eligible for exclusive
use treatment.
(3) Less than 10 years have passed since the study
was submitted to EPA.

219a
(4) The study was not submitted to satisfy a data
requirement imposed under FIFRA section
3(c)(2)(B).
(5) The minor use supported by the data has not
been voluntarily canceled nor have such data been
used to support a non-minor use.
40 C.F.R. § 152.84
§ 152.84 When materials must be submitted to the
Agency.
Effective: April 7, 2014
Information and materials required by this subpart
must be submitted at the time of application, unless
the application is determined not to be subject to the
requirements of this subpart.
40 C.F.R. § 152.85
§ 152.85 Formulators’ exemption.
Effective: December 26, 2007
(a) Statutory provision. FIFRA section 3(c)(2)(D)
excuses an applicant from the requirement to submit
or cite data pertaining to any pesticide contained in
his product that is derived solely from one or more
EPA–registered products which the applicant
purchases from another person. This provision is
commonly referred to as the formulators’ exemption.
(b) Applicability of the formulators’ exemption.
(1) The formulators’ exemption applies only to
data concerning the purchased product or its
ingredients. These data may include, but are not

220a
limited to, product chemistry, toxicology, residue
chemistry, exposure, environmental fate, and
ecological effects.
(2) The data to which the formulators’ exemption
applies usually will concern the safety of one or
more of the product’s active ingredients,
specifically, those active ingredients which are
contained in the purchased product. In general,
data for which the required test substance is the
technical grade of the active ingredient, the pure
active ingredient, the radiolabeled pure active
ingredient, or a typical end-use product are
eligible for the formulators’ exemption.
(3) The formulators’ exemption generally does not
apply to data on the applicant’s product itself,
including the safety or efficacy of the product,
unless the composition of the product is identical
to the purchased product. In general, data for
which the required test substance is the product
proposed for registration are not eligible for the
formulators’ exemption.
(c) Limitation of the formulators’ exemption. EPA
interprets FIFRA section 3(c)(2)(D) as allowing an
applicant to use the formulators’ exemption with
respect to data concerning an ingredient of his
product only if:
(1) The application indicates that the ingredient’s
presence in the product is attributable solely to the
purchase from another person of an identified,
registered product containing that ingredient and
the use of the purchased product in formulating
the product; and

221a
(2) The purchased product is a registered
manufacturing-use product whose label does not
prohibit its use for making an end-use product
labeled for any use for which the applicant’s
product will be labeled; or
(3) The purchased product is a registered end-use
product labeled for each use for which the
applicant’s product will be labeled.
(d) Claiming eligibility for the exemption.
(1) If the product contains one or more ingredients
eligible for the formulators’ exemption, the
applicant need not comply with the requirements
of §§ 152.90 through 152.96 with respect to any
data requirement pertaining to such ingredient,
provided that he submits to the Agency a
certification statement containing the following
information (a form for this purpose is available
from the Agency):
(i) Identification of the applicant, and of the
product by EPA registration number or file
symbol.
(ii) Identification of each ingredient in the
pesticide that is eligible for the formulators’
exemption, and the EPA registration number
of the product that is the source of that
ingredient.
(iii) A statement that the listed ingredients
meet the requirements for the formulators’
exemption.
(iv) A statement that the applicant has
submitted (either previously or with the
current application) a complete, accurate and
current Confidential Statement of Formula.

222a
(v) The name, title and signature of the
applicant or his authorized representative and
the date of signature.
(2) An applicant for amended registration is not
required to submit a new formulators’ exemption
statement, if the current statement in Agency files
is complete and accurate.
(e) Approval of registration. Notwithstanding
FIFRA section 3(c)(2)(D), EPA will not approve an
application unless there are available to EPA for
its review all data that are necessary to make the
required risk/benefit finding under FIFRA section
3(c) (5) or section 3(c)(7).
40 C.F.R. § 152.86
§ 152.86 The cite-all method.
Effective: April 7, 2014
An applicant may comply with this subpart by citing
all data in Agency files that are pertinent to its
consideration of the requested registration under
FIFRA section 3(c)(5), in accordance with the
procedures in this section, as applicable.
(a) Exclusive use studies. The applicant must certify
to the Agency that he has obtained, from each person
listed on the Data Submitters List as an exclusive use
data submitter for the chemical in question, a written
authorization that contains at least the following
information:
(1) Identification of the applicant to whom the
authorization is granted;

223a
(2) Authorization to the applicant to use all
pertinent studies in satisfaction of data
requirements for the application in question; and
(3) The signature and title of the original data
submitter or his authorized representative and
date of the authorization.
If the Agency identifies any exclusive use data
submitter not on the Data Submitters List, the
applicant will be required prior to registration to
obtain the necessary written authorization from such
person.
(b) Other studies. The applicant must certify to the
Agency that, with respect to each other person on the
Data Submitters List for the chemical in question:
(1) He has obtained from that person a written
authorization that contains the information
required by paragraphs (a) (1) through (3) of this
section; or
(2) He has furnished to that person:
(i) A notification of his intent to apply for
registration, including the name of the
proposed product, and a list of the product’s
active ingredients;
(ii) An offer to pay the person compensation to
the extent required by FIFRA section 3(c)(1)(F)
for any data on which the application relies;
(iii) An offer to commence negotiations to
determine the amount and terms of
compensation, if any, to be paid for the use of
any study; and

224a
(iv) The applicant’s name, address, and contact
information, including telephone number and
email address.
(c) General offer to pay statement. The applicant must
submit to the Agency the following general offer to
pay statement: [Name of applicant] hereby offers and
agrees to pay compensation to other persons, with
regard to the approval of this application, to the
extent required by FIFRA section 3(c)(1)(F) of the
Federal Insecticide, Fungicide and Rodenticide Act.
(d) Acknowledgement of reliance on data. Each
application filed under this section shall include an
acknowledgement that for purposes of FIFRA section
3(c)(1)(F) the application relies on the following data:
(1) All data submitted with or specifically cited in
the application; and
(2) Each other item of data in the Agency’s files
which:
(i) Concerns the properties or effects of the
applicant’s product, of any product which is
identical or substantially similar to the
applicant’s product, or of one or more of the
active ingredients in the applicant’s product;
and
(ii) Is one of the types of data that EPA would
require to be submitted if the application
sought the initial registration under FIFRA
section 3(c)(5) of a product with composition
and intended uses identical or substantially
similar to the applicant’s product, under the
data requirements in effect on the date EPA
approves the applicant’s present application.

225a
40 C.F.R. § 152.90
§ 152.90 The selective method.
Effective: April 7, 2014
An applicant may comply with this subpart by listing
the specific data requirements that apply to his
product, its active ingredients, and use patterns, and
demonstrating his compliance for each data
requirement by submitting or citing individual
studies, or by demonstrating that no study has
previously been submitted to the Agency. This section
summarizes the procedures that an applicant must
follow if he chooses the selective method of
demonstrating compliance. Sections 152.91 through
152.96 contain specific procedures for citing or
submitting a study or claiming a data gap.
(a) List of data requirements.
(1) Each applicant must submit a list of the data
requirements that would apply to his pesticide, its
active ingredients, and its use patterns, if the
product were being proposed for registration
under the Federal Insecticide, Fungicide, and
Rodenticide Act (FIFRA) section 3(c)(5) for the
first time.
(2) The applicant must list the applicable
requirements, as prescribed by part 158 of this
chapter, as applicable. All required (R) studies,
and any studies that could be conditionally
required (CR) based upon composition, use
pattern, or the results of required studies, are to
be listed. The applicant need not list data
requirements pertaining to any ingredient which
qualifies for the formulators’ exemption.

226a
(b) Methods of demonstrating compliance. The
applicant must state for each data requirement on the
list required by paragraph (a) of this section which of
the following methods of compliance with the
requirement he is using, and shall provide the
supporting documentation specified in the referenced
section.
(1) Existence of or granting of a data waiver. Refer
to § 152.91.
(2) Submission of a new valid study. Refer to §
152.92.
(3) Citation of a specific valid study previously
submitted to the Agency by the applicant or
another person, with any necessary written
authorizations or offers to pay. Refer to § 152.93.
(4) Citation of a public literature study. Refer to §
152.94.
(5) Citation of all pertinent studies previously
submitted to the Agency, with any necessary
written authorizations or offers to pay. Refer to §
152.95.
(6) Claim of data gap. Refer to § 152.96.
40 C.F.R. § 152.91
§ 152.91 Waiver of a data requirement.
Effective: April 7, 2014
The applicant may demonstrate compliance for a data
requirement by documenting the existence of a waiver
in accordance with paragraph (a) of this section, or by
being granted a new waiver requested in accordance
with paragraph (b) of this section.

227a
(a) Request for an extension of an existing waiver. An
applicant may claim that a waiver previously granted
by the Agency also applies to a data requirement for
the product. To document this claim, the applicant
must provide a reference to the Agency record that
describes the previously granted waiver, such as an
Agency list of waivers or an applicable Reregistration
Eligibility Decision (RED) document or registration
review decision document, and explain why that
waiver should apply to the product.
(b) Request for a new waiver. An applicant who
requests a waiver to satisfy a data requirement must
submit the information specified in 40 CFR 158.45 or
40 CFR 161.45.
(c) Effect of denial of waiver request. A decision by the
Agency to deny a written request for a new waiver or
an extension of an existing waiver is a final Agency
action. Following denial, the applicant must choose
another method of satisfying the data requirement.
40 C.F.R. § 152.92
§ 152.92 Submission of a new valid study.
An applicant may demonstrate compliance for a data
requirement by submitting a valid study that has not
previously been submitted to the Agency. A study
previously submitted to the Agency should not be
resubmitted but should be cited in accordance with §
152.93.

228a
40 C.F.R. § 152.93
§ 152.93 Citation of a previously
submitted valid study.
Effective: April 7, 2014
An applicant may demonstrate compliance for a data
requirement by citing a valid study previously
submitted to the Agency. The study is not to be
submitted to the Agency with the application.
(a) Study originally submitted by the applicant. If the
applicant certifies that he is the original data
submitter, no documentation other than the citation
is necessary.
(b) Study previously submitted by another person. If
the applicant is not the original data submitter, the
applicant may cite the study only in accordance with
paragraphs (b) (1) through (3) of this section.
(1) Citation with authorization of original data
submitter. The applicant may cite any valid study
for which he has obtained the written authorization
of the original data submitter. The applicant must
obtain written authorization to cite any study that
is an exclusive use study. The applicant must
certify that he has obtained from the original data
submitter a written authorization that contains at
least the following information:
(i) Identification of the applicant to whom the
authorization is granted;
(ii) Identification by title, EPA Accession
Number or Master Record Identification
Number, and date of submission, of the study
or studies for which the authorization is granted;

229a
(iii) Authorization to the applicant to use the
specified study in satisfaction of the data
requirement for the application in question;
and
(iv) The signature and title of the original data
submitter or his authorized representative,
and date of the authorization.
(2) Citation with offer to pay compensation to the
original data submitter. The applicant may cite
any valid study that is not subject to the exclusive
use provisions of FIFRA section 3(c)(1)(F)(i)
without written authorization from the original
data submitter if the applicant certifies to the
Agency that he has furnished to the original data
submitter:
(i) A notification of the applicant’s intent to
apply for registration, including the proposed
product name and a list of the product’s active
ingredients;
(ii) Identification of the specific data
requirement involved and of the study for
which the offer to pay is made (by title, EPA
Accession Number or Master Record
Identification Number, and date of submission,
if possible);
(iii) An offer to pay the person compensation
to the extent required by FIFRA section
3©(1)(F);
(iv) An offer to commence negotiations to
determine the amount and terms of
compensation, if any, to be paid for the use of
the study; and

230a
(v) The applicant’s name, address, and contact
information, including a telephone number and
email address.
(3) Citation without authorization or offer to pay.
The applicant may cite any valid study without
written authorization from, or offer to pay to, the
original data submitter if the study was originally
submitted to the Agency on or before the date that
is 15 years before the date of the application for
which it is cited, and the study is not an exclusive
use study, as defined in § 152.83©.
40 C.F.R. § 152.94
§ 152.94 Citation of a public literature study or
study generated at government expense.
Effective: February 10, 2009
(a) An applicant may demonstrate compliance for a
data requirement by citing, and submitting to the
Agency, one of the following:
(1) A valid study from the public literature.
(2) A valid study generated by, or at the expense of,
any government (Federal, State, or local) agency.
(b) In no circumstances does submission of a public
literature study or government-generated study
confer any rights on the data submitter to exclusive
use of data or compensation under FIFRA section
3(c)(1)(F).

231a
40 C.F.R. § 152.95
§ 152.95 Citation of all studies in the Agency’s files
pertinent to a specific data requirement.
Effective: April 7, 2014
An applicant normally may demonstrate compliance
for a data requirement by citation of all studies in the
Agency’s files pertinent to that data requirement. The
applicant who selects this cite-all option must submit
to the Agency:
(a) A general offer to pay statement having the same
wording as that specified in § 152.86(c) except that
the offer to pay may be limited to apply only to data
pertinent to the specific data requirement(s) for which
the cite-all method of support has been selected;
(b) A certification that:
(1) For each person who is included on the Data
Submitters List as an original data submitter of
exclusive use data for the active ingredient in
question, the applicant has obtained a written
authorization containing the information required
by § 152.86(a) for the use the any exclusive use
study that would be pertinent to the applicant’s
product; and
(2) For each person included on the current Data
Submitters List as an original data submitter of
data that are not exclusive use for the active
ingredient in question, the applicant has
furnished:
(i) A notification of the applicant’s intent to
apply for registration, including the name of

232a
the proposed product, and a list of the product’s
active ingredients;
(ii) Identification of the specific data
requirement(s) for which the offer to pay for
data is being made; (iii) An offer to pay the
person compensation to the extent required by
FIFRA section 3(c)(1)(F);
(iv) An offer to commence negotiations to
determine the amount and terms of
compensation, if any, to be paid for use of any
study; and
(v) The applicant’s name, address, and contact
information, including a telephone number and
email address.
(c) An acknowledgment having the same wording as
that specified in § 152.86(d), except that it may be
limited to apply only to data pertinent to the specific
data requirement(s) for which the cite-all method of
support has been selected.
40 C.F.R. § 152.96
§ 152.96 Claim of data gap.
Effective: April 7, 2014
(a) When a data gap may be claimed. Except as
provided in paragraph (b) of this section, an applicant
may defer his obligation to satisfy an applicable data
requirement until the Agency requires the data if no
other person has previously submitted to the Agency
a valid study that would satisfy the data requirement
in question.

233a
(b) When a data gap may not be claimed—
(1) Product containing a new active ingredient. An
applicant for registration of a product containing a
new active ingredient may not defer his obligation
by claiming a data gap unless he can demonstrate
to the Agency’s satisfaction that the data
requirement was imposed so recently that
insufficient time has elapsed for the study to have
been completed and that, in the public interest,
the product should be registered during the
limited period of time required to complete the
study. Refer to the Federal Insecticide, Fungicide,
and Rodenticide Act (FIFRA) section 3(c)(7)(C).
(2) Product not containing a new active ingredient.
An applicant for registration of a product under
FIFRA sections 3(c) (7)(A) or (B) (a product not
containing a new active ingredient) may not defer
his obligation by claiming a data gap if the data
are:
(i) Data needed to determine whether the
product is identical or substantially similar to
another currently registered product or differs
only in ways that would substantially increase
the risk of unreasonable adverse effects on the
environment.
(ii) Efficacy data specific to the product, if
required to be submitted to the Agency.
(iii) If a new use is proposed for a product that
is identical or substantially similar to an
existing product, data to demonstrate whether
the new use would substantially increase the
risk of unreasonable adverse effects on the
environment.

234a
(c) Approval of application with a data gap claim—
(1) In accordance with § 152.115(a), any
registration that is approved based upon a data
gap claim shall be conditioned on the submission
of the data no later than the time that the data are
required to be submitted for similar products
already registered.
(2) Notwithstanding paragraph (c)(1) of this
section, the Agency will not approve an application
if it determines that the data for which a data gap
claim has been made are needed to determine if
the product meets the requirements of FIFRA
sections 3(c)(5) or (7).
40 C.F.R. § 152.97
§ 152.97 Rights and obligations regarding the Data
Submitters List.
Effective: April 7, 2014
(a) Each original data submitter shall have the right
to be included on the Agency’s Data Submitters List.
(b) Each original data submitter who wishes to have
his name added to the current Data Submitters List
must submit to the Agency the following information:
(1) Name and current address.
(2) Chemical name, common name (if any) and
Chemical Abstracts Service (CAS) number (if any)
of the active ingredients(s), with respect to which
he is an original data submitter.
(3) For each such active ingredient, the type(s) of
study he has previously submitted (identified by

235a
reference to data/ information requirements listed
in part 158 of this chapter), the date of submission,
and the EPA registration number, file symbol, or
other identifying reference for which it was
submitted.
(c) Each applicant not already included on the Data
Submitters List for a particular active ingredient
must inform the Agency at the time of the submission
of a relevant study whether he wishes to be included
on the Data Submitters List for that pesticide.
40 C.F.R. § 152.98
§ 152.98 Procedures for transfer of exclusive use or
compensation rights to another person.
Effective: February 10, 2009
A person who possesses rights to exclusive use or
compensation under FIFRA section 3(c)(1)(F) may
transfer such rights to another person in accordance
with this section.
(a) The original data submitter must submit to the
Agency a transfer document that contains the
following information:
(1) The name, address and state of incorporation
(if any) of the original data submitter (the
transferor);
(2) The name, address and state of incorporation
(if any) of the person to whom the data rights are
being transferred (the transferee);
(3) Identification of each item of data transferred
including:

236a
(i) The name of the study or item of data;
(ii) Whether the study is an exclusive use
study, and, if so, when the period of exclusive
use protection expires;
(iii) The name of the person or laboratory that
conducted the study;
(iv) The date the study was submitted to the
Agency;
(v) The EPA document number assigned to the
item of data (the Master Record Identification
Number or Accession Number), if known. If not
known, the EPA administrative number (such
as the EPA Registration Number, petition
number, file symbol, or permit number) with
which the item of data was submitted, such
that the Agency can identify the item of data.
(vi) A statement that the transferor transfers
irrevocably to the transferee all rights, titles,
and interest in the items of data named;
(vii) A statement that the transferor and
transferee understand that any false
statement may be punishable under 18 U.S.C.
1001; and
(viii) The names, signatures and titles of the
transferor and transferee, and the date signed.
(b) In addition, the original data submitter must
submit to the Agency a notarized statement affirming
that:
(1) The person signing the transfer agreement is
authorized by the original data submitter to bind
the data submitter;

237a
(2) No court order prohibits the transfer, and any
required court approvals have been obtained; and
(3) The transfer is authorized under Federal,
State, and local law and relevant corporate
charters, bylaws or partnership agreements.
(c) The Agency will acknowledge the transfer of the
data by notifying both transferor and transferee, and
will state the effective date of the transfer. Thereafter
the transferee will be considered to be the original
data submitter of the items of data transferred for all
purposes under FIFRA section 3(c)(1)(F), unless a
new transfer agreement is submitted to the Agency.
40 C.F.R. § 152.99
§ 152.99 Petitions to cancel registration.
Effective: April 7, 2014
An original data submitter may petition the Agency
to deny or cancel the registration of a product in
accordance with this section if he has submitted to the
Agency a valid study which, he claims, satisfies a data
requirement that an applicant purportedly has failed
to satisfy.
(a) Grounds for petition.
(1) If an applicant has offered to pay compensation
to an original data submitter of a study (either
specifically or by filing a general offer to pay
statement), the original data submitter may
petition the Agency to deny or cancel the
registration to which the offer related on any of the
following grounds:

238a
(i) The applicant has failed to participate in an
agreed-upon procedure for reaching an
agreement on the amount and terms of
compensation. The petitioner shall submit a
copy of the agreed-upon procedure and describe
the applicant’s failure to participate in the
procedure.
(ii) The applicant has failed to comply with the
terms of an agreement on compensation. The
petitioner shall submit a copy of the
agreement, and shall describe how the
applicant has failed to comply with the
agreement.
(iii) The applicant has failed to participate in
an arbitration proceeding. The petitioner shall
submit evidence of such failure. (iv) The
applicant has failed to comply with the terms
of an arbitration decision. The petitioner shall
submit a copy of the arbitration decision, and
describe how the applicant has failed to comply
with the decision.
(2) When no offer to pay has been made, the
petitioner shall state in his petition the basis for
the challenge, and describe how the failure of the
applicant to comply with the procedures of this
subpart has deprived him of the rights accorded
him under FIFRA section 3(c)(1)(F). Possible
grounds for challenge include, but are not limited
to, the following:
(i) The applicant has failed to list a data
requirement applicable to his product, or has
failed to demonstrate compliance with all
applicable data requirements.

239a
(ii) The applicant has submitted or cited a
study that is not valid.
(iii) The applicant has submitted or cited a
study that does not satisfy the data requirement
for which it was submitted or cited.
(iv) The applicant has falsely or improperly
claimed that a data gap existed at the time of
his application.
(v) The applicant has submitted or cited a study
originally submitted by the petitioner, without
the required authorization or offer to pay.
(b) Procedure for petition to the Agency—
(1) Time for filing. A petition under paragraph
(a)(1) of this section may be filed at any time that
the circumstances warrant. A petition under
paragraph (a)(2) of this section must be filed
within one year after the Agency makes public the
issuance of the registration.
(2) Notice to affected registrant. At the same time
that the petitioner files his petition with the
Agency, the petitioner shall send a copy to the
affected applicant or registrant by certified mail or
by any other method that provides evidence of
delivery. The affected applicant or registrant shall
have 60 days from the date of receipt of the petition
to submit written comments to the Agency.
(c) Disposition of petitions. The Agency will consider
the material submitted by the petitioner and the
response, if any, by the affected applicant or
registrant.
(1) If the Agency determines that the petition is
without merit, it will inform the petitioner and the

240a
affected applicant or registrant that the petition is
denied. Denial of a petition is a final Agency
action.
(2) If the Agency determines that an applicant has
acted in any way described by paragraph (a)(1) of
this section, the Agency will notify the petitioner
and the affected applicant or registrant that it
intends to deny or cancel the registration of the
product in support of which the data were cited.
The affected applicant or registrant will have 15
days from the date of delivery of this notice to
respond. If the Agency determines, after
considering any response, that the affected
applicant or registrant has acted in the ways
described by paragraph (a)(1) of this section, the
Agency will deny or cancel the registration
without further hearing. Refer to FIFRA section
3(c)(1)(F)(ii). Denial or cancellation of a
registration is a final Agency action.
(3) Except as provided in paragraph (c)(2) of this
section, if the Agency determines that an applicant
for registration of a product has acted in any way
that deprives an original data submitter of rights
under FIFRA section 3(c)(1)(F), the Agency will
take steps to deny the application or cancel the
registration, as appropriate. The procedures in
FIFRA section 3(c)(6) or section 6(b) shall be
followed. Denial or cancellation is a final Agency
action.
(d) Hearing. Any hearing will be conducted in
accordance with the procedures in 40 CFR part 164.
The only matter for resolution at the hearing shall be
whether the registrant failed to comply with the
requirements and procedures of FIFRA section 3(c)(1)

241a
(F) or of this subpart, in the manner described by the
petitioner. A decision following a hearing shall be
final.
40 C.F.R. § 152.107
§ 152.107 Review of data.
Effective: December 26, 2007
(a) The Agency normally will review data submitted
with an application that have not previously been
submitted to the Agency. (b) The Agency normally
will review other data submitted or cited by an
applicant only:
(1) As part of the process of reregistering currently
registered products;
(2) When acting on an application for registration
of a product containing a new active ingredient;
(3) If such data have been flagged in accordance
with § 158.34 or § 161.34 of this chapter; or
(4) When the Agency determines that it would
otherwise serve the public interest.
(c) If the Agency finds that it needs additional data in
order to determine whether the product may be
registered, it will notify the applicant as early as
possible in the review process.
40 C.F.R. § 152.108
§ 152.108 Review of labeling.
The Agency will review all draft labeling submitted
with the application. If an applicant for amended
registration submits only that portion of the labeling

242a
proposed for amendment, the Agency may review the
entire label, as revised by the proposed changes, in
deciding whether to approve the amendment. The
Agency will not approve final printed labeling, but
will selectively review it for compliance.
40 C.F.R. § 152.112
§ 152.112 Approval of registration under FIFRA sec.
3(c)(5).
Effective: February 10, 2009
EPA will approve an application under the criteria of
FIFRA sec. 3(c)(5) only if:
(a) The Agency has determined that the application is
complete and is accompanied by all materials
required by the Act and this part, including, but not
limited to, evidence of compliance with subpart E of
this part;
(b) The Agency has reviewed all relevant data in the
possession of the Agency (see §§ 152.107 and 152.111);
(c) The Agency has determined that no additional
data are necessary to make the determinations
required by FIFRA sec. 3(c) (5) with respect to the
pesticide product which is the subject of the
application;
(d) The Agency has determined that the composition
of the product is such as to warrant the proposed
efficacy claims for it, if efficacy data are required to be
submitted for the product by part 158 or part 161 of
this chapter, as applicable.
(e) The Agency has determined that the product will
perform its intended function without unreasonable

243a
adverse effects on the environment, and that, when
used in accordance with widespread and commonly
recognized practice, the product will not generally cause
unreasonable adverse effects on the environment;
(f) The Agency has determined that the product is not
misbranded as that term is defined in FIFRA sec. 2(q)
and part 156 of this chapter, and its labeling and
packaging comply with the applicable requirements of
the Act, this part, and parts 156 and 157 of this
chapter;
(g) If the proposed labeling bears directions for use on
food, animal feed, or food or feed crops, or if the
intended use of the pesticide results or may
reasonably be expected to result, directly or
indirectly, in pesticide residues (including residues of
any active or inert ingredient of the product, or of any
metabolite or degradation product thereof) in or on
food or animal feed, all necessary tolerances,
exemptions from the requirement of a tolerance, and
food additive regulations have been issued under
FFDCA sec. 408, and
(h) If the product, in addition to being a pesticide, is a
drug within the meaning of FFDCA sec. 201(q), the
Agency has been notified by the Food and Drug
Administration (FDA) that the product complies with
any requirements imposed by FDA.
40 C.F.R. § 152.113
§ 152.113 Approval of registration under
FIFRA sec. 3(c)(7)—Products that do not
contain a new active ingredient.
(a) Except as provided in paragraph (b) of this section,
the Agency may approve an application for

244a
registration or amended registration of a pesticide
product, each of whose active ingredients is contained
in one or more other registered pesticide products,
only if the Agency has determined that:
(1) It possesses all data necessary to make the
determinations required by FIFRA sec. 3(c)(7)(A)
or (B) with respect to the pesticide product which
is the subject of the application (including, at a
minimum, data needed to characterize any
incremental risk that would result from approval
of the application);
(2) Approval of the application would not
significantly increase the risk of any unreasonable
adverse effect on the environment; and
(3) The criteria of § 152.112(a), (d), and (f) through
(h) have been satisfied.
(b) Notwithstanding the provisions of paragraph (a) of
this section, the Agency will not approve the
conditional registration of any pesticide under FIFRA
sec. 3(c)(7)(A) unless the Agency has determined that
the applicant’s product and its proposed use are
identical or substantially similar to a currently
registered pesticide and use, or that the pesticide and
its proposed use differ only in ways that would not
significantly increase the risk of unreasonable
adverse effects on the environment.
(c) Notwithstanding the provisions of paragraph (a) of
this section, the Agency will not approve the
conditional registration of any pesticide product for a
new use under FIFRA sec. 3(c)(7)(B) if:
(1) The pesticide is the subject of a special review,
based on a use of the product that results in
human dietary exposure; and

245a
(2) The proposed new use involves use on a major
food or feed crop, or involves use on a minor food
or feed crop for which there is available an
effective alternative registered pesticide which
does not meet the risk criteria associated with
human dietary exposure. The determination of
available and effective alternatives shall be made
with the concurrence of the Secretary of
Agriculture.

246a
40 C.F.R. § 156.3
§ 156.3 Definitions.
Effective: December 29, 2008
Terms used in this part have the same meaning as in
the Act and part 152 of this chapter. In addition, as
used in this part, the following terms shall have the
meanings set forth below.
Dilutable means that the pesticide product’s labeling
allows or requires the pesticide product to be mixed
with a liquid diluent prior to application or use.
Transport vehicle means a cargo-carrying vehicle
such as an automobile, van, tractor, truck,
semitrailer, tank car or rail car used for the
transportation of cargo by any mode.
40 C.F.R. § 156.10
§ 156.10 Labeling requirements.
Effective: February 10, 2009
(a) General—
(1) Contents of the label. Every pesticide product
shall bear a label containing the information
specified by the Act and the regulations in this
part. The contents of a label must show clearly and
prominently the following:
(i) The name, brand, or trademark under which
the product is sold as prescribed in paragraph
(b) of this section;
(ii) The name and address of the producer,
registrant, or person for whom produced as
prescribed in paragraph (c) of this section;

247a
(iii) The net contents as
paragraph (d) of this section;

prescribed

in

(iv) The product registration number as
prescribed in paragraph (e) of this section;
(v) The producing establishment number as
prescribed in paragraph (f) of this section;
(vi) An ingredient statement as prescribed in
paragraph (g) of this section;
(vii) Hazard and precautionary statements as
prescribed in subpart D of this part for human
and domestic animal hazards and subpart E of
this part for environmental hazards.
(viii) The directions for use as prescribed in
paragraph (i) of this section; and
(ix) The use classification(s) as prescribed in
paragraph (j) of this section.
(2) Prominence and legibility.
(i)
All
words,
statements,
graphic
representations, designs or other information
required on the labeling by the Act or the
regulations in this part must be clearly legible
to a person with normal vision, and must be
placed with such conspicuousness (as
compared with other words, statements,
designs, or graphic matter on the labeling) and
expressed in such terms as to render it likely to
be read and understood by the ordinary
individual under customary conditions of
purchase and use.
(ii) All required label text must:
(A) Be set in 6–point or larger type;

248a
(B) Appear on
background; and

a

clear

contrasting

(C) Not be obscured or crowded.
(3) Language to be used. All required label or
labeling text shall appear in the English language.
However, the Agency may require or the applicant
may propose additional text in other languages as
is considered necessary to protect the public.
When additional text in another language is
necessary, all labeling requirements will be
applied equally to both the English and otherlanguage versions of the labeling.
(4) Placement of Label—
(i) General. The label shall appear on or be
securely attached to the immediate container
of the pesticide product. For purposes of this
section, and the misbranding provisions of the
Act, “securely attached” shall mean that a label
can reasonably be expected to remain affixed
during the foreseeable conditions and period of
use. If the immediate container is enclosed
within a wrapper or outside container through
which the label cannot be clearly read, the label
must also be securely attached to such outside
wrapper or container, if it is a part of the
package as customarily distributed or sold.
(ii) Tank cars and other bulk containers—
(A) Transportation. While a pesticide
product is in transit, the appropriate
provisions of 49 CFR parts 170–189,
concerning the transportation of hazardous
materials, and specifically those provisions
concerning the labeling, marking and

249a
placarding of hazardous materials and the
vehicles carrying them, define the basic
Federal requirements. In addition, when
any registered pesticide product is
transported in a tank car, tank truck or
other mobile or portable bulk container, a
copy of the accepted label must be attached
to the shipping papers, and left with the
consignee at the time of delivery.
(B) Storage. When pesticide products are
stored in bulk containers, whether mobile or
stationary, which remain in the custody of
the user, a copy of the label of labeling,
including all appropriate directions for use,
shall be securely attached to the container
in the immediate vicinity of the discharge
control valve.
(5) False or misleading statements. Pursuant to
section 2(q)(1)(A) of the Act, a pesticide or a device
declared subject to the Act pursuant to § 152.500,
is misbranded if its labeling is false or misleading
in any particular including both pesticidal and
non-pesticidal claims. Examples of statements or
representations in the labeling which constitute
misbranding include:
(i) A false or misleading statement concerning
the composition of the product;
(ii) A false or misleading statement concerning
the effectiveness of the product as a pesticide
or device;
(iii) A false or misleading statement about the
value of the product for purposes other than as
a pesticide or device;

250a
(iv) A false or misleading comparison with
other pesticides or devices;
(v) Any statement directly or indirectly
implying that the pesticide or device is
recommended or endorsed by any agency of the
Federal Government;
(vi) The name of a pesticide which contains two
or more principal active ingredients if the name
suggests one or more but not all such principal
active ingredients even though the names of
the other ingredients are stated elsewhere in
the labeling;
(vii) A true statement used in such a way as to
give a false or misleading impression to the
purchaser;
(viii) Label disclaimers which negate or detract
from labeling statements required under the
Act and these regulations;
(ix) Claims as to the safety of the pesticide or its
ingredients, including statements such as “safe,”
“nonpoisonous,” “noninjurious,” “harmless” or
“nontoxic to humans and pets” with or without
such a qualifying phrase as “when used as
directed”; and
(x)
Non-numerical
and/or
comparative
statements on the safety of the product,
including but not limited to:
(A) “Contains all natural ingredients”;
(B) “Among the least toxic chemicals
known”;
(C) “Pollution approved”.

251a
(6) Final printed labeling.
(i) Except as provided in paragraph (a)(6)(ii) of
this section, final printed labeling must be
submitted and accepted prior to registration.
However, final printed labeling need not be
submitted until draft label texts have been
provisionally accepted by the Agency.
(ii) Clearly legible reproductions or photo
reductions will be accepted for unusual labels
such as those silk-screened directly onto glass
or metal containers or large bag or drum labels.
Such reproductions must be of microfilm
reproduction quality.
(b) Name, brand, or trademark.
(1) The name, brand, or trademark under which
the pesticide product is sold shall appear on the
front panel of the label.
(2) No name, brand, or trademark may appear on
the label which:
(i) Is false or misleading, or
(ii) Has not been approved by the
Administrator
through
registration
or
supplemental registration as an additional
name pursuant to § 152.132.
(c) Name and address of producer, registrant, or
person for whom produced. An unqualified name and
address given on the label shall be considered as the
name and address of the producer. If the registrant’s
name appears on the label and the registrant is not
the producer, or if the name of the person for whom
the pesticide was produced appears on the label, it

252a
must be qualified by appropriate wording such as
“Packed for * * *,” “Distributed by * * *,” or “Sold by *
* * “ to show that the name is not that of the producer.
(d) Net weight or measure of contents.
(1) The net weight or measure of content shall be
exclusive of wrappers or other materials and shall
be the average content unless explicitly stated as
a minimum quantity.
(2) If the pesticide is a liquid, the net content
statement shall be in terms of liquid measure at
68° F (20°C) and shall be expressed in
conventional American units of fluid ounces, pints,
quarts, and gallons.
(3) If the pesticide is solid or semisolid, viscous or
pressurized, or is a mixture of liquid and solid, the
net content statement shall be in terms of weight
expressed as avoirdupois pounds and ounces.
(4) In all cases, net content shall be stated in terms
of the largest suitable units, i.e., “1 pound 10
ounces” rather than “26 ounces.”
(5) In addition to the required units specified, net
content may be expressed in metric units.
(6) Variation above minimum content or around
an average is permissible only to the extent that it
represents deviation unavoidable in good
manufacturing practice. Variation below a stated
minimum is not permitted. In no case shall the
average content of the packages in a shipment fall
below the stated average content.
(7) For a pesticide product packaged in a refillable
container, an appropriately sized area on the label

253a
may be left blank to allow the net weight or
measure of content to be marked in by the refiller
according to 40 CFR 165.65(h) or 165.70(i) prior to
distribution or sale of the pesticide. As required in
paragraph (a)(1)(iii) of this section, the net
contents must be shown clearly and prominently
on the label.
(e) Product registration number. The registration
number assigned to the pesticide product at the time
of registration shall appear on the label, preceded by
the phrase “EPA Registration No.,” or the phrase
“EPA Reg. No.” The registration number shall be set
in type of a size and style similar to other print on that
part of the label on which it appears and shall run
parallel to it. The registration number and the
required identifying phrase shall not appear in such
a manner as to suggest or imply recommendation or
endorsement of the product by the Agency.
(f) Producing establishment’s registration number.
The producing establishment registration number
preceded by the phrase “EPA Est.”, of the final
establishment at which the product was produced
may appear in any suitable location on the label or
immediate container. It must appear on the wrapper
or outside container of the package if the EPA
establishment registration number on the immediate
container cannot be clearly read through such
wrapper or container. For a pesticide product
packaged in a refillable container, an appropriately
sized area on the label may be left blank after the
phrase “EPA Est.” to allow the EPA establishment
registration number to be marked in by the refiller
according to 40 CFR 165.65(h) or 165.70(i) prior to
distribution or sale of the pesticide.

254a
(g) Ingredient statement—
(1) General. The label of each pesticide product
must bear a statement which contains the name
and percentage by weight of each active
ingredient, the total percentage by weight of all
inert ingredients; and if the pesticide contains
arsenic in any form, a statement of the
percentages of total and water-soluble arsenic
calculated as elemental arsenic. The active
ingredients must be designated by the term “active
ingredients” and the inert ingredients by the term
“inert ingredients,” or the singular forms of these
terms when appropriate. Both terms shall be in
the same type size, be aligned to the same margin
and be equally prominent. The statement “Inert
Ingredients, none” is not required for pesticides
which contain 100 percent active ingredients.
Unless the ingredient statement is a complete
analysis of the pesticide, the term “analysis” shall
not be used as a heading for the ingredient
statement.
(2) Position of ingredient statement.
(i) The ingredient statement is normally
required on the front panel of the label. If there
is an outside container or wrapper through
which the ingredient statement cannot be
clearly read, the ingredient statement must
also appear on such outside container or
wrapper. If the size or form of the package
makes it impracticable to place the ingredient
statement on the front panel of the label,
permission may be granted for the ingredient
statement to appear elsewhere.

255a
(ii) The text of the ingredient statement must
run parallel with other text on the panel on
which it appears, and must be clearly
distinguishable from and must not be placed in
the body of other text.
(3) Names to be used in ingredient statement. The
name used for each ingredient shall be the
accepted common name, if there is one, followed by
the chemical name. The common name may be
used alone only if it is well known. If no common
name has been established, the chemical name
alone shall be used. In no case will the use of a
trademark or proprietary name be permitted
unless such name has been accepted as a common
name by the Administrator under the authority of
section 25(c)(6).
(4) Statements of percentages. The percentages of
ingredients shall be stated in terms of weight-toweight. The sum of percentages of the active and
the inert ingredients shall be 100. Percentages
shall not be expressed by a range of values such as
“22–25%.” If the uses of the pesticide product are
expressed as weight of active ingredient per unit
area, a statement of the weight of active ingredient
per unit volume of the pesticide formulation shall
also appear in the ingredient statement.
(5) Accuracy of stated percentages. The
percentages given shall be as precise as possible
reflecting good manufacturing practice. If there
may
be
unavoidable
variation
between
manufacturing batches, the value stated for each
active ingredient shall be the lowest percentage
which may be present.

256a
(6) Deterioration. Pesticides which change in
chemical composition significantly must meet the
following labeling requirements:
(i) In cases where it is determined that a
pesticide formulation changes chemical
composition significantly, the product must
bear the following statement in a prominent
position on the label: “Not for sale or use after
[date].”
(ii) The product must meet all label claims up
to the expiration time indicated on the label.
(7) Inert ingredients. The Administrator may
require the name of any inert ingredient(s) to be
listed in the ingredient statement if he determines
that such ingredient(s) may pose a hazard to man
or the environment.
(h) [Reserved]
(i) Directions for Use—
(1) General requirements—
(i) Adequacy and clarity of directions.
Directions for use must be stated in terms
which can be easily read and understood by the
average person likely to use or to supervise the
use of the pesticide. When followed, directions
must be adequate to protect the public from
fraud and from personal injury and to prevent
unreasonable
adverse
effects
on
the
environment.
(ii) Placement of directions for use. Directions
may appear on any portion of the label provided
that they are conspicuous enough to be easily

257a
read by the user of the pesticide product.
Directions for use may appear on printed or
graphic matter which accompanies the
pesticide provided that:
(A) If required by the Agency, such printed
or graphic matter is securely attached to
each package of the pesticide, or placed
within the outside wrapper or bag;
(B) The label bears a reference to the
directions for use in accompanying leaflets
or circulars, such as “See directions in the
enclosed circular:” and
(C) The Administrator determines that it is
not necessary for such directions to appear
on the label.
(iii) Exceptions to requirement for direction for
use.
(A) Detailed directions for use may be
omitted from labeling of pesticides which
are intended for use only by manufacturers
of products other than pesticide products in
their regular manufacturing processes,
provided that:
(1) The label clearly shows that the
product is intended for use only in
manufacturing processes and specifies
the type(s) of products involved.
(2) Adequate information such as
technical data sheets or bulletins, is
available to the trade specifying the type
of product involved and its proper use in
manufacturing processes;

258a
(3) The product will not come into the
hands of the general public except after
incorporation into finished products; and
(4) The Administrator determines that
such directions are not necessary to
prevent unreasonable adverse effects on
man or the environment.
(B) Detailed directions for use may be
omitted from the labeling of pesticide
products for which sale is limited to
physicians, veterinarians, or druggists,
provided that:
(1) The label clearly states that the
product is for use only by physicians or
veterinarians;
(2) The Administrator determines that
such directions are not necessary to
prevent unreasonable adverse effects on
man or the environment; and
(3) The product is also a drug and
regulated under the provisions of the
Federal Food, Drug and Cosmetic Act.
(C) Detailed directions for use may be
omitted from the labeling of pesticide
products which are intended for use only by
formulators in preparing pesticides for sale
to the public, provided that:
(1) There is information readily
available to the formulators on the
composition, toxicity, methods of use,
applicable restrictions or limitations,

259a
and effectiveness of the product for
pesticide purposes;
(2) The label clearly states that the
product is intended for use only in
manufacturing, formulating, mixing, or
repacking for use as a pesticide and
specifies the type(s) of pesticide products
involved;
(3) The product as finally manufactured,
formulated, mixed, or repackaged is
registered; and
(4) The Administrator determines that
such directions are not necessary to
prevent unreasonable adverse effects on
man or the environment.
(2) Contents of Directions for Use. The directions
for use shall include the following, under the
headings “Directions for Use”:
(i) The statement of use classification as
prescribed in paragraph (j) of this section
immediately under the heading “Directions for
Use.”
(ii) Immediately below the statement of use
classification, the statement “It is a violation of
Federal law to use this product in a manner
inconsistent with its labeling.”
(iii) The site(s) of application, as for example
the crops, animals, areas, or objects to be
treated.
(iv) The target pest(s) associated with each site.

260a
(v) The dosage rate associated with each site
and pest.
(vi) The method of application, including
instructions for dilution, if required, and
type(s) of application apparatus or equipment
required.
(vii) The frequency and timing of applications
necessary to obtain effective results without
causing unreasonable adverse effects on the
environment.
(viii) Worker protection statements meeting
the requirements of subpart K of this part.
(ix) Specific directions concerning the storage,
residue removal and disposal of the pesticide
and its container, in accordance with subpart
H of this part. These instructions must be
grouped and appear under the heading,
“Storage and Disposal.” This heading must be
set in type of the same minimum sizes as
required for the child hazard warning. (See
table in § 156.60(b))
(x) Any limitations or restrictions on use
required to prevent unreasonable adverse
effects, such as:
(A) Required intervals between application
and harvest of food or feed crops.
(B) Rotational crop restrictions.
(C) Warnings as required against use on
certain crops, animals, objects, or in or
adjacent to certain areas.

261a
(D) For total release foggers as defined in §
156.78(d)(1), the following statements must
be included in the “Directions for Use.”
DO NOT use more than one fogger per
room. DO NOT use in small, enclosed
spaces such as closets, cabinets, or under
counters or tables. Do not use in a room 5
ft.x5 ft. or smaller; instead, allow fog to
enter from other rooms. Turn off ALL
ignition sources such as pilot lights (shut off
gas valves), other open flames, or running
electrical appliances that cycle off and on
(i.e., refrigerators, thermostats, etc.). Call
your gas utility or management company if
you need assistance with your pilot lights.”
(E) For restricted use pesticides, a
statement that the pesticide may be applied
under the direct supervision of a certified
applicator who is not physically present at
the site of application but nonetheless
available to the person applying the
pesticide,
unless
the
Agency
has
determined that the pesticide may only be
applied under the direct supervision of a
certified applicator who is physically
present.
(F) Other pertinent information which the
Administrator determines to be necessary
for the protection of man and the
environment.
(j) Statement of use classification. Any pesticide
product for which some uses are classified for general
use and others for restricted use shall be separately

262a
labeled according to the labeling standards set forth
in this subsection, and shall be marketed as separate
products with different registration numbers, one
bearing directions only for general use(s) and the
other bearing directions for restricted use(s) except
that, if a product has both restricted use(s) and
general use(s), both of these uses may appear on a
product labeled for restricted use. Such products shall
be subject to the provisions of paragraph (j)(2) of this
section.
(1) General Use Classification. Pesticide products
bearing directions for use(s) classified general
shall be labeled with the exact words “General
Classification” immediately below the heading
“Directions for Use.” And reference to the general
classification that suggests or implies that the
general utility of the pesticide extends beyond
those purposes and uses contained in the
Directions for Use will be considered a false or
misleading statement under the statutory
definitions of misbranding.
(2) Restricted Use Classification. Pesticide
products bearing direction for use(s) classified
restricted shall bear statements of restricted use
classification on the front panel as described
below:
(i) Front panel statement of restricted use
classification.
(A) At the top of the front panel of the label,
set in type of the same minimum sizes as
required for human hazard signal words
(see table in paragraph (h)(1)(iv) of this
section), and appearing with sufficient

263a
prominence relative to other text and
graphic material on the front panel to make
it unlikely to be overlooked under
customary conditions of purchase and use,
the statement “Restricted Use Pesticide”
shall appear.
(B) Directly below this statement on the
front panel, a summary statement of the
terms of restriction imposed as a
precondition to registration shall appear. If
use is restricted to certified applicators, the
following statement is required: “For retail
sale to and use only by Certified Applicators
or persons under their direct supervision
and only for those uses covered by the
Certified Applicator’s certification.” If,
however, other regulatory restrictions are
imposed, the Administrator will define the
appropriate wording for the terms of
restriction by regulation.
40 C.F.R. § 156.60
§ 156.60 General.
Each product label is required to bear hazard and
precautionary statements for humans and domestic
animals (if applicable) as prescribed in this subpart.
Hazard statements describe the type of hazard that
may occur, while precautionary statements will either
direct or inform the user of actions to take to avoid the
hazard or mitigate its effects.
(a) Location of statements—
(1) Front panel statements. The signal word, child
hazard warning, and, in certain cases, the first aid

264a
statement are required to appear on the front
panel of the label, and also in any supplemental
labeling intended to accompany the product in
distribution or sale.
(2) Statements elsewhere on label. Hazard and
precautionary statements not required on the
front panel may appear on other panels of the
label, and may be required also in supplemental
labeling. These include, but are not limited to, the
human hazard and precautionary statements,
domestic animal statements if applicable, a Note
to Physician, and physical or chemical hazard
statements.
(b) Placement and prominence—
(1) Front panel statements. All required front
panel warning statements shall be grouped
together on the label, and shall appear with
sufficient prominence relative to other front panel
text and graphic material to make them unlikely
to be overlooked under customary conditions of
purchase and use. The table below shows the
minimum type size requirements for the front
panel warning statements for various front panel
sizes.
Type Sizes for Front Panel
Warning Statements
Size of Label Front
Panel (Square Inches)
Signal Word (All
Capital Letters)

Point Size

Child Hazard Warning

265a

5 and under

6

6

Over 5 to 10

10

6

Over 10 to 15

12

8

Over 15 to 30

14

10

Over 30

18

12

(2) Other required statements. All other hazard
and precautionary statements must be at least 6
point type.
40 C.F.R. § 156.62
§ 156.62 Toxicity Category.
This section establishes four Toxicity Categories for
acute hazards of pesticide products, Category I being
the highest toxicity category. Most human hazard,
precautionary statements, and human personal
protective equipment statements are based upon the
Toxicity Category of the pesticide product as sold or
distributed. In addition, toxicity categories may be
used for regulatory purposes other than labeling, such
as classification for restricted use and requirements
for child-resistant packaging. In certain cases,
statements based upon the Toxicity Category of the
product as diluted for use are also permitted. A
Toxicity Category is assigned for each of five types of
acute exposure, as specified in the table in this
paragraph.

266a
Acute Toxicity Categories for
Pesticide Products
Hazard
Indicators

I

II

III

IV

Oral LD50 Up to and >50 thru >500
including 500
thru
50 mg/kg mg/kg
5,000
mg/kg

>5000
mg/kg

Dermal
LD50

>20,000
mg/kg

Up to and >200 thru
including 2000
200
mg/kg
mg/kg

>200
thru
20,000
mg/kg

Inhalation Up to and >0.2 thru >2 thru
LC50
including 2 mg/liter 20
0.2
mg/liter
mg/liter
Eye
Irritation

Corrosive;
corneal
opacity
not
reversible
within 7
days

Corneal
opacity
reversible
within 7
days;
irritation
persisting
for 7 days

Skin
Irritation

Corrosive Severe
irritation
at 72
hours

>20
mg/liter

No
No
corneal
irritation
opacity;
irritation
reversible
within 7
days
Moderate
irritation
at 72
hours

Mild or
slight
irritation
at 72
hours

267a
40 C.F.R. § 156.64
§ 156.64 Signal word.
(a) Requirement. Except as provided in paragraph
(a)(4), each pesticide product must bear on the front
panel a signal word, reflecting the highest Toxicity
Category (Category I is the highest toxicity category)
to which the product is assigned by any of the five
routes of exposure in § 156.62. The signal word must
also appear together with the heading for the human
precautionary statement section of the labeling (see
§ 156.70).
(1) Toxicity Category I. Any pesticide product
meeting the criteria of Toxicity Category I for any
route of exposure must bear on the front panel the
signal word “DANGER.” In addition, if the product
is assigned to Toxicity Category I on the basis of
its oral, inhalation or dermal toxicity (as distinct
from skin and eye irritation), the word “Poison”
must appear in red on a background of distinctly
contrasting color, and the skull and crossbones
symbol must appear in immediate proximity to the
word “Poison.”
(2) Toxicity Category II. Any pesticide product
meeting the criteria of Toxicity Category II as the
highest category by any route of exposure must bear
on the front panel the signal word “WARNING.”
(3) Toxicity Category III. Any pesticide product
meeting the criteria of Toxicity Category III as the
highest category by any route of exposure must bear
on the front panel the signal word “CAUTION.”
(4) Toxicity Category IV. A pesticide product
meeting the criteria of Toxicity Category IV by all

268a
routes of exposure is not required to bear a signal
word. If a signal word is used, it must be
“CAUTION.”
(b) Use of signal words. In no case may a product:
(1) Bear a signal word reflecting a higher Toxicity
Category than indicated by the route of exposure of
highest toxicity, unless the Agency determines that
such labeling is necessary to prevent unreasonable
adverse effects on man or the environment;
(2) Bear a signal word reflecting a lesser Toxicity
Category associated with a diluted product.
Although precautionary statements for use
dilutions may be included on label, the signal word
must reflect the toxicity of the product as
distributed or sold; or
(3) Bear different signal words on different parts
of the label.
40 C.F.R. § 156.66
§ 156.66 Child hazard warning.
(a) Each pesticide product must bear on the front
panel of the label the statement “Keep Out of Reach
of Children.” That statement, or any alternative
statement approved by EPA, must appear on a separate
line in close proximity to the signal word, if required.
The statement is required on Toxicity Category IV
products that do not otherwise require a signal word.
(b) In its discretion, EPA may waive the requirement,
or require or permit an alternative child hazard
warning, if:

269a
(1) The applicant can demonstrate that the
likelihood of exposure of children to the pesticide
during distribution, marketing, storage or use is
remote (for example, an industrial use product); or
(2) The pesticide is approved for use on children
(for example, an insect repellent).
(c) EPA may approve an alternative child hazard
warning that more appropriately reflects the nature
of the pesticide product to which children may be
exposed (for example, an impregnated pet collar). In
this case, EPA may also approve placement on other
than the front panel.
40 C.F.R. § 156.68
§ 156.68 First aid statement.
(a) Product as sold and distributed. Each product
must bear a first aid statement if the product has
systemic effects in Category I, II, or III, or skin or eye
irritation effects in Category I or II.
(b) Product as diluted for use. If the product labeling
bears directions for dilution with water prior to use,
the label may also include a statement describing how
the first aid measures may be modified for the diluted
product. Such a statement must reflect the Toxicity
Category(ies) of the diluted product, based upon data
for the route of exposure (or calculations if
appropriate). If the labeling provides for a range of
use dilutions, only that use dilution representing the
highest concentration allowed by labeling may be
used as the basis for a statement pertaining to the
diluted product. The statement for a diluted product
may not substitute for the statement for the

270a
concentrate, but augments the information provided
for the concentrate.
(c) Heading. The heading of the statement may be
“First Aid” or “Statement of Practical Treatment.”
(d) Location of first aid statement. The first aid
statement must appear on the front panel of the label
of all products assigned to Toxicity Category I by any
route of exposure. Upon review, the Agency may
permit reasonable variations in the placement of the
first aid statement if a reference such as “See first aid
statement on back panel” appears on the front panel.
The first aid statement for products assigned to
Toxicity Categories II or III may appear on any panel
of the label.
40 C.F.R. § 156.70
§ 156.70 Precautionary statements for
human hazards.
(a) Requirement. Human hazard and precautionary
statements as required must appear together on the
label or labeling under the general heading
“Precautionary Statements” and under appropriate
subheadings similar to “Humans and Domestic
Animals,” “Environmental Hazards” (see subpart E of
this part) and “Physical or Chemical Hazards.” The
phrase “and Domestic Animals” may be omitted from
the heading if domestic animals will not be exposed to
the product.
(b) Content of statements. When data or other
information show that an acute hazard may exist to
humans or domestic animals, the label must bear
precautionary statements describing the particular

271a
hazard, the route(s) of exposure and the precautions
to be taken to avoid accident, injury or toxic effect or
to mitigate the effect. The precautionary paragraph
must be immediately preceded by the appropriate
signal word.
(c) Typical precautionary statements. The table
below presents typical hazard and precautionary
statements. Specific statements pertaining to the
hazards of the product and its uses must be approved
by the Agency. With Agency approval, statements
may be augmented to reflect the hazards and
precautions associated with the product as diluted for
use. Refer to § 156.68(b) for requirements for use
dilution statements.
Typical Human Hazard and
Precautionary Statements
Toxicity
Category

Systemic
effects
(oral,
dermal,
inhalation
toxicity)

I

Fatal
(poisonous)
if swallowed
[inhaled or
absorbed
through
skin]. Do
not breathe
vapor [dust
or spray
mist]. Do

Irritation
Sensitizer
effects
(There are no
(skin and categories of
sensitization.)
eye)

Corrosive,
causes eye
and skin
damage
[or skin
irritation].
Do not get
in eyes on
skin, or on
clothing.
Wear

If product is
sensitizer;
Prolonged or
frequently
repeated skin
contact may
cause allergic
reactions in
some
individuals.

272a
not get in
eyes, on
skin, or on
clothing.
[Front
panel first
aid
statement
required.]

goggles or
face shield
and rubber
gloves when
handling.
Harmful or
fatal if
swallowed.
[Front panel
first paid
statement
required.

II

May be fatal
if
swallowed,
[inhaled or
absorbed
through the
skin]. Do not
breathe
vapors [dust
or spay
mist]. Do
not get in
eyes, on skin
or on
clothing.
[Appropriate
first aid
statement
required.]

Causes eye
[and skin]
irritation.
Do not get
in eyes, on
skin, or on
clothing.
Harmful if
swallowed.
[Appropriate
first aid
statement
required.]

III

Harmful if
swallowed
[inhaled or

Avoid
contact with

273a
absorbed
skin, eyes or
through the clothing.
skin]. Avoid
breathing
vapors [dust
or spray
mist]. Avoid
contact with
skin [eyes or
clothing].
[Appropriate
first aid
statement
required.
IV

No
precautionary
statements
required

No
precautionary
statements
required.

40 C.F.R. § 156.78
§ 156.78 Precautionary statements for physical or
chemical hazards.
(a) Requirement. Warning statements on the
flammability or explosive characteristics of the
pesticide product are required if a product meets the
criteria in this section. Warning statements
pertaining to other physical/chemical hazards (e.g.,
oxidizing potential, conductivity, chemical reactions
leading to production of toxic substances) may be
required on a case-by-case basis.

274a
(b) Pressurized products. The table below sets out the
required
flammability label
statements
for
pressurized products.
Flammability Statements for
Pressurized Products
Flash point/flame
extension of
product
—Flash point at or
below 20° F
OR
—Flashback at any
valve opening

—Flash point
>20° F to 80° F
OR
—Flame extension
more than 18 in.
long at a distance of
6 in from the flame
All other
pressurized
products

Required labeling
statement
Extremely flammable.
Contents under pressure.
Keep away from fire, sparks,
and heated surfaces. Do not
puncture or incinerate
container. Exposure to
temperatures above 130° F
may cause bursting.
Flammable. Contents under
pressure. Keep away from
heat, sparks and open flame.
Do not puncture or incinerate
container. Exposure to
temperatures above 130° F
may cause bursting.
Contents under pressure. Do
not use or store near heat or
open flame. Do not puncture
or incinerate container.
Exposure to temperatures
above 130° F may cause
bursting.

275a
(c) Non-pressurized products. The table below sets out
the required flammability label statements for nonpressurized products.
Flammability Statements for
Non-Pressurized Products
Flash point

Required labeling statement

At or below
20° F

Extremely flammable. Keep away
from fire, sparks and heated
surfaces.

Greater than
20° F to 80° F

Flammable. Keep away from heat
and open flame.

Greater than
Combustible. Do not use or store
80° F to 150° F near heat or open flame.
(d) Total release fogger products.
(1) A total release fogger is defined as a pesticide
product in a pressurized container designed to
automatically release the total contents in one
operation, for the purpose of creating a permeating
fog within a confined space to deliver the pesticide
throughout the space.
(2) If a pesticide product is a total release fogger
containing a propellant with a flash point at or
below 20° F, then the following special
instructions must be added to the “Physical and
Chemical Hazards” warning statement, in
addition to any flammability statement required
by paragraph (b) of this section:
This product contains a highly flammable
ingredient. It may cause a fire or explosion if not

276a
used properly. Follow the Directions for Use on
this label very carefully.
(3) A graphic symbol depicting fire, such as
illustrated in this paragraph, or an equivalent
symbol, must be displayed along with the required
language adjoining the “Physical and Chemical
Hazards” warning statement. The graphic symbol
must be no smaller than twice the size of the first
character of the human hazard signal word.

Highly Flammable Ingredient
Ingrediente Altamente Inflamable

277a
40 C.F.R. § 156.80
§ 156.80 General.
(a) Requirement. Each product is required to bear
hazard
and
precautionary
statements
for
environmental hazards, including hazards to nontarget organisms, as prescribed in this subpart.
Hazard statements describe the type of hazard that
may be present, while precautionary statements
direct or inform the user of actions to take to avoid the
hazard or mitigate its effects.
(b) Location of statements. Environmental hazard
and precautionary statements may appear on any
panel of the label and may be required also in
supplemental labeling. The environmental hazard
statements must appear together under the heading
“Environmental Hazards.” Typically the statements
are grouped as a sub-category within the
“Precautionary Statements” section of the labeling.
(c) Type size. All environmental hazard and
precautionary statements must be at least 6 point
type.
40 C.F.R. § 156.85
§ 156.85 Non-target organisms.
(a) Requirement. Where a hazard exists to non-target
organisms, EPA may require precautionary
statements of the nature of the hazard and the
appropriate precautions to avoid potential accident,
injury, or damage.
(b) Examples. The statements in this paragraph
illustrate the types of hazard statements that EPA

278a
may require and the circumstances under which they
are typically required. These statements are not
comprehensive; other statements may be required if
more appropriate to the formulation or use.
(1) If a pesticide intended for outdoor use contains
an active ingredient with a mammalian acute oral
LD50 of 100 mg/kg or less, the statement, “This
pesticide is toxic to wildlife” is required.
(2) If a pesticide intended for outdoor use contains
an active ingredient with a fish acute LC50 of 1
ppm or less, the statement, “This pesticide is toxic
to fish” is required.
(3) If a pesticide intended for outdoor use contains
an active ingredient with an avian acute oral LD50
of 100 mg/kg or less, or a subacute dietary LC50 of
500 ppm or less, the statement, “This pesticide is
toxic to wildlife” is required.
(4) If either accident history or field studies
demonstrate that the use of the pesticide may
result in fatality to birds, fish or mammals, the
statement, “This pesticide is extremely toxic to
wildlife (fish)” is required.
(5) If a product is intended for or involves foliar
application to agricultural crops, forests or shade
trees, or mosquito abatement treatments, and
contains a pesticide toxic to pollinating insects, the
label must bear appropriate label cautions.
(6) If a product is intended for outdoor use other
than aquatic applications, the label must bear the
caution, “Keep out of lakes, ponds or streams. Do
not contaminate water by cleaning of equipment
or disposal of wastes.”

279a
40 C.F.R. § 156.140
§ 156.140 Identification of container types.
Effective: December 29, 2008
For products other than plant-incorporated
protectants, the following statements, as applicable,
must be placed on the label or container. The
information may be located on any part of the
container except the closure. If the statements are
placed on the container, they must be durably marked
on the container. Durable marking includes, but is not
limited to etching, embossing, ink jetting, stamping,
heat stamping, mechanically attaching a plate,
molding, or marking with durable ink.
(a) Nonrefillable container. For nonrefillable
containers, the statements in paragraphs (a)(1)
through (a)(4) of this section are required except as
provided in paragraphs (a)(5), (c), (d), and (e) of this
section. If placed on the label, the statements in
paragraphs (a)(1) through (a)(3) of this section must
be under an appropriate heading under the heading
“Storage and Disposal.” If any of the statements in
paragraphs (a)(1) through (a)(3) of this section are
placed on the container, an appropriate referral
statement such as “See container for recycling [or
other descriptive word] information.” must be placed
on the label under the heading “Storage and
Disposal.”
(1) Statement identifying a nonrefillable
container. The following phrase is required:
“Nonrefillable container.”
(2) Reuse statement. One of the following
statements is required. Products with labels that

280a
allow household/residential use must use the
statement in paragraph (a)(2)(i) or (a)(2)(iii) of this
section. All other products must use the statement
in paragraph (a)(2)(i), (a)(2)(ii), or (a)(2)(iii) of this
section.
(i) “Do not reuse or refill this container.”
(ii) “Do not reuse this container to hold
materials other than pesticides or dilute
pesticides (rinsate). After emptying and
cleaning, it may be allowable to temporarily
hold rinsate or other pesticide-related
materials in the container. Contact your state
regulatory agency to determine allowable
practices in your state.”
(iii) The following statement may be used if a
product is “ready-to-use” and its directions for
use allow a different product (that is a similar,
but concentrated formulation) to be poured into
the container and diluted by the end user: “Do
not reuse or refill this container unless the
directions for use allow a different
(concentrated) product to be diluted in the
container.”
(3) Recycling or reconditioning statement. One of
the following statements is required:
(i) “Offer for recycling if available.”
(ii) “Once cleaned, some agricultural plastic
pesticide containers can be taken to a container
collection site or picked up for recycling. To find
the nearest site, contact your chemical dealer
or manufacturer or contact [a pesticide
container recycling organization] at [phone

281a
number] or [web site]. For example, this
statement could be “Once cleaned, some
agricultural plastic pesticide containers can be
taken to a container collection site or picked up
for recycling. To find the nearest site, contact
your chemical dealer or manufacturer or
contact the Ag Container Recycling Council
(ACRC) at 1–877–952–2272 (toll-free) or
www.acrecycle.org.”
(iii) A recycling statement approved by EPA
and published in an EPA document, such as a
Pesticide Registration Notice.
(iv) An alternative recycling statement that
has been reviewed and approved by EPA.
(v) “Offer for reconditioning if appropriate.”
(4) Batch code. A lot number, or other code used by
the registrant or producer to identify the batch of
the pesticide product which is distributed and sold
is required.
(5) Exemptions. Pesticide products in the following
types of nonrefillable containers, and their
packaging, are exempt from the requirements in
paragraphs (a)(1) and (a)(2) of this section:
(i) Aerosol cans.
(ii) Devices as defined in § 152.500 of this
chapter.
(iii) One-time use caulking tubes and other onetime use squeezable tube containers for paste,
gel, or other similar substances.
(iv) Foil packets for water soluble packaging,
repellent wipes, and other one-time use products.

282a
(v) One-time use portion control packets, such
as polyethylene sleeve packages, or rodenticide
placepacks.
(vi) One-time use bait stations.
(vii) One-time use cages for repellent or
trapping strips.
(viii) Pet collars or animal ear tags, such as
cattle ear tags.
(ix) One-time use semiochemical dispersion
devices.
(x) Any container that is destroyed by the use
of the product contained.
(xi) Any container that would be destroyed if
reuse of the container were attempted.
(b) Refillable container. For refillable containers, one
of the following statements is required, except as
provided in paragraphs (c), (d), and (e) of this section.
If placed on the label, the statement must be under
the heading “Storage and Disposal.” If the statement
is placed on the container, an appropriate referral
statement, such as “Refilling limitations are on the
container.” Must be placed under the heading
“Storage and Disposal.”
(1) “Refillable Container. Refill this container with
pesticide only. Do not reuse this container for any
other purpose.”
(2) “Refillable Container. Refill this container with
[common chemical name] only. Do not reuse this
container for any other purpose.”

283a
(c) Modification. EPA may, on its own initiative or
based on data or information submitted by any
person, modify or waive the requirements of this
section or permit or require alternative labeling
statements.
(d) Exemption for articles. Pesticidal articles that are
not exempted from FIFRA regulation by § 152.25(a)
of this chapter are exempt from the requirements of
this section.
(e) Exemption for transport vehicles. Transport
vehicles are exempt from the requirements of this
section.
40 C.F.R. § 156.144
§ 156.144 Residue removal instructions—general.
Effective: December 29, 2008
(a) General. Except as provided by paragraphs (c)
through (g) of this section, the label of each pesticide
product must include the applicable instructions for
removing pesticide residues from the container prior
to container disposal that are specified in § 156.146
and § 156.156. The residue removal instructions are
required for both nonrefillable and refillable
containers.
(b) Placement of residue removal statements. All
residue removal instructions must be placed under
the heading “Storage and Disposal.”
(c) Exemption for residential/household use products.
Residential/household use pesticide products are
exempt from the residue removal instruction
requirements in this section through § 156.156.

284a
(d) Modification. EPA may, on its own initiative or
based on data submitted by any person, modify or
waive the requirements of this section through
§ 156.156, or permit or require alternative labeling
statements.
(e) Exemption for gases. Pesticide products that are
gaseous at atmospheric temperature and pressure are
exempt from the residue removal instruction
requirements in this section through § 156.156.
(f) Exemption for articles. Pesticidal articles that are
not exempted from FIFRA regulation by § 152.25(a)
of this chapter are exempt from the residue removal
instruction requirements in this section through
§ 156.156.
(g) Exemption for transport vehicles. Transport
vehicles are exempt from the requirements in this
section through § 156.156.
40 C.F.R. § 156.146
§ 156.146 Residue removal instructions for
nonrefillable containers—rigid containers with
dilutable pesticides.
Effective: October 16, 2006
The label of each dilutable (liquid or solid) pesticide
product packaged in a rigid nonrefillable container
must include the following residue removal
instructions as appropriate.
(a) Timing of the residue removal procedure. One of
the following statements must immediately precede
the instructions required in paragraph (b) of this
section and must be consistent with the instructions
in paragraphs (b) and (c) of this section:

285a
(1) “Clean container promptly after emptying.”
(2) “Triple rinse or pressure rinse container (or
equivalent) promptly after emptying.”
(3) “Triple rinse container
promptly after emptying.”

(or

equivalent)

(b) Triple rinse instructions. The label of each
dilutable pesticide product packaged in rigid
nonrefillable containers must include one of the
following sets of instructions.
(1) For liquid dilutable pesticide products in
containers small enough to shake, use the
following instructions: “Triple rinse as follows:
Empty the remaining contents into application
equipment or a mix tank and drain for 10 seconds
after the flow begins to drip. Fill the container 1/4
full with water and recap. Shake for 10 seconds.
Pour rinsate into application equipment or a mix
tank or store rinsate for later use or disposal.
Drain for 10 seconds after the flow begins to drip.
Repeat this procedure two more times.”
(2) For solid dilutable pesticide products in
containers small enough to shake, use the
following instructions: “Triple rinse as follows:
Empty the remaining contents into application
equipment or a mix tank. Fill the container 1/4 full
with water and recap. Shake for 10 seconds. Pour
rinsate into application equipment or a mix tank
or store rinsate for later use or disposal. Drain for
10 seconds after the flow begins to drip. Repeat
this procedure two more times.”
(3) For containers that are too large to shake, use
the following instructions: “Triple rinse as follows:

286a
Empty remaining contents into application
equipment or a mix tank. Fill the container 1/4 full
with water. Replace and tighten closures. Tip
container on its side and roll it back and forth,
ensuring at least one complete revolution, for 30
seconds. Stand the container on its end and tip it
back and forth several times. Turn the container
over onto its other end and tip it back and forth
several times. Empty the rinsate into application
equipment or a mix tank or store rinsate for later
use or disposal. Repeat this procedure two more
times.”
(c) Pressure rinse instructions. The label of each
dilutable pesticide product packaged in rigid
nonrefillable containers may include one of the
following sets of instructions, and one of them must
be used if the statement in paragraph (a)(2) of this
section is used. If one of these statements is included
on the label, it must immediately follow the triple
rinse instructions specified in paragraph (b) of this
section.
(1) For liquid dilutable pesticide products, use the
following label instruction: “Pressure rinse as
follows: Empty the remaining contents into
application equipment or a mix tank and continue
to drain for 10 seconds after the flow begins to
drip. Hold container upside down over application
equipment or mix tank or collect rinsate for later
use or disposal. Insert pressure rinsing nozzle in
the side of the container, and rinse at about 40 PSI
for at least 30 seconds. Drain for 10 seconds after
the flow begins to drip.”
(2) For solid dilutable pesticide products, use the
following label instruction: “Pressure rinse as

287a
follows: Empty the remaining contents into
application equipment or a mix tank. Hold
container upside down over application equipment
or mix tank or collect rinsate for later use or
disposal. Insert pressure rinsing nozzle in the side
of the container, and rinse at about 40 PSI for at
least 30 seconds. Drain for 10 seconds after the
flow begins to drip.”
(d) Non-water diluent.
(1) A registrant who wishes to require users to
clean a container with a diluent other than water
(e.g., solvents) must submit to EPA a written
request to modify the residue removal instructions
of this section. The registrant may not distribute
or sell the pesticide with the modified residue
removal instructions until EPA approves the
request in writing.
(2) The registrant must indicate why a non-water
diluent is necessary for efficient residue removal,
and must propose residue removal instructions
and disposal instructions that are appropriate for
the characteristics and formulation of the
pesticide product and non-water diluent. The
proposed residue removal instructions must
identify the diluent. If the Directions for Use
permit the application of a mixture of the pesticide
and the non-water diluent, the instructions may
allow the rinsate to be added to the application
equipment or mix tank. If the Directions for Use
do not identify the nonwatery diluent as an
allowable addition to the pesticide, the
instructions must require collection and storage of
the rinsate in a rinsate collection system.

288a
(3) EPA may approve the request if EPA finds that
the proposed instructions are necessary and
appropriate.
40 C.F.R. § 156.156
§ 156.156 Residue removal instructions for refillable
containers.
Effective: October 16, 2006
The label of each pesticide product packaged in a
refillable container must include the residue removal
instructions in this section. Instructions must be
given for all pesticide products that are distributed or
sold in refillable containers, including those that do
not require dilution prior to application.
(a) Timing of the residue removal procedure. One of
the following statements must immediately precede
the instructions required in paragraph (b) of this
section and must be consistent with the instructions
in paragraph (b) of this section:
(1) “Cleaning the container before final disposal is
the responsibility of the person disposing of the
container. Cleaning before refilling is the
responsibility of the refiller.”
(2) “Pressure rinsing the container before final
disposal is the responsibility of the person
disposing of the container. Cleaning before
refilling is the responsibility of the refiller.”
(b) Residue removal instructions prior to container
disposal.

289a
(1) Instructions for cleaning each refillable
container prior to disposal are required. The
residue removal instructions must be appropriate
for the characteristics and formulation of the
pesticide product and must be adequate to protect
human health and the environment.
(2) Subject to meeting the standard in paragraph
(b)(1) of this section, the statement on residue
removal instructions could include any one of the
following:
(i) The refilling residue removal procedure
developed by the registrant for the pesticide
product.
(ii) Standard industry practices for cleaning
refillable containers.
(iii) For pesticides that require dilution prior to
application, the following statement: “To clean
the container before final disposal, empty the
remaining contents from this container into
application equipment or a mix tank. Fill the
container about 10 percent full with water.
Agitate vigorously or recirculate water with the
pump for 2 minutes. Pour or pump rinsate into
application equipment or rinsate collection
system. Repeat this rinsing procedure two
more times.”
(iv) Any other statement the registrant
considers appropriate.

290a
40 C.F.R. § 156.159
§ 156.159 Compliance date.
Effective: December 7, 2010
Any pesticide product released for shipment by a
registrant after August 16, 2011 must bear a label
that complies with §§ 156.10(d)(7), 156.10(f),
156.10(i)(2)(ix), 156.140, 156.144, 156.146 and
156.156.
40 C.F.R. § 156.200
§ 156.200 Scope and applicability.
Effective: February 10, 2009
(a) Scope.
(1) This subpart prescribes statements that must
be placed on the pesticide label and in pesticide
labeling. These statements incorporate by
reference the Worker Protection Standard, part
170 of this chapter. The requirements addressed
in these statements are designed to reduce the risk
of illness or injury resulting from workers’ and
pesticide handlers’ occupational exposures to
pesticides used in the production of agricultural
plants on agricultural establishments as defined
in § 170.3 of this chapter. These statements refer
to specific workplace practices designed to reduce
or eliminate exposure and to respond to
emergencies that may arise from the exposures
that may occur.
(2) This subpart prescribes interim requirements
that must be placed on the pesticide label and in

291a
pesticide labeling. These interim requirements
pertain to restricted-entry intervals, personal
protective equipment, and notification. On a caseby-case basis, these interim requirements will be
reviewed and may be revised during reregistration
or other agency review processes.
(b) Applicability.
(1) The requirements of this subpart apply to each
pesticide product that bears directions for use in
the production of any agricultural plant on any
agricultural establishment as defined in § 170.3 of
this chapter, or whose labeling reasonably permits
such use.
(2) The requirements of this subpart do not apply
to a product that bears directions solely for uses
excepted by § 170.202(b) of this chapter.
(c) Effective dates. No product to which this subpart
applies shall be distributed or sold without amended
labeling by any registrant after April 21, 1994, or by
any person after October 23, 1995.
40 C.F.R. § 156.203
§ 156.203 Definitions.
Effective: February 10, 2009
Terms in this subpart have the same meanings as
they do in the Federal Insecticide, Fungicide, and
Rodenticide Act, as amended. In addition, the
following terms, as used in this subpart, shall have
the meanings stated below:
Fumigant means any pesticide product that is a vapor
or gas or forms a vapor or gas on application and

292a
whose method of pesticidal action is through the
gaseous state.
Restricted-entry interval or REI means the time after
the end of a pesticide application during which entry
to the treated area is restricted.
40 C.F.R. § 156.204
§ 156.204 Modification and waiver of requirements.
Effective: February 10, 2009
(a) Modification on Special Review. If the Agency
concludes in accordance with § 154.25(c) of this
chapter that a pesticide should be placed in Special
Review because the pesticide meets or exceeds the
criteria for human health effects of § 154.7(a)(1)(2) or
(6) of this chapter, the Agency may modify the
personal protective equipment required for handlers
or early-entry workers or both, the restricted-entry
intervals, or the notification to workers requirements.
(b) Other modifications. The Agency, pursuant to this
subpart and authorities granted in FIFRA sections 3,
6, and 12, may, on its initiative or based on data
submitted by any person, modify or waive the
requirements of this subpart, or permit or require
alternative labeling statements. Supporting data may
be either data conducted according to Subdivisions U
or K of the Pesticide Assessments guidelines or data
from medical, epidemiological, or health effects
studies. A registrant who wishes to modify any of the
statements required in §§ 156.206, 156.208, 156.210,
or 156.212 must submit an application for amended
registration unless specifically directed otherwise by
the Agency.

293a
40 C.F.R. § 156.206
§ 156.206 General statements.
Effective: February 10, 2009
(a) Application restrictions. Each product shall bear
the statement: “Do not apply this product in a way
that will contact workers or other persons, either
directly or through drift. Only protected handlers may
be in the area during application.” This statement
shall be near the beginning of the DIRECTIONS FOR
USE section of the labeling under the heading
AGRICULTURAL USE REQUIREMENTS.
(b) 40 CFR part 170 reference statement.
(1) Each product shall bear the reference
statement: “Use this product only in accordance
with its labeling and with the Worker Protection
Standard, 40 CFR part 170.” This statement shall
be placed on the product label under the heading
AGRICULTURAL USE REQUIREMENTS.
(2) Each product shall bear the statement: “This
standard contains requirements for the protection
of agricultural workers on farms, forests,
nurseries, and greenhouses, and handlers of
agricultural pesticides. It contains requirements
for training, decontamination, notification, and
emergency assistance. It also contains specific
instructions and exceptions pertaining to the
statements on this label [in this labeling] about
[use any of the following that are applicable]
personal protective equipment, restricted-entry
interval, and notification to workers.” These
statements shall be placed immediately following
the reference statement required by paragraph

294a
(b)(1) of this section, or they shall be placed in the
supplemental product labeling under the heading
AGRICULTURAL USE REQUIREMENTS.
(3) If the statements in paragraph (b)(2) of this
section are included in supplemental labeling
rather than on the label of the pesticide container,
the container label must contain this statement
immediately following the statement required in
paragraph (b)(1) of this section: “Refer to
supplemental labeling entitled AGRICULTURAL
USE REQUIREMENTS in the DIRECTIONS
FOR USE section of the labeling for information
about this standard.”
(4) If the statements in paragraph (b)(2) of this
section are included in supplemental labeling,
they must be preceded immediately by the
statement in paragraph (b)(1) of this section
under the heading AGRICULTURAL USE
REQUIREMENTS in the labeling.
(c) Product-type identification.
(1) If the product contains an organophosphate
(i.e., an organophosphorus ester that inhibits
cholinesterase) or an N-methyl carbamate (i.e., an
N-methyl carbamic acid ester that inhibits
cholinesterase), the label shall so state. The
statement shall be associated with the product
name or product-type identification or shall be in
the STATEMENT OF PRACTICAL TREATMENT
or FIRST AID section of the label.
(2) If the product is a fumigant, the label shall so
state. The identification shall appear:
(i) As part of the product name; or

295a
(ii) Close to the product name, as part of the
product-type identification or as a separate
phrase or sentence.
(d) State restrictions. Each product shall bear the
statement: “For any requirements specific to your
State, consult the agency in your State responsible
for pesticide regulation.” This statement shall be
under
the
heading
AGRICULTURAL
USE
REQUIREMENTS in the labeling.
(e) Spanish warning statements. If the product is
classified as toxicity category I or toxicity category II
according to the criteria in § 156.62, the signal word
shall appear in Spanish in addition to English
followed by the statement, “Si Usted no entiende la
etiqueta, busque a alguien para que se la explique a
Usted en detalle. (If you do not understand the label,
find some one to explain it to you in detail.)” The
Spanish signal word “PELIGRO” shall be used for
products in toxicity category I, and the Spanish signal
word “AVISO” shall be used for products in toxicity
category II. These statements shall appear on the
label close to the English signal word.
40 C.F.R. § 156.208
§ 156.208 Restricted-entry statements.
Effective: February 10, 2009
(a) Requirement. Each product with a restricted-entry
interval shall bear the following statement: “Do not
enter or allow worker entry into treated areas during
the restricted-entry interval (REI).” This statement
shall be under the heading AGRICULTURAL USE
REQUIREMENTS in the labeling.

296a
(b) Location of specific restricted-entry interval
statements.
(1) If a product has one specific restricted-entry
interval applicable to all registered uses of the
product on agricultural plants, the restrictedentry interval for the product shall appear as a
continuation of the statement required in
paragraph (a) of this section and shall appear as
follows: “of X hours” or “of X days” or “until the
acceptable exposure level of X ppm or mg/m 3 is
reached.”
(2) If different restricted-entry intervals have been
established for some crops or some uses of a
product, the restricted-entry statement in
paragraph (b)(1) of this section shall be associated
on the labeling of the product with the directions
for use for each crop each use to which it applies,
immediately preceded or immediately followed by
the words “Restricted-entry interval” (or the
letters “REI”).
(c) Restricted-entry interval based on toxicity of active
ingredient—
(1) Determination of toxicity category. A
restricted-entry interval shall be established
based on the acute toxicity of the active
ingredients in the product. For the purpose of
setting the restricted-entry interval, the toxicity
category of each active ingredient in the product
shall be determined by comparing the obtainable
data on the acute dermal toxicity, eye irritation
effects, and skin irritation effects of the ingredient
to the criteria of § 156.62. The most toxic of the
applicable toxicity categories that are obtainable

297a
for each active ingredient shall be used to
determine the restricted-entry interval for that
product. If no acute dermal toxicity data are
obtainable, data on acute oral toxicity also shall be
considered in this comparison. If no applicable
acute toxicity data are obtainable on the active
ingredient, the toxicity category corresponding to
the signal word of any registered manufacturinguse product that is the source of the active
ingredient in the end-use product shall be used. If
no acute toxicity data are obtainable on the active
ingredients and no toxicity category of a registered
manufacturing-use product is obtainable, the
toxicity category of the end-use product
(corresponding to the signal word on its labeling)
shall be used.
(2) Restricted-entry interval for sole active
ingredient products.
(i) If the product contains only one active
ingredient and it is in toxicity category I by the
criteria in paragraph (c)(1) of this section, the
restricted-entry interval shall be 48 hours. If,
in addition, the active ingredient is an
organophosphorus
ester
that
inhibits
cholinesterase and that may be applied
outdoors in an area where the average annual
rainfall for the application site is less than 25
inches per year, the following statement shall
be added to the restricted-entry interval
statement: “(72 hours in outdoor areas where
average annual rainfall is less than 25 inches a
year).”
(ii) If the product contains only one active
ingredient and it is in toxicity category II by the

298a
criteria in paragraph (c)(1) of this section, the
restricted-entry interval shall be 24 hours.
(iii) If the product contains only active
ingredients that are in toxicity category III or
IV by the criteria in paragraph (c)(1) of this
section, the restricted-entry interval shall be
12 hours.
(3) Restricted-entry interval for multiple active
ingredient products. If the product contains more
than one active ingredient, the restricted-entry
interval (including any associated statement
concerning use in arid areas under paragraph
(c)(2)(i) of this section) shall be based on the active
ingredient that requires the longest restrictedentry interval as determined by the criteria in this
section.
(d) Exception for fumigants. The criteria for
determining restricted-entry intervals in paragraph
(c) of this section shall not apply to any product that
is a fumigant. For fumigants, any existing restrictedentry interval (hours, days, or acceptable exposure
level) shall be retained. Entry restrictions for
fumigants have been or shall be established on a caseby-case basis at the time of registration,
reregistration, or other Agency review process.
(e)
Existing
intervals.

product-specific

restricted-entry

(1) A product-specific restricted-entry interval,
based on data collected in accordance with
§ 158.1070 or § 161.390 of this chapter and
Subdivision K of the Pesticide Assessment
Guidelines, shall supersede any restricted-entry

299a
interval applicable to the
paragraph (c) of this section.

product

under

(2) Product-specific restricted-entry intervals
established for pesticide products or pesticide uses
that are not covered by part 170 of this chapter
shall remain in effect and shall not be placed
under the heading AGRICULTURAL USE
REQUIREMENTS in the labeling.
(f) Existing interim restricted-entry intervals.
(1)
An
interim
restricted-entry
interval
established by the Agency before the effective date
of this subpart will continue to apply unless a
longer restricted-entry interval is required by
paragraph (c) of this section.
(2) Existing interim restricted-entry intervals
established by the Agency for pesticide products or
pesticide uses not covered by part 170 of this
chapter shall remain in effect and shall not be
placed under the heading AGRICULTURAL USE
REQUIREMENTS in the labeling.
40 C.F.R. § 156.210
§ 156.210 Notification-to-workers statements.
Effective: February 10, 2009
(a) Requirement. Each product that meets the
requirements of paragraph (b) of this section shall
bear the posting and oral notification statements
prescribed below. The statements shall be in the
DIRECTIONS FOR USE section of the labeling
under
the
heading
AGRICULTURAL
USE
REQUIREMENTS.

300a
(b) Notification to workers of pesticide application.
(1) Each product that contains any active
ingredient classified as toxicity category I for
either acute dermal toxicity or skin irritation
potential under the criteria in § 156.62 shall bear
the statement: “Notify workers of the application
by warning them orally and by posting warning
signs at entrances to treated areas.” If no acute
dermal toxicity data are obtainable, data on acute
oral toxicity of the active ingredient shall be
considered instead. If no data on acute dermal
toxicity, skin irritation potential, or acute oral
toxicity are obtainable on the active ingredient,
the toxicity category corresponding to the signal
word of any registered manufacturing-use product
that is the source of the active ingredient in the
end-use product shall be used. If none of the
applicable acute toxicity data are obtainable on
the active ingredient and no toxicity category of
the registered manufacturing-use product is
obtainable, the toxicity category of the end-use
product corresponding to the product’s signal word
shall be used.
(2) Each product that is a fumigant and is
registered for use in a greenhouse (or whose
labeling allows use in a greenhouse) shall bear the
statement: “For greenhouse applications, notify
workers of the application by warning them orally
and by posting warning signs outside all entrances
to the greenhouse.”

301a
40 C.F.R. § 156.212
§ 156.212 Personal protective equipment statements.
Effective: February 10, 2009
(a) Requirement. Each product shall bear the
personal protective equipment statements prescribed
in paragraphs (d) through (j) of this section.
(b) Exceptions.
(1) If personal protective equipment were required
for a product before the effective date of this
subpart, the existing requirements shall be
retained on the labeling wherever they are more
specific or more protective (as specified in EPA
guidance materials) than the requirements in the
table in paragraph (e) of this section.
(2) Any existing labeling statement that prohibits
the use of gloves or boots overrides the
corresponding requirement in paragraph (e) of this
section and must be retained on the labeling.
(3) If the product labeling contains uses that are
not covered by part 170 of this chapter, the
registrant may adopt the personal protective
equipment required in this section for those uses.
However, if the personal protective equipment
required in this section would not be sufficiently
protective or would be onerously overprotective for
uses not covered by part 170 of this chapter, the
registrant must continue to apply the existing
personal protective equipment requirements to
those uses. The labeling must indicate which
personal protective equipment requirements
apply to uses covered by part 170 of this chapter

302a
and which personal protective
requirements apply to other uses.
(c) Location
statements—

of

personal

protective

equipment
equipment

(1) Personal protective equipment statements for
pesticide handlers. Personal protective equipment
statements for pesticide handlers shall be in the
HAZARDS TO HUMANS (AND DOMESTIC
ANIMALS) section of the labeling. The required
statements may be combined to avoid redundancy
as long as the requirements and conditions under
which they apply are identified.
(2) Personal protective equipment statements for
early-entry
workers.
Personal
protective
equipment statements for early-entry workers
shall be placed in the DIRECTIONS FOR USE
section of the labeling under the heading
AGRICULTURAL USE REQUIREMENTS and
immediately after the restricted-entry statement
required in § 156.208(a).
(d) Personal protective equipment statements for
pesticide handlers.
(1) The table in paragraph (e) of this section
specifies minimum requirements for personal
protective equipment (as defined in § 170.240 of
this chapter) and work clothing for pesticide
handlers. This personal protective equipment
requirement applies to any product that presents
a hazard through any route of exposure identified
in the table (acute dermal toxicity, skin irritation
potential, acute inhalation toxicity, and eye
irritation potential).

303a
(2) The requirement for personal protective
equipment is based on the acute toxicity category
of the end-use product for each route of exposure
as defined by § 156.62. If data to determine the
acute dermal toxicity or the acute inhalation
toxicity are not obtainable, the acute oral toxicity
shall be used as a surrogate to determine the
personal protective equipment requirements for
that route of exposure. If data to determine the
acute toxicity of the product by a specific route of
exposure (including acute oral toxicity in lieu of
acute dermal or acute inhalation toxicity) are not
obtainable, the toxicity category corresponding to
the signal word of the end-use product shall be
used to determine personal protective equipment
requirements for that route of exposure. If the
signal word is “CAUTION,” toxicity category III
will be used.
(3) The minimum personal protective equipment
and work clothing requirements specified in this
section shall be included in a statement such as
the following: “Applicators and other handlers
must wear: (body protection statement); (glove
statement, if applicable); (footwear statement, if
applicable); (protective eyewear statement, if
applicable); (respirator statement, if applicable).”
The format of statements given in this paragraph
is optional, but it is recommended for clarity.
(e) Summary of personal protective equipment
requirements. The following table 1 summarizes the
personal protective equipment requirements by route
of exposure and toxicity category:

304a
Table 1—Minimum Personal Protective
Equipment (PPE) and Work Clothing for
Handling Activities
Toxicity Category of End-Use
Product
Route of
Exposure
Dermal
Toxicity
or Skin
Irritation

I

II

III

IV

Coveralls Coveralls
worn over worn over
longshortsleeved
sleeved
shirt and shirt and
long pants short
pants

Longsleeved
shirt and
long
pants

Longsleeved
shirt and
long
pants

Socks

Socks

Socks

Chemical- Chemical- Shoes
resistant resistant
footwear footwear

Shoes

Potential1
Socks

Chemical- Chemical- Chemical- No miniresistant resistant resistant mum4
gloves2
gloves2
gloves2
Inhalation RespiraToxicity tory

Respiratory

No mini- No minimum4
mum4

If dermal toxicity and skin irritation potential are in different
toxicity categories, protection shall be based on the more toxic
(lower numbered) category.

1

For labeling language for chemical-resistant gloves, see
paragraph (f) of this section.

2

Although no minimum PPE is required by this section for this
toxicity category and route of exposure, the Agency may require
PPE on a product-specific basis.
4

305a
protection protection
device3
device3
Eye
Protective Protective No mini- No miniIrritation eyewear eyewear mum4
mum4
Potential
(f) Chemical-resistant gloves labeling statements for
pesticide handlers. If the table in paragraph (e) of this
section indicates that chemical-resistant gloves are
required, the glove statement shall be as specified in
paragraph (f)(2), (3), (4), or (5) of this section.
(1) Exception. The registrant shall specify a glove
type other than that selected through the criteria
in paragraphs (f)(2) through (5) of this section if
information available to the registrant indicates
that such a glove type is more appropriate or more
protective than the glove type specified in this
section. The statement must specify the particular
types of chemical-resistant glove (such as nitrile,
butyl, neoprene, and/or barrier-laminate).
(2) Solid formulations. For products formulated
and applied as solids or formulated as solids and
diluted solely with water for application, the glove
statement shall specify: “waterproof gloves.”
(3) Aqueous-based formulations. For products
formulated and applied as a water-based liquid or
formulated as a water-based liquid and diluted
solely with water for application, the glove
statement may specify: “waterproof gloves”
instead of the statement in paragraph (f)(4) of this
section.
For labeling language for respiratory protection device, see
paragraphs (g) and (h) of this section.
3

306a
(4) Other liquid formulations. For products
formulated or diluted with liquids other than
water, the glove statement shall specify:
“chemical-resistant (such as nitrile or butyl)
gloves.”
(5) Gaseous formulations and applications. For
products formulated or applied as gases, any
existing glove statement established before the
effective date of this subpart, including any glove
prohibition statement, will continue to apply. If no
glove statement or glove prohibition now exists,
the glove statement shall specify “chemicalresistant (such as nitrile or butyl) gloves.”
(g) Existing respirator requirement for pesticide
handlers on product labeling—
(1) General requirement. If a statement placed on
a product’s labeling before the effective date of this
subpart indicates that respiratory protection is
required, that requirement for protection shall be
retained. The statement must specify, or be
amended to specify, one of the following respirator
types and the appropriate MSHA/NIOSH approval
number prefix:
(i) Dust/mist filtering respirator with
MSHA/NIOSH/ approval number prefix TC–
21C; or
(ii) Respirator with an organic-vapor-removing
cartridge and a prefilter approved for
pesticides with MSHA/NIOSH approval
number prefix TC–23C or with a canister
approved for pesticides with MSHA/NIOSH
approval number prefix TC–14G; or

307a
(iii) Supplied-air respirator with MSHA/NIOSH
approval number prefix TC–19C or selfcontained breathing apparatus (SCBA) with
MSHA/NIOSH approval number TC–13F.
(2) Respirator type already specified on labeling. If
the existing respiratory protection requirement
specifies a respirator type, it shall be retained. The
respirator statement must be revised, if necessary,
to conform to the wording in paragraph (g)(1) of
this section.
(3) Respirator type not already specified on
labeling. If the existing respiratory protection
requirement on product labeling does not specify a
respirator type as listed in paragraph (g)(1) of this
section, the specific respirator type shall be that
required in the criteria in paragraphs (g)(3)(ii)
through (vi) of this section.
(i) Exception. The registrant shall specify a
different type of respiratory protection device if
information, such as vapor pressure value, is
available to the registrant to indicate that the
type of respiratory protection device selected
through the criteria in paragraphs (g)(3)(ii)
through (vi) of this section would not be
adequately protective, or might increase risks
to the user unnecessarily.
(ii) Gases applied outdoors. For products that
are formulated or applied as a gas (space and
soil fumigants) and that may be used outdoors,
the respiratory protection statement shall be:
“For handling activities outdoors, use either a
respirator with an organic-vapor-removing
cartridge with a prefilter approved for

308a
pesticides (MSHA/NIOSH approval number
prefix TC–23C), or a canister approved for
pesticides (MSHA/NIOSH approval number
prefix TC–14G).”
(iii) Gases used in enclosed areas. For products
that are formulated or applied as a gas (space
and soil fumigants) and that may be used in
greenhouses or other enclosed areas, the
respiratory protection statement shall specify:
“For handling activities in enclosed areas,
use either a supplied-air respirator with
MSHA/NIOSH approval number prefix TC–
19C, or a self-contained breathing apparatus
(SCBA) with MSHA/NIOSH approval number
TC–13F.”
(iv) Solids. For products that are formulated
and applied as solids, the respiratory
protection statement shall specify: “dust/mist
filtering respirator (MSHA/NIOSH approval
number prefix TC–21C).”
(v) Liquids in toxicity category I. For products
that are formulated or applied as liquids, and,
as formulated, have an acute inhalation
toxicity (or its surrogate as specified in
paragraph (d)(2) of this section) in category I,
the respiratory protection statement shall
specify: “either a respirator with an organicvapor-removing cartridge with a prefilter
approved for pesticides (MSHA/NIOSH
approval number prefix TC–23C), or a canister
approved for pesticides (MSHA/NIOSH
approval number prefix 14G).”

309a
(vi) Liquids in toxicity category II. For products
that are formulated or applied as liquids, and,
as formulated, have an acute inhalation
toxicity (or its surrogate as specified in
paragraph (d)(2) of this section) in category II,
the respiratory protection statement shall
specify: “For handling activities during (select
uses applicable to the product: airblast,
mistblower, pressure greater than 40 p.s.i.
with fine droplets, smoke, mist, fog, aerosol or
direct overhead) exposures, wear either a
respirator with an organic-vapor-removing
cartridge with a prefilter approved for
pesticides (MSHA/NIOSH approval number
prefix TC–23C), or a canister approved for
pesticides (MSHA/NIOSH approval number
prefix 14G). For all other exposures, wear a
dust/mist filtering respirator (MSHA/NIOSH
approval number prefix TC–21C).”
(h) New respirator requirement established for
pesticide handlers in this part—
(1) General requirement. If the table in paragraph
(e) of this section indicates a respiratory protection
device is required, and existing product labeling
has no respiratory protection requirement, the
registrant shall add a respiratory protection
statement that specifies a: “dust/mist filtering
respirator (MSHA/NIOSH approval number prefix
TC–21C).”
(2) Exception. The registrant shall specify a
different type of respiratory protection device if
information, such as vapor pressure value, is
available to the registrant to indicate that the type
of respiratory protection device required in

310a
paragraph (h)(1) of this section would not be
adequately protective or might increase risks to
the user unnecessarily.
(i) Additional personal protective equipment
requirements for pesticide handlers. In addition to
the minimum personal protective equipment and
work clothing requirements given in the table in
paragraph (e) of this section, the labeling statement
for any product in toxicity category I or II on the basis
of dermal toxicity or skin irritation potential (or their
surrogate as specified in paragraph (d)(2) of this
section), shall include the following personal
protective equipment instructions, additions, or
substitutions as applicable:
(1) If the product is not ready-to-use and there
is no existing requirement for a chemicalresistant suit, the following statement shall be
included: “Mixers/Loaders: add a chemicalresistant apron.”
(2) If the application of the product may result
in overhead exposure to any handler (for
example, applicator exposure during airblast
spraying of orchards or flagger exposure during
aerial application), the following statement
shall be included: “Overhead Exposure: wear
chemical-resistant headgear.”
(3) If any type of equipment other than the
product container may be used to mix, load, or
apply the product, and there is no requirement
for a chemical-resistant protective suit, the
following statement shall be included: “For
Cleaning Equipment: add a chemical-resistant
apron.”

311a
(j) Personal protective equipment for early-entry
workers. This paragraph specifies minimum
requirements for personal protective equipment (as
defined in § 170.240 of this chapter) and work clothing
for early-entry workers.
(1) For all pesticide products, add the statement:
“For early entry to treated areas that is permitted
under the Worker Protection Standard and that
involves contact with anything that has been
treated, such as plants, soil, or water, wear: (list
the body protection, glove, footwear, protective
eyewear, and protective headgear, if applicable,
statements specified for applicators and other
handlers, but omit any respiratory protection
statement).”
(2) If the body protection statement in the personal
protective equipment requirement for handlers
specifies a long-sleeved shirt and long pants,
“coveralls” must be specified in the statement of
personal protective equipment for early-entry
workers.
(3) If there is no statement requiring gloves and no
prohibition against gloves for applicators and
other handlers under the heading HAZARDS TO
HUMANS (AND DOMESTIC ANIMALS) in the
labeling, add a requirement for “waterproof
gloves” in the statement of personal protective
equipment for early-entry workers.

312a
S. REP. 100-83, S. Rep. No. 83, 100TH Cong., 1ST
Sess. 1987, 1987 WL 967478 (Leg.Hist.)
PROCESS PATENTS AMENDMENTS
ACT OF 1987
SENATE REPORT NO. 100–83
June 23, 1987
Mr. BIDEN, from the Committee on the Judiciary,
submitted the following REPORT
[To accompany S. 1200]
The Committee on Judiciary, to which was
referred the bill (S. 1200) to amend Title 35, United
States Code, with respect to patented processes,
patent misuse and licensee challenges to patent
validity, having considered the same, reports
favorably thereon with an amendment in the nature
of a substitute and recommends that the bill (as
amended) do pass.
CONTENTS
I.

Purpose

II.

Text of Bill

III.

Title I
A. Purpose
B. History of Legislation
C. Discussion
D. Section-by-Section Analysis

IV.

Title I
A. Purpose

313a
B. History of Legislation
C. Discussion
D. Section-by-Section Analysis
E. Justice Department Views
V.

Title II
A. Purpose
B. History of Legislation
C. Discussion
D. Section-by-Section Analysis

VI.

Title IV
A. Purpose
B. Discussion
C. Section-by-Section Analysis

VII. Regulatory Impact Statement
VIII. Cost of Legislation
IX.

Changes in Existing Law
I. PURPOSE

The purpose of the proposed legislation, as
amended, is to improve the rights of patent owners
and certain aspects of the patent law by providing
patent owners the new right to sue for damages and
seek an injunction in Federal district court when
someone without authorization, uses or sells in the
United States, or import-into the United States a
product made by their patented process by reforming
the doctrine of patent misuse so it will not be used to

314a
restrict the rights of patent owners when their
licensing practices do not violate the antitrust laws;
by clarifying the rights of parties with respect to
patent licensing agreements; and by extending the
patent on the pharmaceutical product gemfibrozil for
a period of a years.
II. TEXT OF BILL S. 1200
To amend title 35, United States Code, with respect
to patented processes, patent misuse and licensee
challenges to patent validity.
IN THE SENATE OF THE UNITED STATES
MAY 14 (legislative day, MAY 13), 1987
Mr. DECONCINI (for himself, Mr. HATCH,
and Mr. LAUTENBERG) introduced the following
bill; which was read twice and referred to the
Committee on the Judiciary
JUNE 5, 1987
Reported by Mr. BYRD (for Mr. BIDEN), with
an amendment and amendment to the title
[Strike out all after the enacting clause and
insert the part printed in italic]
A BILL
To amend title 35, United States Code, with
respect to patented processes, patent misuse and
licensee challenges to patent validity.
Be it enacted by the Senate and House of
Representatives of the United States of America in
Congress assembled,

315a
TITLE I—PROCESS PATENT AMENDMENTS
ACT OF 1987
SECTION 1. SHORT TITLE.
That this Act may be cited as the “Process
Patent Amendments Act of 1987”.
SEC. 2. RIGHTS OF OWNERS OF PATENTED
PROCESSES.
Section 154 is amended by inserting after
“United States,” the following: “and, if the invention
is a process, of the right to exclude others from using
or selling throughout the United States, or importing
into the United States, products made by that
process,”.
SEC. 3. INFRINGEMENT FOR IMPORTATION,
SALE, OR USE.
Section 271 is amended by adding at the end
the following now subsection:
“(g) Whoever without authority imports into
the United States or sells or uses within the United
States a product which is made by a process patented
in the United States shall be liable as an infringer, if
the importation, sale, or use of the product occurs
during the term of such process patent. In an action
for infringement of a process patent, no remedy may
be granted for infringement on account of the
noncommercial use or retail sale of a product unless
there is no adequate remedy under this title for
infringement on account of the importation or other
use or sale of that product. A product which is made
by a patented process will, for purposes of this title,
not be considered to be so made after—

316a
“(1) it is materially changed by subsequent
processes; or
“(2) it becomes a minor or nonessential
component of another product.”.
SEC. 4. DAMAGES FOR INFRINGEMENT.
(a)
LIMITATIONS
AND
REMEDIES.—Section 287 is amended—

OTHER

(1) in the section heading by striking
“Limitation on damages” and inserting
“Limitation on damages and other remedies”;
(2) by inserting “(a)” before “Patentees”; and
(3) by adding at the end the following:
“(b)(1) An infringer under section 271(g) shall
be subject to all the provisions of this title relating to
damages and injunctions except to the extent those
remedies are modified by this subsection or section 6
of the Process Patent Amendments Act of 1987. The
modifications of remedies provided in this subsection
shall not be available to any person who—
“(A) practiced the patented process;
“(B) owns or controls, or is owned or
controlled by, the person who practiced the
patented process; or
“(C) had knowledge before the
infringement that a patented process was used
to make the product the importation, use, or
sale of which constitutes the infringement.
“(2) No remedies for infringement under
section 271(g) of this title shall be available with

317a
respect to any product in the possession of, or in
transit to the infringer, or which the infringer has
made a binding commitment to purchase and
which has been partially or wholly manufactured,
before the infringer had notice of infringement as
defined in paragraph (5). The infringer shall bear
the burden of proving any such possession, transit,
binding commitment or manufacture. If the court
finds that (i) the infringer maintained or ordered
an abnormally large amount of infringing product,
or (ii) the product was acquired or ordered by the
infringer to take advantage of the limitation on
remedies provided by this paragraph, the court
shall limit the application of this paragraph to that
portion of the product supply which is not subject
to such a finding.
“(3)(A) In making a determination with
respect to remedy in an action brought for
infringement under section 271(g), the court shall
consider—
“(i) the good faith and reasonable
business practices demonstrated by the
defendant;
“(ii) the good faith demonstrated by
the plaintiff with respect to the request for
disclosure as provided in paragraph (4); and
“(iii) the need to restore the exclusive
rights secured by the patent.
“(B) For purposes of paragraph (3)(A),
the following are evidence of good faith—a
request for disclosure by a party, a response by
the party receiving the request for disclosure
within sixty days, and submission of the

318a
response by the party who received the
disclosed information to the manufacturer, or if
not known, the supplier with a request for a
written statement that the process claimed in
the disclosed patent is not used. The failure to
perform any such acts is evidence of absence of
good faith unless there are mitigating
circumstances. Mitigating circumstances shall
include the case in which, due to the nature of
the product, the number of sources for
products, or like commercial circumstances, a
request for disclosure is not necessary or
practicable to avoid infringement.
“(4) For purposes of paragraph (3), a
‘request for disclosure’ means a written request
made to a party then engaged in the manufacture
of a product to identify all process patents owned
by or licensed to the party as of the time of the
request that the party then reasonably believes
could be asserted to be infringed under section
271(g) if that product were imported into, or sold
or used in, the United States by an unauthorized
party. A request for disclosure is further limited to
a request—
“(i) made by a party regularly
engaged in the United States in the sale of
the same type of products as the party to
whom the request is directed, or a request
which includes facts showing that the
requester plans to engage in the sale of such
products in the United States;
“(ii) made prior to such party’s first
importation, use or sale of units of the

319a
product produced by an infringing process
and prior to notice of infringement; and
“(iii) which includes a representation
by the requesting party that it will promptly
submit the patents identified to the
manufacturer, or if not known, the supplier
of the product to be purchased by the
requester and will request from that
manufacturer or supplier a written
statement that none of the processes
claimed in those patents is used in the
manufacture of the product.
“(5)(A) For the purposes of this subsection,
notice of infringement means actual knowledge, or
receipt by a party of a written notification or a
combination thereof, of information sufficient to
persuade a reasonable person that it is likely that
the product was made by an infringing process and
not by a noninfringing process.
“(B) A written notification from the patent
holder charging a party with infringement
shall, in order to be a valid notification under
paragraph (A), specify the patent alleged to
have been used and the reasons for belief that
such process, and not others, was used in the
production of the product.
“(C) A party who receives a notification
as described in (B) and fails to thereafter seek
information from the manufacturer, or if not
known, the supplier as to whether the
allegations in the statement are true shall,
absent mitigating circumstances, be deemed to
have notice of infringement.

320a
“(D) A party who fails to make the
submission referred to in subsection (b)(4)(iii)
shall be deemed to have notice of infringement.
“(E) Filing of an action for infrangement
shall constitute notice of infringement only if
the pleadings or other papers filed in the action
meet the requirements of (A).”.
(b) TECHNICAL AMENDMENT.—The item
relating to section 287 in the table of sections for
chapter 29 is amended to read as follows:
“287. Limitations on damages and other remedies;
marking and notice.”.
SEC. 5. PRESUMPTION IN INFRINGEMENT
ACTIONS.
(a) IN GENERAL.—Chapter 29 is amended by
adding at the end the following:
“§ 295. Presumption: Product made by patented
process
“In actions alleging infringement of a process
patent based on the importation, sale, or use of a
product which is made from a process patented in the
United States, if the court finds
“(1) that there is evidence establishing a
substantial likelihood that the product was made
by the patented process; and “(2) that the claimant
has made a reasonable effort to determine the
process actually used in the production of the
product and was unable so to determine,
the product shall be presumed to have been so made,
and the burden of establishing that the product was

321a
not made by the process shall be on the party
asserting that it was not so made.”.
(b) CONFORMING AMENDMENT.—The
table of sections for chapter 29 is amended by adding
after the item relating to section 294 the following:
“205. Presumption: Product made by patented
process.”.
SEC. 6. EFFECTIVE DATE.
(a)(1) IN GENERAL.—The amendments made
by this title shall apply only to products made or
imported after the date of the enactment of this Act.
(2) EXCEPTIONS. This Act shall not
abridge or affect the right of any person or any
successor in business of such person to continue to
use, sell, or import any specific product already in
substantial and continuous sale or use by such
person in the United States on May 15, 1987, or
for which substantial preparation by such person
for such sale or use was made before such date, to
the extent equitable for the protection of
commercial investments made or business
commenced in the United States before such date.
This paragraph shall not apply to any person or
any successor in business of such person using,
selling, or importing a product produced by a
patented process that is the subject of a patent
process enforcement action commenced before
January 1, 1987, including actions before the
International Trade Commission, that is pending
or in which an order has been entered.
(b) RETENTION OF OTHER REMEDIES.—
The amendments made by this title shall not deprive

322a
a patent owner of any remedies available under
subsection (a) through (f) of section 271 of title 35,
United States Code, under section 337 of the Tariff
Act of 1930, or under any other provision of law.
SEC. 7. REPORTS TO CONGRESS.
(a) CONTENTS.—The Secretary of Commerce
shall, not later than the end of each one-year period
described in subsection (b), report to the Congress on
the effect of the amendments made by this title on the
importation of ingredients to be used for
manufacturing products in the United States in those
domestic industries that submit complaints to the
Department of Commerce, during that one-year
period, alleging that their legitimate sources of supply
have been adversely affected by the amendments
made by this title.
(b) WHEN SUBMITTED.—A report described
in subsection (a) shall be submitted with respect to
each of the five one-year periods which occur
successively beginning on the date of the enactment
of this Act and ending five years after that date.
TITLE II—PATENT MISUSE DOCTRINE
REFORM
Section 271 of title 35, United States Code, is
amended—
(1) by redesignating subsection (c) as
paragraph (1) of subsection (c);
(2) by redesignating subsection (d) as
paragraph
(2) of subsection (c); and

323a
(3) by inserting after subsection (d) the
following new subsection:
“(d) No patent owner otherwise entitled to relief
for infringement or contributory infringement of a
patent shall be denied relief or deemed guilty of
misuse or illegal extension of the patent right by
reason of his or her licensing practices or actions or
inactions relating to his or her patent, unless such
practices or actions, in view of the circumstances in
which such practices or actions are employed, violate
the antitrust laws.”.
TITLE III—LICENSEE CHALLENGES TO
PATENT VALIDITY
SEC. 301. Chapter 29 of title 35, United States Code,
is amended by adding at the end thereof the following
new section:
“§ 295. Licensee challenges to patent validity
“(a) A licensee shall not be estopped from
asserting in a judicial action the invalidity of any
patent for which the licensee has obtained a license.
Any agreement between the parties to a patent
license agreement which purports to bar the licensee
from asserting the invalidity of any licensed patent
shall be unenforceable as to that provision.
“(b) Any patent license agreement may provide
for a party or parties to the agreement to terminate
the license if the licensee asserts in a judicial action
the invalidity of the licensed patent, and, if the
licensee has such a right to terminate, the agreement
may further provide that the licensee’s obligations
under the agreement shall continue until a final and
unappealable determination of invalidity is reached

324a
or until the license is terminated. Such agreement
shall not be unenforceable as to such provisions on the
grounds that such provisions are contrary to Federal
law or policy.”.
SEC. 302. The table of sections for chapter 29 of title
35, United States Code is amended by adding at the
end thereof the following new item:
“295. Licensee challenges to patent validity.”.
That this Act may be cited as the “Process Patent
Amendments Act of 1987”.
TITLE I—PROCESS PATENT AMENDMENTS
ACT OF 1987
SEC. 101. RIGHTS OF OWNERS OF PATENTED
PROCESSES.
Section 154 of title 35, United States Code, is
amended by inserting after “United States,” the
following: “and, if the invention is a process, of the
right to exclude others from using or selling
throughout the United States, or importing into the
United States, products made by that process,”.
SEC. 102. INFRINGEMENT FOR IMPORTATION,
SALE, OR USE.
Section 271 of title 35, United States Code, is
amended by adding at the end the following new
subsection:
“(g) Whoever without authority imports into the
United States or sells or uses within the United States
a product which is made by a process patented in the
United States shall be liable as an infringer, if the
importation, sale, or use of the product occurs during

325a
the term of such process patent. In an action for
infringement of a process patent, no remedy may be
granted for infringement on account of the
noncommercial use or retail sale of a product unless
there is no adequate remedy under this title for
infringement on account of the importation or other
use or sale of that product. A product which is made
by a patented process will, for purposes of this title, not
be considered to be so made after—
“(1) it is materially changed by subsequent
processes; or
“(2) it becomes a trivial and nonessential
component of another product.”.
SEC. 103. DAMAGES FOR INFRINGEMENT.
(a)
LIMITATIONS
AND
OTHER
REMEDIES.—Section 287 of title 35, United States
Code, is amended—
(1) in the section heading, by striking
“LIMITATION ON DAMAGES” and inserting
“LIMITATION ON DAMAGES AND OTHER
REMEDIES”;
(2) by inserting “(a)” before “Patentees”; and
(3) by adding at the end the following:
“(b)(1) An infringer under section 271(g) shall
be subject to all the provisions of this title relating to
damages and injunctions except to the extent those
remedies are modified by this subsection or section 105
of the Process Patent Amendments Act of 1987. The
modifications of remedies provided in this subsection
shall not be available to any person who—

326a
“(A) practiced the patented process;
“(B) owns or controls, or is owned or
controlled by, the person who practiced the
patented process; or
“(C)
had
knowledge
before
the
infringement that a patented process was used
to make the product the importation, use, or sale
of which constitutes the infringement.
“(2) No remedies for infringement under
section 271(g) of this title shall be available with
respect to any product in the possession of, or in
transit to the party, or which the party has made a
binding commitment to purchase and which has
been partially or wholly manufactured, before the
party had notice of infringement as defined in
paragraph (5). The party shall bear the burden of
proving any such possession, transit, binding
commitment, or manufacture. If the court finds
that (A) the party maintained or ordered an
abnormally large amount of infringing product, or
(B) the product was acquired or ordered by the
party to take advantage of the limitation on
remedies provided by this paragraph, the court
shall limit the application of this paragraph to that
portion of the product supply which is not subject
to such a finding.
“(3)(A) In making a determination with
respect to the remedy in an action brought for
infringement under section 271(g), the court shall
consider—
“(i) the good faith and reasonable business
practices demonstrated by the defendant,

327a
“(ii) the good faith demonstrated by the
plaintiff with respect to the request for
disclosure as provided in paragraph (4), and
“(iii) the need to restore the exclusive rights
secured by the patent.
“(B) For purposes of subparagraph (A),
the following are evidence of good faith: a
request for disclosure by a party, a response by
the party receiving the request for disclosure
within 60 days, and submission of the response
by the party who received the disclosed
information to the manufacturer, or if not
known, the supplier with a request for a written
statement that the process claimed in the
disclosed patent is not used. The failure to
perform any such acts is evidence of absence of
good faith unless there are mitigating
circumstances. Mitigating circumstances shall
include the case in which, due to the nature of
the product, the number of sources for products,
or like commercial circumstances, a request for
disclosure is not necessary or practicable to
avoid infringement.
“(4) For purposes of paragraph (3), a ‘request
for disclosure’ means a written request made to a
party then engaged in the manufacture of a product
to identify all process patents owned by or licensed
to the party as of the time of the request that the
party then reasonably believes could be asserted to
be infringed under section 271(g) if that product
were imported into, or sold or used in, the United
States by an unauthorized party. A request for
disclosure is further limited to a request—

328a
“(A) made by a party regularly engaged
in the United States in the sale of the same type
of products as the party to whom the request is
directed, or a request which includes facts
showing that the requester plans to engage in
the sale of such products in the United States;
“(B) made prior to such party’s first
importation, use, or sale of units of the product
produced by an infringing process and prior to
notice of infringement; and
“(C) which includes a representation by
the requesting party that it will promptly
submit the patents identified to the
manufacturer, or if not known, the supplier of
the product to be purchased by the requestor,
and will request from that manufacturer or
supplier a written statement that none of the
processes claimed in those patents is used in the
manufacture of the product.
“(5)(A) For the purpose of this subsection,
notice of infringement means actual knowledge, or
receipt by a party of a written notification, or a
combination thereof, of information sufficient to
persuade a reasonable person that it is likely that
a product was made by a patented process.
“(B) A written notification from the
patent holder charging a party with
infringement shall specify the patent alleged to
have been used and the reasons for a good faith
belief that such process was used. If the patent
holder has actual knowledge of any
commercially feasible process other than the
patented process which is capable of producing

329a
the
allegedly
infringing
product,
the
notification shall set forth such information
with respect to the other processes only as is
reasonably necessary to fairly explain the
patent holder’s belief and is not required to
disclose any trade secret information.
“(C) A party who receives a written
notification as described in the first sentence of
such subparagraph (B) and fails to thereafter
seek information from the manufacturer, or if
not known, the supplier, as to whether the
allegations in the notification are true shall,
absent mitigating circumstances, be deemed to
have notice of infringement. This provision
shall apply even though the notification does
not establish notice of infringement under
subparagraph (A).
“(D) A party who fails to make the submission
referred to in subsection (b)(4)(C) shall be
deemed to have notice of infringement..
“(E) Filing of an action for infringement shall
constitute notice of infringement only if the
pleadings or other papers filed in the action
meet the requirements of subparagraph (A).”.
(b) TECHNICAL AMENDMENT.—The item
relating to section 287 of title 35, United States Code,
in the table of sections for chapter 29 of such title is
amended to read as follows:
“287. Limitations on damages and other remedies;
marking and notice.”.
SEC. 104. PRESUMPTION IN INFRINGEMENT
ACTIONS.

330a
(a) IN GENERAL.—Chapter 29 of title 35,
United States Code, is amended by adding at the end
the following:
“§ 295. Presumption: Product made by patented
process
“In actions alleging infringement of a process
patent based on the importation, sale, or use of a
product which is made from a process patented in the
United States, if the court finds—
“(1) that there is evidence establishing a
substantial likelihood that the product was made
by the patented process, and
“(2) that the claimant has made a
reasonable effort to determine the process actually
used in the production of the product and was
unable so to determine,
the product shall be presumed to have been so made,
and the burden of establishing that the product was
not made by the process shall be on the party asserting
that it was not so made.”.
(b) CONFORMING AMENDMENT.—The
table of sections for chapter 29 of title 35, United
States Code, is amended by adding after the item
relating to section 294 the following:
“295. Presumption: Product made by patented process.”.
SEC. 105. EFFECTIVE DATE.
(a)(1) IN GENERAL.—The amendments made
by this title shall apply only to products made or
imported after the date of the enactment of this Act.
(2) EXCEPTIONS.—This title shall not
abridge or affect the right of any person or any

331a
successor in business of such person to continue to
use, sell, or import any specific product already in
substantial and continuous sale or use by such
person in the United States on May 15, 1987, or for
which substantial preparation by such person for
such sale or use was made before such date, to the
extent equitable for the protection of commercial
investments made or business commenced in the
United States before such date. This paragraph
shall not apply to any person or any successor in
business of such person using, selling, or importing
a product produced by a patented process that is
the subject of a patent process enforcement action
commenced before January 1, 1987, before the
International Trade Commission, that is pending
or in which an order has been entered.
(b) RETENTION OF OTHER REMEDIES.—
The amendments made by this title shall not deprive
a patent owner of any remedies available under
subsections (a) through (f) of section 271 of title 35,
United States Code, under section 337 of the Tariff Act
of 1930, or under any other provision of law.
SEC. 106. REPORTS TO CONGRESS.
(a) CONTENTS.—The Secretary of Commerce
shall, not later than the end of each 1-year period
described in subsection (b), report to the Congress on
the effect of the amendments made by this title on the
importation of ingredients to be used for
manufacturing products in the United States in those
domestic industries that submit complaints to the
Department of Commerce, during that 1-year period,
alleging that their legitimate sources of supply have
been adversely affected by the amendments made by
this title.

332a
(b) WHEN SUBMITTED.—A report described
in subsection (a) shall be submitted with respect to
each of the five 1-year periods which occur successively
beginning on the date of the enactment of this Act and
ending five years after that date.
TITLE II—PATENT MISUSE DOCTRINE
REFORM
SEC. 201. INFRINGEMENT OF PATENT.
Section 271 of title 35, United States Code, is
amended—
(1) by redesignating subsection (c) as
subsection (c)(1) of subsection (c);
(2) by redesignating subsection (d) as
paragraph (2) of such subsection (c); and
(3) by inserting after subsection (c) the
following new subsection:
“(d) No patent owner otherwise entitled to relief
for infringement or contributory infringement of a
patent shall be denied relief or deemed guilty of misuse
or illegal extension of the patent right by reason of his
or her licensing practices or actions or inactions
relating to his or her patent, unless such practices or
actions or inactions, in view of the circumstances in
which such practices or actions or inactions are
employed, violate the antitrust laws.”.
TITLE III—LICENSEE CHALLENGES TO
PATENT VALIDITY
SEC. 301. LICENSEE CHALLENGES.
(a) IN GENERAL.—Chapter 29 of title 35,
United States Code, as amended by section 104 of this

333a
Act, is further amended by adding at the end thereof
the following new section:
“§ 296. Licensee challenges to patent validity
“(a) A licensee shall not be estopped from
asserting in a judicial action the invalidity of any
patent for which the licensee has obtained a license.
Any agreement between the parties to a patent license
agreement which purports to bar the licensee from
asserting the invalidity of any licensed patent shall be
unenforceable as to that provision.
“(b) Any patent license agreement may provide
for a party or parties to the agreement to terminate the
license if the licensee asserts, in a judicial action, the
invalidity of the licensed patent, and, if the licensee
has such a right to terminate, the agreement may
further provide that the licensee’s obligations under
the agreement shall continue until a final and
unappealable determination of invalidity is reached or
until the license is terminated. Such agreement shall
not be unenforceable as to such provisions on the
grounds that such provisions are contrary to Federal
law or policy.”.
(b) TECHNICAL AMENDMENT.—The table of
sections for chapter 29 of title 35, United States Code,
as amended by section 104 of this Act, is further
amended by adding at the end thereof the following
new item:
“296. Licensee challenges to patent validity.”.
TITLE IV—PHARMACEUTICAL PATENT TERM
RESTORATION ACT AMENDMENTS
SEC. 401. (a) Title 35, United States Code, is amended
by adding the following new section:

334a
“§ 155B. Patent Term Restoration
“(a) Notwithstanding section 154 of this title,
the term of a patent which encompasses within its
scope a composition of matter which is a new drug
shall be extended for a period of 5 years, and such
patent shall have the effect as if originally issued with
such extended term, if—
“(1) such composition has been subjected to
a regulatory review by the Federal Food and Drug
Administration pursuant to the Federal Food,
Drug, and Cosmetic Act,
“(2) the Federal Food and Drug
Administration has approved a new drug
application after receipt of a letter from the
applicant stating that a Phase IV clinical study
that had been requested as a condition for approval
has been undertaken,
“(3) the Phase IV clinical study has covered
at least 5 years with the study term commencing
prior to the introduction of the Drug Price
Competition and Patent Term Restoration Act of
1984 and ending subsequent to the enactment of
such Act,
“(4) such Phase IV clinical study has been
completed, and a supplemental new drug
application to expand the permitted indications
and usage in the labeling of the new drug based
upon such Phase IV clinical study has been
submitted to the Federal Food and Drug
Administration,
“(5) the
Administration

Federal Food and Drug
has
either
approved
the

335a
supplemental new drug application or the original
patent term is within 90 days of
expiration, and
“(6) the Federal Food and Drug
Administration
has
not
made
a
final
determination that the supplemental new drug
application is approved or disapproved.
If, however, the term of a patent is extended because
the Federal Food and Drug Administration has not
made a final determination that the supplemental new
drug application is approved or disapproved prior to
90 days before the expiration of the patent, such patent
extension shall immediately terminate if the Federal
Food and Drug Administration makes a final
determination disapproving the supplemental new
drug application.
“(b)(1) The patentee, his heirs, successors, or
assigns shall notify the Commissioner of Patents and
Trademarks within 30 days after the date of
enactment of this section, or within 30 days after the
date of the approval of the supplemental new drug
application if such approval does not occur before
enactment of this section, or within 30 days after the
date which is 90 days from the expiration of the
original patent term if the Federal Food and Drug
Administration has not made a final determination
that the supplemental new drug application is
approved or disapproved by such date, of the number
of the patent to be extended.
“(2) On receipt of such notice, the
Commissioner shall promptly issue to the owner of
record of the patent a certificate of extension, under
seal, stating the fact and length of the extension

336a
and identifying the composition of matter to which
such extension is applicable. Such certificate shall
be recorded in the official file of the patent extended
and such certificate shall be considered as part of
the original patent, and an appropriate notice shall
be published in the Official Gazette of the Patent
and Trademark Office. If, subsequent to a
notification that it is within 90 days of the
expiration of the patent and that the Federal Food
and Drug Administration has not made a final
determination that the supplemental new drug
application is approved or disapproved, a final
determination is made by the Federal Food and
Drug Administration that the supplemental new
drug application is disapproved, the patentee, his
heirs, successors, or assigns shall, within 2 days,
notify the Commissioner of Patents and
Trademarks of such final determination. On receipt
of such notice and if the patent has been extended
pursuant to the terms hereof, the Commissioner
shall promptly issue a certificate of termination of
extension, under seal, stating the fact that the
patent is terminated, effective the date of the final
determination that the supplemental new drug
application is disapproved, and identifying the
composition of matter to which such termination of
extension is applicable. Such certificate shall be
recorded in the official file of the patent terminated
and such certificate shall be considered as a part of
the original patent, and an appropriate notice shall
be published in the Official Gazette of the Patent
and Trademark Office.”.
(b) The analysis for chapter 14 of such title 35
is amended by adding at the end the following:
“155B. Patent term restoration.”.

337a
Amend the title to read as follows: “A bill to
amend title 35, United States Code, with respect to
patented processes, patent misuse, license challenges
to patent validity, and patent term restoration.”.
III. TITLE I—PROCESS PATENT
AMENDMENTS ACT OF 1987
A. PURPOSE OF AMENDMENT
As amended, title I of S. 1200 provides patent
owners the new right to sue for damages and seek an
injunction in Federal district court when someone,
without authorization, uses or sells in the United
States, or imports into the United States a product
made by their patented process.
B. HISTORY OF LEGISLATION
The importance of strengthening process patent
protection was first recognized in 1966 by President
Johnson’s Commission on the Patent System; then in
1979 by President Carter’s Domestic Policy Review on
Industrial Innovation, and again in 1985 by President
Reagan’s Commission on Industrial Competitiveness.
More recently, it was included in President Reagan’s
competitiveness initiative of 1987 and strongly
endorsed by the President’s Commission on Industrial
Competitiveness in 1984.
The Process Patent Amendments Act of 1987,
title I of S. 1200, is the result of a carefully crafted
compromise reached between Senators DeConcini,
Hatch, Lautenberg and a wide variety of parties
interested in process patent legislation. On April 22,
1987, the Patents, Copyrights and Trademarks
Subcommittee held a hearing on predecessors to this
bill, S. 568, which was introduced in the 100th

338a
Congress by Senators Hatch and DeConcini and S.
573, which was introduced by Senator Lautenberg.
Hearings on Process Patent legislation was also held
in both the 98th and 99th Congresses. S. 568
contained the same language as S. 1543, which
passed the Judiciary Committee and the Senate
unanimously during the 99th Congress. On May 13,
1987 the Patents Subcommittee reported S. 568 with
an amendment in the nature of a substitute which
was then introduced as title I of S. 1200 on May 14,
1987 by Senators DeConcini, Hatch, and Lautenberg.
S. 1200 as amended passed the Judiciary Committee
unanimously on June 4, 1987. The Judiciary
Committee will include S. 1200 in the Senate
Omnibus Trade Act of 1987.
C. DISCUSSION
America’s leading position in technology
innovation throughout the world is credited in large
part to the stimulus of its patent system, which stems
ultimately from Article I, Section 8, clause 8 of the
Constitution which states, “The Congress shall have
Power ... To promote the Progress of Science and
useful Arts, by securing for limited Times to Authors
and Inventors the exclusive Right to their respective
Writings and Discoveries ...” In the past two decades,
however, it has become necessary to modernize our
patent laws. As compared with those of our major
trading partners, the inadequate protection contained
in U.S. process patent law has emerged as a major
factor in the dynamics of global innovation and
economic competition. In contrast to Japan and
nearly all of the Western European nations, the
United States does not provide patent protection
against the importation, and subsequent use or sale,

339a
of products made abroad without authorization using
a process patented in the United States except for a
limited form of protection is afforded under the trade
laws (19 U.S.C. 1337a) enforced by the International
Trade Commission (ITC).
The U.S. patent laws recognize three basic
types of inventions for which patents may be
obtained: products, methods of use, and methods of
manufacture. Patents on the last are also known as
process patents, that is, patents on process
inventions. A process patent covers a process for
making a product, which may or may not be patented
itself. Process patents promise to be increasingly
important to a number of industries in the coming
years, especially in the areas of industrial and
pharmaceutical chemicals, optical fibres, and above
all in the fields of biotechnology and bioengineering
research. Biotechnology companies are often built
around a new process for artificial manufacture of a
substance that occurs in nature and is therefore itself
unpatentable. A well known example is the
Genentech Corporation of California, whose principal
assets since its founding in 1976 have been process
patents on revolutionary new ways of making human
insulin and growth hormone.
Under our current patent laws, a patent on a
process gives the patentholder the right to exclude
others from using that process in the United States
without authorization from the patentholder. The
other two standard aspects of the patent right—the
exclusive right to make or sell the invention—are not
directly applicable to a patented process. S. 1200
proposes to also cover the importation. use or sale in
the United States of products resulting from the

340a
process. The bill does not attempt to prevent the use
of the process in another country. If the U.S. process
patentholder has not obtained a similar patent in the
other country, he has no right by virtue of his U.S.
patent to prevent anyone from using the process in
that country. However, if the U.S. patentholder does
have a patent in the other country as well, he may
seek remedy in the courts of that country. S. 1200
would protect against the entry into the U.S.
marketplace of goods made abroad without
authorization from the inventor who has a process
patent in this country. The patent is on the process
alone, but the entry of the goods made elsewhere by
that process clearly encroaches on the rights of the
patent owner.
The principle of process patent protection is
also incorporated in the European Patent Convention,
the Community Patent Convention, and the World
Intellectual Property Organization (W.I.P.O.) Treaty
on Harmonization. The following excerpt from a
recent memorandum on process patent law prepared
by the International Bureau of W.I.P.O. elaborates on
the rationale for including products obtained from a
patented process in the scope of the protection
afforded by the process patent:
The extension (to the product of the process)
seems to be an exception to the principle that the
protection conferred by a patent or another title of
protection for an invention is defined by the object of
the invention. In the case of a process invention, a
strict application of the said principle would mean
that the owner of a process patent could only exclude
others from using the patented process. The legal
provisions which extend process protection to

341a
products obtained by the patented process are based
on practical economic considerations. A process which
leads to a specific product presents an economic value
only through the product. However, it is not always
possible to obtain a patent for the product; for
example, the product may not be new or may—
although new—lack inventive step. The invention of
a new and inventive process for the production of such
a product which is not patentable constitutes an
important technological advance but the reward
granted through a process patent is not important
because—without an extension to the product—the
process patent would be difficult to enforce (since
infringement of the process is difficult to prove) and
could even be circumvented by use of the process in
another country where the process is protected. In
order to make patent protection of a process
meaningful, it is therefore necessary to consider the
patented process and the resulting product as a
whole, with the consequence that process protection
is automatically extended to the resulting product
even if the said product has not been claimed.1
FOREIGN PROCESS PATENT LEGISLATION
Importation, use and sale in the United States
of products produced by processes patented in this
country severely diminishes the value of such patents.
This practice must be effectively countered by
changes in the patent laws to protect the legitimate
interests of U.S. inventors. Expanding the scope of
our laws to bring them into conformity with the
“Extension of Patent Protection of a Process to the Products
obtained by that Process; Proof of Infringement of a Process
Patent.” Memorandum by the International Bureau of WIPO,
March 12, 1986, pp. 3-4.
1

342a
European Patent Convention and the national laws of
many industrialized countries is necessary to protect
the continued growth of American business. The
following chart summarizes the protection offered to
process patent holders in the group B or development
market economy countries. In addition, some typical
examples of foreign laws in this area are helpful for
comparison. As the chart and summaries indicate,
most countries’ patent laws are structured so that the
direct product of a patented process is also included
within the scope of the patent. Nearly one-half of
those countries make importation an act of
infringement. [Charts and summaries follow:]
PROCESS PATENT PROTECTION IN
GROUP B COUNTRIES
Country

Process Important Presumppatent constitutes tion in
protects infringefavor of
its
ment
process
direct
patentee
product

??1....................... Yes……..

Yes.2

??1....................... Yes3 4….. Yes
??........................ Yes3 4…..
??5....................... Yes…….. Yes
??........................ Yes…….. Yes
??........................ Yes…….. Yes
??1....................... Yes…….. Yes
Federal Republic Yes……..
of Germany1…...

Yes.2

343a
Great Britain1… Yes…….. Yes
Greece…………. Yes…….. Yes………... Yes.2
Holy See6
Iceland…..…….. Yes…….. Yes
Iceland…..…….. Unclear37
Italy1……...……. Yes……..

Yes.2

Japan…….......... Yes…….. Yes……….. Yes.
Liechtenstein1 8… Yes……..
Liechtenstein1 9…

Yes.

Yes4

Monaco5
Netherlands1…

Yes……..

New Zealand…

Yes4

Yes.2

Norway………… Yes…….. Yes
Portugal……….. Yes…….. Yes
San Marino10….. Yes……..

Yes.2

South Africa…… Yes……..

Yes.

Spain

Yes…….. Yes

Sweden1

Yes…….. Yes……….. Yes.2

Switzerland1….. Yes……..
Turkey9
United States
of America
FN1. EPC member.

Yes.

344a
FN2. Applies to new substances only. FN3. No clear
statutory provision.
FN4. Apparently applies in at least some situations.
FN5. Registration in Cyprus of a United Kingdom
patent confers the same right in Cyprus.
FN6. No patent law.
FN7. Claims are permitted, but legal issues are
apparently unsettled.
FN8. Liechtenstein and Switzerland constitute a
single territory for patent purposes.
FN9. No copy of the national law was available.
FN10. Industrial property rights acquired in Italy are
valid in San Marino and vice versa.
DENMARK
SECTION 3
(1) The exclusive right conferred by a patent
shall imply that no one except the proprietor of the
patent may without permission exploit the invention:
(i) by making, offering, putting on the
market or using a product which is the subjectmatter of the patent, or by importing or stocking
the product for these purposes;
(ii) by using a process which is the subjectmatter of the patent or by offering the process for
use in this country if the person offering the process
knows, or it is obvious in the circumstances, that
the use of the process is prohibited without the
consent of the proprietor of the patent;

345a
(iii) by offering, putting on the market or
using a product obtained by a process which is the
subject-matter of the patent or by importing or
stocking the product for these purposes.
FRANCE
CHAPTER THREE.—RIGHTS AND OBLIGATIONS
ATTACHED TO THE PATENT
Article 28.—1. The scope of protection
conferred by a patent shall be determined by the
terms of the claims. The description of the invention
and the drawings, however, shall serve to construe
the claims.
2. Where a patent relates to a process, the
protection conferred by the patent shall extend to the
products directly obtained by that process.
Article 29.—A patent confers the right to
prohibit any other person, without the consent of the
proprietor of the patent:
(a) from making, offering, putting on the
market, using, or importing or storing for such
purposes the product to which the patent relates;
(b) from using a process to which the patent
relates, or, where such other person knows, or
where it is obvious in the circumstances, that the
use of the process is prohibited without the
consent of the proprietor of the patent, from
offering the process for use within French
territory;
(c) from offering, putting on the market,
using, or importing or storing for such purposes
the product obtained directly by the process to
which the patent relates.

346a
GREAT BRITAIN
STATUTES, REGULATIONS, AND TREATIES
Patents Act 1977
Infringement
60.—(1) Subject to the provisions of this
section, a person infringes a patent for an invention
if, but only if, while the patent is in force, he does any
of the following things in the United Kingdom in
relation to the invention without the consent of the
proprietor of the patent, that is to say—
(a) where the invention is a product, he
makes, disposes of, offers to dispose of, uses or
imports the product or keeps it whether for
disposal or otherwise;
(b) where the invention is a process, he uses
the process or he offers it for use in the United
Kingdom when he knows, or it is obvious to a
reasonable person in the circumstances, that its
use there without the consent of the proprietor
would be an infringement of the patent;
(c) where the invention is a process, he
disposes of, offers to dispose of, uses or imports any
product obtained directly by means of that process
or keeps any such product whether for disposal or
otherwise.
§ 5.—No-one may make an occupation of the
following without the consent of the patentee:—1.
Manufacturing, importing or offering for sale an
article which is patented or prepared by a patented
method; or 2. Using the patented method.—The
following is however, permissible having no regard for
a Patent:— a) The use of articles accompanying or

347a
connected with means of transport from other
countries when these come to this country for limited
periods, and b) The continued use of articles arrived
by and belonging to means of transport which have
been purchased abroad for Icelandic currency or for
an Icelandic vessel which has broken down at sea and
been repaired abroad.
ITALY
§ 2.—The patent concerning a new industrial
method or process confers upon the patentee the
exclusive use thereof.
The exclusive use includes also commercializing
the product directly obtained by the new industrial
method or process. If the product is a new one, every
identical product is presumed to have been obtained,
unless there is evidence to the contrary, but the
method or process which is the subject of the patent.
JAPAN
3. “Working” in respect of an invention in this
Law shall mean the following acts:
(1) In an invention of a thing, acts of
manufacturing, using transferring, leasing,
exhibiting for the purpose of transfer or lease, or
importing the thing;
(2) In an invention of a process, acts of using
the process.
(3) In an invention of a process of
manufacturing a thing acts of using, transferring,
leasing, exhibiting for the purpose of transfer or
leave, or importing the thing produced by the
process in addition to those as mentioned in the
preceding items.

348a
PORTUGAL
Article 214. A penalty of 500 to 10,000 escudos,
to which may be added imprisonment for a period of
from one to six months, will be imposed on those who,
during the period of legal protection, should prejudice
the owner of a patent in the exercise of his right in
any of the following ways:
1. Manufacturing, without license from the
title holder, the articles or products covered by the
patent;
2. Employing, without the said license, the
means and processes or using new applications of
means and processes forming the subject of the
patent;
3. Importing, selling, offering for sale,
putting in circulation or concealing, in bad faith,
products obtained in any of the ways referred to.
SWEDEN
SECTION 3
The exclusive right conferred by a patent
implies, with the exceptions stated below, that no one
except the proprietor of the patent may, without the
proprietor’s consent, use the invention by
(1) making, offering, putting on the market
or using a product protected by the patent or
importing or possessing such product for these
purposes;
(2) using a process which is protected by the
patent or, while knowing, or it being obvious from
the circumstances, that the use of the process is
prohibited without the consent of the proprietor of

349a
the patent, offering the process for use in this
country;
Statutes, Regulations and Treaties
(3) offering, putting on the market, or using
products made by a process protected by the
patent or importing or possessing the product for
these purposes.
SWITZERLAND
If the invention concerns a process, the effects
of the patent shall extend to the immediate products
of the process.
SECTION 67
If the invention concerns a process for the
manufacture of a new product, every product of the
same composition shall be presumed to have been
made by the patented process until proof to the
contrary has been adduced.
Subsection 1 shall apply by analogy in the case
of a process for the manufacture of a known product
if the patentee shows prima facie evidence of
infringement of the patent.
WEST GERMANY
PART NINE.—INFRINGEMENT OF PATENT
Article 74
(1) A person who uses an invention contrary to
the provisions of Articles 6, 7 and 8 may be sued by
the injured party to enjoin such use.
(2) A person making such use intentionally or
negligently shall be liable for compensation to the

350a
injured party for the damage suffered therefrom. If
the infringer has acted with only slight negligence,
the court may fix, in lieu of compensation, an
indemnity being between the damage to the injured
party and the profit which has accrued to the
infringer.
(3) In the case of an invention whose subject
matter is a process for the production of a new
substance, any substance of the same nature shall, in
the absence of proof to the contrary, be deemed to
have been produced by the patented process.
NEED FOR MODERNIZATION OF
U.S. PROCESS PATENT LAW
The United States has historically given
different treatment to product and process patents,
while so many other industrialized countries give
uniform, full protection to both. The Commissioner of
Patents and Trademarks, Donald Quigg, has
suggested that the U.S. patent system is older than
many of the European systems and that the ultimate
historical origin of the omission of process patent
protection may have been simply that in earlier
commercial eras processes had not become so
significant as they are in the present high-technology
milieu. At the same time, adjacent European
countries would become more aware more quickly of
importations of products made outside by processes
patented in the receiving country.
Many industrial countries, Japan and
Germany for example, have only recently adopted
product patent protection in the pharmaceutical area,
having previously confined patent protection on drugs
to the processes used to make them, in the interest of

351a
promoting wider and easier availability of medicines
for their populations. Thus when a new medicine
comes on the market, competitors would only have to
find a new way to produce it and could go on the
market immediately, without waiting for any patent
on the medicine itself to expire. Because it was the
only form of protection allowed for pharmaceutical
products, broader process patent protection was
developed in those countries, covering not only
domestic use of the process, but also importation, use
or sale of the products obtained from the process. On
the other hand, when Germany and Japan (in 1967
and 1975 respectively) broadened their laws to cover
pharmaceutical product patents, they did not
eliminate patent protection of processes and their
resulting products.
Most countries that provide process patent
protection extending to the products have also
established a rebuttable presumption shifting the
burden of proof to the defendant if the plaintiff
presents evidence meeting some threshold of
reasonable likelihood that the product was made by
the patented process (France and Sweden are the only
exceptions). However, many of these countries add a
limitation that this presumption is only available in
the case of processes for making “new” products. By
contrast, as discussed further below and in the
sectional analysis, S. 1200 allows the rebuttable
presumption in any process patent infringement
action under the bill, on the theory that every
genuinely novel and useful (hence patentable) process
invention deserves the full protection of the law,
regardless of whether the resulting product is new or
not. The example of the biotechnology industry is
relevant here, in its efforts to develop recombinant

352a
DNA processes to produce already existing natural
substances such as growth hormones. Another point
of difference, again discussed at length below, is the
limitation in the process patent laws of most
industrialized nations to products made “directly”
from the process; Japan and Sweden are the only
exceptions to this rule. S. 1200 introduces a new
phrase, “materially changed by subsequent processes;
or ... becomes a trivial and nonessential component of
another product,” to serve the same general purpose
of restricting the scope of the bill to exclude ultimate
products that, because of intervening manufacturing
steps, cease to have a reasonable nexus with the
patented process.
An integral part of the debate on strengthening
U.S. process patent protection has been the
alternative remedy under the trade laws against
importation. of products made abroad using a process
patented in the United States (Section 337a of the
Tariff Act of 1930, 19 U.S.C. 1337a). Section 337
originated in 1922 as an antidote to a range of unfair
methods of competition in import trade. It was
not widely used until the 1974 strengthening
amendments providing for more timely and effective
remedies, the principal change being that the ITC was
given full authority to order remedies, subject only to
veto by the President for policy reasons. In process
patent cases brought before the ITC, the available
remedies under section 337a are exclusion of the
goods from entry, and, if the goods have already
entered, cease and desist orders against particular
firms that have received them.
In order to obtain these remedies from the ITC,
the complainants must show that their patented

353a
processes were used in manufacturing the imported
products, that an efficiently and economically
operated industry utilizing the patent exists in the
United States, and that the imported product had the
effect or tendency of destroying or substantially
injuring the domestic industry. After making these
findings, the ITC must in addition decide that
enjoining the importation of the infringing goods is in
the public interest. Only then can the ITC provide
relief to the process patentholder; and even then, its
decision is subject to a binding Presidential veto.
The ITC, unlike a Federal court in a patent
infringement suit, can award no damages. Payment
of damages to the patentholder has the effect of
compensating inventors and penalizing infringers for
the economic injury due to the infringement, and also
acts as a deterrent against future infringements.
Furthermore, the tests that must be met to win an
ITC order excluding the infringing products are more
elaborate than in a Federal court action where all
that is necessary is to show infringement. The
requirement in the ITC proceeding to show that the
importation of infringing goods is causing substantial
injury to an efficiently run domestic industry requires
the patentowner to show more than infringement.
The patentee must show that there is an industry in
the United States which generally means that the
patentholder must practice a patented process
commercially in the United States before he may
enforce it. Morever, the industry must be efficiently
and economically operated. The patentee also must
show sufficent harm to justify relief. These
requirements utilize an approach that has never been
a part of our patent system. Instead, our system is
based on the conviction that the public is well served

354a
by the disclosure of the invention in return for a
limited period of the exclusivity for the inventor, even
if the latter chooses not to commercialize the
invention during this period.
A hypothetical example illustrates this
difference. Suppose an American company has
obtained a process patent. The issued patent discloses
the details of its new process for all the world to see.
But for one reason or another, the American company
has not yet been able to begin marketing the product.
In that situation, the company may be unable to prove
the existence of establishment of a domestic industry,
and therefore unable to stop foreign pirates who use
the published process and import the resulting
products for sale in this country. A similar
predicament might beset a university that obtains a
process patent but is still involved in negotiations
with potential licensees. To be sure, there may
be some scope in a Section 337 investigation for
treating impairment for prevention of a domestic
patentholder’s efforts to establish an industry here as
substantial injury. But this whole issue simply does
not arise in an ordinary infringement suit under the
patent laws, where the only question is whether a
valid patent has been infringed.
Even where the process patent has engendered
an efficiently run domestic industry, the patentholder
has the additional burden of showing that the
industry has been injured by the entry of infringing
articles. This circumstance was illustrated in the
recent Corning case against Sumitomo before the ITC
(In the Matter of Certain Optical Waveguide Fibers;
Investigation No. 337- TA-189). Corning succeeded in
establishing that its patents were valid and were

355a
being infringed by Sumitomo’s imported products.
Further, it proved that two legitimate domestic
industries, efficiently and economically operated, had
grown under the Corning patents. However, because
the ITC found that Sumitomo’s infringing imports did
not substantially injure either of those domestic
industries, it found no violation of Section 337, and
Corning was unable to obtain any relief.
Finally, in the best of circumstances, where the
full ITC remedy is obtained, the patentholder is
saddled with an expensive and burdensome
proceeding, with no prospect of having his injury
compensated, only brought to a hold prospectively. By
the same token, the ITC remedy has little deterrent
value. Foreign manufacturers are not punished for
simply infringing U.S. process patents by importing
their products into the country until they are enjoined,
with no further penalty. Still, the ITC forum will
remain a useful supplement in process patent
infringement situations after S. 1200 is enacted. The
ITC can provide speedy and comprehensive injunctive
relief (covering many ports of entry in a single
proceeding) while the patentholder awaits the outcome
of the trial in the federal court to obtain damages.
In fact, measures under consideration within
the Senate Trade Bill incorporate S. 486, introduced
by Senator Lautenberg and others, which would lower
some of the standards that must be met in an ITC
process patent infringement investigation, such as
eliminating the injury requirement. None of these
proposals, however, are conceived by their advocates
as being a substitute for achieving the needed
modernization of the patent laws themselves that
allows infringement by importation of goods made

356a
abroad using a patented process. Commissioner
Quigg concurs with this view in his statements on the
issue: “Although ITC proceedings are an important
adjunct to enforcement of patent rights, they should
not be the sole remedy available to process
patentholders against competition from offshore
manufacturers.2 Commissioner Quigg has also stated:
... I think it is important to keep 337,
because that is a short-term compact operation
which the patent owner can use to prevent the
market from slipping away to foreign
manufacturers. Patent litigation in the Federal
courts is a more prolonged thing. It is not likely
that you would be able to get a preliminary
injunction during the litigation, and therefore
the 337 approach does have a benefit for U.S.
patentholders.3
It is worth noting that the ITC itself has in the past
recommended that a distinction be maintained
between the patent-type protection for process
inventions that is sought in S. 1200 and the tradetype protection currently afforded by ITC
adjudications in process patent proceedings. The
Commission has asserted that its principal expertise
is in micro-economic analysis of industrial
competitiveness and the trade situation, factors that
would not necessarily have a bearing on the pure
issues of patent validity and enforcement considered
in straight infringement cases before the federal
courts. Some experts analyzing process patent
2 “Process Patents,” Hearings on S. 1543 before the Senate
Judiciary Subcommittee on Patents, Copyrights and
Trademarks, 99th Congress, 1st Session, p. 12.
3

Ibid., p. 43.

357a
legislation, on the other hand, maintain that the ITC
remedy in its current form is adequate and the
appropriate way of addressing the problem of
infringing importations. They point out that ITC
exercises in rem rather than in personam jurisdiction:
its orders go only to the goods themselves that are
being imported and used or sold here. These experts
contend that this focus on the goods is fair because
once the goods have passed beyond the hands of the
original manufacturer, the persons handling them
can no longer be assumed to be knowledgeable of the
process used to make the goods. This situation differs
from the analogous one involving product patents,
because in a case involving product patents, the
person holding the goods actually has in hand
everything necessary to ascertain whether there is
infringement of a patent. A comparison of the tangible
item with the description and diagrams in the patent
itself may well reveal an infringement. In the process
patent situation, the persons holding the goods after
they have left the manufacturer do not have in their
hands the specific infringing element, the process by
which the product was made at some point in the past,
and it is not always possible to deduce the exact
process that was used by an analysis of the product at
hand.
IMPLEMENTATION OF PROCESS
PATENT LEGISLATION
In approving S. 1200, the Committee rejects
the view that the U.S. purchaser from an overseas
manufacturer who makes goods using a process
patented in the United States has no responsibility
for the patent infringement involved. On the whole, it
should be the burden of business entrepreneurs who

358a
purchase goods to check beforehand for possible
infringement, whether of product or process patents.
They do so, now in the case of product patents, and S.
1200 will encourage them to do so with respect to
process patents. It is reasonable to expect that the
more conscientious and legitimate importers would
indeed concern themselves to a greater degree with
the question of whether the goods they are importing
infringe a U.S. patent, if S. 1200 is enacted, because
such importers may find themselves otherwise
emmeshed in litigation that may be more expensive
than the importation is worth to them.
The primary target of the U.S. process
patentholder will naturally be the manufacturer, who
is practicing the process and importing the resulting
goods into the United States. If that manufacturer is
subject to the jurisdiction of the U.S. courts then it
would be the preferred defendant because of its direct
knowledge of the process. Since the manufacturer
may not be subject to jurisdiction, S. 1200 also allows
the patentholder to sue the persons receiving the
goods in this country in the belief that they may be in
the best position, apart from the manufacturer, to
determine how the goods were made. The U.S.
purchaser may protect itself in a number of ways: by
specifying in the contract how the goods are to be
made, or by eliciting a contractual commitment from
the foreign manufacturer either to come into the U.S.
courts itself to defend an infringement suit or to
indemnify the purchaser against such a suit. See also
Section 2-312(3), Uniform Commercial Code (implied
warranty against patent infringement).
At the same time, the Committee is sensitive to
the special difficulties that may attend a charge of

359a
process patent infringement for persons who import,
use or sell the products but do not themselves practice
the process. The Committee is also sensitive to the
concern that the bill might be abused for aggressive
business purposes to harass U.S. competitors whose
operations depend on importing goods from overseas.
S. 1200 is intended to be a strong disincentive to the
importation, use or sale of products that are made by
an infringing process, but it should not simply be a
weapon for patent-holders to use indiscriminately to
try to stop all entry of products that compete with
products made by their patented process. Only goods
made by an unauthorized use of the patented process
should be threatened by the bill. With a view to
addressing those concerns about potential abuse by
patentholders, and undue burdens on defendants in
actions brought under S. 1200, the Committee devised
a system of damage limitations for different classes
of defendants, incorporated a new procedure
encouraging advance communications between
process patent owners and purchasers or importers of
goods in order to encourage infringement avoidance,
and established a notice requirement structured to
insure that the alleged infringer receives enough
information to allow a reasonable assessment of
whether the goods are being manufactured by a
process patented in the United States.
The Committee-approved bill envisions three
types of infringers:
(1) The manufacturer who uses the process
without authorization who is fully liable under the
bill if he engaged in importing, using or selling the
resulting product in the United States.

360a
(2) An infringing importer, user or seller who had
knowledge before the infringement that a patented
process was used by the manufacturer to make the
product which the importer or retailer uses or sells is
fully liable under the bill and is not able to utilize the
modifications of damages and other remedies
available under the bill for innocent infringers.
(3) An innocent (i.e. unknowing) infringing
retailer or importer, user or seller who does not
himself use the process, is entitled to take advantage
of the limitations on damages and other remedies
available under S. 1200.
As was mentioned earlier, S. 568 is the same as
S. 1543 of the 99th Congress, which unanimously
passed this Committee and the Senate but which
failed to become enacted during the hectic closing
hours of Congress last year. S. 1200 follows the same
general philosophy as S. 568. In S. 568 and in S. 573,
damages only lay for infringements that occurred
after notice. Moreover, such damages were limited by
an 18-month grace period for retailers and a 6-month
grace period for non-retailers with respect to the
disposal of inventory. During those time periods,
damages would have been limited to reasonable
royalties in order to give the notice recipient sufficient
time to dispose of inventory and make rational
business decisions without unnecessarily exposing
himself to potentially damaging risks.
Those 6-and 18-month periods were criticized
by some as “compulsory licenses.” The Committee did
not interpret reasonable royalties for inventory for a
limited period of time to constitute even an extremely
loose conception of a compulsory license. In fact, the
phrase “compulsory license” implies an ongoing right

361a
of the licenses to do business in perpetuity without
permission from the patent owner. Such a right has
no place in U.S. patent law, and no such right was
contemplated in S. 1543 or S. 568. Nevertheless, the
Committee changed the legislation in order to
accommodate the concerns of the parties who raise
this issue. Thus, S. 1200 does not contain any such
mention of time periods nor does it require any
payment to the patentholder with respect to
inventory disposal. Instead, S. 103(a)(2) provides that
there are no remedies for infringement under this bill
for product in possession, in transit to, or for which
there is a binding commitment to purchase and which
has been wholly or partially manufactured prior to
notice of infringement.
However, if the notice recipient maintained or
ordered an abnormally large amount of infringing
product, the amount of product constituting the
excessive inventory is subject to an infringement
action. This Committee continues to believe that the
aforementioned 6-and 18-month inventory provisions
of S. 1543 and S. 568 are reasonable. Thus, we would
encourage the courts to presume that a party who
maintains or orders an amount of infringing product
that cannot be used or sold after notice within 18
months by retailers or 6 months by non-retailers, is
either maintaining an abnormally large inventory or
is attempting to take advantage of the limitations of
this bill. Such a finding would still permit the use or
sale of 6 and 18 months of product without liability,
but would put an infringer at risk for the amount of
product in excess. Similarly, we encourage the courts
to presume that the 6-and 18-month inventories are
reasonable and that a party should not be subject to
liability for such an inventory unless he was

362a
otherwise attempting to take advantage of this
section or lost this limitation for other reasons, such
as lack of good faith or actual knowledge.
Under S. 1200, a party planning to import a
product which is the same as a currently produced
product may make a request for disclosure to the
current manufacturer. This request asks the
manufacturer to list all process patents owned by or
licensed to the manufacturer as of the time of the
request that the manufacturer then reasonably
believes could be asserted to be infringed. In the
normal case, the manufacturer will respond to the
request with a list of process patent numbers, and the
potential infringer will use this information to advise
his supplier of what processes to avoid using. Failure
to present the information received from a request for
disclosure to the supplier will result in a finding that
the potential infringer had notice of infringement,
such that remedies for infringement will be available
with respect to any goods imported beyond that time.
Defending against patent infringement
charges is a normal burden of doing business in
America and around the world in the technologically
sophisticated commercial conditions of the 1980’s.
The limitations on damages in S. 1200, combined with
the advance disclosure procedure, should eliminate
the possibility of aggressive use of process patent
infringement charges to harass innocent purchasers
(whether in fact infringing or not). The remedy
limitation here is not to be construed as a compulsory
license, nor as a precedent for other areas of patent
law or types of patent infringement. The Committee
finds the “grace period” policy to be justified only in
the context of a bill intended to strengthen process
patent protection. It is justified because of the elusive

363a
character of process inventions, from the standpoint
of infringers who are involved only with the resulting
products and not with the use of the process itself.
From the beginning of congressional consideration of
process patent reform in 1983 all proponents of the
legislation have accepted the restriction of the scope
of the bill to exclude innocent (i.e. unknown)
infringing activity that occurs before the infringer is
on notice. The remedy limitations are simply a
mechanism for realizing this principle in practice by
allowing the unknowing infringers, once notice is
established, to sell a reasonable amount of inventory
accumulated prior to notice with limitations on their
exposure to damages. The temporary grace periods
have as their sole purpose to allow the infringer to rid
himself of products he had purchased and fulfill
business commitments made prior to the time he had
notice of the infringement of a U.S. process patent,
and to either close down his business in this time or
to find an alternative source of supply that does not
infringe the patent. The remedy limitation is only
available once for a given product: if the importer,
wholesaler or distributor chooses to shift to a different
supplier, he will be fully liable from the time of notice
should the process patentholder bring another action
against him with respect to the same product. Of
course, the importer or retailer must be an innocent
infringer, i.e. not have knowledge that the products
were made by the patented process, to be eligible for
the remedy limitation.
Similarly, the treatment of retailers should not
be construed as an unlimited compulsory license, but
as a temporary reprieve to allow them to move to noninfringing suppliers and liquidate their inventory
without disrupting their businesses. Infringers fall

364a
into this category only if they obtain the illicit goods
from a party in the United States who does not use
the patented process. If a retailer has resources to
send agents to other countries to seek suppliers, then
he should be able and willing to exercise more
vigilance. By using the request for disclosure
procedure, he may seek out legitimate manufacturers
who do not avail themselves of processes patented in
this country to make products intended for export to
this country. However, the Committee recognizes that
in some cases, it may not be useful for retailers to
avail themselves of the request for disclosure
opportunity. Therefore, S. 1200 clarifies that while it
is generally evidence of good faith when a party
requests disclosure, the failure to request disclosure
is not absence of good faith if there are mitigating
circumstances. For example, for many retailers, due
to the nature of the product, the number of sources for
products, or like commercial circumstances, a request
for disclosure may not be necessary or practicable as
a means to avoid infringement. The rationale in S.
1200 is to shelter only purchasers who are remote
from the manufacturer and not in the position to
protect themselves in contracts with the party who is
actually using the process.
While this new request for disclosure procedure
will assist in avoiding intimidation of potential
innocent infringers, it should be noted that the
problem of using patents for illegitimate purposes of
harassment is neither new nor limited to process
patents. The Committee notes that the courts are not
powerless to deal with the problem. For example, the
federal judiciary, under Rule 11 of the revised Federal
Rules of Civil Procedures, has lately taken a more
stringent attitude toward an attorney’s responsibility

365a
to investigate the soundness of a complaint before
filing it. And the patent law itself allows the court, in
an appropriate case, to order a patent owner to pay
his adversary’s attorney’s fees and other expenses.
An additional safeguard against abuse of S.
1200 is the requirement that the notification from the
patent holder charging the party with infringement
must provide a specificity of information that will
permit the accused party to make a reasonable
business decision as to whether to continue his
activities or seek a new source for the product. Notice
of infringement occurs when the alleged infringer has
a combination of information sufficient to persuade a
reasonable person that it is likely that a product was
made by a patented process. This combination of
information will include actual knowledge which may
be acquired from the request for disclosure procedure,
the information contained in the notification from the
patent holder and any other information known to the
accused relevant to the issue of infringement. In
issuing a notification, the patentholder must specify
the patent alleged to have been used and the reasons
for a goodfaith belief that such process was used. If
the patent holder has actual knowledge of any
commercially feasible process other than the patented
process which is capable of producing the allegedly
infringing product, the notification shall set forth
such information with respect to the other processes
only as in reasonably necessary to fairly explain the
patent holder’s belief and is not required to disclose
any trade secret information. Thus, even if the
patentholder decides to bring suit, unless his filing
includes this information, he will be deemed to have
served notice. Neither a vague unspecified claim of
infringement, nor even a lawsuit embodying such a

366a
claim would suffice for notice of infringement; only a
specific claim articulating the reasons for believing
the patented process has been used, would expose the
defendant to damage liability. The Committee
anticipates that the difficulty of making this kind of
showing will tend to discourage use of the new cause
of action for the purpose of “business aggression.”
Once the recipient of notice knows the exact
patent or patents in question, and the reasons
indicating that the process they cover was used in
manufacturing the goods, he will be able to evaluate
the claim, confer with the foreign manufacturer (or
other supplier) and decide whether to discontinue
importing goods or defend an infringement claim. The
proposed notice requirements goes far beyond the
norm for product patent cases (or for that matter
process patent infringement cases under existing law)
but the higher threshold is justified here, in the
Committee’s judgement, because of the special
difficulties that may arise from the fact that the
process was used by a party other than the defendant.
The notice provision of S. 1200 is not intended as a
precedent for other areas of patent protection. Despite
its greater stringency, the Committee expects that the
serving of notice will still fulfill its traditional role of
avoiding the need for litigation in many situations.
Beside the extended notice requirement and
damages limitations, S. 1200 includes two further
protections for potential defendants: a grandfather
clause stating that the bill shall not abridge or affect
the right of any person to continue to use, sell or
import products already in substantial and
continuous sale or use in the United States on May
15, 1987, and a provision calling on the Department

367a
of Commerce to report annually to Congress during
the first 5 years after enactment on the effect of S.
1200 on any domestic industries that submit formal
complaints about interruption of legitimate sources of
supply.
In reference specifically to the concerns voiced
by the generic drug industry about the effects of S.
1200 on their overseas supplies, one potentially
valuable resource is the Food and Drug
Administration. It is the Committee’s understanding
that whenever a generic drug company applies for
FDA approval of a new generic medicine, the FDA
begins a Drug Master File (DMF) collecting among
other things information from the supplier about the
processes involved in generating the materials sold to
and subsequently used by the generic company. The
DMF is a confidential file, not available to the public
or even to the generic company for inspection. The
DMF is complied from information supplied directly
to the FDA from the manufacturer and from
inspections by FDA personnel in the factories of the
manufacturer. However, if the file can be obtained by
the U.S. courts under a protective order without
violating any other provisions of law, it could be used
to assist the court in resolving whether the patented
process was used in making the goods in question. It
might alleviate the need to rely on indirect forms of
evidence, such as chemical analysis, to trace the
process used.
The debate on the presumption clause in
Section (4) of the bill goes back to the 98th Congress.
At that time the Judiciary Committee reported a
process patent measure without including the
presumption in the text of the bill but indicating

368a
instead in the report that the Committee expected the
courts to apply a presumption where warranted.4 In
the present Congress, the Committee decided to
accede to the strong recommendations of the
Administration and the industry advocates of the bill
to include presumption in the statute itself.
The presumption would place the burden of
proof on the defendant to come forward with evidence
that the goods in question were not made by using the
plaintiff’s patented process after the plaintiff has
made a reasonable but unsuccessful effort to
ascertain the process actually used, and further has
established a substantial likelihood that the goods
were made by that process. The presumption
mechanism stems from the basic principle behind the
bill, that the U.S. purchaser of the goods is in the best
position to make the arrangements necessary with
foreign manufacturers and suppliers to assure that
U.S. process patents are not violated. The Committee
envisions that the plaintiff would make informal
inquiries to the foreign manufacturer of the product
(if identifiable) or make reasonable attempts to use
the discovery procedures available in the foreign
countries. Certainly, the presumption clause
attempts to strike a balance. Presumptions should not
be casually established. To ensure that an unfair
burden is not imposed on importers and distributors
of noninfringing products, any provision dealing with
this subject should, at a minimum, require the
patentee to demonstrate, on the basis of available
evidence, that a substantial likelihood exists that the
product was produced by the patented process and,
further, that a reasonable but unsuccessful effort was
4

Senate Report 98-663, 98th Congress, 2nd Session, p. 6.

369a
made to determine that the process was actually used
in the production of the product. To establish a
substantial likelihood, for example, a patentee might
show that the patented process was the only known
method, or the only commercially practical method,
for producing the product, or that physical evidence,
such as the exact chemical composition of the product,
indicates the use of the patented process. A
reasonable effort requirement could easily be
satisfied in the United States through our discovery
procedures. For a foreign manufacturer the patentee
would have to take some reasonable step, such as
writing to the manufacturer, to determine how the
product was made and to have been unsuccessful in
this regard. The reasonableness of the effort would
depend on the facts of the case but should generally
avoid the need for such measures as letters rogatory
or suits in a foreign country. Exactly how much
evidence will be needed in particular situations to
satisfy the “substantial likelihood” condition will
depend on the circumstances. However, the
patentee’s burden would be less than that of proving
successfully at trial by a fair preponderance of the
evidence that a product in question was in fact made
by the patented process but would be more than a
slight possibility that the product was so made.
Most of our trading partners that extend
process patent protection to the products made by the
processes do also provide for a rebuttable presumption
for shift in the process burden of proof. But many of
them also limit the application of the new presumption
to processes for making “new” products. The
drawbacks of this approach may be illustrated by the
recombinant DNA processes for producing naturally
occurring substances, which cannot themselves be

370a
patented and which are in no sense “new.” Thus, this
approach would deprive some of the most important
process innovators of the value of the presumption.
The Committee rejects this approach because there is
no clear justification for discriminating against
certain types of process inventions. In order to secure
a patent, a new process must be deemed useful, novel
and unobvious—the same criteria that are applied to
product inventions. If a process invention satisfies
these criteria, then it is in the interests of society to
have it publicly disclosed in return for a limited period
of exclusivity for the inventor, regardless of whether
the process leads to a “new” or “old” product. A good
example of the latter was presented to the House
Judiciary Committee during a hearing on this issue
by Genentech Corporation; a new, more economical
process they have developed in conjunction with
Lubrizol Corporation for producing Vitamin C.5
Enactment of S. 1200 would help Genentech protect
itself against an influx of Vitamin C produced abroad
by means of their economical new process, and
produced all the more cheaply because the foreign
manufacturer had no R&D expenses in procuring the
process. But under the “new product” approach,
Genentech would not benefit from the presumption
clause in bringing suits for such infringement of its
process.
Most of the foreign patent statutes that extend
process protection to the product resulting from the
Statement of Thomas D. Kiley, Esq., Vice President,
Corporate Development, Genentech, Inc., before the House
Judiciary Subcommittee on Courts, Civil Liberties and the
Administration of Justice, February 19, 1986 (Hearing on
“Intellectual Property and Trade.” 99th Congress, Serial
Number 60).
5

371a
process also include the limitation that the product
must be made “directly” from the process. The
significance of this qualification is discussed at length
in the section-by-section analysis. The basic point is
that if a final product has undergone a material
change after being initially produced by the patented
process, then it should no longer be covered within the
scope of protection offered by S. 1200.
Some parties urged the Committee to include
the word “directly” in the statutory language of the
bill, making the U.S. law conform to the norm of
industrialized nations and insuring that process
patent protection does not become too broad. A
number of industry advocates of the bill on the other
hand were concerned that including the word
“directly” might unduly restrict the scope of the bill if
it were interpreted narrowly to exclude products that
had been altered in trivial ways after the stage of
manufacture where the patented process was used.
The Committee concluded that both parties were
seeking the same balance, and reached the decision to
exclude products that had been “materially changed
by subsequent processes; or ... become a trivial and
nonessential component of another product.”
Inevitably the courts will have to assess the
permutations of this issue of proximity to or distance
from the process on a case-by-case basis. The sectionby-section analysis offers guidance and examples for
the interpretation of this provision.
Because of our obligations under the GATT
treaty to refrain from trade discrimination, the
process patent bill was crafted to apply equally to the
use or sale of a product made by a process patented in
this country whether the product was made (and the

372a
process used) in this country or in a foreign country.
As explained earlier, the bill is prompted by the use
of patented processes in other countries followed by
the importation of the resulting products into this
country. The use of the process in this country is
already an act of infringement under existing patent
law, and such an infringing party would be subject to
the jurisdiction of the U.S. courts. Thus the inclusion
of domestic process patent infringement in the scope
of a bill to extend protection to the products is
regarded by the Committee as a formality to conform
to the GATT, with little or no practical consequences
in patent enforcement. The American Bar Association
suggested in a letter to the Committee6 that an
alteration should be made in the presumption clause
to make clear that if a suit is brought under the bill
against a purchaser of goods made domestically by
infringing a process patent, then the presumption is
not applicable since there is no obstacle to obtaining
discovery to determine the process used to make the
goods. The Committee accepts the ABA’s reasoning
that the presumption should not be operative in this
situation, but concludes that no change in the
language of the bill is necessary. The presumption
would never apply in the situation of domestic process
patent infringement because a reasonable effort on
the part of the plaintiff would require obtaining
discovery against the manufacturer who is actually
practicing the process in this country and who is
therefore subject to the U.S. courts’ jurisdiction, as
Letter from Jan Jancin, Jr., President, ABA Section of
Patent, Trademark and Copyright Law, to Senator Mathias,
March 10, 1986. Printed in “Process Patents,” Hearing on S.
1543 before the Senate Judiciary Subcommittee on Patents,
Copyrights and Trademarks, 99th Congress, 1st Session, pp.
266-8.
6

373a
might not be the case with foreign manufacturers. In
any case, the Committee does not expect or intend the
bill to be used to sue purchasers of the product, when
the infringing manufacturer can be sued instead.
Concerns were raised, at a Senate hearing and
elsewhere, that process patent legislation would
undermine the Drug Price Competition and Patent
Term Restoration Act, which became law in the 98th
Congress (P.L. 98-417). Generally, this law combined
an expedited procedure for FDA approval of generic
imitation on brand-name drugs. The generic
companies contended that if their supply of raw
materials from overseas sources is reduced by process
patent infringement suits, then the goals of P.L. 98417 would be undermined. With the protections built
into the substitute approved by the Committee, the
generic pharmaceutical industry now supports S.
1200. It should be recognized, in particular, that the
grandfather clause gives an exception for the many
new generic medicines that have been approved or
whose applications have been submitted to the FDA
during the period between enactment of P.L. 98-417
(signed into law on September 24, 1984) and May 15,
1987.
Once the patent on a brand-name drug has
expired, anyone is free to make, use or sell the product
(assuming FDA clearance), but if there is an
unexpired patented process for making the drug, then
other parties must find a different way to make it.
Again, in order to obtain a patent, the process must
be novel, useful and unobvious, an invention whose
disclosure would benefit the public as envisioned in
the Constitution. To obtain a process patent on a
useful, new way to make a medicine is not to prolong

374a
or “evergreen” the product patent on the medicine
itself, even if the patentholder for the process and
original product is the same inventor. No responsible
critic of S. 1200 has ever maintained that goods made
abroad by a process patented in the United States
should be allowed to come into the United States to
benefit competitors of the process patent-owner. To
the extent that this is happening at present, S. 1200
is indeed intended to cut off such lines of supply, and
to expose the beneficiaries, after adequate notice, to
damage liability for their actions. The only issue has
been whether the bill could also be used to cut off
other, legitimate supplies from overseas, and in
response to this concern the Committee has fashioned
an elaborate system of pre-disclosure safeguards and
limitations.
D. SECTION-BY-SECTION ANALYSIS
SECTION 101
Section 101 amends Section 154 of title 35,
United States Code, by adding to the present rights
held by the patent owner, the right to exclude others
from using or selling throughout the United States, or
importing into the United States, products made by a
patented process.
SECTION 102
Section 102 amends Section 271 of title 35,
United States Code, by adding a new subsection (g).
This subsection provides that whoever without
authority imports in the United States or sells or uses
within the United States a product which is made by
a process patented in United States is liable as an
infringer.

375a
Since a process patentee can already prevent
the use of the patented process by domestic
manufacturers, the primary effect will be on foreignmade goods. These amendments will not give
extraterritorial effect to U.S. law. U.S. patents will
not prevent foreign manufacturers from using abroad
the process covered by the U.S. patent, so long as the
products they make thereby are sold and used abroad.
But the amendments will prevent circumvention of a
U.S. process patentee’s rights through manufacture
abroad and subsequent importation into the United
States of products made by the patented process.
Specifically, the Committee does not intend
that it shall be an act of infringement to import a
product which is made by a process patented in the
United States “solely for uses reasonably related to
the development and submission of information
under a Federal law which regulates the
manufacture, use or sale of drugs.” See 271(e)(1) of
title 35, United States Code. Congress previously
decided that certain actions do not constitute patent
infringements and this Act does not change that prior
policy decision.
The bill provides that no remedy may be
granted for infringement resulting from the
noncommercial use or retail sale of a product unless
there is no adequate remedy on account of the
importation or other use or sale of that product. The
purpose of this provision is to protect retail sellers and
the consumers who purchase products at retail for
personal use and consumption from damages for
infringement if adequate relief is obtainable from
more involved parties.

376a
The Committee intends the limitations on
remedies against “noncommercial users” to be for the
protection of those purchasers who enjoy personal use
and consumption of the product produced by the
allegedly infringing process, such as the patient who
consumes a drug product or a home gardener who
sprays a pesticide. The Committee does not intend
this protection to be enjoyed by a party who uses a
product produced by an allegedly infringing process
in the production of another product, or who
otherwise engages in further manufacturing,
processing, or other industrial or business use of the
product, other than that which may fall under the
provision of Sec. 287(b)(2).
It should be noted that many of the “products”
produced by patented biotechnology processes are
themselves “used” in the manufacture of another
product which is introduced into commerce. Consider
a process patent held on a method for preparing a
plasmid or other vector. The use of the plasmid or
vector to insert a new gene into a living cell,
instructing the cell to produce an important human
protein (such as insulin or interferon) which will then
be separated from the fermentation mash, purified,
and packaged into single dosage forms, is a
commercial use and is ineligible for the limited
protection granted to non-commercial uses. The field
of biotechnology is particularly susceptible to
commercial “uses” without sales. For example, a
patent may cover a process for producing a
microorganism using recombinant DNA technology.
The microorganism is then used to produce a
particular commercial end-product of great value. The
bill’s provisions limiting remedies against users are
not intended to apply to such commercial uses. The

377a
Committee believes that without expeditious
remedies against use-based infringement, merely
stopping importation and non-retail sale of the
microorganism after its entry into the country fails to
prevent commercial use of the microorganism.
An understanding of the statement that “A
product which is made by a patented process will, for
purposes of this title, not be considered to be so made
after—(1) it is materially changed by subsequent
processes; or (2) it becomes a trivial and nonessential
component of another product” is critical to
understanding the scope of this legislation. The
Committee intends a specific two- hase test to be
implemented.
Many foreign patent statutes extending
process protection to the product resulting from the
process include the limitation that the patented
product be made “directly” from the process. They use
the word “directly” to exclude as an infringement the
importation, use or sale of a product which is
materially changed from the product resulting from
the patented process by subsequent steps or
processes. An example of the problem the Committee
is addressing in this section is the extraction of
minerals from the earth. These minerals may later be
used to manufacture materials, which are still later
embodied in components, which are in turn used in
the assembly of the product in question. In this
instance, the minerals have been “materially
changed” within the meaning of this section.
The Committee agrees that once a product has
been
materially
changed,
then
subsequent
purchasers, users and sellers should no longer be
liable for process patent infringement. However, the

378a
Committee decided against including the word
“directly” in the statute out of concern that the word
“directly” might have been construed too broadly and
possibly exempt too many products that have been
altered in insignificant ways after manufacture by the
patented process. These products ought to be treated
as infringing under the bill. The Committee expects
the courts to exercise careful judgement in
distinguishing those products that are too far
removed from the patented process, and those that
have been changed only in insignificant ways. The
Committee believes that the courts will be in a better
position to settle such issues without the standard of
“directly” constraining their judgment.
The inclusion in the standard of the words
“trivial and nonessential component” will further
assist the court in distinguishing products that are
too far removed from the patented process.
In order to give the courts Congressional
guidance in what may be a difficult determination,
the Committee notes that the bill would establish the
following two-phased test:
1. A product will be considered made by the
patented process regardless of any subsequent
changes if it would not be possible or commercially
viable to make that product but for the use of the
patented process. In judging commercial viability, the
courts shall use a flexible standard which is
appropriate to the competitive circumstances.
2. A product will be considered to have been
made by a patented process if the additional
processing steps which are not covered by the patent
do not change the physical or chemical properties of

379a
the product in a manner which changes the basic
utility of the product by the patented process.
However, a change in the physical or chemical
properties of a product, even though minor, may be
“material” if the change relates to a physical or
chemical property which is an important feature of
the product produced by the patented process.
Usually, a change in the physical form of a product
(e.g. the granules to powder, solid to liquid) or minor
chemical conversion, (e.g., conversion to a salt, base,
acid, hydrate, ester, or addition or removal of
a
protection group) would not be a “material” change.
It is only those who import, use or sell a product
after it has been materially changed or has become a
trivial or nonessential component of another product
who may avoid liability for process patent
infringement. Even with that general guidance, the
courts may frequently find themselves in a quandary
on this most important phrase. There will be cases
where the product has clearly been materially
changed or become trivial and nonessential, under the
two-phase test, and others where it clearly has not;
however, many instances will be less clear. Some
examples may help provide additional resources to
the courts:
A metal strip with certain unique properties is
produced by a U.S. patented process. A foreign
competitor makes the strip using the process, then
turns the strip into a core, puts the core in a
transformer and imports the transformer into the
United States. Even if there were other commercially
or economically viable non-infringing processes for
making the strip, this is still a clearcut case of
infringement of the process patent that this Act is

380a
intended to prevent because the subsequent changes
would not be considered material. Similarly, taking
that metal strip and hear treating or annealing it in a
magnetic field would not change the product as to
avoid infringement.
If the patented process produces chemical X,
any person importing, using or selling chemical X is
liable for infringement.
If new entity, chemical Y, is produced from
chemical X as the result of a material change, the
court must also consider the other phase of the test
before deciding if Y is infringing or non-infringing:
If the only way to have arrived at Y is to have
used the patented process at some step, e.g.,
producing X as an intermediate, Y is infringing.
If there is more than one way to have arrived a
Y, but the patented process is the only commercially
viable way to have done so, Y is infringing.
If there are commercially viable non-infringing
processes to have arrived at X, the connection
between the patented process for producing chemical
X and the ultimate product, chemical Y, is broken,
and Y would be a non-infringing product having
satisfied both phases of the test.
In the biotechnology field it is well known that
naturally occurring organisms contain within them
particular genetic sequences composed of unique
structural characteristics. The patented process may
be for the process of preparing a DNA molecule
comprising a specific genetic sequence. A foreign
manufacturer uses the patented process to prepare
the DNA molecule which is the product of the

381a
patented process. The foreign manufacturer inserts
the DNA molecule into a plasmid or other vector and
the plasmid or other vecot containing the DNA
molecule is, inturn, inserted into a host organism; for
example, a bacterium. The plasmid-containing host
organism still containing the specific genetic
sequence undergoes expression to produce the desired
polypeptide. Even if a different organism was created
by this biotech procedure, if it would not have been
possible or commercially viable to make the different
organism and product expressed therefrom but for the
patented process, the product will be considered to
have been made by the patented process.
In the semiconductor industry, a manufacturer
may have a process patent for forming a
semiconductor structure in a semiconductor
substrate. Subsequent processing to complete and
finish the component does not materially change the
semiconductor substrate in which the semiconductor
structure formed. In addition, a court could determine
that the cost of a semiconductor component was
trivial in relation to the cost of the whole product, but
if that same component is essential to the intended
function of the whole product then it would be covered
by this title.
The Committees recognizes the concern raised
concerning possible overreach. One example is a
process patent for extracting minerals from the earth.
There is no intent that the minerals, eventually
refined, with the product ending up as a component of
an automobile which is imported into this country,
should subject the importer to an infringement action.
However, this must be distinguished from the
importation of the mined minerals themselves.

382a
Similarly, this must be distinguished from the case
wherein the patent covers a process for making shock
absorber. Even if that shock absorber is put into a
much larger and more expensive product, e.g., an
automobile, the patent owner could still sue the
importer of that automobile. Although injunctive
relief might not be appropriate under those
circumstances, some damage relief would be
appropriate, based, for example, on an apportionment
of the contribution of the infringing part to the value
of the whole product in which it is incorporated. Of
course, the importer and wholesaler have other rights
under this bill to limit liability, and the retailer may
avail himself of other provision of this bill and have
no liability for retail sales. Finally, there is no intent
whatsoever for the innocent consumer to even be
subject to suit.
SECTION 103
Section 103 amends Section 287 of title 35 by
adding a new subsection (b) with five subparagraphs,
which introduces limitations on the remedies available
to a process patentholder when infringement is based
on importation, sale or use of a patented process and
conditions associated with the eligibility of the
modification of remedies.
Paragraph (b)(1) provides that the modification
of remedies outlined in subsection (b) are not
available to three categories of infringers. For these
three categories of infringers, all of the provision of
title 35 relating to damages and injunctions apply.
Paragraphs (b)(1) (A) through (C) define those
infringers who are not entitled to any diminution of
the monetary and injunctive remedies normally
available to a patentholder. They include the party

383a
who actually carries out the process, or who controls
or is controlled by that party. Thus, those who are
closely connected with carrying out the process in the
manner outlined, are fully liable for any direct acts of
infringement they commit in the United States, as
well as for any acts of inducement of infringement or
contributory infringement committed through control
inside or outside the territorial limits of this country.
The bill is not intended to reward infringers who close
their eyes to facts that a reasonable person would see.
Similarly, it is not intended that a party should be
permitted to qualify for reduction of or immunity from
liability by intentionally avoiding the acquisition of
knowledge.
Existing section 287 of title 35 states that
damages for patent infringement may be recovered by
the patentholder either from the time he marks his
patented article with the patent number, or if he fails
to mark, from the time he serves notice to the
infringer. However, the courts have held that these
prerequisites for damages apply only to product
patents, and that persons who infringe a process
patent by using the process in this country are fully
liable from the beginning of the activity without
notice from or marking by the patent owner. The
Committee intends that this harsher standard apply
also with respect to process patent infringers who use
the process and engage in importing, using or selling
the products in the United States. This would apply
in a situation, for example, where a foreign
manufacturer who uses a process patented in the
United States but not in the country of manufacture,
itself imports the products for use or sale here. In that
situation, the foreign manufacturer would be liable
for damages from the outset of the infringing activity

384a
even without receiving notice of infringement from
the patent owner. Similarly, any party who knowingly
imports, uses or sells products made without
authority by a process patented in this country is fully
liable for damages running from the time he begins
knowingly engaging in such activity. On the other
hand, a foreign manufacturer is not liable under the
bill if he merely uses the process abroad (again
assuming the U.S. inventor has not also patented the
process in the foreign country) and sells the product
there with no knowledge that the buyer will
subsequently import the product here.
Paragraph (2) specifies that with regard to
infringers not excluded under paragraph (1), the
patentholder has no remedy for infringement with
respect to any product which was in the possession of,
or in transit to the party, of for which the party has
made a binding commitment to purchase and which
has been partially or wholly manufactured before the
party had notice of infringement. The Committee
intends that with respect to an infringer not excluded
under paragraph (1), the patentholder has no remedy
for infringement with respect to pre-notice inventory.
However, if the court finds that the party maintained
or ordered an abnormally large amount of infringing
product, or the product was acquired or ordered by the
party to take advantage of the limitation on remedies
provisions, the court shall limit the application of the
modification of remedies provisions to the reasonable
portion of the inventory. For the purpose of this
paragraph, an abnormally large inventory on hand or
on order shall be presumed to exist if it cannot be sold
in the normal course of the infringer’s business in 18
months if the infringer is a retailer or in 6 months in
any other case. Thus, courts should presume that

385a
maintaining or ordering an amount of infringing
product that cannot be used and sold after notice of
infringement within 18 months by retailers and 6
months by non-retailers is either maintaining an
abnormally large inventory or an attempt to take
advantage of the limitations of this bill. Such a
finding would still permit the use or sale of 6 and 18
months of product without liability, but would put an
infringer at risk for the amount of product in excess.
Similarly, the Committee encourages the courts to
presume that the 6 and 18 month inventories are
reasonable and that a party should not be subject to
liability for such an inventory unless he was
otherwise attempting to take advantage of this
section or lost this limitation for other reasons, such
as lack of good faith or actual knowledge.
Paragraph (3) provides that in an action
brought for infringement under section 271(g) of title
35, United States Code, the court shall take into
consideration the good faith and reasonable business
demonstrated by the defendant, the good faith
demonstrated by the plaintiff with respect to the
request for disclosure discussed below, and the need
to restore the exclusive rights of the patent-holder
through an adequate remedy.
During the discussions and testimony leading
to the adoption of this bill, the non-manufacturing
groups likely to use or sell imported products stressed
their need and desire to obtain information to assist
them in avoiding infringement. A procedure to assist
these groups in attaining this information is
necessary because an importer of a product from a
foreign manufacturer is ordinarily unable to obtain
specific information from his supplier regarding the

386a
process used in manufacturing the imported product.
The groups representing patentholders agreed to a
procedure under which manufacturers would provide
a listing of the patent numbers of process patents
owned by or licensed to the manufacturer as of the
time of the request that the manufacturer then
reasonably believes could be asserted to be infringed
in connection with the production of its product.
The request for disclosure procedure is
explained is paragraph (4). The first step—the actual
request for information is a formal request made by a
party who is engaged in, or intends to become engaged
in, the sale of a particular product. The request is
directed to one or more other parties who are then
engaged in the manufacture of the product, no the
expectation they are most likely to hold pertinent
process patents. Such a request should be made
before the requester actually commences any activity
which could result in infringement, and it should be
made in all cases except those in which, because of the
nature of the product, the number of parties to whom
a request would need to be directed, or like
circumstances. a request for disclosure would be
impracticable or unnecessary. For example, due to the
nature of the product or the number of sources for
products, it may not be practicable for retailers to use
this procedure to avoid infringement.
An illustration of the situation in which a
request would be impracticable would be one in which
a party intends to import a table that is simple and
undistinguished, and the party knows that similar
tables are made by many other companies. Since
requests would have to be directed to a large number
of companies and there is nothing unusual about the

387a
table to be imported, a request for disclosure is very
unlikely to produce meaningful information. It is
impracticable. However, if the subject table had a
distinctive construction, and a similar one was being
manufactured by only a few companies, the importer
would be expected to request disclosure.
A request for disclosure is unnecessary when
the party who would otherwise make it already has
the information sought, for example, when a prior
request was previously made to the same source and
it is clear no additional patents have arisen since the
earlier request. Of course, a court should be reluctant
to conclude that a request was “unnecessary” when,
in fact, the product is found to be made by an
infringing process, and a request for disclosure might
have avoided the infringement.
The second step in the procedure is the
patentees’s response to the request. The patentee is
expected to provide a complete good faith response,
identifying all process patents owned by or licensed to
him that he reasonably believes could be used to make
his own product. It is understood that the patentee’s
response will depend largely on the information
available to him at the time the request is made. For
example, it is also possible that the manufacturer
may acquire additional relevant patents subsequent
to the request for disclosure. The manufacturer is not
precluded from making, indeed is encouraged to
make, supplemental responses if the acquisition of
additional information warrants it.
The request for disclosure must include a
representation by the requesting party that it will
submit the response to its manufacturer, or if not
known, to its supplier, with the request for assurance

388a
that none of the processes of the disclosed patents is
used in the manufacturer of the product.
The requirement of “notice of infringement”
embodied in various paragraphs of subsection (b), is
intended to balance the interests of process patentees
and parties who are infringing by using or selling the
product, in good faith, without knowledge of the
process used to produce it. The Committee does not
intend that “notice” be a device through which
infringers can escape liability by deliberately
avoiding knowledge or failing to appreciate the
significance of information available to them. What
should be kept in mind is that no liability attaches in
any event unless infringement of the patentee’s rights
has occurred: “notice” simply defines the point in time
when someone who is, in fact, an infringer has
sufficient information to make it reasonable to
initiate the period of his accountability.
As stated in subparagraph (5)(A), the
accumulation through actual knowledge, or receipt by
a party of a written notification, or a combination
thereof, of information will put the infringer on notice
when, in the aggregate, it is sufficient to persuade a
reasonable person that it is likely a patented process
was or is being used. It is important to note that the
issue to be resolved with respect to “notice of
infringement” is not whether there are sufficient facts
recited in the notification or known to the party
notified to support the conclusion that there is
infringement but rather only whether infringement is
“likely.” This is significantly less demanding than the
“preponderance of evidence” standard a patentholder
would face in proving infringement at trial. What is
required is simply enough to bring home to the

389a
infringer the presence of an appreciable likelihood of
infringement, sufficient to make it reasonable to hold
him accountable when he chooses to continue his
activities.
Subparagraph (5)(B) relates to written
notification addressed to the accused infringer by the
patentholder. The written notification shall specify
the patented process that is alleged to have been used
and the reasons supporting a good faith belief
that such process was used. If the patentholder has
actual knowledge of other commercial processes for
producing the particular product, the notification
should set forth such information with respect to such
processes only as is reasonably necessary to fairly
explain the patent holder’s belief and is not required
to disclose any trade secret information.
Subparagraph (C) provides that a party who
receives a written notification of infringement shall
be deemed to have notice of infringement if he fails to
seek responsive information from the manufacturer
(or, if not known, the supplier) of the product he is
using or selling, unless there are mitigating
circumstances. The notification need only meet the
first sentence of subparagraph (B) to trigger that
requirement and that result; obviously it is
unnecessary to provide the manufacturer with
information tending to negate the use of other
processes, since the manufacturer knows directly
what process he is using. Similarly, this provision
applies even though the notification does not contain
enough information to constitute “notice of
infringement.”
A non-manufacturing party receiving a
notification alleging infringement has an obligation to

390a
take reasonable steps to determine it there is any
basis for the allegation and cannot evade liability by
remaining ignorant of facts which might establish a
likelihood of infringement. Any knowledge which a
purchaser may acquire as a result of such inquiries
will contribute to satisfying “notice of infringement”,
which can be satisfied by a combination of the
information contained in a notification from the
patent holder and any other information known to the
party charged with infringement.
Since making an effective inquiry is not costly,
and it has the potential of stopping, curtailing or
avoiding infringement of the patent holder’s rights,
only the most compelling reasons should be accepted
as excusing a failure by the recipient of a notification
to submit it to his manufacturer/supplier for
verification. An example of such “mitigating
circumstances” would be death or incapacity of the
person who was intended to make the submission or
an inability to locate the manufacturer/supplier due
to his no longer being in business or in circumstances
where the product has passed through many hands.
For similar reasons, subparagraph (D) provides
that a party who receives a response to a request for
disclosure and who fails promptly to submit it to the
manufacturer/supplier with a request for a written
statement that none of the patented processes is
used, is deemed to have notice of infringement.
Submission of the response to a request for disclosure
to the requester’s manufacturer/supplier is mandated
because that manufacturer knows the process being
used and therefore is in the best position to avoid
infringement or provide evidence that the patented
process is not being used, if that is the case.

391a
The mere act of submitting the patentee’s
response or notification to the manufacturer does
not, however, automatically absolve a party from
having notice of infringement. The Committee has not
attempted to, and could not, spell out in detail all
circumstances in which the infringer should be
found to have notice. Nevertheless, the Committee
expects the court to consider, in determining the
presence or absence of notice, the information
received (or lack thereof) by the importer from his
manufacturer/supplier. For example, a party who
sends to his manufacturer/supplier a notification of
infringement or a response to a request for disclosure,
and
who
does
not
receive
from
that
manufacturer/supplier an adequate assurance that
the patented process is not being used, and sufficient
supporting information to make an assurance
credible should almost certainly be found to have
notice of infringement should he choose to continue to
deal in the goods of that supplier/ manufacturer.
Subparagraph (E) provides that filing of an
action for infringement shall constitute notice of
infringement only if the pleadings or other papers
filed in the action meet the requirements of
subparagraph (A), i.e. contain sufficient information
to persuade a reasonable person that it is likely the
product was made by a patented process. The
Committee recognizes, however, that it may not
always be clearcut when sufficient information exists
to constitute “notice of infringement”, and that
patentholders may properly and lawfully bring suit
irrespective of whether that technical requirement is
met. Neither “notice of infringement” nor
“notification” is a prerequisite for a legally sufficient
complaint for patent infringement.

392a
Even if “notice of infringement” is not satisfied
by the initial papers filed in the action, this
subparagraph recognizes that it may be satisfied at a
later time by other papers filed in the action,
including discovery obtained from the accused
infringer or third parties, additional information
provided by the patentholder, expert witness
statements or the like. As discussed earlier, remedies
for infringement will not begin to accrue until the
standard for notice of infringement is met, even if a
legal action has already begun.
SECTION 104
Section 104 adds a new Section 295 to title 35,
to establish in carefully defined circumstances, a
rebuttable presumption that a product that could
have been made by use of a patented process was in
fact so made. This presumption addresses the great
difficulties a patentee may have in proving that the
patented process was used in the manufacture of the
product in question where the manufacturer is not
subject to the service of process in the United States.
The burden of overcoming this presumption will be on
the alleged infringer, regardless of whether the
infringement charge is based on use, importation, or
subsequent sale of the infringing article. While the
defendant may not necessarily have in its possession
the means necessary to rebut the presumption, it is
likely to be in a far better position than the patentee
to obtain them. Importers, for example, because of
their relationships with foreign manufacturers, may
be able to exert pressure on such manufacturers to
produce the necessary information. Users and sellers
who purchase possibly infringing articles from
importers may be able to exert similar pressure on

393a
those importers, who would in turn influence foreign
manufacturers. Of course, purchasers would retain
whatever rights to indemnification they may have
under contract or applicable State law.
Presumptions of manufacture by a patented
process, however, should not be casually established.
Importers and subsequent purchasers may be unable
to obtain the information needed to overcome such
presumptions when the products in question were not
made by patented processes. At a minimum, the
existence of the presumption will require a party who
uses, sell, or imports a product that might have been
made by a patented process to exercise greater care in
business dealings to avoid increased liability. To
minimize the risk of aggressive litigation intended to
discourage firms from carrying competing products,
the presumption will be available under Section 295
only when two conditions are satisfied.
First, the patentee must demonstrate on the
basis of the evidence that is available that a
‘substantial likelihood’ exists that the product was
made by the patented process. Such evidence could
include chemical analysis of the product or
indications or “marks” on the product itself, as well as
expert testimony regarding known methods of
production at costs that would justify sale of the
product at the prices being charged. Exactly how
much evidence will be needed in particular situations
to satisfy the “substantial likelihood” condition will
depend on the circumstances, However, the
patentee’s burden would be less than that of proving
successfully at trial by a fair preponderance of the
evidence that a product in question was in fact made
by the patented process but would be more than a

394a
slight possibility that the product was so made.
Second, the patentee must show that he or she has
made a reasonable effort to determine what process
was used in the manufacture of the product in
question and was unable to do so. The reasonableness
of the effort would include the use of discovery
procedures under the Federal Rules of Civil
Procedure or other good-faith methods, such as
requesting the information from the manufacturer, if
not subject to U.S. jurisdiction. These limitations on
the availability of the presumption should make it
available to patent owners who might otherwise be
left with no remedy against an infringer, and should
also adequately safeguard the rights of competitors.
The Committee notes that the rebuttable
presumption would be inapplicable if the defendant
has used the process in the United States, or has
derived the products directly or indirectly from a
manufacturer who used the process in the United
States. In these circumstances, the discovery
provisions of the Federal Rules of Civil Procedure and
the equitable powers of Federal courts should be
sufficient to allow the plaintiff to ascertain what
process was employed. In this regard, the Committee
trusts the courts to issue protective orders, in
appropriate circumstances to prevent disclosure of
the trade secrets and confidential business data of the
parties. For example, the Committee expects
protective orders to be used in encouraging foreign
manufacturers to supply information pertinent to a
process patent infringement suit revolving around
goods made by such manufacturers. If information is
obtained under a protective order that definitely
determines the process used to make the goods in
question, the presumption, would not be applicable.

395a
Once the plaintiff has been found to be entitled
to the presumption, the burden of producing evidence
to establish that the product was not made by the
process shifts to the defendant. Courts will continue
to determine which party has the ultimate burden of
persuasion and what amount of proof is necessary.
SECTION 105
Section 105(a) contains a grandfather clause
exempting commercial arrangements that have been
or were about to be entered into prior to May 15, 1987.
The special importance of this provision for the
generic pharmaceutical industry was mentioned in
the Statement. Since the Drug Price Competition and
Patent Term Restoration Act of 1984, over 100
abbreviated new drug applications (ANDA’s) for
generic medicines have been approved by the FDA
The Committee firmly believes it would be
inequitable if process patent legislation were to
interfere with the marketing of these newly approved
generic drugs, or with other ANDA’s that were
pending but not yet approved on May 15, 1987, if
substantial commercial investments had been made
in them prior to that date.
That is, if a generic pharmaceutical company
has made substantial commercial investment in
preparing and filing an ANDA and is awaiting FDA
approval as of May 15, 1987, or if the company had
been granted an approval before that date and starts
to market a generic medicine in the United States, the
pharmaceutical products that the company imports,
uses and sells in connection with the ANDA are
protected under the grandfather clause. The generic
company may expand or contract its business with
these products, shift to different suppliers as

396a
necessary and continue to come under the protection
of the grandfather clause.
Apart from this particularly sensitive area, the
Committee envisions that the courts will interpret the
scope of the grandfather clause in the individual cases
brought before them with a view to the qualifying
language “to the extent equitable” in the provision.
Ordinarily, a party whose business before the
grandfather date involved infringing activity should
be able to continue to import, use or sell the product
as necessary to maintain the same level of business,
but not to expand such business by increasing the
volume of products that he is using or selling, unless
of course he has prospectively committed himself to
such increases in a contract made prior to the
grandfather date.
An important variation of this restriction could
be illustrated as follows. If an importer contracts prior
to May 15, 1987 to receive a certain volume of goods
every month for the next 5 years, and a certain
retailer contracts to purchase the goods from him
during that period, both of these arrangements fall
within the grandfather clause exempting them from
the scope of the bill. If the retailer only contracts to
purchase the goods for 3 years and the importer turns
to another retailer afterwards, again the bill should
not apply to the second retailer during the remaining
2 years of the importers contract, even though no
contract with the second retailer existed prior to May
15, 1987, because the goods in question were
contracted for by the importer before that date.
However, if in this situation, the importer expands
the volume of the goods he is importing, then the
grandfather clause does not exempt him with respect

397a
to units beyond what he contracted for before the
grandfather date.
In addition, the Committee does not intend
that it shall be an act of infringement to import a
product which is made by a process patented in the
United States “solely for uses reasonably related to
the development and submission of information
under a Federal law which regulates the
manufacture, use or sale of a drug. See Sec. 271(e)(1)
of title 35, United States Code. Congress previously
decided that certain actions do not constitute patent
infringements and this Act does not change that prior
policy decision.
The Committee intends to provide the courts
with flexibility to achieve an equitable solution in
situations where the infringer has made a substantial
investment necessary to sell or use the infringing
product before this date. In that case, the investment
was made during a time when use or sale of the
product was not unlawful. The grandfather clause is
modeled after 35 U.S.C. 252, and Section 107(d) of
P.L. 98-662 (98 Stat. 3384) which Congress has
provided for fundamentally the same purpose.
The Committee intends three other restrictions
on the scope of the grandfather clause. The phrase
“successors in business” does not include parties to
whom the grandfathered infringer may license the
goods; the phrase is meant only to allow the infringer
who sells his business to pass on also its
grandfathered status to the buyer of the business.
Secondly, the grandfather clause does not
apply to any business whose product had already been
the subject of International Trade Commission

398a
litigation before January 1, 1987. The Committee has
included the grandfather exception for those parties
who reasonably relied upon the law as it was when
they made their investments so that they should not
be penalized for such good faith reliances and should
be allowed, to the extent equitable, to recoup those
investments made in the United States. However,
when the product has already been the subject of ITC
litigation, there are no good faith reliances since the
patent owner has already indicated his clear intention
to enforce his process patent in any and all
appropriate forums, and investments therefore occur
at the alleged infringer’s own risk. It is not the
Committee’s intention to deny patentholders the right
to pursue process patent infringement actions in U.S.
courts against alleged infringers who made
commercial investments during the prosecution of the
ITC suit.
Thirdly, the grandfather clause applies to
products being purchased, imported, used or sold as
part of an ongoing business operation before the
grandfather date only with respect to the process of
manufacture used at that time to make such products.
If the manufacturer of the products later shifts to a
different process, such as a process developed and
patented in the United States well after the
grandfather date which the manufacturer in question
has not been authorized to use, then units of the
product made by this latter process are not protected
by the grandfather clause, even if the U.S. wholesaler,
importer or distributor had contracted with the
manufacturer before the grandfather date for
continued supply of the product. In order to keep
products under the umbrella of the grandfather
clause while fulfilling such a contract, the

399a
manufacturer would have to make them by the
process contemplated at the time of contracting (or
May 15, 1987). This example, incidentally makes
plain that importers, wholesalers and distributors
who come under the grandfather clause with respect
to some product still would have a strong incentive to
make a request for disclosure to all manufacturers in
the United States who are marketing that same
product in order to insure their eligibility for the
remedy limitations in the event that their supplying
manufacturer shifts to a different process at some
point in the future and so disengages the protection of
the grandfather clause.
Section 105(b) makes clear that the bill does
not affect any remedies patent owners have under
existing law. The new remedies for process patent
owners provided by the bill are subject to general
limitations which do not apply in suits under existing
law by process patent owners against parties
manufacturing in the United States. For example, the
bill requires notice of infringement to persuade a
reasonable person that it is likely that the product
was made by a patented process. The bill limits
remedies available with respect to products already in
the possession of or in transit to the infringer, or
which the infringer already has made a binding
commitment to purchase. The bill encourages parties
to request disclosure of the identity of certain process
patents. The bill provides that a product which is
made by a patented process will not be considered so
made after it is materially changed by subsequent
processes; or it becomes a trivial and nonessential
component of another product, there is no intention to
impose any of these limitations on owners of product
patents or on owners of process patents in suits they

400a
are able to bring under existing law. Neither is there
any intention for these provision to limit in any way
the ability of process patent owners to obtain relief
from the U.S. International Trade Commission.
SECTION 106
Section 106 instructs the Department of
Commerce to report annually to Congress on the
effect of the bill on any U.S. industries that submit
formal complaints that they have lost legitimate
sources of supply. Such reports will assist Congress in
the unexpected event that the bill has a drastic
adverse effect on some domestic industry, requiring
emergency remedial measures.
IV. TITLE II—PATENT MISUSE
DOCTRINE REFORM
A. PURPOSE OF AMENDMENT
As amended, title II of S. 1200 provides that a
patent owner’s licensing practices cannot be found to
constitute patent misuse unless such practices violate
antitrust laws.
B. HISTORY OF LEGISLATION
Legislation was first introduced in the 98th
Congress (S. 1841, title IV) to reform the patent
misuse doctrine as part of the administration’s
National Productivity and Innovation Act. Hearings
on the bill reflected extensive support of and no
opposition to title IV: the chairman of the ABA Patent
Law Section, the president of Intellectual Property
Owners, Inc. and the president of the American
Intellectual Property Law Association supported
enactment of title IV. Patent Law Improvements Act,
1984, Hearings on S. 1535 and S. 1834, before the

401a
Senate Committee on the Judiciary, 98th Congress,
2d Sess. 44, 52, 91, 105 (1984). However, concern over
the specific language of the proposal was expressed
and, ultimately, the Congress went on to approve and
enact only title I of the bill as the National
Cooperative Research Act of 1984 (the so-called “Joint
R&D Venture Bill”), Public Law 98-462.
In the 100th Congress legislation was again
introduced to reform the law of patent misuse. S. 635,
Section 115, 100th Congress, 1st Sess. General patent
law oversight hearings were held by the
Subcommittee
on
Patents,
Copyrights
and
Trademarks, and testimony received during those
hearings again supported enactment of patent misuse
reform legislation.
In a statement submitted for the record by
Ronald T. Reiling on behalf of Digital Equipment,
Reiling highlights the need for misuse legislation in
the current technological age:
These misuse doctrines are inappropriate to
this era when intellectual property rights are
essential components of technological and economic
growth and international competitiveness. The
current misuse doctrines hinder development and
distribution of technological advances by requiring
only that a court fine “some” anticompetitive effect.
Reiling’s observations are echoed in a statement
submitted to the Subcommittee on Patents,
Copyrights and Trademarks by Robert Kline,
President of the American Intellectual Property Law
Association. In a letter dated June 4, 1987, Kline
outlines the AIPLA concerns with the current
doctrine:

402a
The “misuse” doctrine is a counterproductive
legal fiction. It negatively affects virtually every
license agreement involving technology developed
or used in the United States. The doctrine reduces
the incentive to innovate. This doctrine does not
increase or stimulate competition.
Kline continues by detailing improvements in S. 1200:
S. 1200 is a clear and straight forward
solution to the “patent misuse” problem. It would
merely require and ensure that economic analysis
has been conducted before a court would be able,
properly, to refuse to enforce a valid patent on
anti- competitive grounds.
During Subcommittee consideration of S. 635,
a proposal was made to change the language listing
specific conduct by patent owners to which the law
would apply to a more generic and easily applied
approach that had been recommended in earlier
testimony by the AIPLA witness. Chairman
DeConcini adopted this amended language in an
original bill circulated to the Subcommittee, and, on
May 13, 1987, the Subcommittee unanimously
approved that bill, containing the present title II on
reform of the misuse doctrine. This original bill was
then introduced by Chairman DeConcini on May 14,
1987 as S. 1200. See Cong. Rec. S6480-86 (May 14,
1987 daily ed.)
The Committee on the Judiciary met and
considered the bill on June 4, 1987, and voted
favorably to report the legislation. The Committee
intends by adoption of this bill to clarify the law of
patent misuse and to put intellectual property rights
on an equal footing with other property with respect

403a
to license, sale, and other agreements concerning the
distribution of property rights.
C. DISCUSSION
The doctrine of patent misuse is a judicially
created doctrine. It constitutes a defense to a patent
infringement suit and provides that a patent owner
may not enforce its patents if it has engaged in
conduct deemed “misuse,” at least until the patentee’s
conduct constituting misuse has ceased and its
effects purged. Misuse thus renders the patent
unenforceable, not void.
One branch of the misuse doctrine involves
conduct alleged to constitute fraud on or inequitable
conduct before the Patent Office. This part of the
doctrine remains unaffected by title II.
The second branch of the misuse doctrine, to
which this legislation is addressed, has its root in
judicial interpretations that find misuse present
because of alleged anticompetitive extensions of the
owner’s patent rights. For example, while misuse may
be found where the antitrust laws have been violated,
it may also be found where the patent owner’s conduct
has not violated the antitrust laws, has not
demonstrated anticompetitive effect, and has not
even injured the infringing party who raises misuse
as a defense.
In recent years the need for reform of the law
of patent misuse has gained increasing recognition.
Commentators have repeatedly criticized the
doctrine, and reform was initially proposed in title IV
of S. 1841, the National Productivity and Innovation
Act, introduced by Senator Thurmond in the 98th
Congress. Hearings on this earlier proposal revealed

404a
extensive support for reform of the patent misuse
doctrine.
In 1984 hearings before the Subcommittee on
Patents, Copyrights and Trademarks, Bernarr R.
Pravel of the American Intellectual Property Law
Association (AIPLA) testified that reform of the law of
patent misuse would encourage and promote the
efficient use of newly created technology. Mr. Pravel
stated:
Very often, the creators and owners of
advances in technology in the form of intellectual
property are not able to fully develop its
commercial applications. In these cases, the most
effective, and often the only, method of bringing
this technology to the market place is for its owner
to license it to another with the ability to do so.
However, despite the practical benefits of licensing
to the industrial innovation process, courts have
sometimes found intellectual property licensing
practices to be unlawful without fully considering
the effect of the practices on competition.
Recent statements by the U.S. Department of
Justice and American Bar Association Section of
Antitrust Law also emphasize the need for reform. In
a letter to the Subcommittee on Patents, Copyrights
and Trademarks dated June 4, 1987, John R. Bolton,
Assistant Attorney General of the U.S. Department of
Justice, stated that:
The Department believes that legislation in
the misuse area is both important and timely, and
thus strongly support this legislation. Because the
sanction of misuse is harsh ... patent owners can
be expected to avoid entering into patent licensing

405a
arrangements that they fear may be deemed to
constitute patent misuse. In order to reassure
creators of new technology that the courts will not
interfere with procompetitive patent licensing, the
misuse doctrine must not be applied in a manner
that condemns competitively desirable licensing.
Robert P. Taylor of the American Bar
Association Section of Antitrust Law stated in a letter
to the Subcommittee of May 11, 1987, that:
This change is needed to promote and
encourage the licensing of new technology. In
many situations, the misuse doctrine in its present
form forces the owner of new technology to choose
between either not licensing at all or licensing
under circumstances which place at risk the
enforceability of his property and contractual
rights to that technology ... It also means that
creative and innovative licensing schemes are
rarely if ever used, because any license provision
that is even slightly questionable is likely to place
the entire patent at risk whenever an enforcement
proceeding is brought.
Some courts have themselves questioned the
soundness of the patent misuse doctrine. The Justice
Department has urged its reform: Deputy Assistant
Attorney General Roger Andewelt articulated a firm
foundation for concluding that the misuse doctrine
has been applied in a manner inconsistent with sound
economic principles in his speech before the Bar
Association for the District of Columbia on November
3, 1982. And recent law review commentary has
condemned certain applications of the misuse
doctrine as inherently anticompetitive. 46 U. Pitts. L.
Rev. 209 (1984).

406a
The lack of clarity and predictability in
application of the patent misuse law doctrine and that
doctrine’s potential for impeding pro-competitive
arrangements, are major causes for concern. Title II
addresses this concern by providing that conduct
shall only be found to be misuse when that conduct
violates the antitrust law. As Donald W. Banner of the
organization Intellectual Property Owners, Inc.
observed in his 1984 testimony before the
Subcommittee, the proposed reform would “add
predictability to the law governing licensing
practices” and “eliminate a hodgepodge of arbitrary
rules developed by courts during the era when courts
were hostile to licensing.” Mr. Banner continued: “By
providing more certainty to the permissible scope of
licensing practices, the bill would increase the value
of patents to patent owners. This would strengthen
the incentives that patents provide to engage in
research and development.”
ORIGIN AND DEVELOPMENT OF THE
PATENT MISUSE DOCTRINE
Patent misuse is a judicially created doctrine
that allows a patent owner’s overextension of his or
her patent rights to be asserted as a defense in an
action by the patent owner to enforce the patent. If
the patent owner is held to have overextended, or
“misused” patent rights, equity may bar the owner
from enforcing the patent as long as the misuse
continues. Morton Salt Co. v. G.S. Suppiger Co., 314
U.S. 488 (1942).
The doctrine of patent misuse originally
emerged as a judicial response to the patent owner’s
practice of conditioning the sale or license of patented
inventions upon the purchase or license of additional

407a
products. This practice was at first approved by
courts, including the United States Supreme Court.
In Henry v. A.B. Dick Co., 224 U.S. 1 (1912) the Court
upheld a patent owner’s practice of requiring, as a
condition to sale of a patented invention (mimeograph
machine), that the invention be used only with certain
supplies (ink) provided by the patent owner.
By 1917, however, the Court’s attitude had
changed. Citing the enactment of Section 3 of the
Clayton Act as evidence that such conditional sales
were against public policy, the Court held that the
conditions to sale were unenforceable regardless of
whether they violated the Clayton Act. In Motion
Picture Patents Co. v. Universal Film Manufacturing
Co., 243 U.S. 502 (1917), the owner of a patent for a
film feeder used in the projection of motion pictures
sought to license the feeder on the condition that the
licensee show only films leased from persons
approved by the patent owner. The patented film
feeder was dramatically superior to other film feeders
on the market, giving the patent owner significant
market power. The Court refused to enforce the
patent, finding that imposing the condition would
extend the patent owner’s power beyond the scope of
its patent rights. Id. at 518.
Cases following Motion Picture Patents
continued to expand the doctrine of patent misuse. In
the Morton Salt Co. case, where the term “patent
misuse” appears for the first time, the Supreme Court
held that the misuse defense was available even to a
person who knowingly infringed a valid patent and
was not affected by the conduct held to be misuse. The
patent owner in Morton Salt had licensed its patented
sale machine upon the condition that the licensee use

408a
the machine with salt tablets purchased from the
patent owner. According to the Court, this use of the
patent exceeded the limited grant of the Patent Act,
the patent owner had misused the patent, and the
owner therefore was not entitled to the protection of
the Act. 314 U.S. at 491. The Court found it
unnecessary to determine whether the patent owner’s
action had violated the antitrust law. 314 U.S. at 494.
In Morton Salt, as in Motion Picture Patents,
the Court ignored the antitrust issues presented and
based its decision on public policy grounds. From this
origin courts have developed the principle that a
claim of patent misuse need not be supported by a
showing of violation of the antitrust laws. See, e.g.,
Zenith Radio Corp. v. Hazeltine Research, Inc., 395
U.S. 100, 140-41 (1960); Duplan Corp. v. Deering
Milliken, Inc., 444 F. Supp. 648 (D.S.C. 1977), aff’d in
relevant part, 594 F.2d 979 (4th Cir. 1979). In most
courts, the Morton Salt principles, interpreted as they
were in Zenith Radio and Duplan, remain the
established law of patent misuse. See Section of
Antitrust Law of the American Bar Association,
Antitrust Law Developments (2d) 488-89 (1984), and
cases cited therein.
Recently, however, the Seventh Circuit
challenged the reasoning of Motion Picture Patents,
Morton Salt, and the line of cases following these
decisions. In USM Corporation v. SPS Technologies,
Inc., 694 F.2d 505 (7th Cir. 1982), cert. denied, 462
U.S. 1107 (1983), the court of appeals, in dicta,
questioned whether the reasoning of Motion Picture
Patents accurately characterized the economic effect
of practices held to constitute patent misuse. At issue
in USM Corporation was whether the inclusion of a

409a
different royalty schedule in a license agreement
constitutes patent misuse. Citing the facts of several
prior findings of patent misuse, including Brulotte v.
Thys Co., 379 U.S. 29 (1964) (patent license extending
licensee fees beyong license period), Zenith Radio
Corp. v. Hazeltine Research, Inc., 395 U.S. 100, 13340 (1969) (patent royalties measured by the sale of
unpatented products containing the patented item),
and Stewart v. Mo-Trim, Inc., 192, U.S.P.Q. 410 (S.D.
Ohio 1975) (licensees required not to make items
competing with the patented item), Judge Posner
noted that:
As an original matter one might question
whether any of these practices really “extends” the
patentee. The patentee who insists on limiting the
freedom of his purchaser or licensee ... will have to
compensate the purchaser for the restriction by
charging a lower price for the use of the patent
True, a tie-in can be a method of price
discrimination. It enables the patent owner to vary
the amount he charges for the use of the patent by
the intensity of each user’s demand for the patent
....
But since ... there is no principle that patent
owners may not engage in price discrimination, it
is unclear who one form of discrimination, the tiein, alone is forbidden.
Id. at 510-11.
In addition, the USM Corporation court
questioned the appropriateness of the law showing of
anticompetitive effect required to establish patent
misuse. The court suggested that patent misuse
claims could be tested under standard antitrust

410a
principles, stating that, “Our law is not rich in
alternative concepts of monopolistic abuse and it is
rather late in the day to try to develop one without in
the process subjecting the rights of patent holders to
debilitating uncertainty. Id. at 512.
D. SECTION-BY-SECTION ANALYSIS
Subsections (1) and (2) provide for conforming
changes to Section 271 of title 35, United States Code.
Subsection (3) provides for the addition of language to
Section 271 addressing patent misuse. This language
provides that no patent owner shall be denied relief
or deemed guilty of misuse or illegal extension of the
patent right by reason of his or her licensing practices,
actions or inactions relating to his or her patent,
unless such conduct violates the antitrust laws.
The term “patentowner” is intended to include
all persons with the rights commonly held by a
patentowner, including a licensee of a patent who is
engaged in the sublicensing of the patent.
Title II includes contributory infringement as
well as infringement, to make clear that a party
charged with contributory infringement under 35
U.S.C. § 271(c) must also show conduct violating the
antitrust laws to support the affirmative defense of
patent misuse.
The reference to “illegal extension of the patent
right” as well as “misuse” recognizes the differing
formulations of activity deemed to be “misuse” and
that misuse is often characterized as illegal extension
of the patent right. Such reference to “illegal
extension” is not meant, by itself, to alter or expand
in any way the existing law of patent misuse.

411a
The terms “licensing practices,” “actions,” and
“inactions” are intended to include omissions as well
as affirmative acts. The refusal to license or failure to
take action is intended to be included within the
meaning of “licensing practices or actions or
inactions.”
The broad reference to the patentowner’s
“actions or inactions relating to his or her patent”—in
addition to “licensing practices”—indicates that the
provisions of the subsection are not limited in
application to licensing practices, but extend to all
actions taken by the patentowner with respect to his
patent, including the sale of patented products as well
as the license of patent rights. The phrase “actions or
inactions relating to his or her patent” includes the
patentowner’s sale of a product that embodies the
patent.
E. JUSTICE DEPARTMENT VIEWS
U.S. DEPARTMENT OF JUSTICE,
OFFICE
OF
LEGISLATIVE
GOVERNMENTAL AFFAIRS,

AND

INTER-

Washington, DC, June 4, 1987.
Hon. DENNIS DECONCINI,
Chairman, Subcommittee on Patents, Copyrights and
Trademarks, Committee on the Judiciary, U.S.
Senate, Washington, DC.
DEAR MR. CHAIRMAN: In response to your
request, the Department of Justice has reviewed the
patent misuse title of S. 1200, a bill to amend title 35,
United States Code. This title would clarify and

412a
reform the doctrine of patent misuse. It is similar in
purpose and effect to pending legislation introduced
on behalf of the Administration as part of its overall
trade and competitiveness package (S. 539), and
separately introduced by Senators Thurmond and
Cochran as part of S. 635. The patent misuse title of
S. 1200 would prohibit the courts from depriving
patent holders of their exclusive property rights in
their inventions because of alleged misuse of these
rights unless their conduct violates the antitrust
laws. The Department believes that legislation in the
patent misuse area is both important and timely, and
thus strongly supports this legislation.
Misuse is a judicially created doctrine founded
in the courts’ equitable powers. It frequently is used
to attack patent licensing practices that are alleged to
be undesirable from a public policy standpoint.
Because the sanction for misuse is harsh—for
example, a patent is unenforceable against anyone
until the misuse has ceased and its effects purged
from the marketplace—patent owners can be
expected to avoid entering into patent licensing
arrangements that they fear may be deemed to
constitute patent misuse. In order to reassure
creators of new technology that the courts will not
interfere with procompetitive patent licensing, the
misuse doctrine must not be applied in a manner that
condemns competitively desirable licensing.
Unfortunately, misuse has been applied as
a per se doctrine prohibiting conduct that careful
analysis
demonstrates
is
not
necessarily
anticompetitive and, in fact, often is procompetitive.
Reform of the misuse doctrine is needed: Congress
should make clear that licensing practices may be

413a
condemned as misuse on competitive grounds only if
sound antitrust analysis demonstrates that those
practices are indeed anticompetitive.7
Title II of S. 1200 states simply that “No patent
owner otherwise entitled to relief for infringement or
contributory infringement of a patent shall be denied
relief or deemed guilty of misuse or illegal extension
of the patent right by reason of his or her licensing
practices or actions or inactions relating to his or her
patent, unless such practices or actions, in view of the
circumstances in which such practices or actions are
employed, violate the antitrust laws.”8 The
Administration’s proposal is to the same effect, but
would go into more detail by listing five specific types
of practices related to patent licensing that could not
be the basis for a finding of misuse unless such
conduct, in view of the circumstances, violated the
antitrust laws. It would also require any other
allegation that a patentee had misused its rights by
“otherwise [using] the patent allegedly to suppress
7 While reform of the misuse doctrine to track antitrust
analysis would have substantial benefits, improvements in the
manner in which intellectual property licensing arrangements
are considered under the antitrust laws are also crucial to
encouraging innovation and productivity. Congress has before it
proposals for improvements in this area, including a proposal of
the Administration (see S. 438, H.R. 557, S. 539, S. 635). We hope
that legislation in the misuse area will be accompanied by
passage of such complementary legislation.

We also support the inclusion in S. 1200 of legislation
clarifying licensor and licensee rights in the event of licensee
challenge to patent validity.
8 This new language would constitute 35 U.S.C. § 271(d).
Existing subsections (c) and (d) of that section would be
redesignated as paragraphs (c)(1) and (c)(2) respectively.

414a
competition” to be evaluated under antitrust law
standards.
Title II of S. 1200 would appear to accomplish
the same result as the Administration’s more detailed
proposal. Both would make clear that licensing
conduct may not be condemned as misuse on grounds
related to competition unless analysis under antitrust
standards demonstrates such conduct to be
anticompetitive.9 Accordingly, should Congress
decide to take the more generalized approach
embodied in Title II of S. 1200, the Department would
enthusiastically support the legislation.10
We very much appreciate your interest and
efforts in reporting legislation designed to encourage
the development of new technologies by ensuring that
9 Title II is virtually identical to language suggested to the
Subcommittee in 1984 by the American Intellectual Property
Law Association (AIPLA). AIPLA noted that its suggested
language “would not alter existing law with respect to the
misuse doctrine as it applies to improper practices not related to
competition (e.g., fraud on the Patent and Trademark Office and
the like).” Supplemental Statement of Bernarr R. Pravel,
President, AIPLA. Before the Subcommittee on Patents,
Copyrights and Trademarks, Committee on the Judiciary,
United States Senate, April 23, 1984, on S. 1841 (Titles III and
IV) at 6-7. The Administration’s proposal similarly would not
alter existing law with respect to such practices.

We understand that you intend to conform the language of
proposed new section 271(d) by adding the words “or inactions”
after the word “actions” where they do not already appear. By
requiring an antitrust evaluation of licensing practices or actions
or inactions relating to a patent, the legislation would make
quite clear that neither licensing nor refusals to license could be
condemned as misuse absent a finding of an antitrust violation.
“[Refusal] to license the patent to any person” is one of the
specific types of practices listed in the Administration’s proposal.
See section 115 of S. 635.
10

415a
procompetitive patent licensing is not unreasonably
discouraged by the misuse doctrine. If we can be of
further assistance in this regard, please feel free to
call on us.
The Office of Management and Budget has
advised this Department there is no objection to the
submission of this report from the standpoint of the
Administration’s program.
Sincerely,
JOHN R. BOLTON,
Assistant Attorney General.
V. TITLE III—LICENSEE CHALLENGES
TO PATENT VALIDITY
A. PURPOSE OF AMENDMENT
As amended, title III of S. 1200 provides that a
licensee cannot be estopped from challenging the
validity of a patent to which it is licensed. It further
provides that the parties to a licensing contract may
define their respective rights regarding termination
of a license and payment of royalties if the validity of
the licensed patent is challenged.
B. HISTORY OF LEGISLATION
Legislation
to
address
the
concerns
surrounding challenges to patent validity was
introduced in the 98th Congress in S. 1535, a bill to
amend title 35, United States Code, to increase the
effectiveness of the patent laws and for other
purposes. It would have allowed either the licensee or
the licensor to terminate the license once the licensee
asserts invalidity in a judicial action. However, the

416a
licensee would have had to continue to pay royalties
directly to the licensor unless the license was
terminated. Upon termination by either party,
further unlicensed practice of the patented invention
would subject the former licensee to the infringement
provisions of the patent laws.
During hearings held before the Senate
Judiciary Subcommittee on Patents, Copyrights and
Trademarks (Serial No. J-98-107, 4/3/84) then
Assistant Secretary and Commissioner of Patents and
Trademarks, Gerald Mossinghoff, agreed that a
clarification of the Lear decision was needed:
A fairer balance between the rights of
licensor and those of the licensee is needed without
compromising the public interest. New section
295(b) proposed by section 10 would achieve this
balance with a number of straightforward
principles. Either the licensor or the licensee could
terminate the license once the licensee asserts
invalidity in a judicial action. However, the
licensee would have to continue to pay royalties
directly to the licensor unless the unlicensed
practice of the patented invention would subject
the former licensee to the infringement provisions
of the patent laws.
However, at that time, Commissioner
Mossinghoff also noted the need for some changes in
the legislation:
We believe the statute should not be drafted
in the form of section 10, which would increase
Federal interference in patent licensing. We
believe the correct approach is to do exactly the
opposite. Parties should be properly able to

417a
negotiate contracts containing provisions, for
instance, that a licensor or licensee could
terminate if the licensee challenged the validity of
the license in a judicial proceeding.
Though S. 1535 was approved by the Judiciary
Committee, it was not ultimately enacted into law.
Former Chairman Mossinghoff’s suggestions
were included in Title III of an original bill circulated
by Chairman DeConcini to members of the
Subcommittee
on
Patents,
Copyrights
and
Trademarks. On May 13, 1987 the Subcommittee
unanimously approved this bill containing Title III on
the reform of licensee challenges. This original bill
was then introduced by Chairman DeConcini on May
14, 1987 as S. 1200. See Cong. Rec. S. 6480-06 (May
14, 1987 daily ed.).
The Committee on the Judiciary met and
considered the bill on June 4, 1987, and voted
favorably to report the legislation.
C. STATEMENT
Since the United States Supreme Court
decision in Lear v. Adkins, 395 U.S. 653 (1969) there
has been considerable uncertainty in the area of
patent license validity. In particular, there has been
confusion as to the rights of licensees and licensors in
a patent license agreement where the validity of the
patent is challenged in litigation. Numerous law
review articles have been written in an attempt to
sort out the case law including Unmuzzling the Patent
Licensee: Chaos in the Wake of Lear v. Adkins, 59 J.
Pat Offic. Society 475 (1977).
In the Lear case, an inventor, Adkins, alleged
breach of a patent licensing agreement against the

418a
licensee, Lear. Lear then challenged the validity of
the patent and refused to pay royalties. In this case,
the Supreme Court overturned the licensee estoppel
doctrine and assured a licensee the right to challenge
the validity of the patent. The Court recognized the
public interest in freedom from invalid patents and
that the licensee is the party most able and most
likely to challenge validity.
Prior to Lear, a licensee was precluded from
questioning the validity of any patent under which it
was licensed, i.e. license estoppel. The theory
underlying this doctrine is that a licensee should not
be permitted to enjoy the benefit afforded by the
agreement while simultaneously urging that the
patent is void. However, the result of Lear was that
the licensee was able to attack patent validity under
conditions competitively unfair to the licensor. For
example, a licensee can negotiate the best license
terms available, accept a contract, and then question
patent validity without relinquishing the license.
Under the current case law, the following
hypothetical could occur. The licensee negotiates
successfully with the patent owner for the right to
practice the patented invention. A royalty is agreed
upon. The licensee then brings a declaratory
judgment action against the patentowner to have the
patent declared invalid. The court allows the licensee
to pay the royalties owing into an escrow account
during the pendency of the case. If the patent is
declared invalid, the licensee continues to use the
invention and retain the royalties paid into the escrow
account. If the patent is declared valid, the licensee
continues to use the invention; he has not breached
the license agreement so the patentowner has no

419a
ground to prevent it. The patentowner receives the
royalties from the escrow account but these are
royalties already owing under the license. The
licensee risks nothing and stands to lose nothing,
except attorneys fees, in this situation.
In a statement before the Senate Judiciary
Subcommittee
on
Patents,
Copyrights
and
Trademarks during its February 17, 1987 General
Oversight Hearing on Patent and Trademark Law,
American Intellectual Property Law Association
President, Robert Kline highlighted these problems:
The unfairness of the current state of the
law is especially relevant when the licensor is an
individual inventor and the licensee is a large
corporation. This is often the case and was in Lear.
If a patent owner does not have the resources to
utilize his invention, he must license it to another
who possesses those resources. That licensee is
able to bear the cost of litigation where the licensor
is often hardpressed to do so.
As this explanation illustrates, the patent owner
is in a no win situation. If the licensee has the
exclusive right to use the invention, during the legal
challenge the patent owner is deprived of all royalty
income during this period.
D. SECTION-BY-SECTION ANALYSIS
Section 1 of this title adds a new section with
two subsections to Chapter 29 of title 35, United
States Code. Subsection (2) provides that a licensee
shall not be estopped from asserting the invalidity of
a patent to which it is licensed, and that any provision
in an agreement between the parties that purports to
bar such an assertion shall be unenforceable. Thus, it

420a
codifies the holding of Lear v. Adkins that a licensee
cannot be estopped, by agreement or otherwise, from
contesting the validity of a patent to which it is
licensed.
Subsection (b) provides that a patent license
agreement may contain provisions allowing
termination if the licensee challenges its validity in a
judicial proceeding. It further provides that if the
licensee has a right to terminate, the agreement also
may provide for the licensee’s obligations under the
agreement to continue until the patent is finally
declared invalid or until the license is terminated.
Under the subsection (b) such provisions will be
enforceable as long as they are consistent with federal
patent law or policy.
This issue, namely, the rights of the parties
with respect to termination of a license and payment
of royalties if the licensee challenges the validity of
the licensed patent is one over which courts have
differed in the years since the Lear decision. New
section 295(b) would give the parties broad discretion
to define these rights during the license negotiation
process. It makes clear that the parties may provide
for termination by licensor and-or licensee in the
event of such a challenge, and, if the licensee has a
right to terminate, for the licensee’s obligations to
continue pending adjudication of validity. In this way,
patent licensors can bargain for provisions they feel
necessary to assure the realization of their rights in
an invention, while licensees can bargain for
provisions they feel necessary to protect their
interests if they choose to challenge patent validity.
Subsection (b) also clarifies the issue of
whether it is equitable to allow the parties to agree

421a
that the licensor should receive royalties during
litigation which results in the patent being held
invalid. Some courts have interpreted Lear to require
that royalties owing during the period of litigation
should not go to the licensor after a finding of
invalidity. The Court of Appeals for the Federal
Circuit (CAFC) Cordis Corporation v. Medtronics, Inc.
780 F.2d 991(1985) held, inter alia, that Lear does not
provide authority for courts to establish escrow
accounts to hold royalty payments until after the case
has been decided. The CAFC did not decide the issue
of whether royalties paid after the complaint in a case
in which the patent was held invalid should be
returned to the licensee or retained by the licensor.
The CAFC cited Nebraska Engineering Corp. v.
Shivvers 557 F2d 1257, (8th Cir.1977) as standing for
the proposition that royalties paid after the complaint
may have to be returned to the plaintiff. A more
thorough explanation of the equities surrounding this
issue is found in REC Corporation v. Applied Digital
Systems Inc., RCA Corporation v. Hazeltime Corp.,
Lear Siegler v. RCA Corporation, 217 USPQ 241 (Dist.
Ct. Delaware 1983):
The opinion in the Lear case does not reach
the issue which is presented here: when a licensee
elects to pay royalties while litigating the validity
of the patent, he may, if successful, recover those
royalties. I conclude “no”. When a licensee
continues to pay royalties after filing a declaratory
judgment action, it does so because it believes that
course is in its best interest. As Prof. McCarthy
has pointed out, a licensee “hedges” its bet by
continuing the payment of royalties and thereby
continues to derive benefits from the license
even while attacking the patent. McCarthy,

422a
“Unmuzzling” the Patent Licensee: Chaos in the
Wake of Lear v. Adkins, 59 J. Pat. Off. Socy 475,
528-33 (1977). First, the license assures that the
licensee will be able to continue its use of the
patented invention during the litigation and, if it
loses, thereafter. It has neither of these
assurances if it chooses to cease paying and
terminate the license. Moreover, continued
payment assures the licensee that its use
pendente lite and thereafter, if he is unsuccessful,
will be at the license royalty rate, thereby
providing insurance against the possibility of a
higher court determined “reasonable royalty” or a
higher negotiated rate in a new license. Finally,
continued payment provides insurance against the
possibility of an award of attorney’s fees or treble
damages in the event the challenge of the patent
is unfruitful. Given the fact that the licensee reaps
these benefits from the payment of royalties under
the license while litigating, I believe equity is on
the side of the patentee when recoupment is
sought after a finding of patent invalidity.
Moreover, I perceive no inconsistency between a
result consistent with this equity and the policy
considerations which underlie Lear. Since I find no
special circumstances favoring recovery of
royalties by Lear Siegler, judgement will be
entered for RCA on this claim.
The Committee believes that subsection (b)
settles the issue in an equitable manner by allowing
an agreement between a licensee and licensor to
stipulate that royalty payments shall continue until a
final determination of invalidity is reached or until
the license is terminated.

423a
VI. TITLE IV—PHARMACEUTICAL PATENT
TERM RESTORATION ACT AMENDMENTS
A. PURPOSE OF AMENDMENT
As amended, title IV of S. 1200 extends the
patent on the pharmaceutical product gemfibrozil for
a period of 5 years.
B. STATEMENT
The Committee believes that patent term
extension is extraordinary relief, but that the
circumstances surrounding gemfibrozil are sufficiently
unique to warrant extension. Further, the Committee
believes that this action will set no precedent
justifying the extension of patents on other drug
products.
The
unique
circumstances
involving
gemfibrozil are as follows. First, gemfibrozil was
approved by the Food and Drug Administration
(under the brand name “Lopid”) in 1981 for the
limited claim of treating triglycerides among adult
patients with a risk of pancreatitis, but approval was
contingent upon a Phase IV study involving
effectiveness and long-term safety. At the time,
Warner-Lambert, the patent holder, was engaged in
a primary heart attack prevention study conducted by
the Helsinki Heart Council in Helsinki, Finland.
(Finland has the highest death rate from coronary
disease.) The 1981 approval by the FDA specified that
“satisfactory completion of the ongoing Finnish study”
would meet the Phase IV study requirements.
Without the additional study, gemfibrozil could not
have been marketed for any purpose.
Second, the Finnish study was more extensive
and would take longer than any previous Phase IV

424a
study. It involved basic medical research and
endeavored to establish the basic medical hypothesis
regarding cholesterol that raising the level of high
density lipids helps protect against arteriosclerosis
and heart attacks. Warner-Lambert financed the
double-blind study, which was administered by
officials of the Helsinki Heart Council.
Third, after the Finnish study was begun, the
Drug Price Competition and Patent Term Restoration
Act of 1984 (the “Act”) was introduced and enacted.
That legislation changed the regulatory environment
for human pharmaceuticals. At the time of the 1981
FDA approval, Warner-Lambert reasonably expected
at least five more years of market exclusivity for
Lopid following the expiration of its patent on July 4,
1989. Enactment of the Act affected the period of
market exclusivity for Lopid. Title IV restores the
minimum period of protection that Warner-Lambert
could have reasonably expected in 1981 and does so in
a manner that eliminates any precedential value.
C. SECTION-BY-SECTION ANALYSIS
Section 1 of this title amends Title 35 of the
United States Code.
Subsection (a) of section one adds a new section
155B entitled “Patent Term Restoration,” which
section is divided into two subsections.
Subsection (a) of new section 155B extends for
five years the patent on a composition of matter which
is a “new drug” if five conditions are met.
First, the composition which is covered by the
patent must have been subjected to a regulatory
review by the Federal Food and Drug Administration
(FDA).

425a
Second, such composition must have been
approved by the FDA in a new drug application after
the receipt of a letter from the applicant stating that
the Phase IV clinical study requested by the agency
as a condition of approval of the composition has been
undertaken.
Third, the Phase IV study must have covered
at least five years. This means that the period which
elapsed from the time the first patient entered in the
study (i.e.), the commencement of the study term)
until the last patient completed the study (i.e., the
ending of the study term) was at least 5 years. For
example, in the case of gemfibrozil, the Phase IV
study began when the first patient entered the study
on November 3, 1980, and ended when the last
patient completed the study on March 21, 1987. In
addition, the Phase IV study must have been
commenced prior to the introduction of the Drug Price
Competition and Patent Term Restoration Act of 1984
and ended subsequent to the enactment of that Act.
The Drug Price Competition and Patent Term
Restoration Act of 1984 was introduced as S. 1538 on
June 23, 1983 and ultimately became Public Law 98417 of September 24, 1984.
Fourth, the Phase IV study must be completed
and a supplemental new drug application (NDA) to
expand the permitted indications and usage in the
labeling of the new drug based upon such Phase IV
clinical study must have been submitted to the FDA.
The requirement of an expansion of the indications
and usage of the composition is satisfied by any
change in the permitted “indications and usage”
section of the existing package insert of the drug, as
those terms are defined in 21 Code of Federal

426a
Regulations 201.57(c), reflecting a decrease in the
incidence of morbidity or mortality for hyperlipidemic
patients as shown by the results of the Phase IV
study.
Finally, the supplemental NDA must either
have been approved or, if the FDA has not made a
final determination as to the approvability of the
application, the patent must be within ninety days of
expiration.
If the patent is extended because the FDA has
not made a final determination regarding the
approvability of the supplemental NDA prior to
ninety days before the patent expires, the patent
extension shall immediately terminate if the FDA
subsequently
makes
a
final
determination
disapproving the supplemental NDA.
Subsection (b) of new section 155B requires the
holder of the rights to the patent of a qualifying drug
to inform the Commissioner of Patents of the number
of the patent covering the composition. The
notification must take place within the earlier of:
—30 days after enactment of the section if
approval of supplemental NDA occurs before
enactment of this section;
—30 days after the approval of the
supplemental NDA if such approval does not occur
before enactment of the section; or
—Between the 90th and 60th day prior to
the expiration of the patent if the FDA has not
made a final determination as to the approvability
of the application before the 90th day prior to
expiration.

427a
Upon receipt of such notification from the
patent holder, subsection (b) of new section 155B then
requires the Commissioner of Patents to issue a
certificate of extension for the qualifying composition
of matter patent. The certificate of patent extension
must be recorded in the official file of the patent
extended and is to be considered part of the original
patent. In the case of a patent extension granted on
the basis that the FDA had not made a final
determination as to the approvability of the
application, the subsection requires the holder of the
rights to the patent to notify the Commission of
patents within 2 days if the FDA makes a final
determination to disapprove the supplemental NDA.
This provision would not be invoked by the customary
interim FDA letters saying that the supplemental
NDA is incomplete or unapprovable without further
information or labeling changes, but would be invoked
if the FDA states with finality that the supplemental
NDA is disapproved for lack of proof of effectiveness.
Upon receipt of such notification, the
Commissioner must promptly issue a certificate of
termination of extension, stating that the patent
extension is terminated as of the date of the FDA’s
disapproval of the supplemental NDA as a final
agency action. Such certificate of termination must be
recorded in the official file of the patent extension
terminated.
Subsection (b) of section 1 amends the title to
read as follows:
A bill to amend title 35, United States Code,
with respect to patented processes, patent misuse,
license challenges to patent validity, and patent
term restoration.

428a
VII. REGULATORY IMPACT STATEMENT
In compliance with paragraph 11(b), Rule
XXVI of the Standing Rules of the Senate, the
Committee has concluded that no significant
additional regulatory impact would be incurred in
carrying out the provisions of this legislation; there
would not be additional impact on the personal
privacy of companies or individuals; and there would
be no additional paperwork impact.
VIII. COST OF LEGISLATION
U.S. CONGRESS,
CONGRESSIONAL BUDGET OFFICE,
Washington, DC, June 15, 1987.
Hon. JOSEPH R. BIDEN, Jr.,
Chairman, Committee on the Judiciary,
U.S. Senate, Washington, DC.
DEAR MR. CHAIRMAN: The Congressional
Budget Office has reviewed S. 1200, the Process
Patent Amendments Act of 1987, as ordered reported
by the Senate Committee on the Judiciary, June 5,
1987. Based on information from the Patent and
Trademark Office, CBO estimates that enactment of
this bill would not result in significant additional
costs to the federal government and will not affect the
budgets of state or local governments.
Title I of S. 1200 would extend to patent owners
the right to exclude others from using or selling in the
United States, or importing into the United States, a
product made by a patented process. If this bill is
enacted, the holder of a process patent would be
allowed, with certain restrictions, to seek damages for
patent infringements. After certain court findings,

429a
the product would be presumed to have been made by
a patented process, and the burden of proving
otherwise would fall on the alleged infringer. The bill
would also require the Secretary of Commerce to
submit to the Congress annual reports for five years
on the effectiveness of the amendments included in
Title I.
Title II provides that no patent owner can be
denied relief for infringement because of his or her
licensing practices or actions, unless such practices or
actions violate the antitrust laws. Title III declares
unenforceable any agreement between the parties to
a patent license agreement that would prevent the
licensee from asserting the invalidity of a patent. Title
IV establishes procedures for restoring the term of
patents for certain new drugs by extending their term
for five years.
If you wish further details on this estimate, we
will be pleased to provide them. With best wishes,
Sincerely,
EDWARD M. GRAMLICH, Acting Director.
IX. CHANGES IN EXISTING LAW
In compliance with paragraph 12, Rule XXVI of
the Standing Rules of the Senate, changes in existing
law made by S. 1200, as reported, are shown as
follows (new matter is printed in italic, and existing
law in which no change is proposed is shown in
roman):

430a
TITLE 35, UNITED STATES CODE
*******
PART II—PATENTABILITY OF INVENTIONS
AND GRANT OF PATENTS
*******
CHAPTER 14—ISSUE OF PATENT
Subsection 154. Contents and Terms of Patent
Every patent shall contain a short title of the
invention and a grant to the patentee, his heirs or
assigns, for the term of seventeen years, subject to the
payment of fees as provided for in this title, of the
right to exclude others from making, using, or selling,
the invention throughout the United States, and, if
the invention is a process, of the right to exclude others
from using or selling throughout the United States, or
importing into the United States, products made by
that process, referring to the specification for the
particulars thereof. A copy of the specification and
drawings shall be annexed to the patent and be a part
thereof.
*******
Subsection 155B. Patent Term Restoration
(a) Notwithstanding section 154 of this title, the
term of a patent which encompasses within its scope a
composition of matter which is a new drug shall be
extended for a period of 5 years, and such patent shall
have the effect as if originally issued with such
extended term, if—
(1) such composition has been subjected to a
regulatory review by the Federal Food and Drug

431a
Administration pursuant to the Federal Food,
Drug, and Cosmetic Act,
(2) the Federal
Food and Drug
Administration has approved a new drug
application after receipt of a letter from the
applicant stating that a Phase IV clinical study
that had been requested as a condition for approval
has been undertaken,
(3) the Phase IV clinical study has covered
at least 5 years with the study term commencing
prior to the introduction of the Drug Price
Competition and Patent Term Restoration Act of
1984 and ending subsequent to the enactment of
such Act,
(4) such Phase IV clinical study has been
completed, and a supplemental new drug
application to expand the permitted indications
and usage in the labeling of the new drug based
upon such Phase IV clinical study has been
submitted to the Federal Food and Drug
Administration,
(5) the Federal
Food and Drug
Administration
has
either
approved
the
supplemental new drug application or the original
patent term is within 90 days of expiration, and
(6) the Federal
Food and Drug
Administration
has
not
made
a
final
determination that the supplemental new drug
application is approved or disapproved.
If, however, the term of a patent is extended because
the Federal Food and Drug Administration has not
made a final determination that the supplemental new

432a
drug application is approved or disapproved prior to
90 days before the expiration of the patent, such patent
extension shall immediately terminate if the Federal
Food and Drug Administration makes a final
determination disapproving the supplemental new
drug application.
(b)(1) The patentee, his heirs, successors, or
assigns shall notify the Commissioner of Patents and
Trademarks within 30 days after the date of
enactment of this section, or within 30 days after the
date of the approval of the supplemental new drug
application if such approval does not occur before
enactment of this section, or within 30 days after the
date which is 90 days from the expiration of the
original patent term if the Federal Food and Drug
Administration has not made a final determination
that the supplemental new drug application is
approved or disapproved by such date, of the number
of the patent to be extended.
(2) On receipt of such notice, the Commissioner
shall promptly issue to the owner of record of the
patent a certificate of extension, under seal, stating the
fact and length of the extension and identifying the
composition of matter to which such extension is
applicable. Such certificate shall be recorded in the
official file of the patent extended and such certificate
shall be considered as part of the original patent, and
an appropriate notice shall be published in the Official
Gazette of the Patent and Trademark Office. If,
subsequent to a notification that it is within 90 days of
the expiration of the patent and that the Federal Food
and Drug Administration has not made a final
determination that the supplemental new drug
application is approved or disapproved, a final

433a
determination is made by the Federal Food and Drug
Administration that the supplemental new drug
application is disapproved, the patentee, his heirs,
successors, or assigns shall, within 2 days, notify the
Commissioner of Patents and Trademarks of such
final determination. On receipt of such notice and if
the patent has been extended pursuant to the terms
hereof, the Commissioner shall promptly issue a
certificate of termination of extension, under seal,
stating the fact that the patent is terminated, effective
the date of the final determination that the
supplemental new drug application is disapproved,
and identifying the composition of matter to which
such termination of extension is applicable. Such
certificate shall be recorded in the official file of the
patent terminated and such certificate shall be
considered as a part of the original patent, and an
appropriate notice shall be published in the Official
Gazette of the Patent and Trademark Office.
PART III—PATENTS AND PROTECTION OF
PATENT RIGHTS
*******
CHAPTER 28—INFRINGEMENT OF PATENTS
*******
Subsection 271. Infringement of Patent
(a) * * *
*******
(c)(1) Whoever sells a component of a patented
machine, manufacture, combination or composition,
or a material or apparatus for use in practicing a
patented process, constituting a material part of the

434a
invention, knowing the same to be especially made or
especially adapted for use in an infringement of such
patent, and not a staple article or commodity of
commerce suitable for substantial noninfringing use,
shall be liable as a contributory infringer.
(2) No patent owner otherwise entitled to relief
for infringement or contributory infringement of a
patent shall be denied relief or deemed guilty of
misuse or illegal extension of the patent right by
reason of his having one or more of the following: (1)
derived revenue from acts which if performed by
another without his consent would constitute
contributory infringement of the patent; (2) licensed
or authorized another to perform acts which if
performed without his consent would constitute
contributory infringement of the patent; (3) sought to
enforce his patent rights against infringement or
contributory infringement.
(d) No patent owner otherwise entitled to relief
for infringement or contributory infringement of a
patent shall be denied relief or deemed guilty of misuse
or illegal extension of the patent right by reason of his
or her licensing practices or actions or inactions
relating to his or her patent, unless such practices or
actions or inactions, in view of the circumstances in
which such practices or actions or inactions are
employed, violate the antitrust laws.
(e) * * *
*******
(g) Whoever without authority imports into the
United States or sells or uses within the United States
a product which is made by a process patented in the
United States shall be liable as an infringer if the

435a
importation, sale, or use of the product occurs during
the term of such process patent. In an action for
infringement of a process patent, no remedy may be
granted for infringement on account of the
noncommercial use or retail sale of a product unless
there is no adequate remedy under this title for
infringement on account of the importation or other
use or sale of that product. A product which is made
by a patented process will, for purposes of this title, not
be considered to be so made after—
(1) it is materially changed by subsequent
processes;
(2) it becomes a trivial and nonessential
component of another product.
CHAPTER 29—REMEDIES FOR
INFRINGEMENT OF PATENT,
AND OTHER ACTIONS
*******
Subsection 287. Limitation on Damages and Other
Remedies; Marking and Notice
(a) Patentees, and persons making or selling
any patented article for or under them, may give
notice to the public that the same is patented, either
by fixing thereon the word “patent” or the
abbreviation “pat.”, together with the number of the
patent, or when, from the character of the article, this
can not be done, by fixing to it, or to the package
wherein one or more of them is contained, a label
containing a like notice. In the event of failure so to
mark, no damages shall be recovered by the patentee
in any action for infringement, except on proof that
the infringer was notified of the infringement and

436a
continued to infringe thereafter, in which event
damages may be recovered only for infringement
occurring after such notice. Filing of an action for
infringement shall constitute such notice.
(b)(1) An infringer under section 271(g) shall be
subject to all the provisions of this title relating to
damages and injunctions except to the extent those
remedies are modified by this subsection or section 105
of the Process Patent Amendments Act of 1987. The
modifications of remedies provided in this subsection
shall not be available to any person who—
(A) practices the patented process;
(B) owns or controls, or is owned or
controlled by, the person who practiced the
patented process; or
(C) had knowledge before the infringement
that a patented process was used to make the
product the importation, use, or sale of which
constitutes the infringement.
(2) No remedies for infringement under section
271(g) of this title shall be available with respect to
any product in the possession of, or in transit to the
party, or which the party has made a binding
commitment to purchase and which has been partially
or wholly manufactured, before the party had notice of
infringement as defined in paragraph (5). The party
shall bear the burden of proving any such possession,
transit, binding commitment, or manufacture. If the
court finds that (A) the party maintained or ordered
an abnormally large amount of infringing product, or
(B) the product was acquired or ordered by the party
to take advantage of the limitation on remedies
provided by this paragraph, the court shall limit the

437a
application of this paragraph to that portion of the
product supply which is not subject to such a finding.
(3)(A) In making a determination with respect to
the remedy in an action brought for infringement
under section 271(g), the court shall consider—
(i) the good faith and reasonable
business practices demonstrated by the
defendant,
(ii) the good faith demonstrated by the
plaintiff with respect to the request for
disclosure as provided in paragraph (4), and
(iii) the need to restore the exclusive
rights secured by the patent.
(B) For purposes of subparagraph (A), the
following are evidence of good faith: a request for
disclosure by a party, a response by the party
receiving the request for disclosure within 60 days,
and submission of the response by the party who
received the disclosed information to the
manufacture, or if not known, the supplier with a
request for a written statement that the process
claimed in the disclosed patent is not used. The
failure to perform any such acts is evidence of
absence of good faith unless there are mitigating
circumstances. Mitigating circumstances shall
include the case in which, due to the nature of the
product, the number of sources for products, or like
commercial circumstances, a request for disclosure
is not necessary or practicable to avoid
infringement.
(4) For purposes of paragraph (3), a “request for
disclosure” means a written request made to a party

438a
then engaged in the manufacture of a product to
identify all process patents owned by or licensed to the
party as of the time of the request that the party then
reasonably believes could be asserted to be infringed
under section 271(g) if that product were imported
into, or sold or used in, the United States by an
unauthorized party. A request for disclosure is further
limited to a request—
(A) made by a party regularly engaged in the
United States in the sale of the same type of
products as the party to whom the request is
directed, or a request which includes facts showing
that the requester plans to engage in the sale of
such products in the United States;
(B) made prior to such party’s first
importation, use, or sale of units of the product
produced by an infringing process and prior to
notice of infringement; and
(C) which includes a representation by the
requesting party that it will promptly submit the
patents identified to the manufacturer, or if not
known, the supplier of the product to be purchased
by the requester, and will request from that
manufacturer or supplier a written statement that
none of the processes claimed in those patents is
used in the manufacture of the product.
(5)(A) For the purpose of this subsection, notice
of infringement means actual knowledge, or receipt by
a party of a written notification, or a combination
thereof, of information sufficient to persuade a
reasonable person that it is likely that a product was
made by a patented process.

439a
(B) A written notification from the patent holder
charging a party with infringement shall specify the
patent alleged to have been used and the reasons for a
good faith belief that process was used. If the patent
holder has actual knowledge of any commercially
feasible process other than the patented process which
is capable of producing the allegedly infringing
product, the notification shall set forth such
information with respect to the other processes only as
is reasonably necessary to fairly explain the patent
holder’s belief and is not required to disclose any trade
secret information.
(C) A party who receives a written notification
as described in the first sentence of such subparagraph
(B) and fails to thereafter seek information from the
manufacturer, or if not known, the supplier, as to
whether the allegations in the notification are true
shall, absent mitigating circumstances, be deemed to
have notice of infringement. This provision shall apply
even though the notification does not establish notice
of infringement under subparagraph (A).
(D) A party who fails to make the submission
referred to in subsection (b)(4)(C) shall be deemed to
have notice of infringement.
(E) Filing of an action for infringement shall
constitute notice of infringement only if the pleadings
or other papers filed in the action meet the
requirements of subparagraph (A).
Subsection 295. Presumption: Product Made by
Patented Process
In actions alleging infringement of a process
patent based on the importation, sale, or use of a

440a
product which is made from a process patented in the
United States, if the court finds—
(1) that there is evidence establishing a
substantial likelihood that the product was made
by the patented process, and
(2) that the claimant has made a reasonable
effort to determine the process actually used in the
production of the product and was unable so to
determine, the product shall be presumed to have
been so made, and the burden of establishing that
the product was not made by the process shall be
on the party asserting that it was not so made.
Subsection 296. Licensee Challenges to Patent
Validity
(a) A licensee shall not be estopped from
asserting in a judicial action the invalidity of any
patent for which the licensee has obtained a license.
Any agreement between the parties to a patent license
agreement which purports to bar the licensee from
asserting the invalidity of any licensed patent shall be
unenforceable as to that provision.
(b) Any patent license agreement may provide
for a party or party or parties to the agreement to
terminate the license if the licensee asserts, in a
judicial action, the invalidity of the licensed patent,
and, if the licensee has such a right to terminate, the
agreement may further provide that the licensee’s
obligations under the agreement shall continue until a
final and unappealable determination of invalidity is
reached or until the license is terminated. Such
agreement shall not be unenforceable as to such
provisions on the grounds that such provisions are
contrary to Federal law or policy.

